V

i

No. 20-619
IN THE
SUPREME COURT OF THE UNITED
STATES
A.S. a 9-year old child with Autism Spectrum
Disorder (ASD) entitled to Special Education and
Related services per IDEA represented by his
parents R.S. Pro se and E.S. Pro se
Plaintiffs-Petitioners
-v.Board of Education Shenendehowa Central
School District,
Interim Commissioner Betty Rosa, of The
University of the State of New York
Defendants-Respondents
Petition for Rehearing
On Writ of Certiorari
To the U.S. Court of Appeals for the 2nd
Circuit
PETITION FOR REHEARING
ON SUBSTANTIAL GROUNDS NOT
PREVIOUSLY PRESENTED
Petition for Rehearing for the denial of Petition of
Writ of Certiorari appealing the Decision, Order

RECEIVED
FEB 1 1 2021
9iF,^M°FF<JqH|JERCTL5RSK

ii

and Judgment of The United States Court of
Appeals of the Second Circuit by Judges Pierre N.
Leval, Raymond J. Lohier, Jr. and Michael H.
Park to dismiss for lack of jurisdiction the Appeal
from the Memorandum-Decision and Order and
Judgment of The United States District Court for
the Northern District of New York by Judge
Lawrence E. Khan entered February 20, 2019 and
Motion to Reopen Granted on March 16, 2020 and
postmarked on March 16, 2020 where FRAP
suggests 14-day timeline begins on March 19, 2020
in Action No. 20-1153.
NEW QUESTIONS PRESENTED IN THIS
PETITION FOR REHEARING
1. Is the Supreme Court Aware that an Autism
Gene Therapy clinical trial is likely less than 5
years away as a result of the Advent of
CRISPR/Cas9
based
Gene
Editing
Technologies such as Base Editing and Prime
Editing?
2. Is the Supreme Court Aware that when an
Autism Gene Therapy Clinical Trial
Commences it will have to hold itself to the
same standard that the Lovaas UCLA Early
Autism Program (Lovaas, O. I., 1987, Journal
of Consulting and Clinical Psychology, 55:3-9)
and High Fidelity Replications (Cohen, H.,
Amerine-Dickens, M. & Smith, T., 2006,
Developmental and Behavioral Pediatrics,
27:S145-S155; Howard, J. S., Stanislaw, et al.,
2014, Research in Developmental Disabilities.

iii

35:3326-3344; Sallows, G. 0., & Graupner, T.
D., 2005, AJMR, 110:417-438) held themselves
to because those standards most closely
parallel one’s ability to achieve “further
education, employment and independent
living”. 20 U.S.C. § 1400(d)(1)(A) That is an
achievement of IQ in the normal range,
achievement if Vineland Adaptive Behavior
Scales (VABS) Composite Score in the normal
range that would be expected to be followed by
a normal classroom placement? Thus, Autism
Gene Therapy will need an intensive ABA
framework in place to ensure that the outcomes
of any program can be attributed to that
program and not an IBI or intensive ABA
program completed in parallel?
3. Is the Supreme Court Aware that if a viable
and national effort to use proven approaches to
autism is not in place that this country will
soon (in about 2 decades) be stuck in
permanent or long-term recession—removing
our position as the world’s leading power—as a
result of the increasing incidence of Autism?
QUESTIONS PRESENTED IN ORIGINAL
PETITION FOR WRIT OF CERTIORARI
1. Whether an appellate court may sue sponte
dismiss an appeal which has been filed within
the time limitations stated in the Federal Rules
of Appellate Procedure FRAP Rule 26(c) that
adds 3 days for service by mail to file an appeal
for which the motion has been granted to

iv
reopen the time to file an appeal under rule
4(a)(6) of FRAP?
2. Whether non-attorney pro se parents can
reasonably have been expected to know of
unwritten rules that lawyers take for granted
that FRAP Rule 26(c) does not apply to mailed
motions that are granted to reopen the time to
file an appeal under rule 4(a)(6) of FRAP when
that is impossible to determine when reading
the Federal Rules of Appellate Procedure?
3. Whether the interpretation of FRAP is
intended to be based on the stand-alone
document and whether supplementary rules
are required for its interpretation where such
supplementary rules are referenced within
FRAP to the particular application of FRAP
rule 26(c) on FRAP rule 4(a)(6)?

4. Is Intensive Behavioral Intervention or its
equivalent intensive Applied Behavior
Analysis (ABA) required for a specific period of
time for a child with autism in order for the IEP
to be “reasonably calculated” for the child to
make progress in light of their circumstance?
5. In light of question 4, is there any other way to
raise measures by “technically sound
instruments that may assess the relative
contribution of cognitive and behavioral
factors, in addition to physical or
developmental factors.” (20 U.S.C. § 1414

V

(b)(2)(C); 8 N.Y.C.R.R. § 200.6(6)(ii)(x)) such as
IQ and Vineland Adaptive Behavior Scales
(VABS) such that “further education,
employment and independent living” 20 U.S.C.
§ 1400(d)(1)(A) is a reasonable expectation for
at least half of all school aged children with
autism?
6. Can a court defer to the opinion of a lower
judicial body when there is an alleged bias of
that lower judicial body?
7. Are the rules, regulations and laws of 8
N.Y.C.R.R. §200 et seq. and also The IDEA 20
U.S.C. §§ 1400-1482 especially as it relates to
persons with autism written so that they are
unconstitutionally vague and such that they
cause confusion and variation in opinion in the
courts, absent expensive expert testimony, and
unlawfully empower school personnel, schools,
school districts other Local Education Agencies
(LEAs) to broadly interpret the education law
themselves especially on such pertinent
matters of Least Restrictive Environment
(LRE) determinations and the appropriateness
of a particular educational approach such that
it permits the curtailing of the rights of
students receiving special education and their
parents and consistently results in a denial of
a FAPE, a denial of access to the students LRE
to the maximum extent appropriate and also
results in confusion amongst the appellate
courts on how to interpret the education law
and render a judgment?

vi

8. Given the nature of the common developmental
delays found in nearly all autism spectrum
disorder (ASD) diagnoses, if a student with a
an ASD entitled to an Individualized
Education Plan (IEP) and special education
and related services should the three measures
of 1) expressive language, 2) conversational
ability (measured in the number of peer aged
exchanges that a student can consistently
demonstrate) with typically developing peers if
in their LRE and 3) a reduction in prompt
dependence be guaranteed goals on the
student’s IEP since these measures are
necessary to the purpose of The Individuals
with Disabilities Education Act (The IDEA) (20
U.S.C. §§ 1400-1482) which is “to ensure that
students with disabilities have available to
them a FAPE in the LRE to the maximum
extent appropriate that emphasizes special
education and related services designed to
meet their unique needs and prepare them for
further
education,
employment,
and
independent
living”
(20
U.S.C. §§
1400(d)(1)(A))?
9. If Question 8 (corrected) is not answered in the
affirmative does 20 U.S.C. §§ 1400(d)(1)(A))
have any meaning for a child with autism?

vii
TABLE OF CONTENTS
A. ORIGINAL QUESTIONS PRESENTED IN
PETITION
FOR
A
WRIT
OF
111
—
vi
CERTIORARI
B. NEW QUESTIONS PRESENTED IN THIS
.11 -111
PETITION FOR REHEARING
C. ORIGINAL TABLE OF AUTHORITIES FOR
PETITION FOR A WRIT OF CERTIORARI
Xll - xm
Cases............................................
Xlll — xiv
Statutes, Rules and Regulations
xiv
Legislative Materials.................
xiv - xvi
Publications.................................
D. NEW TABLE OF AUTHORITIES FOR
PETITION FOP REHEARING
,x
Statutes, Rules and Regulations.....
,x
Nonprofit and Government Sources
,x
Videos................................................
,xi - xii
Publications........................................
E. REASONS TO GRANT THE PETITION FOR
1 - 12
REHEARING
I.

THE FUTURE OF AUTISM GENE
THERAPY MAY DEPEND ON THIS
1-3
PETITION

II.

THE ABILITY OF AUTISM GENE
THERAPY TO SERVE THE GREATEST
GOOD LIKELY REQUIRES THAT
INTENSIVE ABA METHODOLOGY BE

viii
AN
EDUCATIONAL
RIGHT
TO
PERSONS WITH AUTISM FOR 2 TO 3
CONSECUTIVE
UNINTERRUPTED
YEARS
3-9
III.

BASE EDITING AND PRIME EDITING
GENE
THERAPY
TECHNOLOGY
PLATFORM HAS BEEN DEVELOPED
MAKING AUTISM GENE THERAPY
POSSIBLE AND THERE IS ALREADY
AN UNRELATED FDA APPROVED
GENE THERAPY TARGETING THE
BRAIN
9-10

IV.

THE INCIDENCE OF AUTISM IS
INCREASING AND
NOT FINDING
THAT
INTENSIVE
ABA
METHODOLOGY
BE
AN
EDUCATIONAL RIGHT TO PERSONS
WITH AUTISM WILL PUT THIS
COUNTRY ON A COURSE TO
PERMANENT
OR
LONG-TERM
RECESSION.......................... 10-12

I. CONCLUSION

12

J. APPENDICIES
Appendix 1, Lovaas, O. I. (1987). Behavioral
treatment and normal educational and intellectual
functioning in young autistic children. Journal of
Consulting and Clinical Psychology, 55 (1), 3-9.

ix

Appendix 2, McEachin, J.J., Smith, T., Lovaas, O.I.
(1993) Long-term outcome for children with autism
who received early intensive behavioral treatment.
AJMR, 97, 4, 359 - 372.
Appendix 3, Sallows, G. O., & Graupner, T. D. (2005).
Intensive behavioral treatment for children with
autism: Four-year outcome and predictors. AJMR,
110, 417-438.
Appendix 4, Cohen, H., Amerine-Dickens, M., &
Smith, T. (2006). Early intensive behavioral
treatment: Replication of the UCLA model in a
community setting. Developmental and Behavioral
Pediatrics, 27, S145-S155.
Appendix 5, Howard, J. S., Stanislaw, H., Green, G.,
Sparkman, C. R., & Cohen, H. G. (2014). Comparison
of behavior analytic and eclectic early interventions
for young children with autism after three years,
Research in Developmental Disabilities, 35 (12),
3326-3344.
Appendix 6, Thusberg, J., Olatubosun, A. & Vihinen,
M. Performance of mutation pathogenicity prediction
methods on missense variants. Hum Mutat. 2011 32
(4):358-68.
Appendix 7, Gerasimavicius, L., Liu, X. & Marsh, J.A.
Identification of pathogenic missense mutations using
protein stability predictors. 2020, Sci Rep 10, 15387

X

TABLE OF AUTHORITIES FOR PETITION
FOR REHEARING
STATUTES, RULES AND REGULATIONS
20 U.S.C. § 1400(d)(1)(A).......................................... 111

GOVERNMENT AND NONPROFIT SOURCES
Mindspec: Informatics for Autism and
Neurodevelopmental Disorders
Web Address: http://www.mindsnec.org/
Specific Referenced Webpage Within: Autism
Informatics Portal
Web Address:
http://autism.mindspec.org/autdb/submitsearch7selfl
d 0=GENES GENE SYMBOL&selfldv 0=&numOf
Fields=l&userAction=viewall&tableName=AUT HG
&submit2=View+All
1
Center for Disease Control and Prevention: Data &
Statistics on Autism Spectrum Disorder
Web Address:
https://www.cdc.gov/ncbddd/autism/data.html....... 10
Autism Speaks: Autism Statistics and Facts
Web Address:
https://www.autismspeaks.org/autism-statistics.... 11
VIDEO PRESENTATIONS

xi

Tristram Smith Keynote Presentation on EvidenceBased Practices for Children with ASD May 30, 2014
https://www.voutube.com/watch?v=tQ2fA32vsZQ.... 4
PUBLICATIONS
Cohen, H., Amerine-Dickens, M., & Smith, T. (2006).
Early intensive behavioral treatment: Replication
of the UCLA model in a community setting.
Developmental and Behavioral Pediatrics, 27,
S145-S155
■v, 7
Howard, J. S., Stanislaw, H., Green, G., Sparkman, C.
R., & Cohen, H. G. (2014). Comparison of
behavior analytic and eclectic early interventions
for young children with autism after three years.
Research in Developmental Disabilities, 35 (12),
3326 - 3344
v, 7
Lovaas, O. I. (1987). Behavioral treatment and
normal educational and intellectual functioning
in young autistic children. Journal of Consulting
and
Clinical
Psychology,
55(1),
39
ii, v, 7, 8
McEachin, J.J., Smith, T., Lovaas, O.I. (1993) Long­
term outcome for children with autism who
received early intensive behavioral treatment.
AJMR. 97, 359 - 372
7
Sallows, G. O., & Graupner, T. D. (2005). Intensive
behavioral treatment for children with autism:
Four-year outcome and predictors. AJMR, 110,
417-438
■v, 7, 8
Thusberg, J., Olatubosun, A. & Vihinen, M.
Performance of mutation pathogenicity prediction

xii

methods on missense variants. Hum Mutat. 2011
2
32 (4):358-68
Gerasimavicius, L., Liu, X. & Marsh, J.A.
Identification of pathogenic missense mutations
using protein stability predictors. 2020, Sci Rep
2
10, 15387
AUTHORITIES ORIGNALLY USED FOR
PETITION FOR A WRIT OF CERTIORARI
CASES
(Application of a Student with a Disability, NYSED
SRO Decision No. 17-008)
A.M. v. New York City Dep't of Educ., 845 F.3d 523,
541-45 (2d Cir. 2017)
Amanda J. ex rel. Annette J. v. Clark County School
Dist. 267 F.3d 877 (9th Cir. 2001)
Bd. of Educ. v. Rowley, 458 U.S. 176 (1982)
Deal v. Hamilton County Board of Educ., 392 F.3d 840
(6th Cir. 2004)
T.R. v. Kingwood Twp. Bd. of Educ., 205 F. 3d 572, 577
(3d Cir. 2000)
L.G. ex rel. E.G. v. Fair Lawn Bd. of Educ. 486 Fed.
Appx. 967 (3rd Cir. 2012)
L.B. and J.B. on behalf of K.B. v. Nebo Sch. Dist., 379
F.3d 966 (10th Cir. 2004)
Madison Board of Education v. S. V. 2020 WL
5055149 (U.S. NJ 2020)

xiii

R.E.B. v. State of Hawaii Department of Education
870 F.3d 1025 (9d Cir. 2017)
R.E:B. v. State of Hawaii Department of Education
55770 Fed. Appx. 796 (9d Cir. 2019)
Renee J. v. Houston Independent School District 333
F.Supp.3d 674 (S.D.TX.)
R.S. v. Bd. of Educ. Shenendehowa Cent. Sch. Dist.,
1:17-CV-0501 (LEK/CFH) (N.D.N.Y. Feb. 20, 2019)
Sumter County School Dist. 17 v. Heffernan ex rel. TH
642 F.3d 478 (4th Cir. 2011)
T.H. v. Board of Education of Palatine, 55 F.Supp.2d
830 (N.D. Ill. 1999)
Winkelman v. Parma City School District, 127 S. Ct.
1994 (2007)
Wittenberg v. Winston-Salem /Forsyth County Board
of Education, 2008 WL 11189389 (M.D.N.C. 2008)
Z.F. v. South Harrison Community School Corp. 2005
WL 2373729 (S.D. IA. 2005)
STATUTES, RULES AND REGULATIONS
FOURTEENTH AMENDMENT SECTION II
“Void for Vagueness” Doctrine of the U.S.
Constitution
IDEA
Daubert Standard
Education of the Handicapped Act Amendments of
1990, Pub. L. No. 101-476, 104 Stat. 1103 (1990)

xiv
Individuals with Disabilities Education Act
Amendments of 1997, Pub. L. No. 105—17, 111 Stat.
37 (1997)
Individuals with Disabilities Education Act
Amendments of Pub. L. No. 108-446, 118 Stat. 2647
(2004)
20 U.S.C. §§ 1400-1482 et seq)
20 U.S.C. § 1400(c)(1)
20 U.S.C. § 1400(c)(1) (2000 & Supp. IV 2004)
20 U.S.C. § 1400(d)(1)(A)
20 U.S.C. § 1400(d)(l)(A-B)
20 U.S.C. § 1412(a)(5)(A)
20 U.S.C. § 1414(b)(2)(C)
20 U.S.C. § 1414(d)
20 U.S.C. § 1414(d)(l)(A)(i)(IV)
28 U.S.C. § 1254
8 N.Y.C.R.R. § 200 et seq.
8 N.Y.C.R.R. § 200.4(d)(2)(v)(b)
8 N.Y.C.R.R. § 200.6(6)(ii)(x)
Fed. R. App. P. 4(a)(6)
Fed. R. App. P. 26(c)
LEGISLATIVE MATERIALS
S. Rep. No. 94-168 (1975), as reprinted in 1975
U.S.C.C.A.N. 1425
Cong. Rec. 19492 (1975)

XV

PUBLICATIONS
Cohen, H., Amerine-Dickens, M., & Smith, T. (2006).
Early intensive behavioral treatment: Replication
of the UCLA model in a community setting.
Developmental and Behavioral Pediatrics, 27,
S145-S155
Howard, J. S., Stanislaw, H., Green, G., Sparkman, C.
R., & Cohen, H. G. (2014). Comparison of
behavior analytic and eclectic early interventions
for young children with autism after three years.
Research in Developmental Disabilities, 35 (12),
3326 - 3344
Howard, J. S., Sparkman, C. R., Cohen, H. G., Green,
G., & Stanislaw, H. (2005). A comparison of
intensive behavior analytic and eclectic
treatments for young children with autism.
Research in Developmental Disabilities, 26, 359—
383
Koegel, R. L., Werner, G. A., Vismara, L. A., & Koegel,
L. K. (2005). The effectiveness of contextually
supported play date interactions between
children with autism and typically developing
peers. Research and Practice for Persons with
Severe Disabilities, 30, 93-102
Lee, P. F., Thomas, R. E., & Lee, P. A. (2015).
Approach to autism spectrum disorder: Using the
new DSM-V diagnostic criteria and the Can
MEDS-FM
framework.
Canadian
family
physician Medecin de famille canadien, 61(5),
421-424
Lovaas, O. I. (1987). Behavioral treatment and
normal educational and intellectual functioning

xvi
in young autistic children. Journal of Consulting
and Clinical Psychology, 55(1), 3-9
McEachin, J.J., Smith, T., Lovaas, O.I. (1993) Long­
term outcome for children with autism who
received early intensive behavioral treatment.
AJMR. 97, 359-372
Sallows, G. O., & Graupner, T. D. (2005). Intensive
behavioral treatment for children with autism:
Four-year outcome and predictors. AJMR, 110,
417-438

1

REASONS FOR GRANTING THE PETITION
FOR REHEARING
I. THE FUTURE OF AUTISM GENE THERAPY
MAY DEPEND ON THIS PETITION.
The advent of CRISPR/Cas9 based gene therapies will
soon, hopefully within 5 years, enable researchers to
pursue Autism Gene Therapy and Gene Therapies for
related neurodevelopmental disorders. Although, the
picture is complex for Autism. For example, there is
autism.
nearly 1100 genes associated with
http ://autis m. mindspec. or g/autdb/sub mitsearch?selfl
d 0=GENES GENE SYMBOL&selfldv 0=&numOf
Fields^ 1 &userAction=viewall&tableName=AUT HG
&submit2=View+All (Autism Informatics Portal) For
any given gene there is a large number of potential
autism causing mutations where causality is not
always easy to establish. There may be a mutation of
a gene with possible cause of autism and in some
instances the prediction that the mutation causes
autism is nearly certain and in other instances not.
Causal links may be easily made with nonsense
mutations or protein truncating variants (that
reduces the length of the protein) and frameshift (that
changes virtually every amino acid—in comparison to
the natural functioning form—that follows where the
location of the frameshift occurs) mutations both that
materially change the protein and impair its function
and also often in cases involving in-frame deletions
(the loss of amino acids) or insertions (the addition of
amino acids). Missense mutations that change a
single amino acid, can be more difficult to create a
causal link to autism. Structural biology combined
with Statistics and computational science including

2

machine learning has made it possible to predict the
likelihood that a missense mutation would affect
protein function. (Thusberg, J., Olatubosun, A.,
Vihinen, M.
Hum Mutat, 2011
52:359-68.;
Gerasimavicius, L., Liu, X. & Marsh, J.A. Sci Rep,
2020 10:15387) Even with these tools, in most cases
of autism scientists can only predict with low
likelihood that a specific missense mutation was the
cause of the autism. In tens of thousands of instances
there is 3 or less documented cases of autism for one
specific mutation that is often a missense mutation,
but multiple different mutations on the same gene.
Autism while being a spectrum disorder also has a
separate spectrum for each of the 1100 genes. A
single gene can have a mutation in one of a number of
places. The degree that the mutation impairs the
protein’s function determines the severity of the
autism within the gene’s spectrum. Additionally,
individuals that express less protein than average
will be more greatly impacted from the mutation of
one of typically 21 functioning genes, a term referred
to as haploinsufficiency2. With exceptions to X and Y
chromosomes in males where generally there is one
functioning gene. Additionally, factors such as
multiple functional domains on a single protein can
also contribute to the broad spectrum. This web of
complexity, that is the broadness of the autism
spectrum for any particular gene creates an ethical
1 Especially, when the protein encoded for by the gene plays a
more essential function.
2 In haploinsufficiency one of two copies of a gene is sufficiently
nonfunctional such that there is an observable difference in the
individual.

3

dilemma of correcting a supposed autism causing
mutation before ruling out that the individual can
achieve typically levels of IQ and Vineland Adaptive
Behavior Scales (VABS) from intensive behavioral
intervention (IBI) or intensive Applied Behavior
Analysis (ABA). Why should an individual that can
achieve typical levels of IQ and VABS and thus
indistinguishable from their typically developing
peers be subjected to gene therapy in its early stages
if they can achieve the intended outcome without it?
If this court finds that an IEP that does not include
IBI or intensive ABA for persons with autism cannot
be “reasonably calculated” to confer educational
benefit making IBI or intensive ABA a matter of right
for persons with autism, then any aspect of the autism
gene therapy ethical dilemma that relates to ruling
out the individual can achieve typical levels from IBI
or intensive ABA is in principle resolved.
II. THE ABILITY OF AUTISM GENE THERAPY
TO SERVE THE GREATEST GOOD LIKELY
REQUIRES
THAT
INTENSIVE
ABA
METHODOLOGY BE AN EDUCATIONAL
RIGHT TO PERSONS WITH AUTISM FOR 2 TO
3 CONSECUTIVE UNINTERRPUTED YEARS.
The ethical dilemma is further complicated because it
would not be ethically correct to limit a program to
the mutations that leaves persons worst off—as such
instances have a host of challenges that reduces the
likelihood of their success in the early stages of
autism gene therapy—and thus that does not serve
the greatest good. One might argue that individuals

4
with a particular autism causing gene are profoundly
affected and they would clearly not recover without
gene therapy. However, a program only on those
individuals is less likely to succeed in a relatively
short time window for reasons discussed above and
thus would not serve the greatest good. What serves
the greatest good early on in a program is to initially
commence gene therapy those that can reasonably be
expected to achieve typical levels of IQ and VABS—in
a relatively short time window—with a successful
correction of the autism causing gene but cannot do so
without such a gene therapy program. This is
consistent with a prevailing view on a limited
professional staffing scenario3 (see Tristram Smith
Keynote Presentation on Evidence-Based Practices
ASD.
with
Children
for
https://www.voutube.com/watch?v=:tQ2fA32vsZQ
(5/30/2014) at 1:44:30 - 1:45:23) in IBI or intensive
ABA. We have considered the principles behind them
and we agree with it. We also envision that autism
gene therapy clinical trials would take place across all
correctable mutations on a given gene including those
less likely to quickly recover from gene therapy where
there is a sizable percentage (40+%) of individuals
with the mutation that could be expected to recover
within 2 years from a successful correction of the
underlying gene, while unable to do so solely from IBI
or intensive ABA. This gene targeting has the added
benefit where those less likely to quickly recover from
3 In this scenario there is not enough trained personnel to
provide intensive ABA or IBI to all persons with autism so those
that are projected to benefit most are given priority over those
that are expected to minimally benefit who instead receive the
typical program offered by the school district.

5

gene therapy could participate in a gene therapy
program while keeping with the principle of initially
targeting those for gene therapy that can reasonably
be expected to recover from gene therapy in a
relatively short time window.
As Autism Gene Therapy early on will be based on a
limited resource model due to limited initial
investment whose early and rapid success determines
the amount and speed with which further funds will
be invested into such an industry. In other words, the
early success of autism gene therapy in recovering
persons with autism to typically developing levels will
mean that an increasing amount of funds will be
poured into the industry in a rather short time
window thereby increasing the number of people
recovered from autism as a function of time. These
substantial grounds not previously presented
further establishes the Supreme Court’s Role in
granting the Petition for a Writ of Certiorari. If the
Supreme Court can within its jurisdiction hear a case
whose outcome can have far reaching implications
that benefit practically all members of humanity,
then The Court ought to hear this case. As the
greatest good is served for both those than can achieve
typical levels from intensive ABA and those that will
require gene therapy to do so. No person with autism
will be left behind.
Establishing that a mutation cannot be corrected with
IBI requires that school aged persons with autism
have IBI or intensive ABA as a matter of right for 3
years followed by 2—3 years part time transitional
ABA. This decision falls withing the jurisdiction of

6
The Supreme Court as it is the basis of the Petition
and the U.S. Courts of Appeals are scattered in their
treatment on. (see Petition for Writ of Certiorari
20-619) This Court can imagine a situation where a
child receives Autism Gene Therapy in the future but
in some instances the child has access to IBI or
intensive ABA and in other cases not. Further, there
is wide programming variation across IEPs written to
support unproven eclectic intervention programs.
This creates an efficacy nightmare because one may
not be able to determine the cause of the improvement
in IQ and VABS. Was it the child’s intervention
program or was it the gene therapy that brought
about the improvement to typical levels?
Similarly, there is a challenge associated with the
placement being a source that negatively impacts the
potential gains associated with a gene therapy
program. Did the environment itself e.g. the highly
restrictive placement that includes settings that do
not provide access to model typically developing peers
bring about the less than desired outcome from a gene
therapy program? The environment lacking model
peers for even part of the day can equally be the
source that negatively impacts the IQ and VABS
outcome. If one typically developing child is by
themselves placed in an educational placement that
only included peers with autism would they be
expected to develop normally? The answer is almost
certainly no! So then if a child with autism with a
self-contained placement receives autism gene
therapy how are they expected to recover? This
matter can be decided on by The Supreme Court
because the very foundations of IBI or intensive ABA

7

support an intervention model that takes measures to
avoid detrimental self-contained placements.
It has been well established that the placement itself
can make an otherwise perfectly designed
intervention program ineffective. Lovaas noted this
that in a setting where all intervention was provided
in a self-contained environment led to results that did
not allow persons with autism to recover, while the
identical program in environments that did not
include others with autism led to 47% achievement of
typically developing levels that were sustained by all
but one participant. (Smith, T., Lovaas, O.I., 1993,
AJMR. 97:359-372)
Not hearing this case will potentially stifle an Autism
Gene Therapy program that could correct the autism
for those persons that cannot sufficiently benefit from
IBI to reach typical levels, a number that is about 53%
of persons with autism. It has been 34 years since
Lovaas had reported on IBI (Lovaas, 1987). All
replications and efforts to improve upon the results
have not been able to improve the outcome. Across all
studies ever reported no program has achieved results
that exceed the Lovaas Program or its Replications
(Sallows, 2005; Cohen, 2006; Howard, 2014). As
further support, in the Wisconsin Early Autism
Program Sallows and Graupner (Sallows, 2005) noted
two types of participants in their Lovaas Program
Replication, Rapid Learners and Moderate Learners.
Interestingly, they cannot reliably4 be distinguished
4 Stronger social engagement skills at program onset were
correlated with better outcomes.

8

from each other at program onset as their starting
points are similar. See Table 3 (pp. 426, Sallows,
2005) (Pet. Reh. App. 31). Rapid Learners average
Intake IQ: 55.3 and VABS: 61.73. Moderate Learners
average Intake IQ: 47.8 and VABS: 58.7. However,
after the follow-up the Rapid Learners achieved a
mean IQ of 103.73 and a mean VABS of 88.6 while
Moderate Learners achieved a mean IQ of 50.4 and
VABS of 49.15. From these results is becomes readily
apparent who would be potential candidates for
autism gene therapy following 3 years of IBI or
intensive ABA. Further, it has also been shown that
eclectic intervention programs or special education as
usual do not allow one to distinguish Rapid Learners
for Moderate Learners except for the top 10%—20% of
Rapid Learners. See Table 3 of (pp. 7, Lovaas, 1987)
see (Pet. Reh. App. 5). Thus, 80%—90% of Rapid
Learners that would not need autism gene therapy to
recover from autism cannot be identified from special
education as usual.
We explained to this court that in a country that
spends $250 to $300 Billion a year on autism finding
that an IEP that does not specify intensive ABA
methodology cannot be reasonably calculated to
confer educational benefit for persons with autism
would result in savings of $100 Billion annually in the
long term. Autism gene therapy will likely be
effective on both adults and children. But adults that
receive autism gene therapy will have an entirely new
challenge, closing the developmental gap, that is more
5 It should be noted that there is a broad spectrum of the
moderate learners. There were many moderate learners that
saw gains in IQ and VABS. But not to typical levels.

9

difficult to close with increasing age, and finding a
way to fit into society. This may be easily surmounted
for those in financially prominent families while those
in families that have quite limited financial resources
will find this challenge to be significant. There is also
the complicated question of the underlying
psychology after recovering from autism in adulthood.
Thus, autism gene therapy would obviously be
preferred to be completed in childhood.

III. PRIME EDITING AND BASE EDITING
TECHNOLOGY PLATFORMS HAVE BEEN
DEVELOPED MAKING AUTISM GENE
THERAPY POSSIBLE AND THERE IS AN
UNRELATED FDA APPROVED GENE
THERAPY TARGETING THE BRAIN
In 2019 the FDA approved Novartis’s gene therapy
Zolgensma.
https://www.zolgensma.com/what-iszolgensma. Zolgensma works by delivering episomal
DNA—that does not integrate into the host genomic
DNA—to the brain that makes a new copy of a gene
known as human Survival Motor Neuron 1 (SMN1).
Persons with spinal muscular atrophy typically have
two nonfunctioning copies—referred to as autosomal
recessive—of the SMN1 gene.
Most cases of autism are due to haploinsufficiency.
Because thought is more fine-tuned than almost any
other function in the body one can imagine that the
amount of protein that is needed to be expressed is
based on a number of factors that our molecular
machinery must be sufficiently sensitive to detect
when more protein is required. There are a host of

10
other elements in the genome that are not part of the
gene that can be activated to express more of the gene
in the cell when more is required or to stop expression
when there is a sufficient surplus. Thus,
CRISPR/Cas9 (Clustered Regularly Interspaced
Short Palindromic Repeats/CRISPR associated
Protein 9) based gene therapy platforms such as
Prime Editing and Base Editing technologies may be
necessary since these technologies correct mutations
in the genomic DNA.
IV. THE INCIDENCE OF AUTISM IS INCREASING
AND NOT FINDING THAT INTENSIVE ABA
METHODOLOGY IS AN EDUCATIONAL RIGHT
TO PERSONS WITH AUTISM WILL PUT THIS
COUNTRY ON A COURSE TO PERMANENT OR
LONG-TERM RECESSION.
Many wonder if the increase in the incidence of
autism
(now
1
in
54
births) is real.
https://www.cdc.gov/ncbddd/autism/data.html If it is
real, then it only means that it is going to get
progressively worse. Why might this be? Well, there
are a tremendous number of genes associated with
the functioning of the nervous system. A benign
mutation in one protein that functions in the nervous
system may not be noticeable. However, multiple
benign mutations may be noticeable. It is manifested
by so many mutations of genes associated with brain
function per generation. Because the mutations
associated with autism are mostly completely random
and the prevalence is increasing it raises a question
as to whether the incidence of autism could suddenly
take off in the next two generations. This may seem

11
like a long time. Although, because there is such an
extensive number of autism causing mutations the
window of investigation and correction of every
pathological autism causing mutation could take 30
years. So, if this matter is delayed much longer the
consequences for mankind will be catastrophic.
Not hearing this case will send this country on a
course into certain bankruptcy that will begin within
20 years because once the incidence becomes too far
out of control the financial impact would be
devastating. Gene therapy may not be able to bridge
the gap quickly enough to avoid economic devastation
without the framework being in place soon. Once
things fall outside of a specific parameter chaos
results. The butterfly effect parameter is probably
somewhere in the area of an incidence of autism that
is equal to a half the rate of unemployment that has
economic consequences, such as recession, about 10%
unemployment. Thus, an incidence of autism of 1 in
20 births or 1 in 10 families will result in a recession
like situation. That is because a person with autism
generally has one of the parents as the case manager
https://www.autismspeaks.org/autism-statistics and
makes it very difficult for that parent to hold a full­
time job while meeting the needs of their son or
daughter with autism. Consider the following: If the
reported unemployment rate is 2.5% (which is good
economic conditions) the incidence of autism is 5%
causing 1 in 20 parents to not be able to maintain
competitive nor full time employment and where a
intervention provider will have to provide support to
persons with autism at an effort equivalent to 50% of
full time one can imagine a situation when 5%

12

incidence of autism results in 5% unemployment for
parents on top of a 2.5% unemployment rate and 2.5%
of employment to support persons with autism. That
is effectively equivalent to 10% unemployment. We
are likely less than one generation away from an
autism incidence of 1 in 20 births.
It is also important to point out that if the economics
of being a BCBA provider do not sufficiently improve
or if baseless policies are put in place that reduce their
numbers the manpower may not be in place in the
future to provide IBI. We have a situation now that
functions as the ideal situation. Sufficient manpower
from BCBA providers and unprecedented advances in
Prime Editing and Base Editing gene therapy
technologies. For this reason, the Supreme Court
must act now to hear this matter that falls within the
jurisdiction of the court so that all persons with
autism, their siblings and parents can benefit.
In Conclusion, this Petition for Rehearing and Writ of
Certiorari Should be Granted!
Respectfully Submitted on February 5, 2021.

R.S. Pro Semi beh;

E.S1

ro Se o:

A.S.

iehalf of A.S.

1

No. 20-619
IN THE
SUPREME COURT OF THE UNITED
STATES
A.S. a 9-year old child with Autism Spectrum
Disorder (ASD) entitled to Special Education and
Related services per IDEA represented by his
parents R.S. Pro se and E.S. Pro se
Plaintiffs Petitioners
-v.Board of Education Shenendehowa Central
School District,
Interim Commissioner Betty Rosa, of The
University of the State of New York
Defendants-Respondents
Petition for Rehearing
On Writ of Certiorari
To the U.S. Court of Appeals for the 2nd
Circuit
CERTIFICATION PETITION IS
PRESENTED IN GOOD FAITH AND NOT
FOR DELAY

2

As required by Supreme Court Rule 44.1,1 certify that
the PETITION FOR REHEARING in the above Case
No. 20-619 is presented in good faith and not for
delay.
Respectfully Submitted on February 5, 2021

By:
R.S. Pro SHfon beh;

of A.S.

n

By:

L

E.S. Pro Se on behalf of A.S.

fyicoio Wml}(\ 4\vs .tyk
drd

sV‘s\"tMa

$
W'3 #3A| puYAiL

CHRISTINE MALEO
Notary Public - State of New York
No. 01AL6307204
Qualified in Albany County
My Gammiseionlxp. O@/3O^0gg

apdi'id ^('<SuaiAt
....................

1

No. 20-619
IN THE
SUPREME COURT OF THE UNITED
STATES

♦
A.S. a 9-year old child with Autism Spectrum
Disorder (ASD) entitled to Special Education and
Related services per IDEA represented by his
parents R.S. Pro se and E.S. Pro se
Plaintiffs-Petitioners
-v.Board of Education Shenendehowa Central
School District,
Interim Commissioner Betty Rosa, of The
University of the State of New York
.........
...... Defendants-Respondents
Petition for Rehearing
On Writ of Certiorari
To the U.S. Court of Appeals for the 2nd
Circuit
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 44.2,1 certify that
the PETITION FOR REHEARING in the above Case

2

No. 20-619 is filed on Substantial Grounds Not
Previously Presented.
Respectfully Submitted on February 5, 2021
By:
R.S. Pro

of A.S.

By:
E.S. Prd^Se on^lmlf of A.S.

■4nd

\&lt m

0

m
CHRISTINE MALEO
Notary Public - State of New York
No. 01AL6307204
Qualified in Albany County
My Commteelsn Exp; 06/30/2022

6 m^i

(

pthxdki

- mm SiB/Vt

No. 20-619
IN THE
SUPREME COURT OF THE UNITED STATES
A.S. a 9-year old child with Autism Spectrum Disorder (ASD) entitled
to Special Education and Related services per IDEA
represented by his parents R.S. Pro se and E.S. Pro se
Plaintiffs-Petitioners

PETITION FOR
REHEARING

-v.Board of Education Shenendehowa Central School District,
Interim Commissioner Betty Rosa, of The University of the State of New York
Defendants-Respondents
Petition for Rehearing
On Petition for a Writ of Certiorari
To the U.S. Court of Appeals for the 2nd Circuit

♦
TABLE OF CONTENTS FOR
APPENDIX TO
PETITION FOR REHEARING

Appendix 1, Lovaas, O. I. (1987). Behavioral treatment and normal educational and
intellectual functioning in young autistic children. Journal of Consulting and Clinical
Psychology, 55 (1), 3-9.

App 1

ii

Appendix 2, McEachin, J.J., Smith, T., Lovaas, O.I. (1993) Long-term outcome for
children with autism who received early intensive behavioral treatment. AJMR, 97,
4, 359 - 372.

App 8

Appendix 3, Sallows, G. O., & Graupner, T. D. (2005). Intensive behavioral
treatment for children with autism: Four-year outcome and predictors. AJMR, 110,
417-438.

App 22

Appendix 4, Cohen, H., Amerine-Dickens, M., & Smith, T. (2006). Early intensive
behavioral treatment: Replication of the UCLA model in a community setting.
Developmental and Behavioral Pediatrics, 27, S145—S155

App 44

Appendix 5, Howard, J. S., Stanislaw, H., Green, G., Sparkman, C. R., & Cohen, H.
G. (2014). Comparison of behavior analytic and eclectic early interventions for young
children with autism after three years. Research in Developmental Disabilities, 35
(12), 3326-3344

App 55

Appendix 6, Thusberg, J., Olatubosun, A. & Vihinen, M. Performance of mutation
pathogenicity prediction methods on missense variants. Hum Mutat. 2011 32 (4):358App 74

68

Appendix 7, Gerasimavicius, L., Liu, X. & Marsh, J.A. Identification of pathogenic
missense mutations using protein stability predictors.
(2020)

Sci Rep

10,

15387
App 85

Pet. Reh. App.1
Journal ofConsulting and Gimcai ftychotogy
1987, Vol. 55, No. 1,3-9

Copyright ]987 by the American Psycholorca! Association. Inc.
0022-006X/87tfQ0.75

Behavioral Treatment and Normal Educational and Intellectual
Functioning in Young Autistic Children
O. Ivar Lovaas
University of California, Los Angeles
Autism is a serious psychological disorder with onset in early childhood. Autistic children show
minimal emotional attachment, absent or abnormal speech, retarded IQ, ritualistic behaviors, ag­
gression, and self-injury. The prognosis is very poor, and medical therapies have not proven effective.
This article reports the results of behavior modification treatment for two groups ofsimilarly consti­
tuted, young autistic children. Follow-up data from an intensive, long-term experimental treatment
group (n = 19) showed that 47% achieved normal intellectual and educational functioning, with
normal-range IQ scores and successful first grade performance in public schools. Another 40% were
mildly retarded and assigned to special classes for the language delayed, and only 10% were pro­
foundly retarded and assigned to classes for the autistic/retarded. In contrast, only 2% of the control group children (n = 40) achieved normal educational and intellectual functioning; 45% were mildly
retarded and placed in language-delayed classes, and 53% were severely retarded and placed in autis­
tic/retarded classes.

Kanner (1943) defined autistic children as children who ex­
hibit (a) serious failure to develop relationships with other peo­
ple before 30 months of age, (b) problems in development of
normal language, (c) ritualistic and obsessional behaviors (“in­
sistence on sameness”), and (d) potential for normal intelli­
gence. A more complete behavioral definition has been pro­
vided elsewhere (Lovaas, Koegel, Simmons, & Long, 1973). The
etiology of autism is not known, and the outcome is very poor.
In a follow-up study on young autistic children, Rutter (1970)
reported that only 1.5% of his group (n = 63) had achieved nor­
mal functioning. About 35% showed fair or good adjustment,
usually required some degree of supervision, experienced some
difficulties with people, had no personal friends, and showed
minor oddities of behavior. The majority (more than 60%) re­
mained severely handicapped and were living in hospitals for
mentally retarded or psychotic individuals or in other protective
settings. Initial IQ scores appeared stable over time. Other stud­
ies (Brown, 1969; DeMyer et al., 1973; Eisenberg, 1956; Free­
man, Ritvo, Needleman, & Yokota, 1985; Havelkova, 1968) re­

port similar data. Higher scores on IQ tests, communicative
speech, and appropriate play are considered to be prognostic of
better outcome (Lotter, 1967).
Medically and psychodynamically oriented therapies have
not proven effective in altering outcome (DeMyer, Hingtgen, &
Jackson, 1981). No abnormal environmental etiology has been
identified within the children's families (Lotter, 1967). At pres­
ent, the most promising treatment for autistic persons is behav­
ior modification as derived from modem learning theory (De­
Myer et al., 1981). Empirical results from behavioral interven­
tion with autistic children have been both positive and negative.
On the positive side, behavioral treatment can build complex
behaviors, such as language, and can help to suppress pathologi­
cal behaviors, such as aggression and self-stimulatory behavior.
Oients vary widely in the amount of gains obtained but show
treatment gains in proportion to the time devoted to treatment.
On the negative side, treatment gains have been specific to the
particular environment in which the client was treated, sub­
stantial relapse has been observed at follow-up, and no client
has been reported as recovered (Lovaas et al., 1973).
The present article reports a behavioral-intervention project
(begun in 1970) that sought to maximize behavioral treatment
gains by treating autistic children during most of their waking
hours for many years. Treatment included all significant per­
sons in all significant environments. Furthermore, the project
focused on very young autistic children (below the age of 4
yeans) because it was assumed that younger children would be
less likely to discriminate between environments and therefore
more likely to generalize and to maintain their treatment gains.
Finally, it was assumed that it would be easier to successfully
mainstream a very young autistic child into preschool than it
would be to mainstream an older autistic child into primary
school.
It may be helpful to hypothesize an outcome of the present
study from a developmental or learning point of view. One may
assume that normal children learn from their everyday environ-

This study was supported by Grant MH-11440 from the National
Institute of Mental Health. Aspects of this study were presented at the
1982 convention of the American Psychological Association, Washing­
ton, DC, by Andrea Ackerman, Paula Firestone, Gayle Goldstein, Ron­
ald Leaf, John McEachin, and the author. The author expresses his deep
appreciation to the many undergraduate students at the University of
California, Los Angeles, who served as student therapists on the project,
to the many graduate students who served as clinic supervisors, and to
the many parents who trusted their children to our care. Special thanks
to Laura Schreibman and Robert Koegel, who collaborated in the early
stages of this research project. Donald Baer, Bruce Baker, Bradley
Bucher, Arthur Woodward, and Haikang Shen provided statistical ad­
vice and help in manuscript preparation. B. J. Freeman's help in arrang­
ing access to Control Group 2 data is also appreciated.
Correspondence concerning this article should be addressed to O. Ivar
Lovaas, Psychology Department, University of California, 405 Hilgard
Avenue. Los Angeles. California 90024.
3

■ i

Pet. Reh. App.2
4

Q IVAR LOVAAS

merits most of their waking hours. Autistic children, conversely,
do not learn from similar environments. We hypothesized that
construction of a special, intense, and comprehensive learning
environment for very young autistic children would allow some
of them to catch up with their normal peers by first grade.

Method
Subjects
Subjects were enrolled for treatment if they met three criteria: (a)
independent diagnosis of autism from a medical doctor or a licensed
PhD psychologist, (b) chronological age (CA) less than 40 months if
mute and less than 46 months if echolalic, and (c) prorated menial age
(PMA) of 11 months or more at a CA of 30 months. The last criterion
excluded 15% of the referrals.
The clinical diagnosis of autism emphasized emotional detachment,
extreme interpersonal isolation, little if any toy or peer play, language
disturbance (mutism or echolalia), excessive rituals, and onset in in­
fancy. The diagnosis was based on a structured psychiatric interview
with parents, on observations of the child's freoplay behaviors, on psy­
chological testing of intelligence, and on access to pediatric examina­
tions. Over the 15 years ofthe project, the exact wording ofthe diagnosis
changed slightly in compliance with changes in the Diagnostic and Sta­
tistical Manual of Mental Disorders (DSM-II1; American Psychiatric
Association, 1980). During the last years, the diagnosis was made in
compliance with DSM-1I1 criteria (p. 87). In almost all cases, the diag­
nosis of autism had been made prior to family contact with the project.
Except for one case each in the experimental group and Control Group
1, all cases were diagnosed by staff of the Department ofChild Psychia­
try, University of California, Los Angeles (UCLA) School of Medicine.
Members of that staff have contributed to the writing of the DSM-III
and to the diagnosis ofautism adopted by the National Society for Chil­
dren and Adults with Autism. If the diagnosis of autism was not made,
the case was referred elsewhere. In other words, the project did not select
its cases. More than 90% of the subjects received two or more indepen­
dent diagnoses, and agreement on the diagnosis of autism was 100%.
Similarly high agreement was not reached for subjects who scored
within the profoundly retarded range on intellectual functioning
(PMA < 11 months); these subjects were excluded from the study.

Treatment Conditions
Subjects were assigned to one of two groups: an intensive-treatment
experimental group (n = 19) that received more than 40 hours of oneto-one treatment per week, or the minimal-treatment Control Group 1
(n= 19) that received ! 0 hours or less of one-to-one treatment per week.
Control Group 1 was used to gain further information about the rate of
spontaneous improvement in very young autistic children, especially
those selected by the same agency that provided the diagnostic work-up
for the intensive-treatment experimental group. Both treatment groups
received treatment for 2 or more years. Strict random assignment (e.g.,
based on a coin flip) to these groups could not be used due to parent
protest and ethical considerations. Instead, subjects were assigned to
the experimental group unless there was an insufficient number of staff
members available to render treatment (an assessment made prior to
contact with the family). Two subjects were assigned to Control Group
I because they lived further away from UCLA than a 1-hr drive, which
made sufficient staffing unavailable to those clients. Because fluctua­
tions in staffavailability were not associated in any way with client char­
acteristics, it was assumed that this assignment would produce unbiased
groups. A large number of pretreatment measures were collected to test
this assumption. Subjects did not change group assignment. Except for
two families who left the experimental group within the first 6 months

(thisgroup began with 21 subjects), all families stayed with their groups
from beginning to end.

Assessments
Pretreatment mental age (MA) scores were based on the following
scales (in order ofthe frequency of their use): the Bayley Scales of Infant
Development (Bayley, 1955), the Cattell Infant Intelligence Scale (Cattell, 1960), the Stanford-Binet Intelligence Scale (Thorndike, 1972), and
the Gesell Infant Development Scale (Gesell, 1949). The first three
scales were administered to 90% of the subjects, and relative usage of
these scales was similar in each group. Testing was carried out by gradu­
ate students in psychology who worked under the supervision of clinical
psychologists at UCLA or licensed PhD psychologists at other agencies.
The examiner chose the test that would best accommodate each sub­
ject’s developmental level, and this decision was reached independently
of the project staff. Five subjects were judged to be untestable (3 in the
experimental group and 2 in Control Group I). Instead, the Vineland
Social Maturity Scale (Doll, 1953) was used to estimate their MAs (with
the mother as informant). To adjust for variations in MA scores as a
function of the subject’s CA at the time of test administration, PMA
scores were calculated for a CA at 30 months (MA/CA X 30).
Behavioral observations were based on videotaped recordings of the
subject's firee-play behavior in a playroom equipped with several simple
eariy-childhood toys. These videotaped recordings were subsequently
scored for amount of (a) self-stimulatory behaviors, defined as pro­
longed ritualistic, repetitive, and stereotyped behavior such as bodyrocking, prolonged gazing at lights, excessive hand-flapping, twirling the
body as a top, spinning or lining of objects, and licking or smelling of
objects or wall surfaces; (b) appropriate play behaviors, defined as those
limiting the use of toys in the playroom to their intended purposes, such
as pushing the truck on the floor, pushing buttons on the toy cash regis­
ter, putting a record on the record player, and banging with the toy ham­
mer; and (c) recognizable words, defined to include any recognizable
word, independent of whether the subject used it in a meaningful con­
text or for communicative purposes. One observer who was naive about
subjects' group placement scored all tapes after being trained to agree
with two experienced observers (using different training tapes from sim­
ilar subjects). Interobserver reliability was scored on 20% of the tapes
(randomly selected) and was computed for each category of behavior
for each subject by dividing the sum of observer agreements by the sum
of agreements and disagreements. These scores were then summed and
averaged across subjects. The mean agreement (based both on occur­
rences and nonoccurrences) was 91% for self-stimulatory behavior, 85%
for appropriate play behavior and 100% for recognizable words. A more
detailed description of these behavioral recordings has been provided
elsewhere (Lovaas et at., 1973).
A 1-hr parent interview about the subjects’ earlier history provided
some diagnostic and descriptive information. Subjects received a score
of 1 for each ofthe following variables parents reported: no recognizable
words; no toy play (failed to use toys for their intended function); lack of
emotional attachment (failed to respond to parents' affection); apparent
sensory deficit (parents had suspected their child to be blind or deaf
because the child exhibited no or minimal eye contact and showed an
unusually high pain threshold); no peer play (subject did not show inter­
active play with peers); self-stimulatory behavior; tantrums (aggression
toward family members or self); and no toilet training. These 8 mea­
sures from parents* intake interviews were summed to provide a sum
pathology score. The intake interview also provided information about
abnormal speech (0 = normal and meaningful language, however lim­
ited; 1 = echolalic language used meaningfully [e.g., to express needs];
2 - echolalia; and 3 = mute); age of walking; number of siblings in
the family; socioeconomic status of the father; sex; and neurological
examinations (including EEGs and CAT scans) that resulted in findings
of pathology. Finally, CA at first diagnosis and at the beginning of the

Pet. Reh. App.3
5

TREATMENT OF AUTISTIC CHILDREN
present treatment were recorded. This yielded a total of20 pretreatment
measures, 8 of which were collapsed into 1 measure (sum pathology).
A brief clinical description of the experimental group at intake fol­
lows (identical to that for Control Croup 1): Only 2 of the 19 subjects
obtained scores within the normal range of intellectual functioning; 7
scored in the moderately retarded range, and 10 scored in the severely
retarded range. No subject evidenced pretend or imaginary play, only 2
evidenced complex (several different or heterogeneous behaviors that
together formed one activity) play, and the remaining subjects showed
simple (the same elementary but appropriate response made repeat­
edly) play. One subject showed minimal appropriate speech, 7 were
echolalic, and 11 were mute. According to the literature that describes
the developmental delays of autistic children in general, the autistic sub­
jects in the present study constituted an average (or below average) sam­
ple of such children.
Posttreatment measures were recorded as follows; Between the ages
of 6 and 7 years (when a subject would ordinarily have completed first
grade), information about the subjects’ first-grade placement was sought
and validated; about the same time, an IQ score was obtained. Testing
was carried out by examiners who were naive about the subjects’ group
placement. Different scales were administered to accommodate differ­
ent developmental levels. For example, a subject with a regular educa­
tional placement received a Wechsler intelligence Scale for ChildrenRevised (W1SC-R; Wechsler, 1974) or a Stanford-Binet Intelligence
Scale (Thorndike, 1972), whereas a subject in an autistic/retarded class
received a nonverbal test like the Merrill-Palmer Pre-School Perfor­
mance Test (Stutsman, 1948). In all instances of subjects having
achieved a normal IQ score, the testing was eventually replicated by
other examiners. The scales (in order of the frequency of usage) in­
cluded the WISC-R (Wechsler, 1974), the Stanford-Binet (Thorndike,
1972), the Peabody Picture Vocabulary Test (Dunn, 1981), the Wech­
sler Pre-School Scale (Wechsler; 1987), the Bayley Scales of Infant De­
velopment (Bayley, 1955), the Cattell Infant Intelligence Scale (Cattell,
I960), and the Letter International Performance Scale (Leiter, 1959).
Subjects received a score of 3 for normal functioning if they received a
score on the WISC-R or Stanford-Binet in the normal range, completed
first grade in a normal class in a school for normal children, and were
advanced to the second grade by the teacher. Subjects received a score
of 2 if they were placed in first-grade in a smaller aphasia (language
delayed, language handicapped, or learning disabled) class. Placement
in the aphasia class implied a higher level offunctioning than placement
in classes for the autistic/retarded, but the diagnosis of autism was al­
most always retained. A score of I was given if the first-grade placement
was in a class for the autistic/retarded and if the child’s IQ score fell
within the severely retarded range.

Treatment Procedure
Each subject in the experimental group was assigned several well
trained student therapists who worked (part-time) with the subject in
the subject’s home, school, and community for an average of 40 hr per
week for 2 or more years. The parents worked as part of the treatment
team throughout the intervention; they were extensively trained in the
treatment procedures so that treatment could take place for almost all
of the subjects’ waking hours, 365 days a year. A detailed presentation
of the treatment procedure has been presented in a teaching manual
(Lovaas et al., 1980). The conceptual basis of the treatment was rein­
forcement (operant) theory; treatment relied heavily on discriminationlearning data and methods. Various behavioral deficiencies were tar­
geted, and separate programs were designed to accelerate development
for each behavior High, rates of aggressive and self-stimulatory behav­
iors were reduced by being ignored; by the use of time-out; by the shap­
ing of alternate, more socially acceptable forms of behavior, and (as a
last resort) by the delivery of a loud “no” or a slap on the thigh contin­
gent upon the presence ofthe undesirable behavior. Contingent physical
aversives were not used in the control group because inadequate staffing

in that group did not allow for adequate teaching of alternate, socially
appropriate behaviors.
During the find yeat, treatment goals consisted of reducing self-stimu­
latory and aggressive behaviors, building compliance to elementary ver­
bal requests, teaching imitation, establishing the beginnings of appro­
priate toy play, and promoting the extension of the treatment into the
family. The second year of treatment emphasised teaching expressive
and early abstract language and interactive play with peers. Treatment
was also extended into the community to teach children to function
within a preschool group. The third year emphasized the teaching of
appropriate and varied expression of emotions; preacademic tasks like
reading, writing, and arithmetic; and observational learning (learning
by observing other children learn). Subjects were enrolled only in those
preschools where the teacher helped to carry out the treatment pro­
gram. Considerable effort was exercised to mainstream subjects in a
normal (average and public) preschool placement and to avoid initial
placement in special education classes with the detrimental effects of
exposure to other autistic children. This occasionally entailed withhold­
ing the subject’s diagnosis of autism. Ifthe child became known as autis­
tic (or as “a very difficult child") during the first year in preschool, the
child was encouraged to enroll in another, unfamiliar school (to start
fresh). After preschool, placement in public education classes was deter­
mined by school personnel. All children who successfully completed
normal kindergarten successfully completed first grade and subsequent
normal grades. Children who were observed to be experiencing educa­
tional and psychological problems received their school placement
through Individualized Educational Plan (IEP) stallings (attended by
educators and psychologists) in accordance with the Education For All
Handicapped Children Act of 1975.
All subjects who went on to a normal first grade were reduced in
treatment from the 40 hr per week characteristic of the first 2 years to
10 hr or less per week during kindergarten. After a subject had started
first grade, the project maintained a minimal (at most) consultant rela­
tionship with some families. In two cases, this consultation and the sub­
sequent correction of problem behaviors were judged to be essential
in maintaining treatment gains. Subjects who did not recover in the
experimental group received 40 hr or more per week ofone-to-one treat­
ment for more than 6 years (more than 14,000 hr of one-to-one treat­
ment), with some improvement shown each year but with only I subject
recovering.
Subjects in Control Group 1 received the same kind of treatment as
those in the experimental group but with less intensity (less than 10
hr of one-to-one treatment per week) and without systematic physical
aversives. In addition, these subjects received a variety of treatments
from other sources in the community such as those provided by small
special education classes.
Control Group 2 consisted of 21 subjects selected from a larger group
(N - 62) of young autistic children studied by Freeman et al. (1985).
These subjects came from the same agency that diagnosed 95% of our
other subjects. Data from Control Group 2 helped to guard against the
possibility that subjects who had been referred to us for treatment con­
stituted a subgroup with particularly favorable or unfavorable out­
comes. To provide a group ofsubjects similar to those in the experimen­
tal group and Control Group 1, subjects for Control Group 2 were se­
lected if they were 42 months old or younger when first tested, had IQ
scores above 40 at intake, and had follow-up testing at 6 years of age.
These criteria resulted in the selection of 21 subjects. Subjects in Con­
trol Group 2 were treated like Control Group 1 subjects but were not
treated by the Young Autism Project described here.

Results
Pretreatment Comparisons
Eight pretreatment variables from the experimental group
and Control Group I (CA at first diagnosis, CA at onset of treat-

Pet. Reh. App.4
6

O. IVAR LOVAAS

Table 1
Means and F Ratios From Comparisons Between Groups on Intake Variables
Group

Diagnosis CA

Treatment CA

PMA

Experimental
Control I
F*

32.0

35.3
1.58

34.6
40.9
4.02*

18.8
17.1
1.49

Recognizable
words
.42
.S8

.92

Toy

Self­

play

stimulation

Sum
pathology

Abnormal
speech

28.2
20.2
2.76

12.1
19.6

6.9
6.4

2.4
2.2
.36

.82

3.37

Note. CA = chronological age; PMA = prorated mental age. Experimental group, n= 19; Control Group I ,n= 19.
*<//= 1,36.
*p<.05.

ment, PMA, sum pathology, abnormal speech, self-stimulatory
behavior, appropriate toy play, and recognizable words) were
subjected to a multivariate analysis of variance (manova;
Brecht & Woodward, 1984). The means and F ratios from this
analysts are presented in Table 1. As can be seen, there were no
significant differences between the groups except for CA at on­
set of our treatment (p < .05). Control subjects were 6 months
older on the average than experimental subjects (mean CAs of
35 months vs. 41 months, respectively). These differences prob­
ably reflect the delay of control subjects in their initiation into
the treatment project because of staff shortages; analysis will
show that differential CAs are not significantly related to out­
come. To ascertain whether another test would reveal a statisti­
cally significant difference between the groups on toy play, de­
scriptions of the subjects’ toy play (taken from the videotaped
recordings) were typed on cards and rated for their developmen­
tal level by psychology students who were naive about the pur­
pose of the ratings and subject group assignment. The ratings
were reliable among students (r - .79, p < .001), and an F test
showed no significant difference in developmental levels of toy
play between the two groups.
The respective means from the experimental group and Con­
trol Group 1 on the eight variables from the parent interview
were .89 and .74 for sensory deficit, .63 and .42 for adult rejec­
tion, .58 and .47 for no recognizable words, .53 and .63 for no
toy play, 1.0 and 1.0 for no peer (day, .95 and .89 for body self­
stimulation, .89 and .79 for tantrums, and .68 and .63 for no
toilet training. The experimental group and Control Group 1
were also similar in onset of walking (6 vs. 8 early walkers; 1 vs.
2 late walkers), number of siblings in the family (1.26 in each
group), socioeconomic status of the father (Level 49 vs. Level
54 according to 1950 Bureau of the Census standards), boys to
girls (16:3 vs. 11:8); and number of subjects referred for neuro­
logical examinations (10 vs. 15) who showed signs ofdamage (0
vs. 1). The numbers of favorable versus unfavorable prognostic
signs (directions of differences) on the pretreatment variables
divide themselves equally between the groups. In short, the two
groups appear to have been comparable at intake.

tional placement (p < .001) and IQ (p < .01). The two control
groups did not differ significantly at intake or at follow-up. In
short, data from Control Group 2 replicate those from Control
Group 1 and further validate the effectiveness of our experi­
mental treatment program. Data are given in Table 2 that show
the group means from pretreatment PMA and posttreatment
educational placement and IQ scores. The table also shows the
Fratios and significance levels of the three group comparisons.
In descriptive terms, the 19-subject experimental group
shows 9 children (47%) who successfully passed through normal first grade in a public school and obtained an average or
above average score on IQ tests (M = 107, range = 94-120).
Eight subjects (42%) passed first grade in aphasia classes and
obtained a mean IQ score within the mildly retarded range of
intellectual functioning (M - 70, range = 56-95). Only two
children (10%) were placed in classes for autistic/retarded chil­
dren and scored in the profoundly retarded range (IQ < 30).
There were substantial increases in the subjects’ levels of in­
tellectual functioning after treatment The experimental group
subjects gained on the average of 30 IQ points over Control
Group 1 subjects. Thus the number of subjects who scored
within the normal range of intellectual functioning increased
from 2 to 12, whereas the number of subjects within the moderate-to-severe range of intellectual retardation dropped from 10
to 3. As of 1986, the achievements of experimental group sub-

Follow-Up Data

Experimental x Control 1
Experimental X Control 2
Control 1 X Control 2

Table 2
Means and F Ratiosfor Measures at Pretreatment
and Posttreatment
Follow-up
Group

Intake PMA

EDP

IQ

Means
Experimental
Control I
Control 2

18.8
17.1
17.6

2.37
1.42
1.57

83.3
52.2
57.5

Fratios*
Subjects’ PMA at intake, follow-up educational placement,
and IQ scores were subjected to a manova that contrasted the
experimental group with Control Groups 1 and 2. At intake,
there were no significant differences between the experimental
group and the control groups. At follow-up, the experimental
group was significantly higher than the control groups on educa-

1.47
0.77
0.14

23.6**
17.6**
0.63

14.4**
10.4*

0.45

Note. PMA = prorated mental age; EDP ■ educational placement. Ex­
perimental group, n = 19; Control Group 1, n - 19; Control Group 2,
n-21.
mdf- 1,56.
*p<.01. **p<.00l.

Pet. Reh. App.5
7

TREATMENT OF AUTISTIC CHILDREN
Table 3
Educational Placement and Mean
and Range ofIQ at Follow-Up
Group
Experimental
N

MIQ
Range
Control Group 1
N

Recovered
9
107
94-120
0

M IQ
Range

Control Group 2
N
M IQ
Range

Aphasic

1

99

Autistic/Retarded

8

2

70
56-95

30

8
74
30-102

11
36
20-73

10

10
44

67
49-81

35-54

Mote. Dashes indicate no score or no entry.
* Both children received the same score.

jects have remained stable. Only 2 subjects have been reclassi­
fied: I subject (now 18 years old) was moved from an aphasia
to a normal classroom after the sixth grade; 1 subject (now 13
years old) was moved from an aphasia to an autistic/retarded
dass placement
The MA and IQ scores of the two control groups remained
virtually unchanged between intake and follow-up, consistent
with findings from other studies (Freeman et al., 1985; Rutter,
1970). The stability of the IQ scores of the young autistic chil­
dren, as repented in the Freeman et al. study, is particularly
relevant for the present study because it reduces the possibility
of spontaneous recovery effects. In descriptive terms, the com­
bined follow-up data from the control groups show that their
subjects fared poorly: Only I subject (2%) achieved normal
functioning as evidenced by normal first-grade placement and
an IQ of 99 on the WISC-R; 18 subjects (45%) were in aphasia
classes (mean IQ « 70, range = 30-101); and 21 subjects (53%)
were in classes for the autistic/retarded (mean IQ = 40, range 20-73). Table 3 provides a convenient descriptive summary of
the main follow-up data from the three groups.
One final control procedure subjected 4 subjects in the exper­
imental group (Ackerman, 1980) and 4 subjects in Control
Group 1 (McEachin & Leaf, 1984) to a treatment intervention
in which one component of treatment (the loud “no" and occa­
sional slap on the thigh contingent on self-stimulatory, aggres­
sive, and noncompliant behavior) was at first withheld and then
introduced experimentally. A within-subjects replication de­
sign was used across subjects, situations, and behaviors, with
baseline observations varying from 3 weeks to 2 years after
treatment had started (using contingent positive reinforcement
only). During baseline, when the contingent-aversive compo­
nent was absent, small and unstable reductions were observed
in the large amount of inappropriate behaviors, and similar
small and unstable increases were observed in appropriate be­
haviors such as play and language. These changes were insuffi­
cient to allow for the subjects’ successful mainstreaming. Intro­
duction of contingent aversives resulted in a sudden and stable
reduction in the inappropriate behaviors and a sudden and sta­
ble increase in appropriate behaviors. This experimental inter­
vention helps to establish two points: First, at least one compo-

nent in the treatment program functioned to produce change,
which helps to reduce the effect of placebo variables. Second,
this treatment component affected both the experimental and
control groups in a similar manner, supporting the assumption
that the two groups contained similar subjects.
Analyses of variance were carried out on the eight pretreat­
ment variables to determine which variables, if any, were sig­
nificantly related to outcome (gauged by educational placement
and IQ) in the experimental group and Control Group 1. Pro­
rated mental age was significantly (p < .03) related to outcome
in both groups, a finding that is consistent with reports from
other investigators (DeMyer et al., 1981). In addition, abnormal
speech was significantly (p < .01) related to outcome in Control
Group 1. Chronological age at onset of our treatment was not
related to outcome, which is important because the two groups
differed significantly on this variable at intake (by 6 months).
The failure ofCA to relate to outcome may be based on the very
young age of all subjects at onset of treatment
Conceivably, a linear combination of pretreatment variables
could have predicted outcome in the experimental group. Using
a discriminant analysis (Ray, 1982) with the eight variables
used in the first multivariate analysis, it was possible to predict
perfectly the 9 subjects who did achieve normal functioning,
and no subject was predicted to achieve this outcome who did
not In this analysis, PMA was the only variable that was sig­
nificantly related to outcome. Finally, when this prediction
equation was applied to Control Group 1 subjects, 8 were pre­
dicted to achieve normal functioning with intensive treatment;this further verifies the similarity between the experimental
group and Control Group 1 prior to treatment.
Discussion
This article reports the results of intensive behavioral treat­
ment for young autistic children. Pretreatment measures re­
vealed no significant differences between the intensively treated
experimental group and the minimally treated control groups.
At follow-up, experimental group subjects did significantly betterthan control group subjects. For example, 47% of the experi­
mental group achieved normal intellectual and educational
functioning in contrast to only 2% of the control group subjects.
The study incorporated certain methodological features de­
signed to increase confidence in the effectiveness of the experi­
mental group treatment:
1. Pretreatment differences between the experimental and
control groups were minimized in four ways. First, the assign­
ment of subjects to groups was as random as was ethically possi­
ble. The assignment apparently produced unbiased groups as
evidenced by similar scores on the 20 pretreatment measures
and by the prediction that an equal number of Control Group
1 and experimental group subjects would have achieved normal
functioning had the former subjects received intensive treat­
ment. Second, the experimental group was not biased by receiv­
ing subjects with a favorable diagnosis or biased IQ testing be­
cause both diagnosis and IQ tests were constant across groups.
Third, the referral process did not favor the project cases be­
cause there were no significant differences between Control
Groups 1 and 2 at intake or follow-up, even though Control
Group 2 subjects were referred to others by the same agency.

Pet. Reh. App.6
8

Q IVAR LOVAAS

Fourth, subjects stayed within their groups, which preserved the
original (unbiased) group assignment.
2. A favorable outcome could have been caused not by the
experimental treatment but by the attitudes and expectations
of the staff. There are two findings that contradict this possibil­
ity of treatment agency (placebo) effects. First, because Control
Group 2 subjects had no contact with the project, and because
there was no difference between Control Groups 1 and 2 at fol­
low-up, placebo effects appear implausible. Second, die withinsubjects study showed that at least one treatment component
contributed to the favorable outcome in the intensive treatment
(experimental) group.
3. It may be argued that the treatment worked because the
subjects were not truly autistic. This is counterindicated by the
high reliability of the independent diagnosis and by the out­
come data from the control groups, which are consistent with
those reported by other investigators (Brown, 1969; DeMeyer
et al., 1973; Eisenberg, 1956; Freeman et al„ 1985; Havelkova,
1968; Rutter, 1970) for groups of young autistic children diag­
nosed by a variety of other agencies.
4. The spontaneous recovery rate among very young autistic
children is unknown, and without a control group the favorable
outcome in the experimental group could have been attributed
to spontaneous recovery. However, the poor outcome in the sim­
ilarly constituted Control Groups 1 and 2 would seem to elimi­
nate spontaneous recovery as a contributing factor to the favor­
able outcome in the experimental group. The stability ofthe IQ
test semes in the young autistic children examined by Freeman
et al. (1985) attests once again to the chronicity of autistic be­
haviors and serves to further negate the effects of spontaneous
recovery.
5. Posttreatment data showed that the effects of treatment
(a) were substantial and easily detected, (b) were apparent on
comprehensive, objective, and socially meaningful variables
(IQ and school placement), and (c) were consistent with a very
large body of prior research on the application of learning the­
ory to the treatment and education ofdevelopmentally disabled
persons and with the very extensive (100-year-old) history of
psychology laboratory work on learning processes in man and
animals. In short, the favorable outcome reported for the inten­
sive-treatment experimental group can in all likelihood be at­
tributed to treatment.
A number of measurement problems remain to be solved.
For example, play, communicative speech, and IQ scores define
the characteristics of autistic children and are considered pre­
dictors of outcome. Yet the measurement of these variables is
no easy task. Consider play. First, play undoubtedly varies with
the kinds of toys provided. Second, it is difficult to distinguish
low levels of toy play (simple and repetitive play associated with
young, normal children) from high levels of self-stimulatory be­
havior (a psychotic attribute associated with autistic children).
Such problems introduce variability that needs immediate at­
tention before research can proceed in a meaningful manna;.
The term normalfunctioning has been used to describe chil­
dren who successfully passed normal first grade and achieved an
average IQ on the WISC-R. But questions can be asked about
whether these children truly recovered from autism. On the one
hand, educational placement is a particularly valuable measure
of progress because it is sensitive to both educational accom­
plishments and social-emotional functions. Also, continual

promotion from grade to grade is made not by one particular
teacher but by several teachers. School personnel describe these
children as indistinguishable from their normal friends. On the
other hand, certain residual deficits may remain in the normal
functioning group that cannot be detected by teachers and par­
ents and can only be isolated on closer psychological assess­
ment, particularly as these children grow older. Answers to such
questions will soon be forthcoming in a more comprehensive
follow-up (McEachin, 1987).
Several questions about treatment remain. It is unlikely that
a therapist or investigator could replicate our treatment pro­
gram for the experimental group without prior extensive theo­
retical and supervised practical experience in one-to-one be­
havioral treatment with developmentally disabled clients as de­
scribed here and without demonstrated effectiveness in teaching
complex behavioral repertoires as in imitative behavior and ab­
stract language. In the within-subjects studies that were re­
ported, contingent aversives were isolated as one significant
variable. It is therefore unlikely that treatment effects could be
replicated without this component. Many treatment variables
are left unexplored, such as the effect of normal peers. Further­
more, the successful mainstreaming of a 2-4-year-old into a
normal preschool group is much easier than the mainstreaming
ofan older autistic child into the primary grades. This last point
underscores the importance of early intervention and places
limits on the generalization of our data to older autistic chil­
dren.
Historically, psychodynamic theory has maintained a strong
influence on research and treatment with autistic children,
offering some hope for recovery through experiential manipula­
tions. By the mid-1960s, an increasing number of studies re­
ported that psychodynamic practitioners were unable to deliver
on that promise (Rimland, 1964). One reaction to those failures
was an emphasis on organic theories ofautism that offered little
or no hope for major improvements through psychological and
educational interventions. In a comprehensive review of re­
search on autism, DeMyer et al. (1981) concluded that “[in the
past] psychotic children were believed to be potentially capable
of normal functioning in virtually all areas of development. . .
during the decade of the 1970s it was the rare investigator who
even gave lip-service to such previously held notions. . .infan­
tile autism is a type of developmental disorder accompanied by
severe and, to a large extent, permanent intellectual/behavioral
deficits” (p.432).
The following points can now be made. First, at least two
distinctively different groups emerged from the follow-up data
in the experimental group. Perhaps this finding implies differ­
ent etiologies. If so, future theories of autism will have to iden­
tify these groups of children. Second, on the basis of testing to
date, the recovered children show no permanent intellectual or
behavioral deficits and their language appears normal, contrary
to the position that many have postulated (Rutter, 1974; Chur­
chill, 1978) but consistent with Kanner’s (1943) position that
autistic children possess potentially normal or superior intelli­
gence. Third, at intake, all subjects evidenced deficiencies
across a wide range of behaviors, and during treatment they
showed a broad improvement across all observed behaviors.
The kind of (hypothesized) neural damage that mediates a par­
ticular kind of behavior, such as language (Rutter, 1974), is not
consistent with these data.

Pet. Reh. App.7
TREATMENT OF AUTISTIC CHILDREN
Ahhough serious problems remain for exactly defining au­
tism or identifying its etiology, one encouraging conclusion can
be stated: Given a group of children who show the kinds of be­
havioral deficits and excesses evident in our pretreatment mea­
sures, such children will continue to manifest similar severe
psychological handicaps later in life unless subjected to inten­
sive behavioral treatment that can indeed significantly alter that
outcome.
These data promise a major reduction in the emotional hard­
ships of families with autistic children. The treatment proce­
dures described here may also prove equally effective with other
childhood disorders, such as childhood schizophrenia. Certain
important, practical implications in these findings may also be
noted. The treatment schedule ofsubjects who achieved normal
functioning could be reduced from 40 hr per week to infrequent
visits even after the first 2 years of treatment. The assignment
of one full-time special-education teacher for 2 years would cost
an estimated $40,000, in contrast to the nearly $2 million in­
curred (in direct costs alone) by each client requiring life-long
institutionalization.

References
Ackerman, A. B. (1980). The contribution ofpunishment to the treat­
ment ofpreschool aged children. Unpublished doctoral dissertation,
University of California, Los Angeles.
American Psychiatric Association. (1980). Diagnostic and statistical
manual of mental disorders (3rd ed.). Washington, DC: Author.
Bayley, N. (1955). On the growth ofintelligence. American Psychologist,
10.805-818.
Brecht, M. L., & Woodward, J. A. (1984). ganova: A univariate/multi­
variate analysis ofvariance program for the personal computer. Edu­
cational and Psychological Measurement, 44,169-173.
Brown, J. (1969). Adolescent development of children with infantile
psychosis. Seminars in Psychiatry 1,79-89.
CatteU, P. (1960). The measurement ofintelligence ofinfants and young
children. New M>rk: Psychological Corporation.
Churchill, D. W. (1978). Language: The problem beyond conditioning.
In M. Rutter & E. Schopler (Eds.), Autism: A reappraisal ofconcepts
and treatment (pp. 71-85). New York: Plenum.
DeMyer, M. K., Barton, S., DeMyer, W. E., Norton, J. A., Allen, J., &
Steele, R. (1973). Prognosis in autism: A follow-up study. Journal of
Autism and Childhood Schizophrenia, 3.199-246.
DeMyer, M. K., Hingtgen, J. N., & Jackson, R. K. (1981). Infantile
autism reviewed: A decade of research. Schizophrenia Bulletin. 7.
388-451.
Doll, E. A. (1953). The measurement ofsocial competence. Minneapo­
lis, MN: Minneapolis Educational Test Bureau.
Dunn, L. M. (1981). Peabody Picture Vocabulary Test. Circle River,
MI: American Guidance Service.

9

Education for All Handicapped Children Act of 197S. Washington, DC:
Congressional Record.
Eisenberg, L. (1956). The autistic child in adolescence. American Jour­
nal ofPsychiatry, 112.607-612.
Freeman, B. J., Ritvo, E. R„ Needleman, R„ & Yokota, A. (1985). The
stability of cognitive and linguistic parameters in autism: A 5-year
study. Journal ofthe American Academy ofChild Psychiatry. 24,290311.
Gesell, A. (1949). Gesetl Developmental Schedules. New York: Psycho­
logical Corporation.
Havelkova, M. (1968). Follow-up study of71 children diagnosed as psy­
chotic in preschool age. American Journal of Orthopsychiatry. 38,
846-857.
Kanner, L. (1943). Autistic disturbances of affective contact. Nervous
Child, 2, 217-250.
Leiter, R. G. (1959). Part I of the manual for the 1948 revision of the
Leiter International Performance Scale: Evidence of the reliability
and validity of the Leiter tests. Psychology Service Center Journal.
II. 1-72.
Lotter, V. (1967). Epidemiology ofautistic conditions in young children:
II. Some characteristics of the parents and children. Social Psychia­
try, l, 163-173.
Lovaas, Q. 1., Ackerman, A. B., Alexander, D.. Firestone. P.. Perkins, J.,
& Young, D. (1980). Teaching developmentaliy disabled children:
The me book. Austin. TX: Pro-Ed.
Lovaas, O. I., Koegel. R. L.. Simmons, J. Q., & Long, 7. (1973). Some
generalization and follow-up measures on autistic children in behavior therapy. Journal ofApplied Behavior A nalysis, 6. 131-166.
McEachin, J, J. (1987). Outcome ofautistic children receiving intensive
behavioral treatment: Residual deficits. Unpublished doctoral disser­
tation, University of California, Los Angeles.
McEachin, J. J„ & Leaf, R. B. (1984, May). The role ofpunishment in
motivation ofautistic children. Paper presented at the convention of
the Association for Behavior Analysis, Nashville, TN.
Ray, A. A. (1982). Statistical Analysis System user's guide: Statistics,
1982 edition. Cary, NC: SAS Institute.
Rimland, B. (1964). Infantile autism. New York: Appleton-CenturyCrofts.
Rutter, M. (1970). Autistic children: Infancy to adulthood. Seminars in
Psychiatry 2.435-450.
Rutter, M. (1974). The development of infantile autism. Psychological
Medicine, 4, 147-163.
Stutsman, R. (1948). Guidefor administering the Merrill-Palmer Scale
ofMental Tests. New York: Harcourt, Brace & World.
Thorndike, R. L. (1972). Manualfor Stanford-Binet Intelligence Scale.
Boston: Houghton Mifflin.
Wechsler, D. (1967). Manualfor the Wechsler Pre-School and Primary
Scale ofIntelligence. New York: Psychological Corporation.
Wechsler, D. (1974). Manual for the Wechsler Intelligence Scale for
Children-Revtsed. New York: Psychological Corporation.
Received October 10, 1985
Revision received March 28,1986 ■

Pet. Reh. App.8

A mtrican Journal on Mental Retardation
im. Vol. 97. No. 4, 359-372
© 1993 American Association on Mental Retardation

Long-Term Outcome for
Children With Autism Who
Received Early Intensive
Behavioral Treatment

John J. McEachln, Tristram Smith, and O. Ivar
Lovaas
Univenity of California. Los Angeles

After a very intensive behavioral intervention, an experimental group of 19
preschool-age children with autism achieved less restrictive school placements and
higher IQs than did a control group of 19 similar children by age 7 (Lovaas,
1987). The present study followed-up thisfinding by assessing subjects at a mean
age of 11.5 years. Results showed that the experimental group preserved its gains
over the control group. The 9 experimental subjects who had achieved the best
outcomes at age 7 received particularly extensive evaluations indicating that 8 of
them were indistinguishable from average children on tests of intelligence and
adaptive behavior. Thus, behavioral treatment may produce long-lasting and
significant gainsfor many young children with autism.

Infantile autism is a condition
marked by severe impairment in intellectual,
social, and emotional functioning. Its onset
occurs in infancy, and the prognosis appears
This Study was supported by Grant No. MH11440 from the National Institute of Mental Health,
The study was based on a dissertation submitted
to the University of California, Los Angeles,
Department of Psychology, in partial fulfillment
of the requirements for the doctoral degree. The
authors express their deep appreciation to the
many students at UCLA who served as therapists
and helped to make this study possible. Special
thanks to Bruce Baker and Duane Buhrmester,
who helped in the design of this study. Requests
for reprints of this article, copies of the Clinical
Rating Scale, or additional information about this
study should be sent to O. Ivar Lovaas, 405
Hilgard Ave., UCLA, Department of Psychology,
Los Angeles, CA 90024-1563.

McEachin, Smith, and Lovaas

J

to be extremely poor (Lotter, 1978). For
example, in the longest prospective followup study with a sound methodological design, Rutter (1970) found that only 1 of 64
subjects with autism (fewer than 2%) could
be considered free of clinically significant
problems by adulthood, as evidenced by
holding a job, living independently, and
maintaining an active and age-appropriate
sodal life. The remaining subjects showed
numerous dysfunctions, such as marked
oddities in behavior, social isolation, and
florid psychopathology. The majority of sub­
jects required supervised living conditions.
Professionals have attempted a wide
...
, ,
tntcrventions in an effort to help
children with autism. For many yeais, no
scientific evidence showed that any of these
interventions brightened the children’s long­
term prognosis (DeMyer et al., 1981). How-

359

m

Pet. Reh. App.9

V

1

I

I
1

ever, since the 1960s, one of these interven­
tions, behavioral treatment, has appeared
promising. Behavioral treatment has been
found to increase adaptive behaviors such as
language and social skills, while decreasing
disruptive behaviors such as aggression
(DeMyer, Hingtgen, &Jackson, 1981; Newsom
& Rincover, 1989; Rutter, 1985). Further­
more, behavioral treatment has been con­
tinuously refined and improved as a result of
ongoing research efforts at a number of sites
OLovaas & Smith, 1988).
Some recent evidence has indicated
that behavioral treatment has developed to
the point that it can produce substantial
improvements in the overall functioning of
young children with autism (Simeonnson,
Olley, & Rosenthal, 1987). Lovaas (1987)
provided approximately 40 hours per week
of one-on-one behavioral treatment for a
period of 2 years or more to an experimental
group of 19. children with autism who were
under 4 years of age. This intervention also
included parent training and mainstreaming
into regular preschool environments. When
re-evaluated at a mean age of 7 years, sub­
jects in the experimental group had gained
an average of 20 IQ points and had made
major advances in educational achievement
Nine of the 19 subjects completed first grade
in regular (nonspecial education) classes
entirely on their own and had IQs that
increased to the average range. By contrast,
two control groups totalling 40 children, also
diagnosed as autistic and comparable to the
experimental group at intake, did not fare
nearly as well. Only one of the control
subjects (2.5%) attained normal levels of
intellectual and educational functioning.
These data suggest that behavioral treat­
ment is effective. However, the durability of
treatment gains is uncertain. In one prior
major study, Lovaas, Koegel, Simmons, and
Long (1973) found that children with autism
regressed following the termination of treat­
ment Other studies have shown that chil­
dren with autism may display increased dif­
ficulties when they enter adolescence
(Kanner, 1971; Waterhouse & Fein, 1984).
360

Also, as was stated in the first follow-up
(Lovaas, 1987), “Certain residual deficits may
remain in the normal-functioning group that
cannot be detected by teachers and parents
and can only be isolated on closer psycho­
logical assessment, particularly as these chil­
dren grow older* (p. 8). This possibility
points to the need for a more detailed assess­
ment and for continued follow-ups of the
group over time.
The present investigation contained two
parts: In the first part we examined whether
several years after the evaluation at age 7, the
experimental group in Lovaas's (1987) study
had maintained its treatment gains. Subjects
in the experimental group and one of the
control groups completed standardized tests
of intellectual and adaptive functioning. The
groups were then contrasted with each other,
and their current performance was compared to their performance on previous as­
sessments. The second part of the investiga­
tion focused on those subjects who had
achieved the best outcome at the end of first
grade in the Lovaas (1987) study (i.e„ the 9
subjects who were classified ais normal func­
tioning out of the 19 in the experimental
group). We examined the extent to which
these best-outcome subjects could be considered free of autistic symptomatology. A
test battery was constructed to assess a
variety of possible deficits: for example,
idiosyncratic thought patterns, mannerisms,
and interests; lack of close relationships with
family and friends; difficulty in getting along
with people; relative weaknesses in certain
areas of cognitive functioning, such as ab­
stract reasoning; not working up to ability in
school; flatness of affect; absence or pecu­
liarity in sense of humor. Possible strengths
to be identified included normal intellectual
functioning, good relationships with family
members, ability to function independendy,
appropriate use of leisure time, and ad­
equate socialization with peers. Numerous
methodological precautions were taken to
ensure objectivity of the follow-up examina­
tion.

Autism and Early Intervention

a

Pet. Reh. App.10

Method
Subjects and Background

4

"

4
4
1

?

n

Characteristics of the subjects and their
treatment have been described elsewhere
(Lovaas, 1987) and will only be summarized
here. The initial treatment study contained
38 children who, at the time of intake, were
very young (less than 40 months if mute, less
than 46 months if echolalic) and had re­
ceived a diagnosis of autism from a licensed
clinical psychologist or psychiatrist not in­
volved in the study. These 38 subjects were
divided into an experimental group and a
control group. The assignment to groups
was made on the basis of staff availability. At
the beginning of each academic quarter,
treatment teams were formed. The clinic
director and staff members then determined
whether any opening existed for intensive
treatment If so, the next referral received
would enter the experimental group; other­
wise, the subject entered the control group.
The experimental group contained 19 chil­
dren who received 40 or more hours per
week of one-to-one behavioral treatment for
2 or more years. The control group was
comprised of 19 children who received a
much less intensive intervention (10 hours a
week or less of one-to-one behavioral treat­
ment in addition to a variety of treatments
provided by community agencies, such as
parent training or special education classes).
The initial study also included a second
control group, consisting of 21 children with
autism who were followed over time by a
nearby agency but who were never referred
for this study. However, these 21 subjects
were not available for the present investiga­
tion. On standardized measures of intelli­
gence, the second control group did not
differ from either the experimental group or
the first control group at intake, nor did it
differ from the first control group when
evaluated again when the subjects were 7
years old. These findings suggest that, as
measured by standardized tests, (a) the chil­
dren with autism who were referred to us for

treatment were comparable to children with
autism seen elsewhere and (b) the minimal
treatment provided to the first control group
did not alter intellectual functioning.
Statistical analysis of an extensive range
of pretreatment measures confirmed that the
experimental group and control group were
comparable at intake and closely matched on
such important variables as IQ and severity
of disturbance. The mean chronological age
(CA) at diagnosis for subjects in the experi­
mental group was 32 months. Their mean IQ
was 53 (range 30 to 82; all IQs are given as
deviation scores). The mean CA of subjects
in the control group was 35 months; their
mean IQ was 46 (range 30 to 80). Most of the
subjects were mute, all had gross deficien­
cies in receptive language, none played with
peers or showed age-appropriate toy play,
all were emotionally withdrawn, most had
severe tantrums, and all showed extensive
ritualistic and stereotyped (self-stimulatory)
behaviors. Thus, they appeared to be a
representative sample of children with au­
tism (Lovaas, Smith, & McEachin, 1989). A
more complete presentation of die intake
data was reported by Lovaas (1987).
The children in the experimental group
and control group received their respective
treatments from trained student therapists
who worked in the child's home. The parents
also worked with their child, and they re­
ceived extensive instruction and supervision
on appropriate treatment techniques. When­
ever possible, the children were integrated
into regular preschools. The treatment fo­
cused primarily on developing language,
increasing social behavior, and promoting
cooperative play with peers along with inde­
pendent and appropriate toy play. Concur­
rently, substantial efforts were directed at
decreasing excessive rituals, tantrums, and
aggressive behavior. (For a more detailed
description of the intervention program, see
the treatment manual (Lovaas et al., 1980] and
instructional videotapes that supplement the
manual (Lovaas & Leaf, 19811.)
At the time of the present follow-up
(1984-1985), the mean CA of the experimen-

A
McEachin, Smith, and Lovaas

361

Pet. Reh. App.11

l! f.
m
•. ■

*

•*’

: ■ *

■■

■.*;

•

.....

,.
i*

■ H

M.

■;r-

■M

I

r?'\

giif y*

■>

i ■

-

fi

%'■

ft.

'V:
fz

■r!

* $ fi

l

a **

■s
./

C* -■>

‘i 'r&'>

i-

*

w

‘

f

ISm **
n

>V

I

IP

. •*-'
r* 5'* d
*

tal group children was 13 years (range ° 9 to
19 yeare). AU children who had achieved
normal ftmctionmg by the age of 7 yeans had
ended treatment by that pomt (NormalJunetioningvras operauonally defined as scoring
within the normal range on standardized
intelligence tests and successfully completing first grade in a regular, nonspedal education dass entirely on one’s own.) On the
other hand, some of the children who had
not achieved normal functioning at 7 years of
age had, at the request of their parents,
remained in treatment. The length of time
that experimental subjects had been out of
treatment ranged from 0 to 12 years (mean5)i with the normal-functioning children
having been out for 3 to 9 years (mean-$).
The mean age of subjects in the control
group was 10 years (range 6 to 14). The
length of time that these children had been
out of treatment ranged from 0 to 9 years
(mean - 3). Thus, experimental subjects
tended to be older and had been out of
treatment longer than had control subjects,
This difference in age occurred because the
first referrals for the study were all assigned
to the experimental group due to the fact that
referrals came slowly (7 in the first 3.5 years)
and therapists were available to treat all of
them. (As noted earlier, subjects were assigned to the experimental group if therapists were available to treat them; otherwise,
they entered the control group.)
Statistical analyses were conducted to
test whether a bias resulted from the tendency for the first referrals to go into the
experimental group. For example, it is conceivable that the first referrals could have
been higher functioning at intake or could
have had a better prognosis than subsequent
referrals. If so, the subject assignment procedure could have favored the experimental
group. To assess this possibility, we correlated the order of referral with intake IQ and
with IQ at the first follow-up (age 7 years),
Pearson correlations were computed across
both groups and within each group. These
analyses indicated that the order in which
subjects were referred was not associated

362

with intake IQ or outcome IQ. Consequei
although thetendencyforthefustreferra
enter the experimental group created a
tential bias, the data indicate that this
unlikely,
Procedure
The assessment procedure indu
ascertaining school placement and admi
tering three standardized tests. Informal
on school placement was obtained fi
subjects’ parents, who classified then:
being in either a regular or a special edi
tion dass (e.g., a
for children ^
autism or mental retardation, language
lays, multihandicaps, or learning disal
ties). The three standardized tests wer<
follows:
1. Intelligence test. The Wechsler In
ligence Scale for Children-Revised (Wechi
1974) was administered when subjects w
able to provide verbal responses. This
eluded all 9 best-outcome experimental s
jects plus 8 of the remaining 10 experimei
subjects and 6 of the 19 control subjects,
subjects who were not able to provide vei
responses, the Leiter International Per
mance Scale (Leiter, 1959) and the Peatx
Picture Vocabulary Test-Revised (Dunn, 19
were administered. All of these tests h
been widely used for the assessment
intellectual functioning in children with
tism (Short & Marcus, 1986).
2. The Vineland Adaptive Bebat
Scales (Sparrow, Balia, & Cicchetti, 191
The Vineland is a structured interview
ministered to parents assessing the ext
to which their child exhibits behaviors t
are needed to cope effectively with
everyday environment,
3. Tbe Personality Inventory for C
dren (Wirt, Lachar, Klinedinst, & Seat, \91
This measure is a 600-item true-false qu
tionnaire filled out by parents that
the extent to which their children sh
various forms of psychological disturbar
(e.g., anxiety, depression, hyperactivity, a
psychotic behavior).

Autiam and Earty Intervent

Pet. Reh. App.12

These three tests were intended to provide a comprehensive evaluation of intellectual, social, and emotional functioning. All of
the tests have been standardized on average
populations. Hence, they provide an objeclive basis for comparing subjects to children
without handicaps across the various areas
that they assess.
Data were obtained on all subjects except one girl in the control group, who was
known to be institutionalized and functioning very poorly. The 9 best-outcome subjects
(those who had been classified as normal
functioning at age 7) received particularly
extensive evaluations, as outlined later. Of
the 28 remaining subjects, 17 were evaluated
by staff members in our treatment program,
and 11 received evaluations from outside
agencies such as schools or psychology
clinics. (In some cases, the outside agencies
did not administer all of the measures in this
battery.)
Evaluation of Best-Outcome Subjects,
To ensure objectivity in the evaluation of the
best-outcome subjects, we arranged forblind
administration and scoring of ail tests for
these subjects as follows. A psychologist not
associated with the study recruited advanced
graduate students in clinical psychology to
administer the tests. The examiners were not
familiar with the history of the children, and
the psychologist told them simply that the
tesdng was part of a research study on
assessment of children. The psychologist
advised them that the nature of the study
necessitated providing only certain standard
background information: age, school placement and grade, and parent's name and
phone number. To increase the heterogeneity of the sample and to control for any
examiner bias, each examiner also tested
one or more subjects who were matched in
age to the experimental subjects and had no
history of behavioral disturbance. The examiners were randomly assigned an approximately equal number of subjects for testing
in the experimental group and the comparison group. Two experimental subjects were
not living in the local area. Therefore, for

McEachin, Smith, and Lovaaa

fo >;

each of them, the psychologist recruited a
tester from the subject’s hometown area as
well as an age-matched control subject, and
data were collected as just described. In
addition, the child’s examiner filled out a
clinical rating scale following a structured
interview that covered a list cf standard
topics, including friendships, family relations, and school and community activities,
The interview was designed both for elidting content and for sampling interpersonal
style. The rating scale consisted of 22 items,
each scored 0 (best clinical status) to 3
(marked deviance) points. The items were
designed to include likely areas of difficulty
for children with autism of average intelligence (e.g., compulsive or ritualistic behavior, empathy for and interest in others, a
sense of humor) as well as areas of potential
difficulty for the general child population
(e.g., depressed mood, anxiety, hyperactiv­
ity). (The complete scale and a copy of
instructions for the clinical interview can be
obtained by writing to the third author),
Results
Experimental Versus Control Group
This first section examines the overall
effects of treatment through comparison of
the follow-up data.from the 19 subjects who
received the intensive (experimental) treatment to the data from those who received the
minimal (control) treatment Data were obtained from all subjects on school placement
and from all but one subject in the control
group on IQ. On the Vineland, scores were
obtained for 18 of 19 experimental subjects
and 15 of 19 control subjects. The lowest
availability of follow-up scores was on the
Personality Inventory forChildren,with scores
for 15 experimental subjects and 12 control
subjects.
The subjects in the control group who
had Personality Inventory forChildren scores
did not appear to differ from subjects who
were missing these scores, as compared on
363

Pet. Reh. App.13

•<P*

yearsokT ^/io'in'thVn mtake
*mrnm

»■ t

was not evaluated. To check whether Project Tabl*1
l
staff members were biased in their evaluaandSDs by Qrpup and Measur^
mm
tions or in their selccttonof which subjects ~~— " ^
Group
to evaluate, we used t tests to compare
subjects they evaluated to those evaluated
Experimental
Coni
Measure
by outside agencies on intake IQ, IQ at age —
Mean
SO
Mean
7 years, and IQ in the present study. No IQ
84.5
32.4
significant differences between subjects
i
S.1
26.4
evaluated by Projectstaffmembersand those
oaiiy Living skins
73.1
26.9
evaluated by outside agencies were found
Socialization
75.5
26.6
School Placement. In the experimental Ac^ehaV‘°r
716 26a
group, 1 of the 9 subjects from the best- Maladaptive Behavior 106
82

£ nI
4

\W

■1
b■
rj..

i
Ii

STafLTnwM“ ■TT* a

fi".

ciass at age 7 (J. L.) was now in a special
education class. However, 1 of the other 10
subjects had gone from a special education
class to a regular class and was enrolled in a

i
L fi

i

CS
?1:
\l-

Scales > 70
"■*

61.8
4.0

10.2
3.9

Vineland Adaptive Behavior Scale. “Pefionaltv'invtmi
for Children.
x**«*«»|

not changed their classification. Overall, then| 00^
72
the proportion of exoerimental cnhirwc
P0811® score was 72 in the expenmdf
regular classes did nJTchange from th?age SSmr^for rh*6 “"‘T* 8T°YP‘ <1
7 evaluation (9 of 19, or 47%). In the control EStolOO
group, none of the 19 children were in a
deviation tl
regular class, as had been true at the age 7
i ^
evaluation. The difference in classroom dace- l^S yi,LlVln^, fn?1SoClah2ation—
It
ment between the experimental group and
the control group was statistically sjgnifirant
between thc groupsandi,
X*0, N- 38)- 19.05,p< .05. * ^
,ndfeaUn®$
Intellectual Functioning The test srorpc SC0SS ^
‘^bscales^ the experiment

m

i
m

I
■m
3

\wi

T

I

;■

■<;

of 83and'

=“ft2asSS! ^=&='sc'7“c,,”'l

$1%*'

V

^groupatage7^mean

'*

Hl-'.H! .is

Sfel

^ at 7

i
i.=ti.

.■.■if

:■?
l£m

I
m
m

life
A

i

iw

s 1I

ton did to comSgroup ffi dSS

Iif

^^RZSSSsr5
—,—. v.,
... U1C tuniroi
Qia

m
1 a•?
m
IM

m
w% »s
M.3 L-

m

m

1

I:

well. The scores were similar to those ob!
etod by to experimental gronp ,„d eo„.

»J5ET

“f- ®cnr=d|

-'"—--“•■-■"I

ll10’ W! and 10 or above, at 14 yeas
ih^extSm^f
finJn8s .“whale tin!
toSCS.";iB,'SZCb3S:

%
364
Autmm and Early Inlervnnlrsjl

1

Pet. Reh. App.14

iors than did the control group.
Personality Functioning, Scores for the
experimental group and control group did
not differ on overall scale elevation, with
mean {scores of 62 and 65, respectively. (On
this test, the mean t score for the general
population is approximately 50 [5D = 101.) T
scores above 60 are considered indicative of
possible or mild deviance, whereas / scores
above 70 are viewed as suggesting a clini­
cally significant problem, namely, one that
may require professional attention. There
was a significant interaction between the
groups and the individual scales on this test,
F(15, 390) ” 2.36, p < .01. Results of the
Tukey test indicated that the most reliable
difference between groups occurred on the
Psychosis scale, on which the experimental
subjects had a mean of 78 and the control
subjects had a mean of 104, 7(1, 26) =* 8.53,
p < .01. Seven subjects in the experimental
groupscored in the dinically preferred range
(below 70), whereas no subjects in the con­
trol group scored that low. Only one other
scale showed a significant difference, So­
matic Concerns, 7(1,26) - 4.60,p< .05. The
control subjects tended to display a below
average level ofsomatic complaints (mean of
45 as compared to 54 for the experimental
subjects).
Best-Outcome Versus Nondinical
Comparison Group
A (test indicated no significant differ­
ence in age between the best-outcome group
and the comparison group of children with­
out a history of clinically significant behav­
ioral disturbance. Subjects in the best-out­
come group had a mean age of 12.42 years
(range 10.0 to 16.25) versus 12.92 years
(range 9.0 to 15.17) for the nondinical com­
parison group. Scores on the WISC-R and
dinical rating scale were obtained for all
subjects; 1 experimental subject and 2
nondinical comparison subjects were miss­
ing Vineland scores, and 2 experimental
subjects and 1 nondinical comparison sub­
ject were missing Personality Inventory for

McEachin, Smith, and Lovaaa
v

r

Children scores. Both the Vineland and Per­
sonality Inventory for Children were com­
pleted by parents. In cases where these
scores were not obtained, the parents had
declined to participate.
On the measures that provide standard­
ized scores, the functioning of the bestoutcome subjects was measured most pre­
cisely by comparing the best-outcome group
against the test norms. Therefore, this analy­
sis is of primary interest. Data for the
nondinical comparison group are mainly
useful in confirming that the assessment
procedures were valid and in providing a
contrast group for the one measure without
norms, the Clinical Rating Scale. For the
nondinical comparison group, it will suffice
to summarize the results as follows: On the
W1SC-R this group had mean IQs of 116
Verbal, 118 Performance, arid 119 Full-Scale.
On the Vineland the group obtained mean
standard scores of 102 Communication, 100
Daily Living Skills, 102 Sodalization, and 101
Composite. The mean scale score on the
Personality Inventory for Children was 49.
Thus, the nondinical comparison group dis­
played above-average or average function­
ing across all areas that were assessed.
The next section is focused on the
functioning of the best-outcome group on
IQ, adaptive and maladaptive behavior, and
personality measures and contrasts the bestoutcome subjects with the comparison sub­
jects on the Clinical Rating Scale.
Intellectual Functioning. Table 2 pre­
sents the IQ data for each subject in the bestoutcome group and the mean scores for the
group. This table shows that, as a whole, the
9 best-outcome subjects performed well on
the WISC-R. Their IQs placed them in the
high end of the normal range, about two
thirds of an SD above the mean. Their FullScale IQs ranged from 99 to 136.
Subjects' scores were evenly distributed
across a range from 80 to 125 on Verbal IQ
and from 88 to 138 ion Performance IQ. The
subjects averaged 3 points higher on Perfor­
mance IQ than Verbal IQ. Two of them (J. L
and A. G.) had at least a 20-point difference

365

Pet. Reh. App.15

*'KmtpT

p

"* i- **»

•mw:!W

r&zaxayrmZTii'S*’’

ZM&Z

-=

^ssppwipi^ii.
lil
Note. Infrm = Information, Simil - SimHaritieu, Arith=Arithmetic.Vocab = Vocabulary, Compr=Comprehension,
PicC = Picture Completion, PicA = Picture Arrangement, BlkD = Block Design, ObiA = Object Assembly, Cod
= Coding, VIQ = Verbal IQ, PIQ = Performance IQ, and Full = Full-Scale IQ.

between Veibal and Performance IQ.
On each subtest of the WISC-R, the
mean for the general population is 10 (JSD =
3). It can be seen from Table 2 that the bestoutcome subjects scored highest on Similarities, Block Design, and Object Assembly,
They scored lowest.on Picture Arrangement
and Arithmetic. Thus, the subjects consistently scored at or above average.
Adaptive and Maladaptive Behavior,
Table 3 presents the data for the best-outcome group on the Vineland Adaptive Behavior Scales. It can be seen that the bestoutcome group scored about average on the
Composite Scale and on the subscales for
Communication, Daily living, and Sodalization. However, Table 3 shows that some of
the best-outcome subjects had marginal
scores, including J. L., B. W., and M. M. Even
so, all of the best-outcome subjects had
Composite scores within the normal range.
As can be seen in Table 3, on the
Maladaptive Behavior Scale (Parts I and n),
the mean score for the best-outcome group
indicated that, on average, these subjects did
not display dinically significant levels of
maladaptive behavior. Three of them scored
in the dinically significant range versus one
subject in the nondinical comparison group,
which had a mean of 7.7 on this scale.
Personality Functioning. The results of
the Personality Inventory for Children are
summarized in Table 4. The best-outcome
subjects obtained valid profiles on the Per-

sonality Inventory for Children, as measured
by the three validity scales (lie, Frequency,
and Defensiveness). As can be seen from the
table, the subjects scored in the normal range
across all scales. They tended to score highest on Intellectual-Screening, Psychosis, and
Frequency. Intellectual-Screening assesses
slow intellectual development, and Psychosis and Frequency assess unusual or strange
behaviors. Only Intellectual-Screening was
above the normal range, and this scale is
affected by subjects’ early history. For example, the scale contains statements such as
'My child first talked before he (she) was two
years old,” which would be false for the bestoutcome subjects regardless of their current
level of functioning,
As Table 4 indicates, 4 best-outcome
subjects had a single scale elevated beyond

f

:i
lb':";'
1% }

I

a
1
1

1M
I
%

I8
ImM'
r

*1

i

m ..fe-

r

&
f

%.

r
i
£

i

Table 3
Scores on the Vineland Adaptive Behavior Scale
for the Best-Outcome Subjects

„
___Adaptive behavior
-^ect °°w
■ 800 Comp
63
98
102
92
R-S‘
M.C.
119
93
88
98
m.m.
119
79 114
105
107
108 112
108
*j-®77 103
94
88
□£.
93
81
82
80
A.G.

B.W.

101
83

97
74

99
105

98
83

Maladaptive
behavior
6
16
2
4
13
15
5
9

i
i

!

IS

B.R.
98 92
Mean
99
94
8.8
Note. Com = Communication, OLS = Daily Living SkIHs, Soc
* Socialization. Comp = Adaptive Behavior Composite.

wmem.wmm
t •>—y ^......

:r-^* •'"lll'lll

j

Pet. Reh. App.16
Table 4
T Scores on the Personality Inventory for Children for the Best-Outcome Subjects

T score
..........

iV

_ .r

l!v“ -I

the clinically significant range and a 5th (J.L.)
had nine scales elevated, including the highest scores in the best-outcome group on
Intellectual-Screening, Psychosis, and Frequency. Thus, this subject appeared to account for much of the elevation in scores on
these scales. By comparison, there were 3
subjects in the nondinical comparison group
with at least one scale elevated.
f
Ginical Rating Scale. On this scale, 8 of
the best-outcome subjects scored between 0
& and 10, and the 9th 0- L.) scored 42. The
|Hfl mean was 8.8, with a standard deviation of
\ 12i9. The nondinical comparison subjects all
’i scored between 0 and 5 (mean = 1.7, SD S
2.1). Because these SDs are unequal, we
'|||! used a nonparametric statistic, a MannWhitney C/test, revealing a significant differ38*^ ence between groups, U= 19, p < .05. Thus,
x-jg- the best-outcome subjects displayed more
deviance than did the comparison subjects,
J§H| but most of the deviance appeared to come
from one subject, J. L.

Discussion
This study is a later and more extensive
follow-up of two groups of young subjects
With autism who were previously studied by
Lovaas (1987): (a) an experimental group (n
= 19) that had received very intensive behavioral treatment and (b) a control group (n =
19) that had received minimal behavioral

•'V'

McEachin, Smith, and Lovaas

....'..... '............... "................

treatment. In the present study we have
reported data on these children at a mean age
of 13 years for subjects in the experimental
group and 10 years for those in the control
group. Hie data were obtained from a cornprehensive assessment battery,
The main findings from the test battery
were as follows: First, subjects in the experi­
mental group had maintained their level of
intellectual functioning between their previous assessment at age 7 and the present
evaluation at a mean age of 13, as measured
by standardized intelligence tests. Their mean
IQ was about 30 points higher than that of
control subjects. Second, experimental subjects also displayed significantly higher levels of functioning than did control subjects
on measures of adaptive behavior and personality. Third, in a particularly rigorous
evaluation of the 9 subjects in the experimental group who had been classified as
best-outcome (normal-functioning) in the
earlier study (Lovaas, 1987), the test results
consistently indicated that the subjects ex­
hibited average intelligence and average
levels of adaptive functioning. Some devi­
ance from average was found on the personality test and the clinical ratings. However,
this deviance appeared to derive from the
extreme scores of one subject ,J. L (see Table
2, 3, and 4). This subject also had been
removed from nonspedal education classes
and placed in a class for children with
language delays, and he obtained relatively

367

-&

Pet. Reh. App.17

171
;■ it

§&m,
■ ■

■

\i

.►

4

WBw^W^*
■ ■ <! :H-)

IliMi
(j|j||gi

• r

■ y

[i'jh. ■“.■■

sfe-vH

.

, 4

;i;v - jst; |.
-.MV ■ .$*/ i

msmi

.i
-jt.

low scores (about 80) on the Verbal section
of the intelligence test and the Communication section of the measure of adaptive
behavior. Thus, he no longer appeared to be
normal-functioning. However, the remaining 8 subjects who had previously been
classified as normal-functioning demonstrated
average IQ, with intellectual performance
evenly distributed across subtests, were able
to hold their own in regular classes, did not
show signs of emotional disturbance, and
demonstrated adequate development of adapfive and sodal skills within the normal range,
In addition, subjective clinical impressions
of blind examiners did not discriminate them
from children with no history of behavioral
disturbance. These 8 subjects (42% of the
experimental group) may be judged to have
made major and enduring gains and may be
described as ‘normal-functioning.* By contrast, none of the control group subjects
achieved such a favorable outcome, consistent with the poor prognosis for children
with autism repotted by other investigators
(Freeman, Ritvo, Needleman, &Yokota, 1985).
In order to evaluate this outcome, we
must pay close attention to whether or not
our methodology was sound. The adequacy
of our methodology is crucial because the
outcome in the present study represents a
major improvement over outcomes obtained
in previous experimental studies on the
treatment of children with autism (Rutter,
1985). The only reports of comparable outcomes have come from uncontrolled case
studies (e.g., Bettelheim, 1967), and subsequent investigations have indicated that these
case studies grossly overestimated the outcomes obtainable with the treatment that
was provided. Similarly, reports of major
gains in other populations, such as large IQ
increases in children From impoverished
backgrounds, also have been based on highly
questionable evidence (Kamin, 1974; Spitz,
1986). Such reports have the potential to
cause a great deal of harm by misleading
consumers and professionals.
A detailed description of all the methodological safeguards that should be built

into a treatment study is beyond the scop I
the present report (see Kazdin, 1980; Ken
&Norton-Ford, 1982; Spitz, 1986). Howe
we note that we incorporated a large mini
of methodological safeguards in both
original study (Lovaas, 1987) and the pres
investigation:
1. The experimental group and
control group received equivalent ass<
ment batteries at intake and were found tc
very similar on a multitude of import
variables. Moreover, the number of coni
group subjects who were predicted to achii
normal functioning, had they received int
sive treatment, was approximately equal
the number of experimental subjects w
actually did achieve normal functioning w
intensive treatment (Lovaas & Smith, 19£
Thus, the subject assignment procedi
yielded groups that were comparable pt
to treatment This provided a strong indi
tion that the superior functioning of l
experimental group after treatment war
result of the treatment itself rather thar
biased procedure for assigning subjects
the experimental group,
2. All subjects remained in the groups
which they were assigned at intake. On!',
subjects dropped out, and they were r
replaced. Therefore, the original compc
tion of the groups was essentially preservt
3. All subjects were independently
agnosed as autistic by PhD or MDclinidai
and there was high agreement on the di:
nosis between the independent dinidar
This provided evidence that subjects n
criteria for a diagnosis of autism.
4. Prior to treatment, these subjei
appeared to be comparable to those dia
nosed as having autism in other resear
investigations. Evidence for this comes frc
the second control group that was incorp
rated into the initial treatment study. Tl
group was evaluated by another resear'
team (independent of ours), had similar I<
at intake based on the same measures
intelligence that weused, yet showed simil
outcome data to those repotted by oth
investigators. Additional evidence can I

,

< -4
V * 'i1.*-,

Wmmmmi

368

Autism and Early Interventt

Pet. Reh. App.18

;

I

^
lt

derived from the similarity of our intake data
to data reported by other investigators (Lovaas
etal., 1989). For example, although Schopler
and his associates (Schopler, Short,&Mesibov,
1989) suggested that oursample had a higher
mean IQ than did other samples of children
with autism, their own data do not appear to
differ from ours (Lord & Schopler, 1989).
Thus, there is evidence that our subjects
were a typical group of preschool-age children with autism rather than a select group
ofhigh-level children with autism who would
have been expected to achieve normal functioning with little or no treatment
5. The first control group, which received up to 10 hours a week of one-to-one
behavioral treatment, did not differ at posttreatment from the second control group,
which received no treatment from us. Both
groups achieved substantially less favorable
outcomes than did the experimental group,
Because all groups were similar at pretreattnent, this result confirms that our subjects
had problems that responded only to intensive treatment rather than problems such as
being noncompliant or holding back (masking an underlying, essentially average in tellectual functioning that would respond to
smalier-scale interventions).
:
6. Subjects’families ranged from high to
low socioeconomic status, and, on average,
they did not differ from the general population(Lovaas, 1987). Thus, although our treatment required extensive family partidpation, a diverse group of families was
apparently able to meet this requirement.
7. The treatment has been described in
detail (Lovaas et al., 1980; Lovaas & Leaf,
1981), and the effectiveness of many components of the treatment has been demonstarted experimentally by a large number of
investigators over the past 30 years (cf.
Newsom &Rincover, 1989). Hence, our treatment may be replicable, a point that is
discussed in greater detail later.
8. The results of the present follow-up,
which extended several years beyond discharge from treatment for most subjects, are
an encouraging sign that treatment gains

McEachin, Smith, and Lovaas

have been maintained for an extended periodoftime.
9. A wide range of measures was administered, avoiding overreliance on intelligence
tests, which have limitations if used in isolation (e.g., bias resulting from teaching to the
test, selecting a test that would yield espedally favorable results, failing to assess other
aspects of functioning such as sociiai competence or school performance) (Spitz, 1986;
Zigler & Trickett, 1978).
10. The use at follow-up of a normal
comparison group, standardized testing, and
blind rating allowed for an objective, detailed, and quantifiable assessment of treatment effectiveness. A particularly rigorous
assessment was given to those subjects who
showed the most improvement
Taken together, these safeguards pro­
vide considerable assurance that the favorable outcome of the experimental subjects
can be attributed to the treatment they received rather than to extraneous factors such
as improvement that would have occurred
regardless of treatment, biased procedures
for selecting subjects or assigning them to
groups, or narrow Dr inappropriate assessment batteries.
Despite the numerous precautions that
we have taken, several concerns may be
raised about the validity of the results. Perhaps the most important is that the assignment to the experimental or control group
was made on the basis of therapist availability rather than a more arbitrary procedure
such as alternating referrals (assigning the
first referral to the experimental group, the
second to the control group, the third to the
experimental group, and so forth). However,
it seems unlikely that the assignment was
biased in view of the pretreatment data we
have presented on the similarity between the
experimental and control groups. On the
other hand, we do not know as yet whether
there exists a pretreatment variable that does
predict outcome but was not among the 19
we chose, yet could have discriminated be­
tween groups. In an earlier publication
(Lovaas etal., 1989), we responded in some

369

Pet. Reh. App.19

I

r

t
1<A
I

I
[1

I

\
i

I

i
I
¥

i

detail to the concern about subject assignment as well as other possible problems
assodated with the original study. There are
certain additional questions that may be
raised by this follow-up investigation:
1. The experimental group was older
than the control group at the time of this
follow-up evaluation. We explained this finding earlier and noted that data analyses
indicated that it was unlikely that this age
difference reflected a bias in subject assignments.
2. The follow-up assessments for 17 of
the lower functioning subjects in this study
were conducted by staff members from our
Project, who could have biased the test
results. However, as noted previously, a
check revealed no evidence of such a bias,
3. The Clinical Rating Scale, based on an
interview with subjects who had been dassified as normal-functioning in the original
study, has no norms or data on reliability and
validity. However, we regard the interview
simply as an extra check on whether the
examiners detected residual signs of autism
or other behavior problems that were somehow overlooked in the three other (wellstandardized) measures in the study and
their 30 subscales. We do not regard the
interview as an instrument that by itself
yields condusive results. No other interview
that suited our purposes currently exists. In
future investigations, we plan to use an
interview that Michael Rutter and his associates are now developing for the purpose of
detecting of residual signs of autism in individuals with average intelligence.
4. As in most long-term follow-up studies, we had some missing data, However,
there is no evidence that the missing data
would have changed the overall results.
5. In our analysis of the best-outcome
group, we noted that the group averages
deviated from ‘normal’ on one subscale of
the Personality Inventory for Children and
on the Clinical Rating Scale. We then attributed this deviance to the extreme scores of
one subject rather than to general problems
within this group. We recognize that group
370

i

averages are seldom interpreted this way.
However, as statisticians and methodologistshavepointedout(e.g., Bariow&Hersen,
1984), there are many times when group
averages represent the performance of few
or no subjects within the group. This was one
ofthosetimes, as is dearly shown by the data
on individual subjects (Tables 2, 3, and 4).
Deviance was found almost exdusively in
one subject, not evenly distributed across all
subjects, and we have presented the results
accordingly.
The most important void for research to
fill at this time is replication by independent
investigators who employ sound methodologies. Given the objective assessment in­
struments that we used and the detailed
description that we have provided of the
treatment (Lovaas et al., 1980), such a replication should be possible. However, the
treatment is complex and to replicate it
properly, an investigator probably needs to
possess (a) a strong foundation in learning
theory research; (b) a detailed knowledge of
the treatment manual we used; (c) a supervised practicum of at least 6 months in oneto-one work with clients who have developmental ddays, emphasizing discrimination
learning and building complex language;
and (d) a commitment to provide 40 hours of
one-to-one treatment to client per week, 50
weeks per year, for at least 2 years. Our bestoutcome subjects all required a minimum of
2 years of intensive treatment to achieve
average levds of functioning (another indi­
cation that those subjects had pervasive
disabilities and were not merely noncompliant).
A second void to fill concerns the majority of children who did not benefit to the
point of achieving normal functioning with
intensive treatment Perhaps an earlier start
in treatment would have been all that was
needed to obtain favorable outcomes with
many of these children. More pessimistically,
perhaps such children require new and different interventions that have yet to be
discovered and implemented. In any case, it
is essential to develop more appropriate

Autism and Eariy intervention

I

1

*•

t, t.

■
Jjj.
:9f '**
: !■ •■£
, 71*?* ;
Ar;
|

Jr
$

m

Mb

• -e

Pet. Reh. App.20

services for these children.
Finally, a rather speculative but promis­
ing area for research is to determine the
extent to which early intervention alters
neurological structures in young children
with autism. Autism is almost certainly the
result of deficits in such neurological struc­
tures (Rutter & Schopler, 1987). However,
laboratory studies on animals have shown
that alterations in neurological structure are
quite possible as a result of changes in the
environment in the first years of life (Sirevaag
& Greenough, 1988), and there is reason to
believe that alterations are also possible in
young children. For example, children under
3 years of age overproduce neurons, den­
drites, axons, and synapses. Huttenlocher
(1984) hypothesized that, with appropriate
stimulation from the environment, this overproduction might allow infants and
preschoolers to compensate for neurological
anomalies much more completely than do
older children. Caution is needed in gener­
alizing from these findings on average chil­
dren to early intervention with children with
autism, particularly because the exact nature
of the neurological anomalies of children
with autism is unclear at present (e.g., Rutter
& Schopler, 1987). Nevertheless, die findings
suggest that intensive early intervention could
compensate for neurological anomalies in
such children. Finding evidence for such
compensation would help explain why the
treatment in this study was effective. More
generally, it might contribute to an under­
standing of brain-behavior relations in young
children.

References
Barlow, D. H., ft Hersen, M. (1984). Single case
experimental design: Strategies for studying
behavior change (2nd ed.). New York: Pergamon Press.
Bettelheim, B. (1967). The emptyfortress. New
York: The Free Press.
DeMyer, M. K., Hlngtgen, J. N., ftjackson, R.
K. (1981). Infantile autism reviewed: A de­
cade of research. Schizophrenia Bulletin, 7,

McEachin, Smith, and Lovaas

i
!

388-451.
Dunn, L. M. (1981). Peabody Picture Vocabu­
lary Test-Revised. Circle River, MN: American
Guidance Service.
Freeman, B.J., Rltvo, E. R., Necdlernan, R., ft
Yokota, A. (198$)- The stability off cognitive
and linguistic parameters in autism: A 5-year
study. Journal of the American Academy of
Child Psychiatry, 24, 290-311.
Huttenlocher, P. R. (1984). Synapse elimina­
tion and plasticity in developing human cere­
bral cortex. American Journal ofMental Defi­
ciency, 88, 488-496.
Kamin, L. J. (1974). The science andpolitics of
l.Q. New York: Wiley.
Kanner, L. (1971). Follow-up study of 11 autis­
tic children originally reported in 1943. Jour­
nal ofAutism and Childhood Schizophrenia,
1,119-145.
Kazdln, A. (1980). Research design in clinical
psychology. New York: Harper & Row.
Kendall, P. C., ft Norton-Ford, J. D. (1982).
Therapy outcome research methods. In P. C.
Kendall & J. N. Butcher (Eds.), Handbook of
research methods in clinical psychology (pp.
429-460). New York: Wiley.
Letter, R. G. (1959). Part I of the manual for the
1948revision of the Letter International Perfor­
mance Scale: Evidence of the reliability and
validity of the Letter tests. Psychology Service
CenterJournal, 11,1-72.
Lord, C., ft Schopler, E. (1989). The role of age
at assessment, developmental level, and test in
the stability of intelligence scores in young
autistic children. Jou mol ofAutism and Devel­
opmental Disorders, 19,483-499.
Lotter, V. (1978). Follow-up studies. In M.
Rutter ft E. Schopler (Eds.), Autism: A reap­
praisal of concepts and treatment. London:
Plenum Press.
Lovaas, O. I. (1987). Behavioral treatment and
normal educational and intellectual function­
ing in young autistic children. Journal ofCon­
sulting and Clinical Psychology, 55, 3—9Lovaas, 0.1., Ackerman, A. B., Alexander, D.,
Firestone, P., Perkins, J., ft Young, D.
(1980). Teaching developmental^ disabled
children: The me book. Austin, TX: Pro-Ed.
Lovaas, 0.1., Koegel, R. L., Simmons, J. Q., ft
Long, J. S. (1973). Some generalization and
follow-up measures on autistic children in
behavior therapy. Journal of Applied Behavior
Analysis, 6,131-166.
Lovaas, O. I., ft Leaf, R. L. (1981). Five video

371

j

8

Pet. Reh. App.21
ffi

l
tapes for teaching developmental^ disabled
children. Baltimore: University Park Press.
Lovaas, O. I., ft Smith, T. (1988). Intensive
behavioral treatment with young autistic children. In B. B. Lahey & A. E. Kazdin (Eds.),
Advances in clinical childpsychology (Vol. 11,
pp. 285-324). New York: Plenum Press.
Lovaas, O. I., Smith, T., ft McEachin, J. J.
(1989). Clarifying comments on the young
autism study: Reply to Schopler, Short and
Mesibov. Journal of Consulting and Clinical
Psychology, 57,165-167.
McEachin, J. J. (1987). Outcome of autistic
children receiving intensive behavioral treat­
ment- Psychological status 3 to 12 years later.
Unpublished doctoral dissertation, University
of California, Los Angeles.
Newsom, C., ft Rlncover, A. (1989). Autism. In
E. J. Mash & R. A. Barkley (Eds.), Treatment of
childhood disordersipp. 286-346). New York:
Guilford Press.
Ratter, M. (1970). Autistic children: Infancy to
adulthood. Seminars inPsychiatry, 2,435-450.
Ratter, M. (198$). The treatment of autistic
children. Journal of Child Psychology 6 Psy­
chiatry, 26,193-214.
Rutter, M., ft Schopler, E. (1987). Autism and
pervasive developmental disorders: Concepts
and diagnostic issues. Journal of Autism and
Developmental Disorders, 17,159-186.
Schopler, E., Short, A., ft Mesibov, G. (1989).
Relation of behavioral treatment to ‘normal
functioning*: Comment on Lovaas. Journal of
Consulting and Clinical Psychology, 57,
162-164.
Short, A., ft Marcos, L. (1986). Psychoeducat tonal evaluation of autistic children and ado­
lescents. In S. S. Strichart & P. Lazarus (Eds.),

{i
I

I

if

Psycboeducational evaluation ofschool-aged
children with low-incidence disorders (pp.
155-180). Orlando, PL: Grune & Stratton.
Simeonnson, R. J., Olley.J. G., ft Rosenthal,
S. L. (1987). Early intervention for children
with autism. In M. J. Guralnick & P. C. Bennett
(Eds.), The effectiveness of early intervention
for at-risk and handicapped children (pp.
275-296). Orlando, FL- Academic Press.
Sirevaag, A. M., ft Greenough, W. T. (1988). A
multivariate statistical summary of synaptic
plasticity measures in rats exposed to com­
plex, social and individual environments. Brain
Research, 441,386-392.
Sparrow, S. S., Balia, D. A., ft Cicehettl, D. V.
(1984). IntentrtetvEditionSurveyFormManiud.
Circle Pines, MN: American Guidance Service.
Spitz, H. H. (1986). The raising of intelligence.
Hillsdale, NJ: Eribaum.
Waterhouse, 1_, ft Fein, D. (1984). Deveiopmental trends in cognitive skills for children
diagnosed as autistic and schizophrenic. Child
Development, 55, 236-248.
Wcchsler, D. (1974). Manualfor the Wecbsler
Intelligence Scale for Cbildren-Revised. New
York: Psychological Corp.
Wirt, R. D., Lachar, D., Kllnedlnst, J. K., ft
Seat, P. O. (1977)- Multidimensional descrip­
tions of child personality: A manual for the
Personality Inventoryfor Children. Los Ange­
les: Western Psychological Services.
Zlgler, E., ft Trickett, P. K. (1978). IQ, social
competence, and evaluation of early child­
hood intervention programs. American Psy­
chologist, 33, 789-798.
Received: S/15/91; first decision: 10/16/91; accepted:
1/23/92.

I

i
J
*

372

Autism and Early Intervention

1
.

i

volume

110, number 6: 417-438 | november2*o!)5^^' App'22

AMERICAN JOURNAL ON MENTAL RETARDATION

Intensive Behavioral Treatment for Children With
Autism: Four-Year Outcome and Predictors
Glen O. Sallows and Tamlynn D. Graupner
Wisconsin Early Autism Project (Madison)

Abstract
Twenty-four children with autism were randomly assigned to a clinic-directed group, rep­
licating the parameters of the early intensive behavioral treatment developed at UCLA, or
to a parent-directed group that received intensive hours but less supervision by equally
well-trained supervisors. Outcome after 4 years of treatment, including cognitive, language,
adaptive, social, and academic measures, was similar for both groups. After combining
groups, we found that 48% of all children showed rapid learning, achieved average post­
treatment scores, and at age 7, were succeeding in regular education classrooms. Treatment
outcome was best predicted by pretreatment imitation, language, and social responsiveness.
These results are consistent with those reported by Lovaas and colleagues (Lovaas, 1987;
McEachin, Smith, & Lovaas, 1993).

Behavioral approaches for addressing the de­
lays and deficits common in autism have been
recognized by many as the most effective treat­
ment methods to date (Green, 1996; Maine Ad­
ministrators of Service for Children With Dis­
abilities, 2000; New York State Department of
Health, 1999; Schreibman, 1988; Smith, 1993).
The intervention developed at UCLA in the
1960s and 1970s is perhaps the best known and
best documented (e.g., Dawson & Osterling,
1997; Green, 1996; Smith, 1993). Building on ear­
lier research (e.g., Lovaas, Koegel, Simmons, &
Long, 1973), Lovaas and staff of the UCLA
Young Autism Project (1970 to 1984) began treat­
ment with children under 4 years of age using a
curriculum emphasizing language development,
social interaction, and school integration skills.
After 2 to 3 years of treatment, 47% of the exper­
imental group (9 of 19 children) versus 2% of the
comparison group (1 of 40 children) were report­
ed to have achieved “normal functioning” (Lo­
vaas, 1987; McEachin et al., 1993).
These findings demonstrated that many chil­
dren widr autism could make dramatic improve­
ment, even achieve “normalcy,” and many re­
© American Association on Mental Retardation

searchers now agree that intensive behavioral
treatment can result in substantial gains for a large
proportion of children (e.g., Harris, Handleman,
Gordon, Kristoff, & Fuentes, 1991; Mundy, 1993).
However, the UCLA findings also created consid­
erable controversy, and the studies were criticized
on methodological and other grounds (e.g.,
Gresham & MacMillan, 1998; Schopler, Short, &
Mesibov, 1989). One criticism was that the UCLA
group used the term recovered to describe children
who had achieved IQ_in the average range and
placement in regular classrooms. Mundy (1993)
suggested that children diagnosed with high func­
tioning autism might achieve similar outcomes
and pointed out that several of the recovered chil­
dren in the follow-up study of the UCLA children
at age 13 (McEachin et al., 1993) had clinically
significant scores on some behavioral measures.
The UCLA team responded by noting that (a)
evaluators blind to background information had
not identified the recovered children as different
from neurotypical children and (b) a few elevated
scores may not imply abnormality because several
of the neurotypical peers had them as well (Smith,
McEachin, & Lovaas, 1993). Questions were also
417

Pet. Reh. App.23

VOLUME 110, NUMBER 6: 417-438 I NOVEMBER 2005

Intensive behavioral treatment

raised regarding whether or not the UCLA results
could be fully replicated without the use of aversives, which were part of the UCLA protocol, but
are not acceptable in most communities (Schreibman, 1997). Some have questioned the feasibility
of implementing the program without the resourc­
es of a university research center to train and su­
pervise treatment staff (Sheinkopf & Siegel, 1998)
and to help defray the cost of the program, which,
due to the many hours of weekly treatment, can
exceed $50,000 per year (although it has been ar­
gued that the cost of not providing treatment may
be much greater over time: Jacobson, Mulick, &
Green, 1998). Finally, because only about half of
the children showed marked gains, the need for
predictors to determine which children will ben­
efit has been raised (Kazdin, 1993). Lovaas and
his colleagues responded to these and other criti­
cisms (Lovaas, Smith, & McEachin, 1989; Smith
et al., 1993; Smith & Lovaas, 1997), but agreed
with others that replication and further research
were necessary.
There have now been several reports of partial
replication without using aversives (Anderson, Av­
ery, Di Pietro, Edwards, & Christian, 1987; Bimbrauer & Leach, 1993; Eikeseth, Smith, Jahr, &
Eldevik, 2002; Smith, Groen, & Wynn, 2000).
Most found, as did Lovaas and his colleagues, that
a subset of children showed marked improvement
in IQ. Although fewer children reached average
levels of functioning, the treatment provided in
these studies differed from the UCLA model in
several ways (e.g., lower intensity and duration of
treatment, different sample characteristics and cur­
riculum, and less training and supervision of
staff).
Anderson et al. (1987) provided 15 hours per
week for 1 to 2 years (parents provided another 5
hours) and found that 4 of 14 children achieved
an IQ_over 80 and were in regular classes, but all
needed some support. Birnbrauer and Leach
(1993) provided 19 hours per week for 1.5 to 2
years and found that 4 of 9 children achieved an
IQ^over 80 (classroom placement was not report­
ed), but all had poor play skills and self-stimula­
tory behaviors. The authors noted, however, that
their treatment program had not addressed these
areas. Smith et al. (2000) provided 25 hours per
week for 33 months and reported that 4 of 15
children achieved an IQ_over 85 and were in reg­
ular classes, but one had behavior problems. The
authors noted that their sample had an atypically
high number of mute children, 13 of 15, consid418

AMERICAN JOURNAL ON MENTAL RETARDATION

G. O. Sallows and T. D. Graupner

erably higher than the commonly cited figure of
50% (Smith & Lovaas, 1997), and they hypothe­
sized that this was the reason for the relatively low
number of children functioning in the average
range following treatment. Eikeseth et al. (2002)
provided 28 hours per week for 1 year. In their
sample, 7 of 13 children with pretreatment IQ_
over 50 achieved I Clover 85 and were in regular
classes with some support. Data beyond the first
year have not yet been reported.
Four groups of investigators discussed results
based on behavioral treatment in classroom set­
tings, which typically include a mix of 1:1 treat­
ment and group activities, so that time in school
may not be comparable to hours reported in
home-based studies. Following 4 years of treat­
ment, Fenske, Zalenski, Krantz, and McClannahan (1985) found that 4 of 9 children were
placed in regular classes. However, neither pre­
posttreatment test scores nor amount of support
in school were reported. Harris et al. (1991) pro­
vided 5.5 hours per day in class and instructed
parents to provide an additional 10 to 15 hours
at home (no data were collected on actual hours
parents provided). After 1 year of treatment, 6 of
9 children achieved Iover 85, but were still in
classes for students with learning disabilities. A lat­
er report (Harris & Handleman, 2000) found that
9 of 27 children achieved IQ_over 85 and were
placed in regular classes (time in treatment was
not reported), but most required some support.
Meyer, Taylor, Levin, and Fisher (2001) provided
30 hours of class time per week for at least 2 years
and reported that 7 of 26 children were placed in
public schools after 3.5 years of treatment, but 5
required support services. Pre-post IQjwas not re­
ported. Romanczyk, Lockshin, and Matey (2001)
provided 30 hours of class time per week for 3.3
years and reported that 15% of the children were
discharged to regular classrooms. No information
on posttreatment test scores or the need for sup­
ports was provided.
In two studies researchers examined the ef­
fects of behavioral treatment for children with low
pretreatment IQ. Smith, Eikeseth, Klevstrand, and
Lovaas (1997) provided children who had pre­
treatment IQJess than 35 (M = 28) with 30 hours
per week for 35 months and reported an increase
in IQ^of 8 points (3 of 11 children achieved in­
creases of over 15 points) and 10 of 11 achieved
single-word expressive speech. Eldevik, Eikeseth,
Jahr, and Smith (in press) provided children who
had an average pretreatment IQ_of 41 with 22
© American Association on Mental Retardation

volume

110,

number 6:

417-438 |

november^o!)$

App.24 AMERICAN JOURNAL ON MENTAL RETARDATION

Intensive behavioral treatment

hours per week of 1:1 treatment for 20 months
and reported an increase in IQ_of 8 points and an
increase in language standard scores of 11 points.
In three studies researchers examined results
of behavioral treatment provided by clinicians
working outside university settings in what has
been termed parent-managed treatment because par­
ents implement treatment designed by a workshop
consultant, who supervises less ffequendy (e.g.,
once every 2 to 4 months) than the supervision
that occurs in programs supervised by a local au­
tism treatment center (e.g., twice per week). Sheinkopf and Siegel (1998) reported results for chil­
dren who received 19 hours of treatment per week
for 16 months supervised by three local providers.
Six of 11 children achieved IQover 90 and 5 were
in regular classes, but still had residual symptoms.
However, these children may not be comparable
to high achievers in other studies because intelli­
gence tests included the Merrill-Palmer, a measure
of primarily nonverbal skills, known to yield
scores about 15 points higher than standard in­
telligence tests that include both verbal and non­
verbal scales. In the second study, Bibby, Eikeseth, Martin, Mudford, and Reeves (2002) de­
scribed results for children who received 30 hours
of treatment per week (range = 14 to 40) for 32
months (range = 17 to 43) supervised by 25 dif­
ferent consultants, who saw the children several
times per year (median = 4, range = 0 to 26).
Ten of 66 children achieved Iover 85, and 4
were in regular classes without help. However, as
the authors noted, their sample was unlike
UCLA’s in several ways: 15% had a pretreatment
IQ^ under 37, 57% were older than 48 months,
many received fewer than 20 hours per week, 80%
of the providers were not UCLA-trained, and no
child received weekly supervision. Weiss (1999) re­
ported the results of a study in which children did
receive high hours: 40 hours of treatment per
week for 2 years. She saw each child every 4 to 6
weeks, reviewed videos of their performance every
2 to 3 weeks, and spoke with parents weekly. Fol­
lowing treatment, 9 of 20 children achieved scores
on the Vineland Applied Behavior Composite
(ABC) of over 90, were placed in regular classes,
and had scores on the Childhood Autism Rating
Scale in the nonautistic range (under 30). No preor posttreatment IQ^data were reported.
Several researchers have described pretreat­
ment variables that seem to predict (are highly
correlated with) later outcome. Although findings
have not always been consistent, the most com­
© American Association on Mental Retardation

G. O. Sallows and T. D. Graupner

monly noted predictors have been I Q_ (Bibby et
al., 2002; Eikeseth et al., 2002; Goldstein, 2002;
Lovaas, 1987; Newsom & Rincover, 1989), pres­
ence of imitation ability (Goldstein, 2002; Lovaas
& Smith, 1988; Newsom & Rincover, 1989;
Weiss, 1999), language (Lord & Paul, 1997; Ven­
ter, Lord, & Schopler, 1992), younger age at in­
tervention (Bibby et al., 2002; Fenske et al., 1985;
Goldstein, 2002; Harris & Handleman, 2000), se­
verity of symptoms (Venter et al., 1992), and so­
cial responsiveness or “joint attention” (Bono,
Daley, & Sigman, 2004; L. Koegel, Koegel, Shoshan, & McNemey, 1999; Lord & Paul, 1997).
Multiple regression has been used to deter­
mine combinations of pretreatment variables with
strong relationships with outcome. Goldstein
(2002) reported that verbal imitation plus IQ_plus
age resulted in an R2 of .78 with acquisition of
spoken language. Rapid learning during the first 3
or 4 months of treatment has also been associated
with positive outcome (Lovaas & Smith, 1988;
Newsom & Rincover, 1989; Weiss, 1999). Weiss
reported that rapid acquisition of verbal imitation
plus nonverbal imitation plus receptive instruc­
tions resulted in an R2 of .71 with Vineland ABC
and .73 with Childhood Autism Rating Scale
scores 2 years later.
We designed the present study to examine
several questions. Can a community-based pro­
gram operating without the resources, support, or
supervision of a university center, implement the
UCLA program with a similar population of chil­
dren and achieve similar results without using aversives? Do significant residual symptoms of au­
tism remain among children who achieve post­
treatment test scores in the average range? Can
pretreatment variables be identified that accurate­
ly predict outcome? We also examined the com­
parative effectiveness of a less cosdy parent-di­
rected treatment model.

Method
Participants
Researchers at the Wisconsin site worked in
collaboration with and observed the guidelines set
by the National Institutes of Mental Health
(NIMH) for Lovaas’ Multi-Site Young Autism
Project. Children were recruited through local
birth to three (special education) programs. All
children were screened for eligibility according to
the following criteria: (a) age at intake between 24
and 42 months, (b) ratio estimate (mental age
419

Pet. Reh. App.25

VOLUME 110, NUMBER 6: 417-438 I NOVEMBER 2005

AMERICAN JOURNAL ON MENTAL RETARDATION

G. O. Sallows and T. D. Graupner

Intensive behavioral treatment

[MA] divided by chronological age [CA]) of the
Mental Development Index of 35 or higher (the
ratio estimate was used because almost all children
scored below the lowest Mental Development In­
dex of 50 from the Bayley Scales of Infant De­
velopment Second Edition (Bayley, 1993), (c)
neurologically within “normal” limits (children
with abnormal EEGs or controlled seizures were
accepted) as determined by a pediatric neurologist
(no children were excluded based on this criteri­
on), and (d) a diagnosis of autism by independent
child psychiatrists well known for their experience
and familiarity with autism. All children also met
the criteria for autism based on the Diagnostic
and Statistical Manual of Mental Disorders—
DSM-IV (American Psychiatric Association, 1994)
and the Autism Diagnostic Interview-Revised
(Lord, Rutter, & LeCouteur, 1994), both admin­
istered by a trained examiner. There were no pa­
rental criteria for involvement beyond agreeing to
the conditions in the informed consent docu­
ment, one of which was accepting random assign­
ment to treatment conditions. The parents of all
screened children agreed to participate, and none
dropped out upon learning of their group assign­
ment, minimizing bias in selection of participants
and group composition.
Thirteen children began treatment in 1996,11
in 1997, and 14 in 1998-1999. The last group had
not completed treatment when the data from the
first two groups were analyzed, and their data will
be reported in a subsequent paper. The 24 chil­
dren admitted during the first 2 years were 19
boys and 5 girls. One girl was placed in foster care
after 1 year of treatment, and the foster parents
did not wish to continue treatment for her. Her
data were, therefore, excluded from the analysis.
The remaining 23 children had completed 4 years
of treatment (or had “graduated” earlier) at the
time of this report, although 1 child switched to
another provider of behavioral treatment after 1
year.

Design
In accordance with the research protocol ap­
proved by NIMH, we matched children on pre­
treatment IQ_(Bayley MA divided by CA). They
were randomly assigned by a UCLA statistician to
the clinic-directed group (n = 13), replicating the
parameters of the UCLA intensive behavioral
treatment (Lovaas, 1987) or to the parent-directed
group (n = 10), intended to be a less intensive
alternative treatment.
420

All children received treatment based on the
UCLA model. Parents in both groups were in­
structed to attend weekly team meetings and were
encouraged to extend the impact of treatment by
practicing newly learned material with their child
throughout the day. Demographic information as
well as hours of treatment and supervision are
shown in Table 1. Children averaged 33 to 34
months of age at pretest and began treatment at
35 to 37 months. Children in the clinic-directed
Table 1. Demographic Information and Hours of
Service by Group
Descriptor

Clinic-directed

Boys, girls
One-parent
families

Parentdirected

11, 2

8, 2

0 of 13

1 of 10

Income
Median ($)
(Range)

62,000
(35-100+)

59,000
(30-100+)

Education (BA)
Mothers
9 of 12
Fathers
10 of 12
Siblings (mean)
2
No. nonverbal (%) 8/13 (62)

9 of 10
6 of 9
2
2/10 (20)

Age (months) (SD)
Pretest
Treatment
Posttest

34.20 (5.06)
37.10 (5.36)
82.50 (6.61)

33.23 (3.89)
35.00 (4.86)
83.23 (8.92)

1:1 hours per
week (SD)
Year 1
Year 2
Senior therapist

Team meetings
Progress review

38.60 (2.91) 31.67 (5.81)
36.55 (3.83) 30.88 (4.04)
6-10 hrs
6 hrs
per week
per month
3, 2- to 3-hr
1, 3-hr session
sessions
per 2 wks
1 hr per week 1 hr per 1 or
2 weeks
1 hr per wk
1 hr every
for 1-2
other
years then
month
1 hr per 2
months

Note. The 1:1 hours for parent-directed children excludes
one child who received 14 hours per week.
© American Association on Mental Retardation

VOLUME 110, NUMBER 6: 417-438 I NOVEMBER2^5^e^*' ^PP-26

Intensive behavioral treatment

group were to receive 40 hours per week of direct
treatment. The actual average was 39 during Year
1 and 37 during Year 2, with gradually decreasing
hours thereafter as children entered school. Par­
ents in the parent-directed group chose the num­
ber of weekly treatment hours provided by ther­
apists. The average was 32 hours during Year 1
and 31 during Year 2, with the exception of one
family that chose to have 14 hours both years.
Because the parent-directed children as a group
received more intensive treatment than was pro­
vided in most previous studies, only 6 to 7 hours
less than the clinic-directed group, our ability to
examine the effect of differences in treatment in­
tensity was limited.
The clinic-directed group received 6 to 10
hours per week of in-home supervision from a se­
nior therapist and weekly consultation by the se­
nior author or clinic supervisor. Parent-directed
children received 6 hours per month of in-home
supervision from a senior therapist (typically a 3hour session every other week) and consultation
every 2 months by the senior author or clinic supervisor.
Direct treatment staff, referred to as therapists,
were hired by Wisconsin Early Autism Project
staff members for both the clinic- and parent-di­
rected groups. Funding for 35 hours of 1:1 treat­
ment per week was provided through the Wiscon­
sin Medical Assistance program. Treatment hours
in excess of 35 were funded through project funds.

Measures
We used the Bayley Scales of Infant Devel­
opment, Second Edition, to determine pretreat­
ment IQ. In addition we used the Merrill-Palmer
Scale of Mental Tests (Stutsman, 1948), an older
test of intelligence recommended for use with
nonverbal children (Howlin, 1998), as a measure
of nonverbal intelligence but not pre- or posttreat­
ment IQ1 We employed the Reynell Developmen­
tal Language Scales (Reynell & Gruber, 1990) to
assess language ability, because of its extensive
psychometric data for preschool-age children, and
the Vineland Adaptive Behavior Scales (Sparrow,
Balia, & Cicchetti, 1984) to measure adaptive
functioning. Subscales of the Vineland assess
Communication in Daily Life, Daily Living Skills,
and Social Skills. Information regarding develop­
mental history (including loss of language and
other skills), use of supplemental treatments and
pretreatment presence of functional speech was
© American Association on Mental Retardation

AMERICAN JOURNAL ON MENTAL RETARDATION

G. O. Sallows and T. D. Graupner

gathered from parent interviews, reports from oth­
er professionals, and direct observation.
Follow-up testing was administered annually
for 4 years. As children grew older or became too
advanced for the norms of pretreatment tests, we
used other age-appropriate tests. Cognitive func­
tioning of older children was assessed using
Wechsler tests for 20 children—Wechsler Pre­
school and Primary Scale of Intelligence-RevisedWPPSI (Wechsler, 1989); Wechsler Intelligence
Scale for Children-WISC-III (Wechsler, 1991)—
and the Bayley II for 3 children. Although we as­
sessed nonverbal cognitive functioning, it was not
used as a measure of posttreatment IQ; we em­
ployed the Leiter-R for 11 children (Roid & Mill­
er, 1995, 1997) and the Merrill-Palmer for 12 chil­
dren. Language was measured using the Clinical
Evaluation of Language Fundamentals, Third
Edition—CELF III (Semel, Wiig, & Secord, 1995)
for 11 children and the Reynell for 12 children.
We administered the Vineland to all children for
assessment of adaptive functioning.
To assess posttreatment social functioning, we
readministered the Autism Diagnostic InterviewRevised and used the Personality Inventory for
Children (Wirt, Lachar, Klinedinst, & Seat, 1977),
which was completed by parents of all 23 children
after 3 years of treatment. After 4 years of treat­
ment, when the children were approximately 7
years old, parents and teachers completed the
Child Behavior Checklist (Achenbach, 1991a,
1991b) and Vineland for all 23 children. Bierman
and Welsh (1997) noted that “teacher ratings are
superior to those of other informants and provide
information regarding peer interaction and group
acceptance that are closest to those of peers” (p.
348). Information was obtained from teachers on
classroom placement (regular, regular with modi­
fied curriculum, partial special education [e.g.,
pullout/resource room or full special education],
and supportive/therapeutic services [e.g., class­
room aide, speech or occupational therapy]) when
the children were 7 years old. We used the Woodcock-Johnson III Tests of Achievement (Wood­
cock, McGrew, & Mather, 2001) to measure aca­
demic skills of children placed in regular educa­
tion classes at age 7.
The second author administered the pretreat­
ment assessment battery prior to children being
assigned to treatment groups. She received train­
ing in assessment at UCLA and met criterion for
satisfactory intertester reliability. One fourth of
the children in the current study were tested prior
421

VOLUME 110, NUMBER 6: 417-438 I NOVEMBER 2005^'

Intensive behavioral treatment

to treatment by unaffiliated community psychol­
ogists. These children earned a ratio IQ^of 50.3
on the Bayley administered by the independent
psychologists and 47.3 from the Wisconsin Pro­
ject evaluator. The mean absolute difference was
three points, r = .83, indicating absence of bias
by the Wisconsin Project evaluator. Children who
achieved IQs of 85 or higher at annual follow-up
testing were thereafter referred for assessment by
psychologists who had extensive experience test­
ing children with autism at hospital-based assess­
ment clinics that were not affiliated with the Wis­
consin Project. These psychologists, who were un­
aware of group assignment or length of time in
treatment, used the tests listed above. Follow-up
testing of most children whose IQ^ remained de­
layed was conducted by the second author to re­
duce cost.
One experimental assessment procedure, the
Early Learning Measure developed at UCLA
(Smith, Buch, & Gamby, 2000) was administered
to measure the rate of acquisition of skills during
the first several months of treatment. Every 3
weeks for 3 months leading up to the beginning
of treatment and for 6 months after treatment
started, the same list of 40 items (10 each of verbal
imitation, nonverbal imitation, following verbal
instructions, and expressive object labeling),
which was known only to the experimenter, was
presented to the children. Two sets of scores were
obtained from the Early Learning Measure. The
first was the number of items the child performed
correcdy prior to the onset of treatment. The sec­
ond set of scores was the number of weeks re­
quired for the child to learn 90% of the verbal
imitation items once treatment had begun, there­
by providing a measure of the child’s rate of ac­
quisition. This criterion was selected based on ear­
lier research with the Early Learning Measure,
which suggested the predictive validity of rapid
acquisition of verbal imitation (Lovaas & Smith,
1988).
Treatment Procedure
The treatment procedure and curriculum were
those initially described by Lovaas (Lovaas et al.,
1981), except that no aversives were used, with the
addition of procedures supported by subsequent
research (e.g., R. Koegel & Koegel, 1995), which
have been widely disseminated (e.g., Maurice,
Green, & Luce, 1996). Positive interactions were
built by engaging in favorite activities and re­
sponding to the gestures used by each child to
422

^PPaMERICAN journal on mental retardation

G. O. Sallows and T. D. Graupner

indicate desires. Anticipation of success and mo­
tivation to attend were increased by employing
brief, standard instructions and tasks requiring
only visual attending (e.g., matching), using fa­
miliar materials (e.g., the child’s own ring stacker),
prompting success (physically assisting him or her
to place a ring on the pole if a demonstration was
not sufficient), presenting only two or three trials
at a time, and reinforcing each response immedi­
ately with powerful reinforcers (e.g., edibles, phys­
ical play, or enthusiastic proclamations of success
(such as “Fantastic!”). Between these brief (ini­
tially 30 seconds long) learning periods, staff
members played with the children to keep the
process more like play than work, generalize
learned material into more natural settings, and
continue to build social responsiveness.
Receptive language was generally targeted be­
fore expressive language. We used familiar instruc­
tions where success was easily prompted, such as
“sit down” or “come here.” Expressive language
began with imitation training, first nonverbal then
vocal imitation, beginning with single sounds and
gradually progressing to words. Requesting was
taught as early as possible, initially using nonverbal
strategies if necessary (e.g., gesturing, signing, or the
Picture Exchange Communication System—PECS
(Bondy & Frost, 1994), in order to reduce frustra­
tion (Carr & Durand, 1985) and increase the child’s
frequency of communicative initiations (Hart &
Risley, 1975). Children who showed more modest
gains in treatment, referred to as visual learners by
the UCLA group, denoting difficulty in processing
language, took longer to acquire verbal imitation
and language.
Having learned many labels, children were
taught more complex concepts and skills, such as
categorization and speaking in full sentences. So­
cial interaction and cooperative play were taught
as part of the in-home program, expanding from
playing with staff, to playing with siblings, and
then peers for up to 2 hours per day (this was
more successful with the subgroup of rapidly
learning children). As the children acquired social
skills, they began mainstream (as opposed to spe­
cial education) preschool, usually for just 1 or 2
half-days (2.5 hours each) per week. A trained
shadow (one of the home treatment team mem­
bers) initially accompanied the child to assist with
attending to the teacher’s instructions, joining
others on the playground, and noting social errors
to be addressed in 1:1 sessions at home.
Those children who progressed at a rapid pace
© American Association on Mental Retardation

VOLUME 110, NUMBER 6: 417-438 I NOVEMBER^lft^^'

AMERICAN JOURNAL ON MENTAL RETARDATION

Intensive behavioral treatment

were taught the beginnings of inferential thought
(e.g., “Why does he feel sad?”). Social and con­
versation skills, such as topic maintenance and
asking appropriate questions, were taught using
role-playing (e.g., Jahr, Eldevik, & Eikeseth, 2000),
video modeling (Charlop & Milstein, 1989), social
stories (Gray, 1994), straightforward discussion of
social rules and etiquette, and in-vivo prompting.
Academic skills were also targeted, raising the
level of proficiency of rapidly learning children to
first grade levels. Common classroom rules and
school “survival skills” (e.g., responding to group
instructions and raising one’s hand to be called
on—Dawson & Osterling, 1997) were taught
through “mock school” exercises with several
peers at home.
Staff training. Therapists were at least 18 years
old, had completed a minimum of 1 year of col­
lege, and were screened for prior police contacts.
Therapists received 30 hours of training, which
included a minimum of 10 hours of one-to-one
training and feedback while working with their as­
signed child. Each therapist worked at least 6
hours per week (usually three 2-hour shifts) and
attended weekly or bi-weekly team meetings. Se­
nior therapists had at least a 4-year college degree
and experience consisting of 1 year as a therapist
with at least two children, followed by an inten­
sive 16-week internship program modeled after
that at UCLA, for a total of 2,000 hours.
Treatment fidelity. Senior therapists and clinicdirected therapists were required to meet quality
control criteria set at UCLA. This involved pass­
ing two tests. The first was a written test designed
to assess knowledge of basic behavioral principles
and treatment procedures described in The Me
Book (Lovaas et al., 1981). Second, they were re­
quired to pass a videotaped review of their work
(conducted by Tristram Smith, research director
of the Multi-Site Project, who used the protocol
described by R. Koegel, Russo, and Rincover,
1977). All senior therapists also received weekly
supervision by the senior author.
Progress reviews, which the child, parents, and
senior therapist attended, were held weekly for
clinic-directed children and every 2 months for
parent-directed children. At these reviews, the se­
nior author or the UCLA-trained clinic supervisor
observed the child’s performance and recom­
mended appropriate changes in the program.
Both the senior author and clinic supervisor had
met the UCLA criteria for Level Two Therapist,
denoting sufficient experience and expertise in
© American Association on Mental Retardation

G. O. Sallows and T. D. Graupner

program implementation to work independent of
supervision. The senior author had directed a behaviorally oriented inpatient unit for children
with autism for 14 years and had trained at UCLA
for 6 months. The clinic supervisor had a BA in
psychology, 1 year of experience as a therapist, 2
years of full-time experience as a senior therapist,
and had completed a 9-month internship at
UCLA.

Data Analysis
Data analysis was carried out by a fourth year
graduate student from the University of Wiscon­
sin Department of Statistics, with consultation
from a university research psychologist. We con­
ducted an ANOVA with a least squares solution
for unequal group size, used to examine treatment
effects. To compare the clinic-directed and parentdirected groups, we used 2x2 ANOVAS (ClinicDirected vs. Parent-Directed X Pre- vs. Posttest
scores as repeated measures). An initial examina­
tion of pre-post I CL data showed that the distri­
bution of scores was bimodal. As can be seen in
Figure 1, children showed either rapid progress or
more moderate progress, with no overlap between
outcome distributions. This is consistent with ear­
lier research (Bimbrauer & Leach, 1993; Howard,
Sparkman, Cohen, Green, & Stanislaw, 2005; O.
1. Lovaas, personal communication, August 27,
2003). Consequendy, changes in scores for rapid
learners and moderate learners were analyzed sep­
arately.

Yewt of Treatment

Figure 1. Changes in Full Scale LQduring 4 years
of behavioral treatment.
423

Pet. Reh. App.29

VOLUME 110, NUMBER 6: 417-438 I NOVEMBER 2005
Intensive behavioral treatment

In examining pretreatment scores of children
who would later be identified as rapid learners, we
found that those in the clinic-directed group had
higher mean IQ_ (60.40, standard deviation [SD]
= 8.31 compared to those in the parent-directed
group (51.00, SD = 7.02), 1(9) =1.84,/> < .05 (one
tailed), Vineland scores (clinic-directed = 64.8,
SD = 2.32; parent-directed = 59.83, SD =3.34),
1(9) = 231, p < .05 (one tailed), and Verbal Im­
itation (clinic-directed = 3.88; parent-directed =
1.67), W[4, 6) = 31, p = .03 (Wilcoxon test). Be­
cause these pretreatment differences would inter­
fere with clear interpretation of posttreatment dif­
ferences between subgroups (e.g., clinic-directed
vs. parent-directed rapid learners), these compari­
sons were omitted. We used linear and logistic
regression (best subset selection approach—Hosmer, Jovanovic, & Lemeshow, 1989) to develop
prediction models using pretreatment measures as
predictors of 3-year outcome.

Results
The average Full Scale IQ_for all 23 children
increased from 51 to 76, a 25-point increase. Eight
of the children achieved IQs of 85 or higher after
1 year of treatment (5 clinic-directed and 3 parentdirected), and 3 more reached this level after 3 to
4 years (3 parent-directed) for a total of 11, or
48%, of the 23 children. Children with higher pre­
treatment IQs were more likely to reach 4-year
IQs in the average range (75% of children with
IQs between 55 and 64 versus 17%, 1 of 6 chil­
dren with IQs between 35 and 44).
As shown in Table 2, there were no significant
differences between groups at pre- or posttest.
Combining children in both groups, we found
that pretest to posttest gains were significant for
Full Scale IQ* F{ 1, 21) = 18.77, p < .01, Verbal
IQ* A(l, 18) = 13.39, p < .01, Performance IQ*
F(1, 18) = 46.79,/’ < .01, receptive language, F{ 1,
21) = 9.18,/' < .01, Vineland Communication,
F{ 1, 21) = 7.57, p < .05, Vineland Socialization,
A(l, 21) = 10.30,/’ < .01, Autism Diagnostic In­
terview-Revised Social Skills, F( 1, 18) = 19.15, p
< .01, and Communication, F(l, 18) = 41.19, p
< .01.

Rapid and Moderate Learners
A group of rapid learners showed much larger
improvements than did moderate learners (anal­
ogous to the terms best outcome and non-best out­
come used in UCLA reports). Figure 1 shows Full
424

AMERICAN JOURNAL ON MENTAL RETARDATION

G. O. Sallows and T. D. Graupner

Scale IQs prior to treatment and over the next 4
years for all 23 children. Eleven of them (5 clinicdirected and 6 parent-directed) showed a large in­
crease in IQ* from a mean of 55 prior to treatment
to 104 after 4 years. These rapid learners repre­
sented 48% of all 23 children. The IQ_of the re­
maining 12 children (8 clinic-directed and 4 par­
ent-directed) did not show a significant increase,
consistent with earlier UCLA reports (e.g., Smith
et al., 2000).
Pre- and posttreatment scores of rapid and
moderate learners are shown in Table 3. Rapid
learners showed significant gains in all areas mea­
sured (i.e., Full Scale IQ*.F(1, 21) = 143.19, p <
.01, Verbal IQ, F{1, 18) = 70.76, p < .01, Perfor­
mance IQ*A(1, 18) = 165.27, p < .01, Nonverbal
IQ, F{ 1, 19) = 16.69, p < .01, Receptive Lan­
guage, jF(1, 20) = 217.76,/’ < .01, Expressive Lan­
guage, F(l, 20) = 77.76,/’ < .01, and all Vineland
subscales: Communication, F(l, 21) = 147.07, p
< .01, Daily Living Skills (A(l,21) = 20.50, p <
.01), Socialization, A(l, 21) = 42.89, p < .01, and
Applied Behavior Composite, A(l, 21) = 54.17, p
< .01). However, the rate of increase over time,
skill areas, and children was not uniform. As can
be seen in Figure 2, during the first year, Perfor­
mance IQ^of rapid learners rose to the average
range (a 40-point increase, WPPSI-R), whereas
Verbal IQ_and Vineland Socialization scores rose
to around 80 (a 25-point increase) and language
scores (Reynell and Clinical Evaluation of Lan­
guage Fundamentals) rose only to the 60s. Chang­
es during the second year of treatment were com­
paratively modest, perhaps reflecting the effect of
having acquired speech during the first year but
still lacking more complex language. The rate of
improvement increased again during the third and
fourth years, and all scores increased to the aver­
age range.
The gradual decrease in the slope of the
graphs in Years 3 and 4 is largely an artifact of
increasing age and does not reflect a decrease in
rate of MA growth, which, except for the large
increase during Year 1, averaged 18 months per
year throughout the study. This rate of growth in
skills is necessary for children with pretreatment
scores below 60 to “catch up” to peers. Although
some writers have noted a rate of growth among
treated children of 10 to 12 months per year, this
is . not enough for them to reach scores in the av­
erage range within just a few years (Howard et al.,
2005), and the longer that children are delayed,
the more skills they must learn to catch up.
© American Association on Mental Retardation

VOLUME 110, NUMBER 6: 417-438 I NOVEMBER2?fe^e^*' APP‘30

AMERICAN JOURNAL ON MENTAL RETARDATION

Intensive behavioral treatment

G. O. Sallows and T. D. Graupner

Table 2. Pretreatment and Outcome Scores of Clinic- (CD) and Parent-Directed (PD) Groups
Measure/
Group
Full Scale IQ
CD
PD
Verbal IQ
CD
PD
Perform IQ
CD
PD
Nonverbal IQ
CD
PD
Rec Language
CD
PD
Exp Language
CD
PD
Vineland
Com
CD
PD
DLSa
CD
PD
Soc
CD
PD
ABCb
CD
PD
ADI-RC
Social
CD
PD
Com
CD
PD
Ritual
CD
PD

Pretreatment

Posttreatment

ANOVA, combined
groups, pre- vs.
posttreatment (df)

Mean

SD

Mean

SD

50.85
52.10

10.57
8.98

73.08
79.60

33.08
21.80

18.77 (1,21)**

78.00
76.30

33.48
26.66

13.39 (1,18)**

84.90
90.70

25.86
20.72

46.79 (1,18)**

70.58
82.67

16.54
14.94

77.58
89.44

25.24
18.35

2.07 (1,21)

38.85
38.78

6.09
6.44

55.85
65.78

36.23
25.81

9.18 (1,21)**

47.92
48.44

6.17
6.96

53.38
59.22

31.91
25.13

1.30 (1,20)

57.46
63.20

4.97
5.58

73.69
81.40

32.32
24.33

7.57 (1,21)*

63.92
64.20

5.53
3.68

66.23
64.20

25.95
12.42

.11 (1,21)

58.38
60.30

6.17
5.76

73.92
68.90

23.49
10.11

10.30 (1,21)**

59.54
60.90

5.31
5.94

69.00
66.70

28.04
14.68

17.54
18.90

3.73
1.14

12.33
13.10

10.58
9.42

19.15 (1,18)**

12.85
12.90

2.44
1.22

8.08
8.80

6.91
7.43

41.19 (1,18)**

5.38
6.40

1.69
1.11

5.08
5.60

3.75
3.50

1.72 (1,18)

2.81 (1,21)

Note. CD n = 13; PD n = 10 except for Verbal IQ_and Performance IQ, where n was 10 for both groups because 3
CD children had only Bayley tests. Neither the main effect of groups (CD vs. PD) nor the interaction of groups by time
was significant for any variable. Full scale IQs at pretreatment are Bayley scores.
’Daily living skills. hAdaptive Behavior Composite. ‘Autism Diagnostic Interview-Revised.
*/> < .05. **p < .01.

© American Association on Mental Retardation

425

Pet. Reh. App.31

VOLUME 110, NUMBER 6: 417-438 I NOVEMBER 2005

AMERICAN JOURNAL ON MENTAL RETARDATION

Intensive behavioral treatment

G. O. Sallows and T. D. Graupner

Table 3. Pretreatment and Outcome Scores of Rapid (R) and Moderate (M) Learners
Measure/
Group
Full Scale IQ
R
M
Verbal IQ
R
M
Perform IQ
R
M
Nonverbal IQ
R
M
Rec Language
R
M
Exp Language
R
M
Vineland
Com
R
M
DLS3
R
M
Soc
R
M
ABCb
R
M
ADI-RC
Social
R
M
Com
R
M
Ritual
R
M

Pretreatment

Posttreatment

Mean

SD

Mean

SD

ANOVA Pre-Post
comparisons

55.27
47.83

8.96
9.37

103.73
50.42

13.35
6.98

143.19 (1,21)**
0.45 (1,21)

101.45
47.44

18.72
2.06

70.76 (1,18)**
.02 (1,18)

107.55
63.67

9.44
8.43

165.27 (1,18)**
11.81 (1,18)**

83.56
69.83

14.84
15.93

108.78
67.70

10.96
12.35

16.69 (1,19)**
0.19 (1,19)

39.30
38.42

6.91
5.59

93.60
31.83

12.64
9.87

217.76(1,20)**
3.84 (1,20)

49.90
47.50

7.75
6.54

85.70
30.83

15.07
5.89

77.76 (1,20)**
20.24 (1,20)**

60.82
59.17

4.02
7.22

105.09
51.33

12.83
10.94

147.07 (1,21)**
5.07 (1,21)*

66.45
61.83

4.25
4.20

82.27
49.83

16.34
10.61

20.50 (1,21)**
12.87 (1,21)**

61.55
57.08

6.58
4.63

87.73
57.08

14.94
6.40

42.89 (1,21)**
0.00 (1,21)

61.73
58.67

4.59
6.09

88.64
49.08

15.68
7.76

54.17 (1,21)**
7.51 (1,21)*

16.45
19.67

3.26
1.55

4.18
21.18

4.37
6.28

46.89 (1,21)**
0.43 (1,21)

11.00
13.75

3.54
0.60

2.00
14.81

2.73
3.59

52.04 (1,21)**
1.26 (1,21)

5.91
5.92

1.62
1.44

2.73
7.91

2.67
2.47

16.46 (1,21)**
4.87 (1,21)*

Note. R n = 11; M n = 12. Posttreatment language scores for moderate learners are Reynell ratio scores (AE/CA), which
are about 10 points lower than standard scores. Effect size expressed as proportion of variance was .88 for Full Scale IQ,
.90 for receptive language, .84 for expressive language, and .73 for Vineland ABC, all quite large (Cohen, 1988). Full
Scale IQs at pretreatment are Bayley scores.
"Daily living skills. bAdaptive Behavior Composite. 'Autism Diagnostic Interview-Revised.
*p < .05. **p < .01.
426

© American Association on Mental Retardation

VOLUME 110, NUMBER 6: 417-438 I NOVEMBER^olft^^’ ^PP'^

Intensive behavioral treatment

G. O. Sallows and T. D. Graupner

110

100

§
8
T? 70

i

3
<o

Pie treatment

2yr

AMERICAN JOURNAL ON MENTAL RETARDATION

3yr

4yr

Year in treatment

Figure 2. Mean IQ, language, and socialization
scores during treatment for rapid (RL) and mod­
erate (ML) learners. Initial IQ^and language scores
are ratio scores as are all language scores of mod­
erate learners.
Most parents waited until their children were
6 years old to enter kindergarten, per our recom­
mendation, in order to allow them more time to
acquire social interaction skills. At an average age
of 7.67, the 11 rapidly learning children were suc­
ceeding in regular first or second grade classes fol­
lowing the regular curriculum. On the Woodcock
Johnson III Tests of Achievement, Oral Expres­
sion averaged 102 (SD = 11.9, 1 scored below 85),
Listening Comprehension averaged 101 (SD =
15.27, 2 scored below 85), Broad Reading aver­
aged 105 (SD = 11,9, all scored over 85), Broad
Math averaged 104 (SD = 18.4, one scored below
85), Spelling averaged 112 (SD = 18.83, all scored
over 85) and general Academic Knowledge aver­
aged 98 (SD = 18.1, 2 scored below 85). Three
children had aides because of inattentiveness and
3 received speech therapy, although all spoke fluendy.
The 12 moderate learners showed a significant
improvement in Performance IQ, T(l, 18) =
11.81, p < .01, as shown in Table 3, but the post­
treatment mean score (63.67) was over two SDs
below the average range. Although these children
did not “catch up” to peers, they did show in© American Association on Mental Retardation

creases in developmental age equivalents. Cogni­
tive skills increased from 16 to 44 months; adap­
tive skills, from 16 to 37 months; language skills,
from less than 12 months to 27 months; and so­
cial skills, from 10 to 31 months. At the end of
the study, these children were continuing to gain
skills at a rate of 3.4 to 4.3 months per year in
expressive language and social skills, respectively.
All but 2 of them acquired speech, allowing them
to communicate basic needs while also reducing
frustration. Two thirds learned to read simple sto­
ries (e.g., first grade level words with two sentences
per page). Most acquired the ability to relate to
others and to play with peers. Four of the children
were in regular classes with an aide, but all had a
modified curriculum. Six children had a mixture
of some time in regular class and some time in
special education, and 2 were in full-time special
education classes (one for students with cognitive
disabilities and the other for those with emotional
disturbances).

Assessment of Residual Symptoms in Rapidly
Learning Children
Parents completed the Personality Inventory
for Children for all 23 children. As shown in Ta­
ble 4, rapidly learning children as a group scored
in the average range on all factor scales, although
2 scored in the clinically significant range on Fac­
tor III (they tended to worry). Moderate learners
were rated as having more tantrums (Factor I),
more difficulty interacting with others (Factor II),
and more learning problems (Factor IV).
Parents and teachers completed the Child Be­
havior Checklist for all 23 children. Results were
analyzed using 2X2 ANOVAS (Rapid Learners
vs. Moderate Learners X Parent vs. Teacher as re­
peated measures). As shown in Tables 4 and 5,
rapid learners as a group scored in the nonclinically significant range on all scales, although they
did score less normally than did moderate learners
on Scale 3 (they worried more). Moderate learners
were rated as less interactive (Scale 1), more pre­
occupied (Scale 5), less attentive (Scale 6), and
more easily frustrated (Scale 8).
The differences in Child Behavior Checklist
ratings between parents and teachers were small,
reaching significance on two scales (1 and 8).
However, these results largely reflected differences
within the average range. Parents did not rate any
children in the clinically significant range on ei­
ther scale, and teachers rated only 2 children on
427

Pet. Reh. App.33

VOLUME 110, NUMBER 6: 417-438 I NOVEMBER 2005

AMERICAN JOURNAL ON MENTAL RETARDATION

Intensive behavioral treatment

G. O. Sallows and T. D. Graupner

Table 4. Mean Scores of Rapid and Moderate Learners on Posttreatment Only Tests of Residual
Symptoms: Parent Ratings
PICa factor
Learner

Child Behavior Checklist6 scale
IV

1

3

4

6

5

8

Rapid (R)
(n = 11) 53.45
(.SD)
(9.38)

62.36
(8.34)

55.27 64.18
(13.90) (13.65)

59.09 55.40
(6.26) (6.14)

57.82
(7.49)

49.73 97.55
(8.77) (18.77)
1.06
5.13**

58.83 51.75
61.92
(6.27) (3.06)
(7.35)
0.01
1.80*
1.61

65.64 62.64
(9.87) (9.12)

52.91
(4.98)

70.42 67.67
(7.92) (8.17)
1.64
1.73*

53.33
(4.62)
0.08

Moderate (M)
(n = 12) 66.83
79.25
(SD)
(12.93)
(9.42)
R vs. Mc
3.43**
4.86**

'Personality Inventory for Children and Child Behavior Checklist scores a70 are clinically significant and scores a67
are borderline. Scores below those levels are not reliably different from “normal” (Achenbach, 1991b; Lacher, 1982).
Factor I = Undisciplined/Poor Self Control, II = Social Incompetence, III = Intemalizing/Somatic Symptoms, IV =
Cognitive Development. bScale I = Withdrawn, 3 = Anxious/Depressed, 4 = Social Problems, 5 = Thought Problems,
6 = Attention Problems, 8 = Aggression. ct tests are one-tailed, with a df of 19.
*p < .05. **p < .01.

Scale 1 (both moderate learners) and 3 on Scale
8 in the significant range (1 rapid and 2 moderate
learners).
Whereas checklists such as the Personality In­
ventory for Children and the Child Behavior
Checklist can be used to assess the presence of
problems, the Classroom Edition of the Vineland
is used to assess the presence of skills (e.g., “ini­
tiates conversation,” “responds to hints or indi­
rect cues in conversation”). Teachers completed
this measure for all 23 children except the 2 who
were among the highest functioning. As shown in
Table 5, teacher ratings of Communication and
Socialization for the remaining 9 rapid learners
were in the average range. Moderate learners were
rated as having deficiencies in both areas.

We examined changes in behavior related to
diagnosis by comparing the Autism Diagnostic In­
terview-Revised administered prior to and after 3
years of treatment using 2X2 ANOVAS (Rapid
Learners vs. Moderate Learners X Pretreatmentvs.
Posttreatment as repeated measures). As shown in
Table 3, rapid learners as a group showed signifi­
cant improvements on all three Autism Diagnos­
tic Interview scales: Communication, E(l, 21) =
52.04, p < .01, Reciprocal Interaction, F{ 1, 21) =
46.89, p < .01, and stereotyped behaviors, E(l, 21)
= 16.46, p < .01. Eight of 11 rapid learners scored
in the nonautistic range in all three areas, and
many had their diagnoses removed by the refer­
ring child psychiatrists. Of the rapid learners who
had remaining problems, 1 still had some lan-

Table 5. Mean Scores of Rapid and Moderate Learners on Posttreatment Only Tests of Residual
Symptoms: Teacher Ratings
Vineland
Learners
Rapid (R)
n = 11 (SD)
Moderate (M)
n = 12 (SD)
R vs. M6

Comm.

Social

94.44
(13.97)
58.58
(7.90)
6.84**

89.89
(18.36)
61.58

(6.02)
4.60**

Child Behavior Checklist scales3
1
57.00
(7.34)
64.33

(6.03)
2.93**

3

4

5

6

8

55.90
(6.93)
55.17
(6.56)
0.36

56.73
(6.30)
58.00
(5.57)
0.37

65.55
(11.37)
72.58
(7.06)
2.41*

59.36
(12.33)
63.25
(7.94)
1.33

57.60
(6.11)
61.25
(7.45)
2.86**

‘Child Behavior Checklist scores s67 are borderline. Scores below these levels are not reliably different from “normal”
(Achenbach, 1991b; Lacher, 1982). t tests are one-tailed. Scale 1 = Withdrawn, 3 = Anxious/Depressed, 4 = Social
Problems, 5 = Thought Problems, 6 = Attention Problems, 8 = Aggression. b/ tests are one-tailed, with a df of 19.
*p < .05. **p < .01.
428

© American Association on Mental Retardation

VOLUME 110, NUMBER 6: 417-438 | november2?1)$^^' APP'34

AMERICAN JOURNAL ON MENTAL RETARDATION

Intensive behavioral treatment

G. O. Sallows and T. D. Graupner

Table 6. Combined Parents’ and Teachers’ Ratings of Residual Symptoms of Rapid Learners

Child3

Social Skills
VABSb
Com, Soc

Isolates
PIC 1&2

Not liked
CBC 1,4

Anxious
CBC 3, PIC 3

50
50
51
57.5
51

50
50
50
68.3
56.3

47.7
48.3
51.3
52
60

59

55.3
57.3
60
63.8
61.3
62.3

68.3
46.3
51.3
63.7
67.0
51.3

Inattntn
CBC 5,6

Moody CBC 8

CD
1
2
3
4
5

104
115.5
115
101.3

95.5

50
50
55

79.5
62.5

50
50
50
65.5
53

PD
1
2
3
4
5
6

107.5

54
54.5
67.5
54.5
77.5
64.8
61.5
77.5
69
70.8
58
86.5
67
67.8
51
99.5
64
65
55.5
“CD = clinic directed, PD = parent directed. bVineland Adaptive behavior Scales (VABS) scores below 85 are moderately
low and 116-130, moderately high. 'Personality Inventory for Children (PIC) and Child Behavior Checklist (CBC) scores
£70 are clinically significant; and £67, borderline; below these levels, are not reliably different front “normal” (Achenbach, 1991b; Lacher, 1982).

79.5

54.5
67.5

guage delays, 1 was rigid in play, and 1 was ele­
vated in all three areas. The latter child had re­
ceived treatment from a non-UCLA affiliated pro­
vider after the first year.
Combined measures of residual symptoms are
shown in Table 6. Eight of 11 rapid learners
showed increases in social skills to the adequate
range (above 85), although 3 had some borderline
problems, including 1 who had significant prob­
lems with Preoccupation/Inattention. The remain­
ing 3 rapid learners showed moderately low social
skills (below 85), and 2 had problems with Pre­
occupation/Inattention, one of which was clini­
cally significant. All 3 of these latter children were
in the parent-directed group and took longer than
2 years to achieve IQjn the average range. These
results are similar to those described in UCLA re­
ports, where 3 of 8 best outcome children scored
below 85 on Vineland Communication, 3 were
elevated on the Vineland Maladaptive Behavior
scale, and 5 had at least one significant elevation
on the Personality Inventory for Children. In in­
terpreting these results, McEachin et al. (1993)
noted that 3 of their nonclinical children also had
significant Personality Inventory elevations.

Predicting Outcome
Early horning measure. Performance of rapid
and moderate learners on each of the four sub­
© American Association on Mental Retardation

scales of the Early Learning Measure is shown in
Figure 3. As can be seen, the difference in their
rates of learning was evident early in treatment.
Thirteen of 23 children passed the Early Learning
Measure (90% correct on verbal imitation). All 11
who later achieved scores in the average range
passed by 16 weeks of treatment (9 children) or
before reaching 42 months of age (2 children).
Pretreatment variabhs. Table 7 shows correla­
tions between pretreatment variables and three
outcome variables following 3 years of treatment:
(a) Full Scale IQj (b) Language, defined as the
mean of three measures—Vineland Communica­
tion scores from parents and teachers representing
language usage at home and school and language
scores from the Reynell or Clinical Evaluation of
Language Fundamentals; (c) Social Skills, defined
as the mean of three measures—Vineland Sociali­
zation scores from parents and teachers and Fac­
tor II (Social Incompetence) from the Personality
Inventory for Children.
The ability to imitate on the Early Learning
Measure was highly correlated with outcome in
all three areas. Seven children were able to imitate
3 of 20 sounds prior to treatment (mean total
sounds imitated during the first three Early Learn­
ing Measures was 2.43, range = 0 to 15, SD =
4.04), and all went on to achieve IQs in the av­
erage range.
429

v.
«

Pet. Reh. App.35

VOLUME 110, NUMBER 6: 417-438 I NOVEMBER 2005

AMERICAN JOURNAL ON MENTAL RETARDATION

Intensive behavioral treatment

•

Rapid Learners

A

Moderate Learners

Treabnert

Basetne

12

G. O. Sallows and T. D. Graupner

10

10

8

8

I6

I6

4

4

2

2

I

Treatment

Banlme

12

e

O

oM
1

2

M

I 'A

i

i---- .-----1-----.---- .-----.

3

5

7

8

4

6

9

10

11

12

13

1

2

3

4

Three Week Probes
Verbal Irritation (90 % Correct)

Basetne

1

Treatment

121

10

10

8

6

«

I

o

4-

2

2

1

2

3

4

5

Three Week Probes
Receptive Instructions (SO % Correct)

7

8

9

10

11

12

13

Treatment

Baseline

6

4

0#' • • ♦ •

6

Three Week Probes
Non Verbal Irritation (90 % Correct)

12

6

5

0* •
1 2

•
3

•
4

• ■
5
Three Week Probes
Expressive Labels (80 % Correct)

Figure 3. Performance of rapid (RL) and moderate (ML) learners on the Early Learning Measure.

We used linear regression using the best sub­
set approach (Hosmer et al., 1989) to select the
most powerful predictors for each outcome area.
Based on previous research, potential predictor
variables included IQ, imitation, language, social
relatedness, and severity of symptoms. Posttreat­
ment IQ_was best predicted by the subset of var­
iables including pretreatment Early Learning Mea­
430

sure (receptive language, nonverbal imitation, and
verbal imitation), pretreatment IQi Autism Diag­
nostic Interview Impairment in Social Interaction
(low social interest, unresponsive to others’ ap­
proaches, lack of shared attention), and Autism
Diagnostic Interview Communication scores. This
set of variables yielded a correlation of .83 with
posttreatment IQi which is a strong relationship.
© American Association on Mental Retardation

VOLUME 110, NUMBER 6: 417-438 I NOVEMBER^!)?}

^PP-36

AMERICAN JOURNAL ON MENTAL RETARDATION

Intensive behavioral treatment

G. O. Sallows and T. D. Graupner

Table 7. Correlations Between Pretreatment and Posttreatment Measures
Follow-up
One year
Pretreatment measure3

Three year

IQ

IQ change

IQ

Language

Social

.46*

.37
.19

.35
.24

.41
.27

.45*
.31

.41
.54*
.27
.59**

.71**
.46*

.69**
.56**
.56**
.69**

.81**

Reynell
Expressive
Comprehension

.30

ELM
Nonverbal Imitation
Exp. Labeling
Rec. Instructions
Verbal Imitation

.59**
.48*
.47*

.62**

.56**
.65**

.65**
.67**
.80**

VABS
Communication
DLSb
Motor
Socialization
Composite
Merrill-Palmer IQ
Bayley Ratio IQ

.49*
.57*

.20
.51*

.35
.40
.16
.31
.32
-.01
-.01

.33
.57**
.17
.41*
.37
.08
.45*

-.49*
-.22
-.12

-.35
-.18
-.17

-.59**
-.63**

.36
.44*

.56*

44*

.41

60**

.63**

22
43*
43*
34

.27
.47*
.46*
-.07
.28

-.52*
-.50*
-.10
92**
84**

-.57**
-.52*
-.10
82**
75**

06

ADI-R
Communication
Socialization
Ritualistic
First year IQ change
IQ at one year

.86**
.86**

-.12
.87**
.75**

"Reynell = Reynell Developmental Language Scales, ELM = Early Learning Measure, VABS = Vineland Adaptive
Behavior Scales, ADI-R = Autism Diagnostic Interview-Revised. bDaily Living Skills.
*p < .05. **p < .01.

The amount of variation in posttreatment I(^ex­
plained by this subset of pretreatment variables
was 70%.
Social skill acquisition was also predicted by
the pretreatment ability to imitate. The subset of
variables, including pretreatment Early Learning
Measure scores (receptive language, nonverbal im­
itation, and verbal imitation) and Autism Diag­
nostic Interview Communication yielded a cor­
relation of .90 with posttreatment social skill
scores, a strong relationship. The amount of var­
iance in posttreatment social skill scores explained
by this subset of pretreatment variables was 82%.
Finally, language skill acquisition was also pre­
dicted by the pretreatment ability to imitate. The
subset of variables including pretreatment Early
Learning Measure scores (receptive language, non­
© American Association on Mental Retardation

verbal imitation, and verbal imitation), Vineland
Daily Living Skills, and Autism Diagnostic Inter­
view Communication yielded a correlation of .87
with posttreatment language scores, a strong rela­
tionship. The amount of variance in posttreat­
ment language scores explained by this subset of
pretreatment variables was 75%.
Parents of 6 children (26%) reported acquisi­
tion of 5 to 25 words, all of which were later lost
between 15 and 26 months of age. Language re­
gression in other studies has varied between 20%
and 50% (Howlin, 1998), with a mean near 30%
(Shinnar et al., 2001) and median age of 18
months (Tuchman & Rapin, 1997). Shinnar et al.
reported that among those children who regained
some language, only 8% achieved typical lan­
guage. In the present study, loss of speech was not
431

Pet. Reh. App.37

VOLUME 110, NUMBER 6: 417-438 I NOVEMBER 2005

AMERICAN JOURNAL ON MENTAL RETARDATION

Intensive behavioral treatment

G. O. Sallows and T. D. Graupner

related to outcome. Three rapid learners and 3
moderate learners had a clear loss, and 6 rapid
learners and 2 moderate learners had no loss (Rap­
id Learners vs. Moderate Learners X Pre- vs. Post­
treatment, x2 (1, N =14) = .16, ns. Three of 6
children with clear regression (50%) achieved typ­
ical language. However, having no speech at the
start of treatment (age 36 months), whether from
earlier loss (and not having recovered any) or nev­
er having developed speech, was associated with
slower learning.
We used logistic regression to develop models
to predict the probability of achieving 3-year out­
come scores in the average range based on pre­
treatment measures. The most accurate model for
the current set of data combined pretreatment
Verbal Imitation from the Early Learning Measure
and pretreatment Autism Diagnostic Interview
Communication as follows: p/(l-p) = ey, where e
= (approximately) 2.718284 and y = [1.76 (total
verbal imitation items correct out of 20 trials from
standard set administered three times, 3 weeks
apart) —2.64 (Autism Diagnostic Interview-Com­
munication score) + 32.57]. Using a score above
0.5 to classify children as potentially “best out­
come,” this model correctly predicted 10 of 11
such children (sensitivity = 10/11 = .91), with
one false positive and one false negative (specific­
ity = 21/23 = .91). Predictive power was .91.
Hours of treatment. Table 8 shows the distri­

bution of direct intervention hours for rapid
learners during treatment. Most children received
predominantly 1:1 intervention during the first
year, and then gradually spent more time in
school. Once children were able to use language,
treatment was focused increasingly on building
the social skills necessary to function in school
and to interact with peers.
The number of weekly hours of treatment
seemed less related to outcome than did pretreat­
ment variables. Rapid learners averaged 34 hours
per week during the first year (range = 25 to 40)
and 31 during the second year (range = 20 to 39).
Those who learned at a more moderate rate had
identical averages, although they had less peer
play due to limited play and language skills.
The hours shown in Table 8 do not include
time spent by parents generalizing gains made in
therapy, which they found quite difficult to esti­
mate. In an effort to assess the impact of parental
involvement, senior therapists rated parents on
the percentage of involvement in their child’s
treatment during the first year. Although the cor­
relation with outcome, r = .32, was not signifi­
cant, the real impact of parental involvement may
not be seen until formal treatment has ceased,
when parents who were more involved all along
and, therefore, acquired more skills, may be better
prepared to help their child deal with new chal­
lenges.

Table 8. Average Allocation of Treatment Hours Over Time for Rapid Learners
Years of treatment
Staffing

n
1:1
School
School shadow
Peer shadow
Total

.5
11
33
(15-40)
5
(0-12)
1
(0-5)
0
(0)
34
(25-40)

1
11

1.5

10
24
(16-35) (10-33)
6
8
(0-12)
(0-25)
1
4
(0-5)
(0-15)
3
3
(0-5)
(0-5)
33
31
(26-40) (20-37)

29

2

2.5

8
7
20
22
(15-31) (10-27)
12
8
(0-16)
(8-20)
5
8
(0-15)
(3-15)
6
5
(2-9)
(0-9)
33
33
(20-39) (25-37)

3
7
18
(5-28)
13
(8-25)
11
(6-18)
4
(0-8)
33
(20-40)

3.5

4

4.5

7
6
6
15
12
10
(0-25) (4-25)
(0-15)
33
18
28
(8-30) (15-35) (25-35)
7
5
5
(0-18) (0-12)
(2-15)
4
2
3
(2-8)
(0-6)
(0-4)
17
26
21
(7-40) (6-31) (12-20)

Note. Ranges are in parentheses. Total hours include school hours only when a shadow was present. Hours are for
children still in treatment at each point in time. One child transferred to another provider after 1 year. Children began
“graduating” from treatment after 2 years. Children who had difficulty learning complex material maintained full hours
longer, but treatment focused more on 1:1 hours to teach skills and less on peer interaction due to lower social interest
and language delays.
432

© American Association on Mental Retardation

VOLUME 110, NUMBER 6: 417-438 I NOVEMBER^o!)'!)^^' ^PP-38

Intensive behavioral treatment

Among rapid learners, the number of hours
of structured home-based peer play was signifi­
cantly related to teachers’ ratings of social skills at
4 years. Although most children began peer play
by 48 months of age, those who were subsequent­
ly rated by teachers as being within the average
range (Vineland Socialization score of at least 90,
and no Child Behavior Checklist scores over 65
on Scale 1 (Withdrawn) or Scale 4 (Social Prob­
lems), had several things in common. By age 54
months, they were all receiving at least 6 (mean
= 8) hours of supervised peer play per week with
at least two unfamiliar peers (i.e., not siblings or
cousins), and this continued for at least 6 months
(M = 13), p = .008 (Fisher Exact Test).
Supplemental treatments. Of the 23 children
participating, 22 received some type of supple­
mental treatment prior to or during the first year
of treatment (19 of 23 children). These services
consisted of special education (21), preschool (2),
and private therapies beyond what was offered in
school: speech (5), sensory integration (7), audi­
tory integration training (2), music therapy (1),
and horseback riding (1). Hours per week of sup­
plemental treatment ranged from 0 to 14 (average
= 6) prior to and 0 to 15 (average = 7) hours
during the first year of treatment. Between the
first and third year of treatment, biomedical man­
agement became more popular, and more parents
tried them. Nine children were on Gluten-Casein
free diets (for 1 month to 21 months), 10 received
mega-vitamins and/or dimethylglycine—DMG
(for 1 month to 3 years), 4 received Secretin (1 to
4 doses), 4 were given Nystatin (for 1 month to
12 months), and 1 received 20 doses of Intrave­
nous Immune Globulin. However, the correlation
between hours of supplemental treatment and
outcome (-.335 with IQ, —.384 with language,
and —.334 with socialization) and that between
the use of biomedical treatments and outcome
(—.050 with IQ, —.108 with language, and —.141
with socialization) were low and not significant,
supporting the conclusion that the increases in
skills observed in this study were not the result of
these interventions.

Discussion
In the present study we demonstrated that the
UCLA early intensive behavioral treatment pro­
gram could be implemented in a clinical setting
outside a university with a similar sample and that
the earlier findings by the UCLA group regarding
© American Association on Mental Retardation

AMERICAN JOURNAL ON MENTAL RETARDATION

G. O. Sallows and T. D. Graupner

favorable outcome (Lovaas, 1987; McEachin et
al., 1993) could in large part be replicated without
aversives. Following 2 to 4 years of treatment, 11
of 23 children (48%) achieved Full Scale IQs in
the average range, with IQ_ increases from 55 to
104, as well as increases in language and adaptive
areas comparable to data from the UCLA project.
At age 7, these rapid learners were succeeding in
regular first or second grade classes, demonstrated
generally average academic abilities, spoke fluent­
ly, and had peers with whom they played regular­
lyParent-directed children, who received 6
hours per month of supervision (usually 3 hours
every other week, which is much more than “par­
ent-managed” or “workshop” supervision), did
about as well as clinic-directed children, although
they received much less supervision. This was un­
expected, and it may have been due in part to
parent-directed parents taking on the senior ther­
apist role, filling cancelled shifts themselves, ac­
tively targeting generalization, and pursuing
teachers and neighbors to find peers for daily play
dates with their children. Adthough many parentdirected parents initially made decisions regarding
treatment that resulted in their children progress­
ing slowly (e.g., using their treatment hours for
ineffective interventions or pushing children to
learn advanced skills before they were ready), re­
sulting in frustration and occasionally “shutting
down,” many parents then sought input from
treatment supervisors and rapidly learned to avoid
making the same mistake twice, becoming quite
skillful after a few months.
Several measures were used to assess residual
symptoms of autism among rapid learners, and
while generally not clinically significant, some
were found, particularly among those children
who achieved average IQ_ after several years of
treatment. About one third of the rapid learners
were seen as having mild delays in social skills.
Seeming preoccupied was also a common prob­
lem for which 3 children were assigned classroom
aides because they “needed reminders to stay on
task.” Lovaas (1987) did not mention that aides
were assigned to any of his “best outcome” chil­
dren, and it is possible that our children were not
as “normal.” However, McEachin et al. (1993)
found that in spite of scoring in the clinically sig­
nificant range in one or two areas, children were
able to maintain their skills, scoring in the average
range on standardized tests of cognitive, emotion­
al, and social variables and to succeed in regular
433

Pet. Reh. App.39

VOLUME 110, NUMBER 6: 417-438 I NOVEMBER 2005

Intensive behavioral treatment

classes at follow-up 6 years after treatment was
stopped.
The strongest pretreatment predictors of out­
come were imitation, language, daily living skills,
and socialization. Rapid acquisition of new ma­
terial as measured by the Early Learning Measure,
first year IQ, and change in Iafter 1 year were
also strong predictors. These findings are consis­
tent with previous research. A model with 91%
accuracy was derived for predicting whether a
child in the present sample would be a rapid or
moderate learner. The usefulness of the model
must await validation with other similar samples.
We note that one of the two predictors in the
model was pretreatment verbal imitation, which is
not widespread among untreated 3-year-old chil­
dren with autism. However, the model may not
discriminate among children above some as yet
undetermined age because they often acquire im­
itation by school age (Charman et al., 1997).
Because we used the Bayley to determine pre­
treatment IQ^ and Wechsler tests at follow-up,
there was a possibility that the observed increases
in IQmay have reflected the use of different tests
instead of treatment effects. To examine this, we
compared changes in scores over time from Bayley at Time 1 to Bayley at Time 2, with changes
from Bayley at Time 1 to Wechsler test at Time
2. One rapid learner was tested using the Bayley
at pretreatment and again after 1 year of treatment
because he was still only 3 years old. His score
increased from 44 to 97, similar to increases seen
in rapid learners tested with the Bayley at pretreat­
ment and the WPPSI-R at 1 year. Ten moderate
learners were tested using the Bayley at pretreat­
ment and again after 1 year of treatment, and with
Wechsler tests thereafter. For these children, Bayley to Bayley IQs increased from 47.2 to 54.3.
Bayley to Wechsler IQs increased from 53.7 to
54.6. Therefore, there did not seem to be an effect
on IQs attributable to using different tests.
Another possible confound was that most
pre- and posttesting of moderate learners was
done by the second author, perhaps introducing
bias. However, the correlation between scores ob­
tained by the second author and unaffiliated com­
munity psychologists was high, and the finding of
litde improvement over time on standardized tests
for children in this subgroup is consistent with
previous findings. A related question is whether
the positive findings among rapid learners were
due to treatment or maturation. Arguing against
the maturation hypothesis is the negligible im­
434

AMERICAN JOURNAL ON MENTAL RETARDATION

G. O. Sallows and T. D. Graupner

provement of children receiving community ser­
vices found in several longitudinal studies (Eikeseth et al., 2002; Lord & Schopler, 1989; Lovaas,
1987; Sheinkopf & Siegel, 1998).
Although we matched on age and IQand em­
ployed random assignment, this was not sufficient
to ensure equal samples. Other pretreatment var­
iables, such as imitation, correlated even more
strongly with outcome and were not equal in the
two groups. As a result, we were unable to inter­
pret treatment effects among subgroups of rapid
learners. Further, the small number of children in
the study limited the power of statistical tests to
detect differences, and the many tests on such a
small sample increased the likelihood of spurious
findings, thereby limiting the implications of re­
sults for the larger population of children with
autism. However, because some treatment effects
were so large and have been found in other stud­
ies (e.g., that a subset of the children do well), the
current results can be seen as supporting an exist­
ing body of research.
We found two interesting correlations that de­
serve further study. First, ratings of parental in­
volvement were weakly related to outcome, sug­
gesting that more overt efforts to increase parents
feeling capable of contributing to treatment plan­
ning may enhance treatment effects (Ramey et al.,
1992). Second, acquisition of social skills was pos­
itively related to amount and duration of super­
vised peer play. Some parents were uncomfortable
approaching other parents to set up play dates,
and problems doing so may provide a partial ex­
planation for the lower social skills scores of their
children. Even so, amount and duration of super­
vised peer play are surely just a few of the variables
that affect acquisition of social skills. Although we
do have several powerful interventions, including
incidental teaching, role playing, and video mod­
eling,'to teach a curriculum of social conversation,
cooperative play, and understanding the nonver­
bal communication of others, building typical so­
cial skills remains a work in progress (McConnell,
2002).
Hours of treatment in this study came closer
than any previous replication to the intensity of
hours provided in the UCLA study (Lovaas,
1987), averaging 38 hours per week for 2 years in
the clinic-directed group, and the results were also
the most comparable. Forty-eight percent of the
children showed dramatic increases in cognitive
and social skills and were able to succeed in reg­
ular education classes. However, high hours and
© American Association on Mental Retardation

volume

110,

number

6: 417-438 |

november2?^‘5^'

Intensive behavioral treatment

intensive supervision were not sufficient to make
up for low levels of pretreatment skills. Consistent
with previous studies, low IQ_(below 44) and ab­
sence of language (no words at 36 months) pre­
dicted limited progress, whereas rate of learning,
imitation, and social relatedness predicted favor­
able outcomes (Lord, 1995). Although starting at
a disadvantage, children learning at a moderate
rate were still acquiring new skills after 4 years.
We intend to follow all of the children for several
more years to determine their outcome in adoles­
cence and adulthood.

References
Achenbach, T. M. (1991a). Child Behavior Check­
list. Burlington: University of Vermont De­
partment of Psychiatry. (Available from ASEBA, 1 S. Prospect St., Burlington, VT
05401-3456 and online at http://checklist.
uvm.edu)
Achenbach, T. M. (1991b). Manualfor the Teach­
er’s Report Form and 1991 Profile. Burlington:
University of Vermont Department of Psy­
chiatry. (Available from ASEBA, 1 S. Prospect
St., Burlington, VT 05401-3456, and online
at http://checklist.uvm.edu)
American Psychiatric Association. (1994). Diag­
nostic and statistical manual of mental disorders
(4th ed.). Washington, DC: American Psy­
chiatric Association.
Anderson, S. R., Avery, D. L., DiPietro, E. K.,
Edwards, G. L., & Christian, W. P. (1987).
Intensive home-based intervention with autis­
tic children. Education and Treatment of Chil­
dren, 10, 352-366.
Bayley, N. (1993). Bayley Scales of Infant Develop­
ment (2nd ed.). San Antonio: Psychological
Corp.
Bibby, P., Eikeseth, S., Martin, N. T., Mudford,
O. C., & Reeves, D. (2002). Progress and out­
comes for children with autism receiving par­
ent-managed intensive interventions. Research
in Developmental Disabilities, 23, 81-104.
Bierman, K. L., & Welsh, J. A. (1997). Social re­
lationship deficits. In E. J. Mash & L. G. Terdal (Eds.), Assessment ofchildhood disorders (3rd
ed., pp. 328-365). New York: Guilford Press.
Bimbrauer, J. S., & Leach, D. J. (1993). The Mur­
doch Early Intervention Program after 2 years.
Behavior Change, 10, 63-74.
Bondy, A., & Frost, L. (1994). The Picture-Ex© American Association on Mental Retardation

App.40 AMERICAN JOURNAL ON MENTAL RETARDATION
G. O. Sallows and T. D. Graupner

change Communication System. Focus on Au­
tistic Behavior, 9, 1-19.
Bono, M. A., Daley, T., & Sigman, M. (2004).
Relations among joint attention, amount of
intervention and language gain in autism.
Journal of Autism and Developmental Disorders,
34, 495-505.
Carr, E. G., & Durand, V. M. (1985). Reducing
behavior problems through functional com­
munication training. Journal ofApplied Behav­
ior Analysis, 18, 111-126.
Charlop, M. H., & Milstein, J. P. (1989). Teaching
autistic children conversational speech using
video modeling. Journal of Applied Behavior
Analysis, 22, 245-285.
Charman, T., Swettenham, J., Baron-Cohen, S.,
Cox, A., Baird, G., & Drew, A. (1997). Infants
with autism: An investigation of empathy,
pretend play, joint attention, and imitation.
Developmental Psychology, 33, 781-789.
Dawson, G., & Osterling, J. (1997). Early inter­
vention in autism. In M. Guralnick (Ed.), The
effectiveness of early intervention. Baltimore:
Brookes.
Eikeseth, S., Smith, T., Jahr, E., & Eldevik, S.
(2002). Intensive behavioral treatment at
school for 4- to 7-year-old children with au­
tism: A one-year comparison controlled
study. Behavior Modification, 26, 49-68.
Eldevik, S., Eikeseth, S., Jahr, E., & Smith, T. (in
press). Effects of low-intensity behavioral
treatment for children with autism and men­
tal retardation. Journal of Autism and Develop­
mental Disorders.
Fenske, B. C., Zalenski, S., Rrantz, P. J., &
McClannahan, L. E. (1985). Age at interven­
tion and treatment outcome for autistic chil­
dren in a comprehensive intervention pro­
gram. Analysis and Intervention in Developmen­
tal Disabilities, 5, 49-58.
Gray, C. (1994). The social story book. Arlington,
TX: Future Horizons.
Green, G. (1996). Early behavioral intervention
for autism: What does research tell us? In C.
Maurice, G. Green, & S. C. Luce (Eds.), Be­
havioral intervention for young children with au­
tism (pp. 29-44). Austin, TX: Pro-Ed.
Gresham, F. M., & MacMillan, D. L. (1998). Early
intervention project: Can its claims be sub­
stantiated and its effects replicated? Journal of
Autism and Developmental Disorders, 28, 5-13.
Flarris, S. L., & Handleman, J. S. (2000). Age and
IQ_ at intake as predictors of placement for
435

•/-

Pet. Reh. App.41

VOLUME 110, NUMBER 6: 417-438 I NOVEMBER 2005

Intensive behavioral treatment

young children with autism: A four- to sixyear follow up. Journal of Autism and Devel­
opmental Disorders, 30, 137-142.
Harris, S. L., Handleman, J. S., Gordon, R., Kristoff, B., & Fuentes, F. (1991). Changes in cog­
nitive and language functioning of preschool
children with autism. Journal of Autism and
Developmental Disorders, 21, 281-290.
Hart, B., & Risley, T. R. (1975). Incidental teach­
ing of language in the preschool. Journal of
Applied Behavior Analysis, 8, 411-420.
Hosmer, D. W., Jovanovic, B., & Lemeshow, S.
(1989). Best subset logistic regression. Biomet­
rics, 45, 1265-1270.
Howard, J. S., Sparkman, C. R., Cohen, H. G.,
Green, G., & Stanislaw, H. (2005). A compar­
ison of intensive behavior analytic and eclec­
tic treatments for young children with autism.
Research in Developmental Disabilities, 26, 359—
383.
Howlin, P. (1998). Children with autism and Asper­
ger syndrome: A guidefor practitioners and carers.
Chichester, West Sussex, England: Wiley.
Jacobson, J. W., Mulick, J. A., & Green, G. (1998).
Cost-benefit estimates for early intensive be­
havioral intervention for young children with
autism: General models and single state case.
Behavioral Interventions, 13, 201-226.
Jahr, E., Eldevik, S., & Eikeseth, S. (2000). Teach­
ing autistic children to initiate and sustain co­
operative play. Research in Developmental Dis­
abilities, 21, 151-169.
Koegel, L. K., Koegel, R. L., Shoshan, Y., &
McNemey, E. (1999). Pivotal response inter­
vention II: Preliminary long-term outcomes
data. Journal of the Association for Persons with
Severe Handicaps, 24, 186-198.
Koegel, R. L., & Koegel, L. K. (1995). Teaching
children with autism: Strategies for initiating pos­
itive interactions and improving learning oppor­
tunities. Baltimore: Brookes.
Koegel, R. L., Russo, D. C., & Rincover, A.
(1977). Assessing and training teachers in the
generalized use of behavioral modification
with autistic children. Journal of Applied Be­
havior Analysis, 10, 197-205.
Lachar, D. (1982). Personality Inventoryfor Children
(PIC): Revised format manual supplement. Los
Angeles: Western Psychological Services.
Lord, C. (1995). Follow-up of two-year-olds re­
ferred for possible autism. Journal of Child Psy­
chology and Psychiatry, 36, 1365-1382.
Lord, C., & Paul, R. (1997). Language and corn436

AMERICAN JOURNAL ON MENTAL RETARDATION

G. O. Sallows and T. D. Graupner

munication in autism. In D. L. Cohen & F.
R. Volkmar (Eds.), Handbook ofautism andper­
vasive developmental disorders (2nd ed., pp.
195-225). New York: Wiley.
Lord, C., Rutter, M., & LeCouteur, A. (1994). Au­
tism Diagnostic Interview-Revised: A revised
version of a diagnostic interview for caregivers
of individuals with possible pervasive devel­
opmental disorders. Journal ofAutism and De­
velopmental Disorders, 23, 659-685.
Lord, C., & Schopler, E. (1989). The role of age
at assessment, developmental level, and test
in the stability of intelligence scores in young
autistic children. Journal ofAutism and Devel­
opmental Disorders, 19, 483-499.
Lovaas, O. I. (1987). Behavioral treatment and
normal educational and intellectual function­
ing in young autistic children. Journal of Con­
sulting and Clinical Psychology, 55, 3-9.
Lovaas, O. I., Ackerman, A. B., Alexander, D.,
Firestone, P., Perkins, J., & Young, D. (1981).
Teaching developmental,ly disabled children: The
me book. Austin, TX: Pro-Ed.
Lovaas, O. I., Koegel, R. L., Simmons, J. CL, &
Long, J. S. (1973). Some generalization and
follow-up measures on autistic children in be­
havior therapy. Journal of Applied Behavior
Analysis, 6, 131-166.
Lovaas, O. I., & Smith, T. (1988). Intensive be­
havioral treatment for young children with
autism. In B. B. Lahey & A. E. Kazdin (Eds.),
Advances in clinical child psychology (Vol. 11,
pp. 285-324). New York: Plenum.
Lovaas, O. I., Smith, T., & McEachin, J. J. (1989).
Clarifying comments on the young autism
study: Reply to Schopler, Short and Mesibov.
Journal of Consulting and Clinical Psychology,
57, 165-167.
Maine Administrators of Service for Children
with Disabilities. (2000). Report of the MADSEC autism task force. Manchester, ME: Au­
thor. (Available online at http://www.madex.
org)
Maurice, C., Green, G., & Luce, S. C. (Eds.).
(1996). Behavioral interventionfor young children
with autism. Austin, TX: Pro-Ed.
McConnell, S. R. (2002). Interventions to facili­
tate social interaction for young children with
autism: Review of available research and rec­
ommendations for educational intervention
and future research. Journal ofAutism and De­
velopmental Disorders, 32, 351-372.
McEachin, J. J., Smith, T., & Lovaas, O. I. (1993).
© American Association on Mental Retardation

VOLUME 110, NUMBER 6: 417-438 I NOVEMBER2*o!)$
Intensive behavioral treatment

Long-term outcome for children with autism
who received early intensive behavioral treat­
ment. American Journal on Mental Retardation,
97, 359-372.
Meyer, L. S., Taylor, B. A., Levin, L., & Fisher, J.
R. (2001). Alpine Learning Group. In J. S.
Handleman & S. L. Harris (Eds.), Preschool ed­
ucation programs for children with autism (2nd
ed., pp. 135-155). Austin, TX: Pro-Ed.
Mundy, P. (1993). Normal versus high-function­
ing status in children with autism. American
Journal on Mental Retardation, 97, 381-384.
Newsom, C., & Rincover, A. (1989). Autism. In
E. J. Mash & R. A. Barkley (Eds.), Treatment
ofchildhood disorders (pp. 286-346). New York:
Guilford.
New York State Department of Health, Early In­
tervention Program. (1999, May). Clinical
practice guidelines: Autism/pervasive developmen­
tal disorders, assessment and intervention for
young children (ages 0-3years). Albany: Author.
Ramey, C. T., Bryant, D. M., Wasik, B. H., Spar­
ling, J. J., Fendt, K. H., & LaVange, L. M.
(1992). Infant health and development pro­
gram for low birth weight, premature infants:
Program elements, family participation, and
child intelligence. Pediatrics, 3, 454-465.
Reynell, J. K., & Gruber, G. P. (1990). Reynell De­
velopmental Language Scales. Los Angeles:
Western Psychological Services.
Roid, G. H., & Miller, L. J. (1995, 1997). Leiter
International Performance Scale-Revised. Wood
Dale, IL: Stoelting.
Romanczyk, R. G., Lockshin, S. B., & Matey, L.
(2001). In J. S. Handleman & S. L. Harris
(Eds.), Preschool education programs for children
with autism (2nd ed., pp. 49-94). Austin, TX:
Pro-Ed.
Schopler, E., Short, A., & Mesibov, G. (1989). Re­
lation of behavioral treatment to normal func­
tioning: Comment on Lovaas. Journal of Con­
sulting and Clinical Psychology, 57, 162-164.
Schreibman, L. (1997). Theoretical perspectives
on behavioral intervention for individuals
with autism. In D. L. Cohen & F. R. Volkmar
(Eds.), Handbook of autism and pervasive devel­
opmental disorders (2nd ed., pp. 920-933). New
York: Wiley.
Schreibman, L. (1988). Autism. Newbury Park,
CA: Sage.
Semel, E., Wiig, E. H., & Secord, W. A. (1995).
Clinical evaluation oflanguagefundamentals (3rd
ed.). San Antonio: Psychological Coip.
© American Association on Mental Retardation

App.42

AMERICAN JOURNAL ON MENTAL RETARDATION

G. O. Sallows and T. D. Graupner

Sheinkopf, S. J., & Siegel, B. (1998). Home-based
behavioral treatment of young children with
autism. Journal of Autism and Developmental
Disorders, 28, 15-23.
Shinnar, S., Rapin, I., Arnold, S., Tuchman, R. F.,
Shulman, L., Ballaban-Gil, K., Maw, M.,
Deuel, R. K., & Volkmar, F. R. (2001). Lan­
guage regression in childhood. Pediatric Neu­
rology, 24, 183-189.
Smith, T. (1993). Autism. In T. R. Giles (Ed.),
Handbook of effective psychotherapy (pp. 107—
133). New York: Plenum.
Smith, T., Buch, G. A., & Gamby, T. E. (2000).
Parent-directed, intensive early intervention
for children with pervasive developmental dis­
order. Research in Developmental Disabilities, 21,
297-309.
Smith, T., Eikeseth, S., Klevstrand, M., & Lovaas,
O. I. (1997). Intensive behavioral treatment
for preschoolers with severe mental retarda­
tion and pervasive developmental disorder.
American Journal on Mental Retardation, 102,
238-249.
Smith, T., Groen, A., & Wynn, J. (2000). Ran­
domized trial of intensive early intervention
for children with pervasive developmental dis­
order. American Journal on Mental Retardation,
105, 269-285.
Smith, T., & Lovaas, O. I. (1997). The UCLA
Young Autism Project: A reply to Gresham
and McMillan. Behavioral. Disorders, 22, 202218.
Smith, T., McEachin, J. J., & Lovaas, O. I. (1993).
Comments on replication and evaluation of
outcome. American Journal on Mental Retar­
dation, 97, 385-391.
Sparrow, S. S., Balia, D. A., & Cicchetti, D. V.
(1984). Vineland Adaptive Behavior Scales (In­
terview Ed.). Circle Pines, MN: American
Guidance Service.
Stutsman, R. (1948). Merrill Palmer Scale ofMental
Tests. Wood Dale, IL: Stoelting.
Tuchman, R. F., & Rapin, I. (1997). Regression in
pervasive developmental disorders: Seizures
and epileptiform electroencephalogram cor­
relates. Pediatrics, 99, 560-566.
Venter, A., Lord, C., & Schopler, E. (1992). A fol­
low-up study of high-functioning autistic chil­
dren. Journal of Child Psychology and Psychiatry,
33, 489-507.
Wechsler, D. (1989). Wechsler Preschool and Pri­
mary Scale ofIntelligence-Revised. San Antonio,
TX: Psychological Corp.
437

Pet. Reh. App.43

VOLUME 110, NUMBER 6: 417-438 I NOVEMBER 2005

Intensive behavioral treatment

Wechsler, D. (1991). Manualfor the Wechskr Intel­
ligence Scalefor Children: Third Edition. San An­
tonio: Psychological Corp.
Weiss, M. J. (1999). Differential rates of skill ac­
quisition and outcomes of early intensive be­
havioral intervention for autism. Behavioral
Interventions, 14, 3-22.
Wirt, R. D., Lachar, D., Klinedinst, J. K., & Seat,
P. D. (1977). Multidimensional descriptions of
child personality: A manual for the Personality
Inventory for Children. Los Angeles: Western
Psychological Services.
Woodcock, R. W., McGrew, K. S., & Mather, N.
(2001). Woodcock-Johnson III Tests of Achieve­
ment. Itasca, IL: Riverside.

AMERICAN JOURNAL ON MENTAL RETARDATION

G. O. Sallows and T. D. Graupner

Received 7/22/04, accepted 7/20/05.
Editor-in-charge: William E. MacLean, Jr.
This research was supported in part by National
Institute of Mental Health Grant MH4886301A3, Multi-Site Young Autism Project. We
thank Crystal (Bums) Held, the UCLA-trained
clinic supervisor, for her efforts in carrying out
this study; Tristram Smith for reviewing the man­
uscript multiple times; Robyn Dawes and Shuangge Ma for consultation on data analysis; and O.
Ivar Lovaas for the opportunity to train at UCLA,
his mentorship, and support. Requests for reprints
should be sent to either author at the Wisconsin
Early Autism Project, 6402 Odana Rd., Madison,
WI 53719. E-mail: weap@wiautism.com

Errata
Several errors occurred in the article “Support Needs and Adaptive Behaviors,” by Julia Harries,
Roma Guscia, Neil Kirby, Ted Nettelbeck, and John Taplin (Vol. 110, No. 5, 393-404). On page 395,
in last line under Participants, the SB should be 3.2 years not 3.2 months.
In Table 4 on page 400, there should not be a superscript a next to the ICAP heading. Also, in
this table the coefficient for SIS Health and Safety subscale in Factor 3 should be —.16 not .16.
In the reference list, there should be reference to two versions of the Supports Intensity Scale (one
unpublished version and one published version) as follows:
Thompson, J. R., Bryant, B., Campbell, E. M., Craig, E. M., Hughes, C., Rotholz, D. A., Schalock, R.
L., Silverman, W., Tasse, M. J., & Wehmeyer, M. (2002). Supports Intensity Scale: Standardization
and. users manual. Unpublished assessment scale, American Association on Mental Retardation.
Thompson, J. R., Bryant, B., Campbell, E. M., Craig, E. M., Hughes, C., Rotholz, D. A., Schalock, R.
L., Silverman, W., Tass6, M. J., & Wehmeyer, M. (2004). Supports Intensity Scale: Users manual.
Washington, DC: American Association on Mental Retardation.

438

© American Association on Mental Retardation

Pet. Reh. App.44
0196-206X/06/2702-0145
Developmental and Behavioral Pediatrics
Copyright © 2006 by Lippincott Williams & Wilkins, Inc.

C

Vol. 27, No. 2, April 2006
Printed in U.S.A.

Treatment

Early Intensive Behavioral Treatment: Replication of
the UCLA Model in a Community Setting
HOWARD COHEN, Ph.D.
Valley Mountain Regional Center, Stockton, CA
MILA AMERINE-DICKENS, M.S.
Central Valley Autism Project, Modesto, CA

TRISTRAM SMITH, Ph.D.
Department of Pediatrics, University of Rochester Medical Center, Rochester, NY
ABSTRACT. Although previous studies have shown favorable results with early intensive behavioral
treatment (EIBT) for children with autism, it remains important to replicate these findings, particularly in
community settings. The authors conducted a 3-year prospective outcome study that compared 2 groups: (1)
21 children who received 35 to 40 hours per week of EIBT from a community agency that replicated Lovaas'
model of EIBT and (2).21 age- and IQ-matched children in special education classes at local public schools.
A quasi-experimental design was used, with assignment to groups based on parental preference.
Assessments were conducted by independent examiners for IQ (Bayley Scales of Infant Development or
Wechsler Preschool and Primary Scales of Intelligence), language (Reynell Developmental Language
Scales), nonverbal skill (Merrill-Palmer Scale of Mental Tests), and adaptive behavior (Vineland Adaptive
Behavior Scales). Analyses of covariance, with baseline scores as covariates and Year 1-3 assessments as
repeated measures, revealed that, with treatment, the EIBT group obtained significantly higher IQ (F = 5.21,
p = .03) and adaptive behavior scores (F = 7.84, p = .01) than did the comparison group. No difference
between groups was found in either language comprehension (F = 3.82, p = .06) or nonverbal skill. Six of the
21 EIBT children were fully included into regular education without assistance at Year 3, and 11 others were
included with support; in contrast, only 1 comparison child was placed primarily in regular education.
Although the study was limited by the nonrandom assignment to groups, it does provide evidence that EIBT
can be successfully implemented in a community setting. J Dev Behav Pediatr 27:145-155, 2006. Index
terms: autism, early intervention, applied behavior analysis, behavioral treatment.

The design and implementation of methodologically
rigorous treatment studies are daunting tasks and, in
the area of treatment for autism spectrum disorders,
often emotionally charged and publicly vetted as well.
Matching groups on a variety of important measures,
including severity of disability, individual characteris­
tics of the child, multiple important socio-familial and
environmental factors, as well as controlling multiple
treatment issues such as fidelity, intensity and length
of treatment and pre-determining appropriate outcome
measures are all challenging (and expensive). Moving
treatment studies from the laboratory setting into the
community presents additional hurtles, yet this is
ultimately the setting in which the efficacy of treatment
models needs to be evaluated. Cohen and colleagues

are to be commended for implementing a communitybased treatment study with matched samples, doc­
umentation of treatment fidelity, and comprehensive
3-year follow-up. However, the setting was based in
a community program that is mandated to provide
treatment to families of children with autism spectrum
disorders who are then free to accept a plan or not,
which prohibited random assignment to treatment. This
introduced potential bias in their groups, with more
educated and dual parent families in the EIBT group.
There are strengths as well as limitations in this study.
Although it does not resolve the controversies that
continue regarding the “best” treatments for young
children with ASD, we include it because of the critical
need for evaluation of treatment approaches. The
reviewers pointed out the limitations in this community
approach as well as its strengths. The reader is
encouraged to look at both in reviewing this article.
We hope that it will inspire others to do these vitally
needed treatment effectiveness studies. —Editor

Received September 2005; accepted February 2006.
Address for reprints: Mila Amerine-Dickens, M.S., 1317 Oakdale Rd.,
Suite 800, Modesto, CA 95355; e-mail: mamerine-dickens@cvap.org.

S145
Copyright © Lippincott Williams & Wilkins. Unauthorized reproduction of this article is prohibited.

*.•

Pet. Reh. App.45
S146

AMERINE-DICKENS ET AL

In an era when Autistic Spectrum Disorder (ASD) was
viewed as largely unbeatable,1 Ivar Lovaas’ 1987 outcome
study2 became a pivotal event that provided optimism about
behavioral interventions for ASD. Almost half (9 of 19) of
the children with autism who began intensive behavioral
treatment prior to the age of 4 years from the UCLA/Lovaas
clinic (40 hours per week for 2 or more years) were fully
included into regular education and showed significant gains
in intellectual achievement. A follow-up study of the same
children showed sustained gains.3 This finding, coupled with
a general trend toward earlier diagnosis of ASD (under 3
years of age)4 and the recent exponential increase in
documented cases of ASD,5 made Lovaas’ results even more
influential and replication of his research more compelling.
Replication of the UCLA/Lovaas Model involves the
following key elements6: (1) clinical internship and train­
ing on the UCLA/Lovaas Model of intervention under the
direction of qualified supervisors; (2) implementation of
the model for 35 to 40 hours per week throughout the year,
including one-to-one instruction, peer play training ses­
sions, inclusion into regular education classrooms, and
generalization activities; (3) parent training to foster the
child’s acquisition and generalization of skills; and (4)
annual outcome measures.
Several studies have partially replicated the UCLA/Lovaas
Model. In the only randomized clinical trial, 28 children with
ASD received either intensive behavioral treatment or parent
training.7 The intensive treatment group averaged 25 hours
per week in the first year which faded over the next 1 to 2
years. The comparison group participated in 10 to 15 hours
per week of special education classes and received 5 hours
per week of parent training for 3 to 9 months. The intensive
children outperformed the comparison children on intellec­
tual, visual-spatial, and academic measures. However, gains
were substantially smaller than in Lovaas’ original study.
For example, the between-group IQ difference at follow-up
was 16 points compared to the 31 reported by Lovaas. In
other partial replications of the UCLA model, children with
ASD obtained 15 to 35 hours per week of treatment and
obtained results similar to those reported in the randomized
clinical trials8,9; similar results also have been reported for
other early intensive behavioral treatment (EIBT) models
with about 25 hours per week of treatment.10,11
Concerns have been expressed about the difficulty of
offering treatment at this level of intensity to community
samples,12 and mixed results of EIBT in community
settings have been reported. One investigation indicated
a lack of significant improvements in a sample of 66
children with ASD.13 A multiple baseline study of 6
children found clear short-term gains but equivocal long­
term effects.14 However, a third study reported that an
EIBT group (n = 29) in a community agency made
statistically significant gains in all areas of development
except motor skills, relative to 2 comparison groups.15
Moreover, 13 of the 29 EIBT children (45%) achieved IQs
in the average to above average range. In the first
replication of the UCLA Model that included all of the
elements identified by Lovaas, 11 of 23 children with ASD
(48%) achieved full inclusion into regular education and

JDBP/April, Vol. 27, No. 2

IQ scores greater than 85.16 However, the study did not
have a comparison group.
Although these studies generally confirm that EIBT is
effective, differing results across studies and methodolog­
ical limitations such as the absence of comparison groups
in many reports weaken the ability to truly validate the
optimism generated by the initial Lovaas study. Accord­
ingly, the present study was an attempt to fully replicate
that study in a community setting. Research questions
included the following: (1) Can the Lovaas/UCLA model
be replicated in a community setting? (2) What outcomes
do children with ASD achieve with this intervention?

METHODS
Participants
Participants were 42 children in 2 groups: The early
intensive behavioral treatment (EIBT) group (n = 21)
received 35 to 40 hours of behavioral intervention, 47
weeks per year, for 3 or more years. The comparison group
(n = 21) received services from local public schools. In
accord with the UCLA Young Autism Project multisite
research replication protocol, participation criteria for both
groups included (1) primary diagnosis of autistic disorder
or pervasive developmental disorder not otherwise speci­
fied based on an evaluation by an independent licensed .
psychologist and confirmed by the Autism Diagnostic
Interview-Revised,17 (2) pretreatment IQ above 35 on the
Bayley Scales of Infant Development-Revised (BSIDR),18 (3) chronological age between 18 and 42 months at
diagnosis and under 48 months at treatment onset, (4) no
severe medical limitation or illness including motor or
sensory deficits that would preclude a child from partic- '■
ipating in 30 hours per week of treatment, (5) residence .
within 60 km of the treatment agency, (6) no more than "
400 hours of behavioral intervention prior to intake, and
(7) parent’s agreement to participate actively in parent
training and generalization and to have an adult present
during home intervention hours.
In addition to the 21 participants in each group, there
were 5 dropouts who were excluded from the data analyses
(3 in the EIBT group and 2 in the comparison group). One
EIBT participant moved out of the area at 17 months into
treatment and was unavailable for follow-up; 2 withdrew
their participation, 1 at 3 months and the other at 18
months. Dropouts were similar to completers with regard
to age of diagnosis (24, 36, and 22 months), baseline IQ
(42, 44, and 44), and 1-year IQ (58 and 61; score
unavailable for participant who dropped out after 3
months). Two comparison children were dropped because
parents either declined annual testing of their child or
could not be contacted. All other eligible referrals enrolled
in the study, completed yearly follow-up assessments, and
were included in the data analyses.
All treatment in both groups was provided at no cost to
families. Funding was split between 2 public agencies: (1)
the Valley Mountain Regional Center (VMRC; Stockton,
CA) and (2) the child’s Special Education Local Planning
Area (SELPA) of residence. VMRC is contracted by the
California Department of Developmental Services to

Copyright © Lippincott Williams & Wilkins. Unauthorized reproduction of this article is prohibited.

Pet. Reh. App.46
Early Intensive Behavioral Treatment
identify and coordinate services for individuals with
developmental disabilities; its catchment area includes San
Joaquin, Stanislaus, Calaveras, Amador, and Tuolumne
Counties. SELPAs are contracted by the California Depart­
ment of Education to provide special education instruction.
Design
Inasmuch as VRMC and SELPA had a mandate to
provide free and appropriate services, legal and ethical
considerations precluded random assignment of children to
groups. Therefore, a quasi-experimental design was used.
A comparison group was formed by identifying children
who met participation criteria for EIBT and whose parents
chose other services. Specifically, for each EIBT partic­
ipant, a file review was initiated at VMRC to identify a
matching child who was not receiving EIBT; the first
identified child was then added to the comparison group.
Comparison children were followed prospectively and
received the same annual assessments as EIBT children.
To ensure that choices were available to families and that
families were aware of these choices, VMRC and SELPA 6,
along with nonpublic educational agencies and parents,
developed an ongoing collaborative program (Autism
Connection).19 The Early Autism Diagnostic Clinic
(EADC) was created by the Autism Connection (1) to
provide expert evaluations for autism and related disorders
(or referrals to other experts in the area) and (2) to bring
together local clinicians, VMRC, parents, school district
representatives, and advocates to communicate directly
with each other, at the EADC, rather than requiring the
parents to endure separate meetings. At the time of
diagnosis, an educational consultant from the EADC and
a representative from the school district of residence
presented the family, orally and in writing, a Matrix of
Educational Options developed by the Autism Connection.
This matrix delineates the service agencies in the child’s
area of residence and their eligibility criteria, along with
the roles and responsibilities of parents, service providers,
and funding agencies in implementing interventions.
Options included special education settings, Autistic
Spectrum Disorder (ASD) classes, speech and language
services, occupational therapy, genetic counseling, behav­
ior intervention services, grief counseling, Early Start
programs for children under 3 years old, and EIBT
Programs, including the agency in this study (Central
Valley Autism Project; CVAP) and other EIBT providers.
During the enrollment period (1995-2000), the number of
other EIBT providers ranged from 1 to 3. At times when
CVAP did not have openings, the education consultant and
school representative removed CVAP from the Matrix.
EADC educational consultant and school representatives
were otherwise independent of the study.
Treatment Procedures: EIBT Group
EIBT consisted of 35 to 40 hours per week of inter­
vention based on Lovaas’ UCLA treatment model.2,6,20
Seventeen of the 21 participants remained in EIBT for 3
years. Four others ended EIBT prior to 3 years but

S147

completed follow-up assessments and are included in the
statistical analyses; 1 completed the intervention protocol
and was fully included in regular education at Year 2,
whereas 3 others were transferred to other services (2 after
6 months and 1 at Year 2) because their progress did not
meet specific, predetermined developmental markers for
continuing intervention. Markers at 6, 12, 24, and 36
months were identified collaboratively by Autism Con­
nection.21 For example, at 24 months, the IEP team
considered whether the child showed one or more signs
of progress such as the following: (1) the child’s stand­
ardized cognitive testing indicated steady growth or near­
average functioning; (2) objective data collected on EIBT
instruction demonstrated that the child was mastering new
skills; (3) objective data revealed an increase in the child’s
frequency of initiating language or peer interaction; or (4)
the child was included in a general education placement
with similar-aged peers for systematically increasing
increments of time and was acquiring age-appropriate
pre-academic skills.
The EIBT agency, CVAP, met all criteria for replication
of Lovaas’ UCLA treatment model and participated in a
multicenter study supported by the National Institute of
Mental Health. The UCLA model relies exclusively on
behavioral techniques such as unambiguous instruction,
shaping through positive reinforcement of successive
approximations, systematic prompting and fading proce­
dures, discrimination learning, and careful task analysis.
Positive reinforcers such as edibles, sensory and perceptual
objects are used initially but soon replaced by social
reinforcers such as praise, tickles, hugs, and kisses.
Ongoing data collection is performed to monitor skill
acquisition, generalization, and frequency of problem
behaviors. The intervention protocol consists of 3 primary
components: (1) In-home 1:1 instruction, (2) peer play
training, and (3) regular education classroom inclusion. No
aversive interventions were used throughout the study.
Initially, the In-Home 1:1 Intervention Component is
implemented 35 to 40 hours per week for children older than
3 years, and 20 to 30 hours per week for children younger
than 3 years. The focus is on establishing foundational and
spontaneous communication. The main teaching format is
discrete trials,22 but generalization activities and commun­
ity outings are also part of the 35 to 40 hours per week of
instruction. In discrete trials, the tutor works individually
with a child in a distraction-free setting and administers 3
to 8 trials in a sitting, with 1- to 2-minute breaks between
sittings, for approximately 50 minutes each hour. The
remaining 10 minutes of each hour are devoted to
generalization activities. These activities include structured
play, in which the child has opportunities to apply skills
initially mastered in the 1:1 setting (e.g., labeling toys or
taking turns with the tutor during a game), and incidental
teaching, in which situations were arranged to encourage
initiation of language (e.g., placing preferred objects in
sight but out of reach). Skill mastery in discrete trials was
defined as 90% accuracy across 2 days of intervention,
across 2 or more tutors. Concept mastery was defined as
90% accuracy of 5 to 10 novel items probed and mastered
within a concept. After mastery, skills and concepts were

Copyright © Lippincott Williams & Wilkins. Unauthorized reproduction of this article is prohibited.

Pet. Reh. App.47
S148

AMERINE-DICKENS ET AL

systematically generalized to other more naturalistic set­
tings and maintained by available contingencies in the
natural environment. To facilitate generalization, commun­
ity outings occurred 3 to 5 times per week. The UCLA
curriculum was used for teaching the initial foundation
skills including compliance, imitation, early receptive and
expressive language, visual spatial skills, and self-help. 6,20
At approximately 1 year into the behavioral interven­
tion, the distribution of the 35 to 40 hours per week is
typically as follows: 26 to 31 of home instruction, 3 to 5
hours of peer play, and 6 to 9 hours at preschool.
Thereafter, the home component gradually decreases,
whereas other components gradually increase based upon
the child’s inclusion in the classroom.
As part of the generalization of skills and behaviors to the
natural environment, the peer play component is initiated
3 to 5 sessions per week with a typically developing peer for
15 to 60 minutes per session when the child has mastered
prerequisite skills: verbal response to questions, on topic
statements, simple play skills, and turn taking.2,6'20 Skills
mastered in the 1:1 setting are systematically generalized
to a social/play setting with a peer of similar age. A trained
tutor facilitates mastered activities for the child and peer
(e.g., conversation, pretend play with toys, or turn-taking
games) and prompts the peer to engage the child with
subtle cues such as whispers in the peer’s ear, visual
signals, or indirect questions. When the child is 90%
accurate initiating with peers across 3 or more peers for 18
to 24 months, additional children are presented at one time
to form a group play setting.
At about the time that peer play training is initiated, the
child enters a teacher-directed structured regular education
preschool setting.2 Initially, trained tutors accompany the
child to school to assist the teaching staff with gaining
instructional control, generalizing mastered skills to the
school setting, and learning classroom skills. The tutor
functions as a classroom aide and not as a 1:1 aide for the
child. Initial goals for inclusion center on generalizing
skills to a novel, yet structured environment. As the child
achieves independent responding during specific activities
(e.g. circle time, center time, and so forth), as determined
by data, the shadow tutor is faded. Activities requiring
social skills and behaviors are always the last to fade in
the process.
When children have achieved typical levels of academic
functioning in the classroom and participate without the
assistance of a shadow tutor during teacher-directed
activities, they still may require the assistance of the
shadow tutor during social opportunities throughout the
school day for an additional 2 to 3 years. Thus, an
intervention with reduced hours both at home and in
school may extend into the early primary grades. School
hours focus on generalization of social skills and friend­
ship development. As the child’s rate of independent social
interaction increases, the intervention hours are succes­
sively reduced to 0. Subsequently, consultation to the
family and the school setting continue 1 to 2 hours per
month for up to 1 to 2 years. Home hours focus on play
sessions with peers and gradually transition to typical play
dates with peers without the presence of a tutor. Periodic

JDBP/April, Vol. 27, No. 2

standardized assessments continue until the child is
18 years old.
During the course of the study, there was a growing
recognition that many children who made significant gains
in the first 2 years of treatment required training beyond
the UCLA curriculum to develop mutually satisfying
social relationships, enhance their understanding of social
meanings, understand and interpret other’s perspectives/
knowledge/cognition/beliefs, and ultimately respond appro­
priately to social behaviors of peers and others. To address
this need, overt social behaviors were operationally defined,
both verbal (e.g., conversational skills, such as responding to
statements or questions asked by others, reciprocal state­
ments, initiating conversation, inquiring about others,
remaining on topic, and sustaining conversation) and non­
verbal (e.g., interpreting and responding to other’s facial
expressions, emotional states, voice tone, or body language),
and initially taught in a discrete trial format, using the same
behavioral principles and methodology described above,
with an emphasis on a quick transition to generalized
teaching to a social context, using incidental teaching and
video modeling as tools for generalization.
Staff and Parent Training. To ensure proficiency in
implementing the UCLA model, 5 CVAP staff members
each completed 3- to 4-month internships at UCLA, and
consultants from UCLA made on-site visits 2 to 4 times
per year for the first 3 years of the study period, with
frequent telephone contacts between visits (typically once
per week). During this period, a random sample of 12
CVAP tutors were videotaped and scored by blind raters
for adherence to UCLA procedures. The level of adher­
ence by CVAP tutors was found to be nonsignificantly
higher than adherence by tutors employed at UCLA.23
One UCLA-trained individual served as CVAP site
director, responsible for oversight of each child’s inter­
vention; she holds a master’s degree in clinical psychol­
ogy/applied behavior analysis and is a Board Certified
Behavior Analyst. Clinic supervisors trained and provided
ongoing performance feedback to tutors. Supervisors were
graduate students in behavior analysis or master’s level
clinicians with 2 or more years of experience in providing
EIBT. Tutors were recruited from the community and were
the main providers of direct services. Supervisors and
tutors were assigned to each EIBT participant based on
openings in their schedule and geographic location.
To become a supervisor, individuals had to meet prespeci­
fied, objective criteria, including high ratings based on direct
observation of their implementation of EIBT interventions,
favorable evaluations from families and staff members, satisfac­
tory performance on a test ofskill at curriculum development, and
oral and written demonstration of their knowledge of applied
behavior analysis and ASD.24 Tutors had to pass a rigorous
behavior observation assessment of their accuracy in
conducting discrete trial training (DTT) and oral tests of
their knowledge of the UCLA treatment manual.
Parents were encouraged to be involved in all levels of
intervention. At the beginning of treatment, all parents
attended a 12- to 18-hour training workshop across 2 to 3
days on behavioral principles and intervention methods.
Thereafter, they participated in weekly training sessions to

Copyright © Lippincott Williams & Wilkins. Unauthorized reproduction of this article is prohibited.

H.'V

T'

Pet. Reh. App.48
Early Intensive Behavioral Treatment
generalize their child’s newly established skills to the
natural environment. Parents provided ongoing informa­
tion regarding their child’s current level of functioning
both in and out of intervention sessions, and they were
asked to be active participants in their child’s intervention,
although there was no requirement for parents to provide
any direct intervention hours.

S149

a participant performed at the ceiling of the BSID-R, this
test was replaced with the Wechsler Preschool and Primary
Scales of Intelligence.31 Follow-up evaluations were
conducted by an independent, self-employed, highlyskilled, licensed, child evaluator. VMRC made the referral
and funded the evaluations. The referral to the evaluator
consisted only of the name of the child, birth date, parent’s
names, and telephone number.

Treatment Procedures: Comparison Group
Participants in the Comparison Group received com­
munity services that their families selected from the
Matrix of Educational Options. At intake, 1 comparison
child, under 3 years old, received an Early Start Autism
Intervention Program, which emphasized learning read­
iness skills with both the parent and child. This child
received less than 9 hours per week of a discrete trial
program in his or her home, until the age of 3. Two
comparison children received a home-based developmen­
tal intervention that ranged from 1 to 4 hours a week. At
age 3, these 3 children were enrolled in a public school
Special Day Class (SDC). Seventeen children who were 3
and above at intake were enrolled in SDC in the public
schools. No records were available for 1 child. The
instructional methodology in the SDC placements was
eclectic, the child/teacher ratios varied from 1:1 to 3:1, and
the classes operated for 3 to 5 days per week, for up to 5
hours per day. Related services such as speech, occupa­
tional, and behavioral therapy to these children varied
from approximately 0 to 5 hours per week Three of the
children spent brief sessions (up to 45 minutes per day)
mainstreamed in regular education. Due to the diverse
interventions provided to the comparison group, it was not
possible to monitor treatment fidelity for this group.
Assessment
At pretreatment, a licensed psychologist at EADC who
was independent of the study administered a standardized
behavior observation,25 parent interview, and developmen­
tal tests, including the BSID-R, Merrill-Palmer Scale of
Mental Tests,26 Reynell Developmental Language
Scales,27 and Vineland Adaptive Behavior Scales.28 The
BSID-R extrapolated table was used to generate a standard
score for children who obtained an IQ below 50.29
Administration of the BSID-R began at the starting point
for the child’s chronological age (or at the highest starting
point for the test if the child was older than 42 months).
The examiner administered each successive item after the
starting point to establish a basal and ceiling; if the child
did not obtain a basal on these items, the examiner
administered each preceding item in succession until a
basal was achieved and then followed rules in the test
manual for establishing the ceiling.
From the evaluation, the psychologist made a DSM-IV
diagnosis of autism or Pervasive Disorder, Disorder Not
Otherwise Specified (PDDNOS).30 Subsequently, the diag­
nosis was confirmed by the Autism Diagnostic InterviewRevised (ADI-R),17 administered by a certified examiner
employed by CVAP. The developmental tests (but not the
ADI-R) were repeated in annual follow-up evaluations. If

Data Analysis
IQ was the main measure of treatment response in
previous EIBT studies6-16 and was designated as the
primary outcome measure in the present study. Secondary
outcome measures were the Merrill-Palmer Scale of
Mental Tests, Reynell Language Comprehension, Reynell
Expressive Language, Vineland Adaptive Behavior Scales,
and classroom placement.
To test our main hypothesis that the EIBT group would
differ from the comparison group on outcome measures,
we performed a repeated-measures analysis of covariance
(ANCOVA) for each measure, with pretreatment score as
the covariate and Year 1, Year 2, and Year 3 scores as the
repeated dependent measures. Consistent with standard
assumptions for an ANCOVA,32 analyses of skew and
kurtosis, as well as visual inspection, were consistent with
a normal distribution in our data. Hyunh-Feldt epsilon tests
confirmed that the data showed compound symmetry (e >
.90), unless otherwise noted in Results.
As is usual in outcome studies with repeated measures, a
few participants had missing data at one or more time
points. For each outcome measure, we employed the
standard procedure of removing participants with missing"
data from the analysis.32 This procedure is appropriate1
when missing data are random or unbiased. We used visual
inspection to confirm that the missing data were unbiased
(e.g., the data were not primarily from participants who
had unfavorable outcomes or who did not complete the full
3 years of intervention), and -Results- show the number of
participants retained for each analysis.
In as much as the EIBT and comparison groups differed
on several demographic variables (mother education,
father education, and diagnosis), we explored whether
adding these variables as covariates in the ANCOVA
model would change the interpretation of the results.
These analyses need to be interpreted with caution because
they involve a larger number of variables than is usually
considered appropriate for the relatively small sample size
in the present study. However, they provided some
information on whether or not the groups differed when
we statistically controlled for demographic variables.
When an ANCOVA revealed a between-group differ­
ence on an outcome measure, we hypothesized that the
EIBT group would show an increase in scores from Year 1
to Year 2 to Year 3, whereas scores in the comparison
group would remain stable. To test this hypothesis, we
examined whether the ANCOVA yielded a statistically
significant Group x Time interaction; if so, we performed
planned comparisons to test for an increase from Year 1 to
Year 3 in the EIBT group.

Copyright © Lippincott Williams & Wilkins. Unauthorized reproduction of this article is prohibited.

Pet. Reh. App.49
S150

AMERINE-DICKENS ETAL

Table 1. Background Information for the EIBT Group (n = 21)
and Comparison Group (n = 21)
EIBT
Demographics
Male/Female
Diagnosis (Autism/PDDNOS)*
Age at diagnosis [(M(SD)]
Mother education, yr [(M(SD)]'
Father education, yr [(/W(SD)]'
Two-parent household (yes/no)*
Pretreatment Test Scores [(/W(SD)]
IQ
Merrill-Palmer
Reynell
Language Comprehension
Expressive Language
VABS
Composite
Communication
Daily Living
Socialization

Comparison

18:3
20:1
30.2 (5.8)
15.3 (2.9)
15.8 (2.9)
21:0

17:4
15:6
33.2 (3.7)
13.1 (1.6)
11.8 (2.3)
14:7

61.6 (16.4)
82.4 (17.3)

59.4 (14.7)
73.4 (11.9)

51.7(15.2)
52.9 (14.5)

52.7(15.1)
52.8 (14.4)

69.8 (8.1)
69.4 (11.8)

70.6 (9.6)
65.0 (6.8)
72.7(12.5)
75.1 (13.0)

73.2 (9.2)
70.3 (10.9)

EIBT indicates early intensive behavioral treatment; Reynell,
Reynell Developmental Language Scales; VABS, Vineland Adaptive
Behavior Scales; PDDNOS, Pervasive Disorder, Disorder Not
Otherwise Specified.
'Significant difference between EIBT and comparison group
(p< .05).

To examine the clinical significance of the results, we
ascertained the number of participants in each group who
achieved scores in the average range at follow-up on each
measure. We also sought to identify pretreatment measures
that were associated with later scores in the average range.
Therefore, for the EIBT group, we conducted t-tests to
compare pretreatment scores of participants who scored in
the average range across all measures to pretreatment
scores of the remaining participants.

RESULTS
Pretreatment
Table 1 summarizes the demographics and pretreat­
ment scores of the early intensive behavioral treatment

JDBP/April, Vol. 27, No. 2

(EIBT) and comparison groups. The gender make-up
mirrors the 4:1 male to female ratio in Autistic
Spectrum Disorder (ASD).31 Twenty of 21 EIBT children
(95%) and 15 of 21 comparison children (71%) were
diagnosed with Autistic Disorder. This difference was
statistically significant, r(40) = 2.13, p < .05. The
remaining children were classified with Pervasive Disor­
der, Disorder Not Otherwise Specified (PDDNOS). Age of
diagnosis was 20 to 41 months, with the EIBT group
averaging 3 months younger than the comparison group
(a difference that was not statistically significant). Also, as
shown in Table 1, although not a requirement for
participation in the EIBT program, parents had signifi­
cantly more education and were significantly more likely
to be married than comparison parents. IQ, Merrill-Palmer,
Reynell, and Vineland scores did not differ significantly
between groups; scores in both groups indicated devel­
opmental delays comparable to other samples of children
with ASD.30

Outcome
Table 2 presents the results of the analysis of covariance
(ANCOVA) tests for each outcome measure, whereas
Figure 1 presents the means and 95% confidence intervals
for each group at intake, Year 1, Year 2, and Year 3. As
shown in Table 2, there was a significant difference
between groups on the primary outcome measure, IQ.
Figure 1 reveals that the mean IQ in the EIBT group
increased 25 points, from 62 at pretreatment to 87 at Year
3. Interestingly, the mean IQ in the comparison group also.,
increased, from 59 at pretreatment to 73 at Year 3. ,
The EIBT and comparison groups did not differ
significantly on the Merrill-Palmer. Both groups displayed
a mean increase of 13 points from intake to Year 3 on this
measure. Figure 1 suggests that the groups may not have
been matched at pretreatment, as the mean for the EIBT
was 82 compared to 73 in the comparison group. A post
hoc analysis indicated that this difference approached
statistical significance, r(35) = 1.87, p = .07. Also, the
assumption of compound symmetry was questionable for
this variable, with Hyunh-Feldt e = .85; because the

Table 2. Analyses of Covariance Testing for Differences Between the EIBT and Comparison Groups on Outcome Measures
N

Sums of Squares (Between Subjects)

Measure

E

C

Group

Covariate

Error

IQ
Merrill-Palmer
Reynell
Language Comprehension
Expressive Language
VABS
Composite
Communication
Daily Living

21

19

21

16

4,229.91
246.27

12,046.14
15,613.74

30,042.41
20,657.91

811.96
626.00

21
20

19
19

3,750.25
3,413.57

17,523.60
13,590.90

36,312.08
52,495.66

981.41
1,458.21

20
20
20
20

20
20
20
20

3,897.52
3,937.71
2,527.14
1,857.84

1,589.31
2,937.53
2,229.25
21.66

18,385.69
25,994.10
14,207.49
16,130.41

496.91
722.06
394.65
460.87

Socialization

MSE

F
5.21*

ns
3.82"

ns
7.84'"
5.45'
6.40*
4.03"

N indicates number of participants included in the analysis; E, EIBT group; C, comparison group; ns, not statistically significant; MSE, mean
square of errors (between subjects); Reynell, Reynell Developmental Language Scales; VABS, Vineland Adaptive Behavior Scales.

* p< .05; "p< .10; "*p< .01.

Copyright © Lippincott Williams & Wilkins. Unauthorized reproduction of this article is prohibited.

Pet. Reh. App.50
Early Intensive Behavioral Treatment

S151

Treatment —
Comparison
110

100
Menfll-Palmer

n = 21
n = 21

100
n = 20

n = 21
n = 20

90

- 21
80-

_ n = 18
n= 17

60

70-

70

60

90

n= 19

60-

o'

T

o'

1

T

100

J
n = 21

Reynell (Expressive)

Reynell (Receptive)

90

n = 21

n = 21

n = 21

80
70

n = 21
Tn =

n= 19

t

60

.i r‘‘

SO

8

40

O
o

CZ)

90

T

7

7

Vineland Composite

I

40

n = 21

95

n = 21

0

1

Vineland Communication

n = 21

85

2

3

n = 21
n = 21

_n = 21
65

80
75

n-20
n = 2.

n = 20

n = 20

a-20
n-21

n = 20
n = 20
n = 21

70
65
65
60

55

1

0

90

n = 20

75

2

3

n = 21

65

T
3

n = 21
n = 21

n = 21"

n = 21

n = 21

T
1

T
2

n = 21

60
n = 20

75

n = 20

70

75
70

65

0

I
2

n = 21

90

n = 21

n = 21

60

I

1

Vineland Socialization

n = 20
80

I
0

95

n-21

Vineland Daily Living Skills

65

{

T
1

T
2

T
3

Y

65

n = 21

60

T
0

T
3

Year
FIGURE 1. Mean and 95% confidence interval for pretreatment (Year 0) and follow-up (Years 1-3).

Copyright © Lippincott Williams & Wilkins. Unauthorized reproduction of this article is prohibited.

Pet. Reh. App.51
S152

AMERINE-DICKENS ET AL

Table 3. Number of Children in the Average Range on each
Outcome Measure for the EIBT Group (n = 21) and Comparison
Group (n = 21)
Measure
IQ
Language Comprehension3
Expressive Language3
VABS Composite6
School Placement

EIBT

Comparison

12
8
9
8
6

7

4
6
3
0

P
ns
ns
ns
.10
.001

“Reynell Developmental Language Scales.
bVineland Adaptive Behavior Scales.

ANCOVA did not approach statistical significance, alter­
nate analyses were not attempted.
There was a trend toward a significant difference in
Reynell Language Comprehension (p = .06). The mean
score in the EIBT group increased 20 points, from 52 at
pretreatment to 72 at Year 3; the mean score in the
comparison group increased 9 points, from 53 at pretreat­
ment to 62 at Year 3. The EIBT group also had a larger
increase from pretreatment to Year 3 in Reynell Expres­
sive Language (53-78, compared to 51—66), but this
difference was not statistically significant (p = .13). The
failure to find a significant difference may indicate that
EIBT did not have a meaningful effect on expressive
language, or it may simply reflect low statistical power to
detect an effect.
The EIBT and comparison groups differed significantly
in the Vineland Adaptive Behavior Scales Composite.
Consistent with this finding, the EIBT group demonstrated
a mean increase of 9 points compared to a 4-point decline
in the comparison group, as shown in Figure 1. Inasmuch
as a difference was observed in the Composite, individual
scales were also analyzed. Significant differences between
groups were found in Communication and Daily Living
Skills, and a trend was found for Socialization (p = .05).
Figure 1 indicates that the changes in scores from
pretreatment to Year 3 for each scale were similar to the
change in Composite scores. These findings support the
inference that the EIBT group had more advanced adaptive
behavior skills than the comparison group at the time of
the outcome assessments.
An analysis of classroom placement at year 3, between
the 2 groups, revealed that 17 of the 21 EIBT children and
1 of the 21 comparison children were included into regular
education classroom settings. Of the 17 EIBT children, 6
were fully included without assistance, 4 were fading the
shadow tutor, and 7 required full shadows.
When mother’ education, father’s education, or diag­
nosis was added as a covariate to the ANCOVA model,
ANCOVA was unaltered, except in one instance: With the
father’s education as a covariate, the difference between
groups in IQ was not statistically significant (p = .11). It is
unclear whether this finding indicates that father’s educa­
tion was a confound or reflects the limited statistical power
for the analysis. When mother’s education, father’s
education, and diagnosis were all added as covariates to
the ANCOVA model, IQ, Reynell Language Comprehen-

JDBP/April, Vol. 27, No. 2

sion, and Vineland Composite continued to show a trend
toward significance (p = .09 for all 3 outcome measures).
In sum, the possibility that father’s education was a
confound in the analysis of IQ cannot be ruled out, but
the remaining analyses indicated that reliable differences
in outcome between groups remained after statistically
controlling for inequalities at pretreatment.
None of the analyses for group x time interactions were
statistically significant. Thus, we did not confirm our
hypothesis that the EEBT group would have increasing
scores from Year 1 to Year 2 to Year 3, whereas scores in
the comparison group would be stable. On the contrary,
Figures 1 and 2 illustrates that although the EIBT group
appeared to make larger increases than the comparison
group from pretreatment to Year 1, both groups exhibited
stable scores from Year 1 to Year 3 in IQ, Merrrill-Palmer,
and Vineland. Both groups may have exhibited similar
increases in scores in Reynell Language Comprehension
and Expressive Language from Year 1 to Year 3.
As shown in Table 3, more EIBT participants than
comparison participants achieved follow-up scores in the
average range for each measure, although this difference
was significant only for school placement and showed a
trend toward significance for the Vineland. Ten EIBT
participants scored in the average range on all measures
(6 of these 10 also were included in regular education
without assistance, whereas the remaining 4 continued to
receive shadowing in the regular education classroom), ttests did not reveal any significant differences in pretreat­
ment test scores for these 10 participants compared to the
remaining 11 participants. For example, these 10 children
had a mean pretreatment IQ of 66.6 (SD = 12.4) compared
to 57.7 (SD = 19.0) for the remaining 11 children, t{ 19) =
1.28, ns. However, pretreatment Reynell Language Com­
prehension scores showed a trend toward a difference, with
a pretreatment mean of 58.1 for the participants with the
most favorable outcome compared to 45.9 for the other
participants, t(19) = 1.98, p = .06.

DISCUSSION
The present study suggests that the UCLA/Lovaas
Model of early intensive behavioral treatment (EIBT) can
be implemented in a nonuniversity community-based
setting. On the primary outcome measure of IQ, the
EIBT group showed a gain of 25 points, which was
statistically significant compared to the gain of 14 points
in the comparison group. Similar effects were found on
measures of adaptive behavior. Although language
comprehension showed a trend towards significance,
expressive language and nonverbal cognitive skill
revealed no difference between groups. The increases in
test scores are similar to those reported in Lovaas’
original EIBT study2,3 and in some recent investiga­
tions.15,16 However, the difference between the EIBT
group and the comparison group on outcome measures
was smaller than that in other studies, as the comparison
group also made gains.

Copyright © Lippincott Williams & Wilkins. Unauthorized reproduction of this article is prohibited.

r

Pet. Reh. App.52
Early Intensive Behavioral Treatment
An important limitation of the study is that, because
treatment was funded by public agencies that were
required to offer free and appropriate services, groups
could not be randomly assigned, and a quasi-experimental
design was used, with parents choosing which group their
child entered. Although pretreatment test scores did not
differ significantly between groups, other pretreatment
variables did differ. The EIBT group had more children
with autism and fewer with Pervasive Disorder, Disorder
Not Otherwise Specified (PDDNOS) than did the compar­
ison group. To the extent that PDDNOS is a milder
diagnosis that may have a more favorable prognosis than
autism,7 this difference may have favored the comparison
group. However, the EIBT group also may have had an
advantage in that it had more 2-parent families and better
educated families than did the comparison group. These
family variables have not been associated with outcome in
previous studies,2,7 but they might have encouraged
families to select EIBT over other interventions in the
present study, even though all interventions were provided
at no cost to families. In addition, these variables might
have given the EIBT group an advantage by making it
easier for families to participate in treatment sessions and
facilitate generalization of skills outside of treatment.
After statistically controlling for family variables, outcome
analyses continued to show improved outcomes in the
EIBT group relative to the comparison group. Never­
theless, statistical controls are not a satisfactory solution
for preexisting group differences, especially given the
relatively small sample size in the present study. A design
with random assignment would have strengthened the
study and allowed for more clearcut conclusions about
whether EIBT is effective or not.
Further limitations pertain to the assessment protocol
in the study. As previously noted, the comparison group
received such diverse interventions that a measure of
treatment fidelity could not be applied. Also, outside
evaluators were employed by Valley Mountain Regional
Center (VMRC) for pretreatment and follow-up assess­
ments of participants. The referrals to the evaluators did
not include information on group assignment or treatment
history. However, to ensure that evaluators remained
unaware of this information and to allow for checks on
the reliability of test administration and scoring, eval­
uators who were employed by the study and conducted
assessments at a research site (rather than in their clinical
offices) might have been preferable. Another limitation is
that the assessment protocol tested developmental level
more rigorously than did the features of Autistic
Spectrum Disorder (ASD). The inclusion of the Autism
Diagnostic Observation Schedule (ADOS),33 in addition
to the Autism Diagnostic Interview-Revised (ADI-R) and
clinical diagnosis, would have increased confidence in the
initial diagnosis. Including a measure such as the ADOS in
follow-up assessments would have indicated whether or
not children continued to display behaviors indicative of
ASD. Additional measures such as the Theory of Mind
Test34 also would help address this issue; Central Valley
Autism Project (CVAP) is currently involved in a study to
translate this test into English and standardize it in the

S153

United States. Without such measures, the present study
cannot address one of the most controversial issues raised
by previous EIBT research-whether some children become
indistinguishable from typically developing peers6 or
whether they continue to display characteristics of ASD.
An additional follow-up evaluation of study participants
with the ADOS and Theory of Mind (TOM) Test is
planned to fill in some of these gaps.
In this study, advanced behaviors associated with
friendship initiation and maintenance, social skills, under­
standing of social meaning, and response to social
behaviors were identified and treated, using the same
discrete trial methodology as other behaviors, which
consequently increased the duration of treatment beyond
3 years for many participants (usually for 2 additional
years). Although this expansion of the treatment protocol
reflects the contemporary view that the defining feature of
ASD is an impairment in social reciprocity, it raises the
question of whether the present study truly was a
replication of the UCLA model. The treatment site met
all of Lovaas’ criteria for replication, and the first 2 years
of intervention followed the model as it has been
previously described.2 The third year also followed the
model, with the addition of the training in advanced social
skills. Thus, results from Years 1 and 2 are directly
comparable to those of previous studies, and results from
Year 3 also reflect mostly the same interventions:
Research on the specific effects of the additional socialskills training is warranted, as it is acknowledged that such
training was not included in previous studies. Also,
although discrete trial training is a common approach to
teaching social skills and has some empirical support,35,36
teaching methodologies other than discrete trials (e.g:
video modeling, incidental teaching) also have empirical*
support and may have advantages such as generalizing
more quickly to settings outside of treatment^2 thus, the
question of how best to teach such skills may be another
area for research.
Interestingly, although the EIBT protocol lasted for 3
years and, in some cases, was continued beyond that time,
the nonsignificant group x time interactions in the
statistical analyses indicates that the EIBT group did not
show reliable IQ increases relative to the comparison
group after Year 1. A possible explanation is that most
gains occurred in the first year of intervention. Alter­
natively, however, it is also possible that gains took place
later in treatment but that the study measures were not
sensitive to them.
Potential evidence for the latter view comes from the
findings on classroom placement. A striking result was
that, despite IQ gains in the comparison group, all
participants but 1 remained primarily in a special educa­
tion classroom setting, whereas most EIBT participants
were included in regular education at least part of the day.
Classroom placement is a controversial outcome measure
because of concerns that it may reflect factors such as
parent advocacy and school policy rather than the child’s
functioning.12 However, the measure also may be an index
of real-world academic and social competence.37 If so, the
differences between groups on this measure may be

Copyright © Lippincott Williams & Wilkins. Unauthorized reproduction of this article is prohibited.

Pet. Reh. App.53
S154

AMERINE-DICKENS ET AL

attributable at least in part to the social skills training that
EIBT participants received. In addition, it may suggest a
need for a high number of treatment hours. Dismantling
studies might help address these possibilities.
The initial collaborative funding efforts by VMRC and
Special Education Local Planning Areas (SELPAs)
resulted in a sustainable treatment environment. Stable
funding, effective guidelines and policies, and positive
communication and working relationships were primary
contributory variables to the feasibility of this study. Thus,
this collaboration may be a useful model for other regions
to employ. Other clinical strengths of this study included
rigorous treatment quality control criteria, stringent staff
training and evaluation standards, multiple internships at
UCLA by supervising clinicians, precise programming for
each individual child, advanced completion programming
and skilled generalization training, yearly follow-ups by an
independent evaluator using multiple outcome measures,

JDBP/April, Vol. 27, No. 2

and a centralized process and standardized protocol for
diagnosing children and informing families of EIBT and
other intervention options available to them. Without such
standards, outcomes may differ. Nevertheless, given the
methodological limitations of the present research, there is
a continued need for rigorous outcome studies comparing
EIBT to control conditions or other interventions.
Acknowledgments. Preparation of this manuscript was partially sup­
ported by NIMH grants ROI MH 48663 (Multi-site Young Autism Project)
and U54 MH066397 (Genotype and Phenotype of Autism). The authors
thank Kym Cassaretto, M.S., CVAP Clinical Director, and CVAP staff for
their clinical contributions and committed efforts on behalf of children and
families. The authors also thank the following individuals for their
assistance with the research: Mieke San Julian, Chanti Fritzsching, M.S.,
BCBA, and Angela Castro from CVAP; Schelley McDonald and Marie
Overmyer from VMRC; and Suzannah Ferraioli from URMC. Preliminary
reports were presented at the California Association for Behavior Analysis
Conference in San Francisco, CA, February 20, 2004, and at the Interna­
tional Meeting For Autism Research, Boston, MA, May 6, 2005.

REFERENCES
1.
2.

3.

4.

5.

6.
7.

8.

9.
10.

11.

12.

13.

DeMyer MK, Hingtgen JN, Jackson RK. Infantile autism: a decade
of research. Schizophr Bull. 1981;7:388-451.
Lovaas OI. Behavioral treatment and normal educational and
intellectual functioning in young autistic children. J Consult Clin
Psychol. 1987;55:3-9.
McEachin JJ, Smith T, Lovaas OI. Long-term outcome for children
with autism who received early intensive behavioral treatment. Am J
Ment Retard. 1993;97:359-372.
Zwaigenbaum L, Bryson S, Rogers T, et al. Behavioral manifes­
tations of autism in the first year of life. Int J Dev Neurosci. 2005;
23:143-152.
California Department of Developmental Services. Department
of Developmental Services Fact Book, 7th ed. California Depart­
ment of Developmental Disabilities website. December, 2004.
Available at www.dds.ca.gov/factsstats/factbook.cfm#pdf. Accessed
August 16, 2005.
Lovaas OI. Teaching Individuals with Developmental Delays: Basic
Intervention Techniques. Austin, TX: PRO-ED; 2003.
Smith T, Groen AD, Wynn JW. Randomized trial of intensive early
intervention for children with pervasive developmental disorder. Am
J Ment Retard. 2000;105:269-285.
Anderson SR, Avery DL, DiPietro EK, et al. Intensive home-based
early intervention with autistic children. Educ Treat Child. 1987;
10:352-366.
Bimbrauer JS, Leach DJ. The Murdoch Early Intervention Program
after two years. Behav Change. 1993;10:63-74.
Harris SL, Handleman JS. Age and IQ at intake as predictors of
placement for young children with autism: a four- to six-year
follow-up study. J Autism Dev Disord. 2000;30:137-142.
Weiss M. Differential rates of skill acquisition and outcomes of
early intensive behavioral intervention for autism. Behav Intern.
1999;14:3-22.
Schopler E, Short A, Mesibov G. Relation of behavioral treatment to
“normal functioning”: comment on Lovaas. J Consult Clin Psychol.
1989;57:162-164.
Bibby P, Eikeseth S, Martin NT, et al. Progress and outcomes for
children with autism receiving parent-managed intensive interven­
tions. Res Dev Disabil. 2002;23:81-104.

14.

15.

16.

17.
18.
19.

20.
21.

22.
23.

24.

25.

26.
27.

Smith T, Buch GA, Gamby TE. Parent-directed, intensive early
intervention for children with pervasive developmental disorder. Res
Dev Disabil. 2000;21:297-309.
Howard JS, Sparkman CR, Cohen HG, Green G, Sanislaw HA.
Comparison of intensive behavior analytic and eclectic treatments
for young children with autism. Res Dev Disabil. 2005;26:359-383.
Sallows GO, Graupner TD. Intensive behavioral treatment for
children with autism: four year outcome and predictors. Am J Ment
Retard. 2005;110:417-438.
Lord C. Follow-up of two-year-olds referred for possible autism. J
Child Psychol Psychiatry. 1995;36:1365-1382.
Bayley N. Bayley Scales of Infant Development, 2nd ed. San
Antonio, TX: The Psychological Corporation; 1993.
Cohen HG. Pyramid building: Partnership as an alternative to
litigation. In: Lovaas OI ed. Teaching Individuals with Develop­
mental Delays: Basic Intervention Techniques. Austin, TX: PROED, 2003:375-386.
Lovaas OI. Teaching Developmentally Disabled Children: The ME
Book. Austin, TX: PRO-ED; 1981.
Region 6 Autism Connection. Early Intensive Behavioral Treatment
4-way Agreement. Stockton, CA: Region 6 Autism Connection;
2004.
Smith T. Discrete trial training in the treatment of autism. Focus
Autism Relat Disord. 2000;16:86-92.
Mortenson S, Smith T. Quality Control in the Multisite Young
Autism Project. Paper presented at: Annual Meeting of the
Association for Behavior Analysis; May 1996; San Francisco, CA.
Davis BJ, Smith T, Donahoe P. Evaluating supervisors in the UCLA
treatment model for children with autism: validation of an assess­
ment procedure. Behav Ther. 2002;31:601-614.
California Department of Developmental Services. Best Practice
Guidelines for Screening, Diagnosis, and Assessment. Ethological
Observation Schedule (ETHOS). Sacramento, CA: California
Department of Developmental Services; 2002.
Stutsman R. Guide for Administering the Merrill-Palmer Scale of
Mental Tests. New York: Hareourt, Brace & World; 1948.
Reynell JK. Reynell Developmental Language Scales. Windsor,
England: Nfer-Nelson; 1990.

Copyright © Lippincott Williams & Wilkins. Unauthorized reproduction of this article is prohibited.

Pet. Reh. App.54
Early Intensive Behavioral Treatment
28.
29.

30.

31.
32.

Sparrow SS, Balia DA, Cicchetti DV. Vineland Adaptive Behavior
Scales. Circle Pines, MN: American Guidance Service; 1984.
Robinson BF, Mervis CB. Extrapolated raw scores for the second
edition of the Bayley Scales of Infant Development. Am J Ment
Retard. 1996;100:666-671.
American Psychiatric Association. Diagnostic and Statistical Man­
ual of Mental Disorders, 4th ed, Text Revision. Washington, DC:
American Psychiatric Association; 2000.
Wechsler D. Manualfor the Wechsler Intelligence Scalefor Children,
3rd ed. San Antonio, TX: Psychological Corporation; 1991.
Nich C, Carroll K. Now you see it, now you don’t: a comparison of
traditional versus random-effects regression models in the analysis
of longitudinal follow-up data from a clinical trial. J Consult Clin
Psychol. 1997;65:252-261.

S155

33. Lord C, Rutter M, DiLavore PC, et al. Autism Diagnostic
Interview Schedule. Los Angeles: Western Psychological Services;
2001.
34. Steememan P, Meesters C, Muris P. TOM-Test. Antwerpen-Appledoora: Garant; 2003.
35. Taylor BA, Jasper S. Teaching programs to increase peer inter­
action. In: Maurice C, Green G, Foxx M eds. Making a Difference:
Behavioral Intervention for Autism. Austin, TX: Pro-Ed; 2001:
97-162.
36. Weiss MJ, Harris SL. Reaching out, joining. In: Teaching Social
Skills to Young Children with Autism. Bethesda, MD: Woodbine
House; 2001.
37. Kazdin A. Replication and extension of behavioral treatment of
autistic disorder. AmJMent Retard. 1993;97:382-383.

Copyright © Lippincott Williams & Wilkins. Unauthorized reproduction of this article is prohibited.

Pet. Reh. App.55

Research in Developmental Disabilities 35 (2014) 3326-3344
,

Contents lists available afSoonceOiiect

j

Research in Developmental Disabilities

Sft,

m1

aiEiim

_________

pi CrossMark
Comparison of behavior analytic and eclectic early
Ail
interventions for young children with autism after three years
Jane S. Howardab l *, Harold Stanislaw3, Gina Green0, Coleen R. Sparkmanb,\
Howard G. Cohen d
a California State University, Stanislaus, Psychology Department, 1 University Circle, Turlock, CA 95382, USA
bThe Kendall Centers/Therapeutic Pathways, Modesto, CA 95354, USA
c Association of Professional Behavior Analysts, 6977 Navajo Road #176, San Diego, CA 92119, USA
d Valley Mountain Regional Center, 702 North Aurora St, Stockton, CA 95202, USA

ARTICLE INFO

ABSTRACT

Article history:
Received 16 June 2014
Received in revised form 6 August 2014
Accepted 12 August 2014
Available online

In a previous study, we compared the effects of just over one year of intensive behavior
analytic intervention (IBT) provided to 29 young children diagnosed with autism with two
eclectic (i.e„ mixed-method) interventions (Howard, Sparkman, Cohen, Green, &
Stanislaw, 2005). One eclectic intervention (autism programming; AP) was designed
specifically for children with autism and was intensive in that it was delivered for an
average of 25-30 h per week (n=16). The other eclectic intervention (generic
programming; GP) was delivered to 16 children with a variety of diagnoses and needs
for an average of 15-17 h per week. This paper reports outcomes for children in all three
groups after two additional years of intervention. With few exceptions, the benefits of IBT
documented in our first study were sustained throughout Years 2 and 3. At their final
assessment, children who received IBT were more than twice as likely to score in the
normal range on measures of cognitive, language, and adaptive functioning than were
children who received either form of eclectic intervention. Significantly more children in
the IBT group than in the other two groups had IQ, language, and adaptive behavior test
scores that increased by at least one standard deviation from intake to final assessment
Although the largest improvements for children in the IBT group generally occurred during
Year 1, many children in that group whose scores were below the normal range after the
first year of intervention attained scores in the normal range of functioning with one or
two years of additional intervention. In contrast children in the two eclectic treatment
groups were unlikely to attain scores in the normal range after the first year of intervention,
and many of those who had scores in the normal range in the first year fell out of the normal
range in subsequent years. There were no consistent differences in outcomes at Years 2 and
3 between the two groups who received eclectic interventions. These results provide
further evidence that intensive behavior analytic intervention delivered at an early age is
more likely to produce substantial improvements in young children with autism than
common eclectic interventions, even when the latter are intensive.
© 2014 The Authors. Published by Elsevier Ltd. This is an open access article under the CC
BY-NC-ND license (http://creativecommons.Org/licenses/by-nc-nd/3.0/).

Keywords:
Autism
Early intervention
Applied behavior analysis
Eclectic treatment
Outcomes
Longitudinal studies

‘.j.

•
hr

* Corresponding author at: California State University, Stanislaus, Psychology Department, 1 University Circle, Turlock, CA 95382, USA.
Tel.: +1 209 667 3386; fax: +1 209 993 8192.
E-mail addresses: jhoward@csustan.edu, janeshoward@mac.com (J.S. Howard), hstanislaw@csustan.edu (H. Stanislaw). ggreen@apbahome.net
(G. Green), csparkman@tpathways.org (C.R. Sparkman).
1 Address: PO Box 5157, Modesto, CA 95352, USA.
http://dx.doi.Org/l0.1016/j.ridd.20l4.08.021
0891-4222/© 2014 The Authors. Published by Elsevier Ltd. This is an open access article under the CC BY-NC-ND license (http://creativecommons.org/
licenses/by-nc-nd/3.0/).

i

*
A

.)

•

$

Pet. Reh. App.56

J.S. Howard et ai/Research in Developmental Disabilities 35 (2014) 3326-3344

3327

1. Introduction
The past two decades have seen increased interest in early intervention for children diagnosed with autism spectrum
disorder (hereafter, "autism”) among researchers, policymakers, funding sources, and consumers. Following publication of
the Lovaas study in 1987, a number of researchers began evaluating the effects of intensive, comprehensive early
intervention using applied behavior analysis (ABA) methods. Various ABA models for treating children with autism have
been proposed, but many behavior analytic researchers agree that genuine early intensive ABA treatment programs have
certain key features in common: (a) individualized, comprehensive intervention that addresses all skill domains; (b) use of
multiple behavior analytic procedures (not just discrete-trial procedures or “naturalistic" techniques) to build new
repertoires and reduce behaviors that interfere with skill acquisition and effective functioning; (c) direction and oversight by
one or more professionals with advanced training in ABA and experience with young children with autism; (d) reliance on
typical developmental sequences to guide selection of treatment goals; (e) parents and other individuals trained by behavior
analysts to serve as active co-therapists; (f) intervention that is initially one-to-one, transitioning gradually to a group format
as warranted; (g) intervention that often begins in homes or specialized treatment centers but is also delivered in other
environments, with gradual, systematic transitions to regular schools when children develop the skills required to learn in
those settings; (h) planned, structured intervention provided for a minimum of 20-30 h per week with additional hours of
informal intervention provided throughout most other waking hours, year round; (i) intensive intervention beginning in the
preschool years and continuing for at least 2 years (Eldevik et al., 2010; Green, Brennan, & Fein, 2002).
Substantial research has documented the effectiveness of treatments that incorporate all of the foregoing features. Eight
prospective studies used comparison- or control-group designs to evaluate some variation of the Lovaas/UCLA model of early
intensive ABA intervention for children with autism (Cohen, Amerine-Dickens, & Smith, 2006; Eikeseth, Smith, Jahr, &
Eldevik, 2002; Eikeseth, Smith,Jahr, & Eldevik, 2007; Eldevik, Hastings,Jahr, & Hughes, 2012; Eldevik, Eikeseth,Jahr, & Smith,
2006; Lovaas, 1987; Sallows & Graupner, 2005; Smith. Groen, & Wynn, 2000). In another three studies, the ABA intervention
was designed and overseen by professional behavior analysts not affiliated with Lovaas, and the ABA intervention differed
somewhat from the Lovaas model (Howard, Sparkman, Cohen, Green, & Stanislaw, 2005; Remington et al., 2007; Zachor,
Ben-ltzchak, Rabinovitch, Si Lahat, 2007). Outcomes from those 11 studies varied and some children had larger
improvements than others. In the large majority of cases, however, the mean change scores achieved by children receiving
intensive ABA treatment exceeded the mean change scores for similar children in control or comparison groups who
received less intensive ABA treatment, intensive or non-intensive treatment using a mixture of methods or therapies
(“eclectic” treatment), or “treatment as usual" (i.e., standard early intervention or special education services). Additionally,
compared to children who received other types of treatment, children who received early intensive ABA treatment were
more likely to achieve post-treatment scores on one or more standardized measures that were in the normal range, and were
more often placed in regular classrooms (for reviews and analyses, see Eikeseth, 2009; Eldevik et al., 2009, 2010; Green,
2011; National Autism Center, 2009; Reichow Si Wolery, 2009; Rogers & Vismara, 2008).
Despite the evidence from multiple studies and meta-analyses favoring intensive ABA treatment for autism over other
models of early intervention, a number of questions persist. One is whether other types of early intervention delivered with
comparable intensity and individualization can produce outcomes comparable to ABA. Perhaps the most common
alternative early intervention approach involves a mixture of methods drawn from ABA, speech-language pathology,
occupational therapy (especially sensory integration techniques), developmental psychology, and autism-specific
approaches. That model, which has been characterized as “eclectic” intervention, is widely available in the United States
and elsewhere.
At least three studies have compared eclectic and ABA interventions directly. Eikeseth et al. (2002) studied children with
autism who entered treatment at ages 4-7 years (JW = 5.5 years), slightly older than children in most of the other studies of
early intensive behavioral intervention. One group (n = 13) received Lovaas-model ABA treatment for 28 h per week, while a
second group (n = 12) received eclectic intervention for 29 h per week. There were no significant differences between the
groups when treatment began. Both forms of treatment were delivered in public school classrooms. After 1 year, the ABA
treatment group had gained an average of 17 points on IQ test scores, 13 points on tests of language comprehension, 27
points on tests of expressive language, and 11 points on an adaptive behavior scale. The eclectic treatment group had average
gains of only 4 points on IQ tests and 1 point on language tests, and no change in adaptive behavior. A follow-up study
conducted when those children were 8 years old found that after about 3 years of treatment, the ABA treatment group had
gained an average of 25 IQ points and 9-20 points on adaptive behavior scales in comparison to baseline. The eclectic
intervention group had a mean gain of only 7 points on IQ tests, and declines of 6-12 points on adaptive behavior
assessments (Eikeseth et al., 2007).
A study we published previously involved a comparison of intensive ABA intervention with two different eclectic
intervention models (Howard et al., 2005). Twenty-nine preschool children with autism received early intensive behavior
analytic intervention (IBT), 16 received intensive eclectic intervention designed for children with autism (designated the
autism programming, or AP, group), and an additional 16 received typical non-intensive, eclectic early intervention services
(designated the generic programming, or GP, group). All children began intervention prior to 48 months of age and received
treatment for an average of 14 months. They were placed in treatment groups on the basis of parental preferences and
education team decisions, and evaluated pre-treatment and annually thereafter by professionals who were neither involved
in nor employed by any of the treatment programs. The three groups were shown to be similar on key variables when

3328

Pet. Reh. App.57

J.S. Howard et ai/Research in Developmental Disabilities 35 (2014) 3326-3344

treatment began. After 14 months of intervention, mean scores on standardized tests of intellectual, communication, and
adaptive skills were significantly higher for children in the IBT group than for children in the other two groups. Children in
the IBT group had an average standard IQ score of 90, compared to 62 and 69 for children in the AP and GP groups,
respectively. Developmental trajectories for most measures accelerated markedly over the 14 months of treatment for
children in the IBT group, while the trajectories for children in the other two groups remained flat or declined.
For the present study, we followed children who participated in the 2005 study through an additional 2 years of
treatment. We focused on four questions: (a) did Year 1 differences in the cognitive, language, and adaptive behavior scores
of children in the three groups persist? (b) Did differences in the developmental trajectories of the three groups at Year 1
change during Years 2 and 3? (c) How many children in each group had standardized test scores in the normal range after 2
or 3 years of treatment? (d) To what extent were outcomes at Year 1 correlated with outcomes at Years 2 and 3?
2. Method
2.1. Participants
The same 61 children who participated in the Howard et al. (2005) study participated in this follow-up. Characteristics of
the groups at intake are reported in Howard et al. (2005).2
Assessments were conducted 1-3 years after treatment began, but not all skill domains were assessed each year with
every child. (See Section 3.1 for number of assessments available for each group at intake and at Years 1 -3.) In particular, one
child in the GP group and one child in the IBT group did not receive any assessments after the first year of treatment.
Nonetheless, scores for all 61 children were retained for the present analyses to permit evaluations of outcomes that were
not included in our 2005 publication.
2.2. Treatments
Information about the treatments participants received, school placements, and number of hours and services authorized
during Years 2 and 3 was obtained through file review.
2.2.1. Intensive behavior analytic treatment (IBT)
This treatment was designed and delivered by personnel in a California non-public agency that provides ABA services to
children with autism. Treatment was directed by the first author, a Board Certified Behavior Analyst-Doctoral® (BCBA-D®)
and licensed psychologist, and the fourth author, a licensed speech-language pathologist. Programs were supervised by
Board Certified Behavior Analysts® (BCBAs®) and other staff with master’s degrees in psychology or special education and
some training in ABA. They were supported by staff who were either Board Certified Assistant Behavior Analysts® (BCaBAs®)'
or who had bachelors degrees, most of whom were enrolled in graduate programs in ABA and related areas. Treatments werg'
delivered to children by behavior technicians working under the supervision of the clinical staff. Behavior technicians began
delivering treatment only after they had passed competency-based performance evaluations; thereafter, they were directly
observed and received written or oral feedback on their implementation of behavior change protocols from their clinical
supervisors an average of once or twice each week.
To varying degrees, all parents helped support treatment outside of formal treatment hours. Parent training initially
focused on teaching instruction-following, promoting spontaneous language, re-directing nonfunctional repetitive behavior,
managing interfering behaviors, and building skills such as toileting, dressing, and independent play. Parents were also
trained to implement behavior analytic procedures that were designed to increase success in activities relevant to health and
self-care, such as cooperating with medical and dental care procedures and participating in sports and other community
activities.
Treatment was delivered in multiple settings, including homes, treatment centers, community settings, and regular
preschool and elementary school classrooms. Treatment protocols utilized the full range of behavior analytic procedures,
customized to each child’s level of functioning, preferences, family circumstances, and treatment goals. Each child received
an average of 35-40 h of treatment per week. The adult:child ratio during Year 1 was 1:1, but during Years 2 and 3 the ratio
was gradually decreased (e.g., to 1:2 or 1:3, and then to one adult per small group of children), depending on progress and
treatment targets. For further details, see Howard et al. (2005).

2 While assembling the data for this study, we uncovered several errors in data reported in our 2005 paper. Most were minor (e.g., 1 -month errors in the
child’s age), but the baseline scores of one child in the GP group were reported incorrectly as Year 1 scores, and the Year 1 scores of another child in the GP
group were reported as baseline scores. Correcting those errors had virtually no impact on the conclusions that were drawn in the 2005 paper; all 107 of the
statistical tests reported as not significant in 2005 remained non-significant, and 40 of the 43 findings that were reported as statistically significant in 2005
remained so. The three exceptions were for group differences that were only marginally significant in the 2005 publication: the difference at intake between
the mean nonverbal age equivalents for the AP and GP groups changed from p = 0.04 to p = 0.07; the difference at follow-up between the mean motor
standard scores of the IBT group and the two comparison groups changed from p = 0.04 top = 0.06; and, when the mean self-help skills learning rates before
and after treatment were compared, the difference between the IBT group and the two comparison groups changed from p = 0.05 to p = 0.07. Revised tables
reporting all corrections are available as supplementary materials.

Pet. Reh. App.58

J.S. Howard et ai/Research in Developmental Disabilities 35 (2014) 3326-3344

3329

Data from standardized assessments as well as direct observation and measurement of target behaviors guided decision­
making about the distribution of treatment hours across targets and settings. Initial treatment targets focused on
foundational repertoires (e.g., attending, imitating vocal and motor sequences, following spoken directions, receptive and
expressive labeling, initiating requests, tolerating change, etc.) that are often absent or at low levels in children with autism.
Treatment targets during Years 2 and 3 generally focused on advanced cognitive, social, play, self-care, academic, and
communication skills (for example, see Fischer, Howard, Sparkman, & Moore, 2009). More complex interactions involving
peers and siblings generally occurred during Years 2 and 3 than in Year 1. On average, children in the IBT group had more
than 200 goals on their annual individualized education programs (lEPs).
When children acquired the skills necessary to benefit from small group instruction (e.g., learning through observing the
behavior of others, language skills close to the level of instruction, low levels of problem behaviors, independent
communication of basic needs), they were placed in preschool or kindergarten programs for typically developing children for
up to 15 h per week. Each child was accompanied by a behavior technician who used a variety of behavior analytic
approaches, including self-management and behavioral contracting procedures, to arrange opportunities to prompt and
reinforce behavior targets in order to promote skill acquisition and generalization across settings. The clinical supervisor
directing the intervention also provided training and consultation to parents, teachers, and other professionals. Sample
behaviors targeted in the regular classrooms included following instructions from classroom teachers and aides, engaging in
classroom routines, and interacting with peers. Time spent with typically developing peers was gradually increased based on
skill acquisition, maintenance and generalization of skills, and level of problem behaviors. Most children did not enter
kindergarten until age 6.
2.2.2. Autism programming (AP) and generic programming (CP)
Brief descriptions of the AP and GP interventions are presented next; for details see Howard et al. (2005). The AP programs
were designed specifically for children with autism. Intervention procedures were drawn from the Training and Education of
Autistic and Related Communication Handicapped Children (TEACCH) approach, sensory integration therapy, commercially
available programs (e.g., the Picture Exchange Communication System; Bondy & Frost, 1994), and some behavior analytic
procedures, such as discrete-trial procedures. Children in this group received an average of25-30 h of intervention per week
in public school classrooms with staffing ratios of 1:1 or 1:2. Thus, the AP programs provided eclectic intervention at an
intensity that was comparable to IBT.
The GP intervention was delivered in special education classrooms that served children with a variety of diagnoses and '
educational needs. Programming that was described as “developmentally appropriate” and “language rich” was provided for
an average of 15-17 h per week, with slightly more hours as children approached age 6. Adult:child ratios averaged 1:6.
Approximately one third of the children in both the AP and GP treatment groups received "pull out” speech therapy
sessions of less than 30 minutes once or twice a week during Years 1 and 2. About 20% of the children in both groups received .
rt.
some services in general education classrooms, which often included such activities as lunch, physical education, or recess.
On average, each child in the AP and GP groups had fewer than 15 goals on his/her annual IEP.
2.2.3. Summary
All of the children in the IBT group and the majority in the two eclectic treatment groups had similar placements and
programming during Years 2 and 3 as in Year 1. Some children changed from one eclectic treatment to the other after Year 1,
while the Year 2 and/or Year 3 intervention was not available for a few AP and GP children. This information is summarized in
Fig. 1, which is similar to a Sankey diagram. Sankey diagrams are used in engineering (see Schmidt, 2008, for an overview)
and vary the width of each arrow in proportion to the number represented by that arrow. Thus, in the GP treatment group,
the arrow leading from GP treatment in Year 1 to AP treatment in Year 2 (which represents n = 3 children) is three times as
wide as the arrow leading from AP treatment in Year 2 back to GP treatment in Year 3 (representing n = 1 child).
2.3. Design
We utilized a between-groups design to compare performances of children in the IBT group with those of children in the
two eclectic treatment groups at intake and at followup assessments about 1-3 years later. As reported in Howard et al.
(2005), the three groups of children were substantially similar on most key variables at intake. The only significant
differences were in mean chronological ages and parents' education, which were controlled for statistically (see Section 2.3.2
below).
2.3.1. Dependent measures
The principal dependent measures in this study were scores on full-scale IQ tests (cognitive skills), measures of language
development, and adaptive behavior scales (composite scores as well as communication, self-help, and social skills scores).
Scores on nonverbal IQ tests, receptive and expressive communication skills assessments, and motor skills were also
analyzed. Since these latter skills were often not measured in Year 3, we report the Year 2 scores if Year 3 scores were not
available.
All intake and follow-up assessments were conducted by experienced, qualified examiners who were not involved in
treating any children in any of the groups. Assessments were conducted in the child’s home, in the examiner’s office, at a
■

3330

Pet. Reh. App.59

J.S. Howard et aL/Research in Developmental Disabilities 35 (2014) 3326-3344

astyear

2nd year

3rd year
AP
(n = 7t

AP
treatment
group

GP

[*5]

treatment
group

AT;
<n = 3)
■Unknown1

1st year

3rd year

2nd year

Fig. 1. Movement of children between AP and GP treatments by year. Children in the IBT treatment group had the same treatment all three years. Agency
files did not report the type of treatment that was received during Years 2 and 3 for some of the children who initially received the AP or CP treatments.
Table 1
Age (in months) at each assessment, and interval between intake and each subsequent assessment.
Measure

Age at diagnosis
Age at intake testing
Age at Year 1 follow-up
Age at Year 2 follow-up
Age at Year 3 follow-up
Months between intake and Year 1
Months between intake and Year 2
Months between intake and Year 3

IBT

AP

GP

M

SD

M

SD

M

SD

30.07
30.86
45.24
57.64
69.24
14.31
27.05
37.90

5.30
5.16
5.84
5.30
5.01
2.22
1.91
2.98

39.31
37.44
50.69
63.21
74.33
13.25
25.36
37.13

5.52
5.68
5.64
5.86
5.98
2.84
1.82
2.36

34.94
34.75
49.06
62.23
73.46
14.31
26.85
38.46

5.18
4.80
5.64
6.15
6.10
2.44
3.11
2.30

IBT mean minus
AP/GP mean

AP mean minus
CP mean

-7.06
-5.23
-4.63
-5.10
-4.69
0.53
0.97
0.15

4.38*
2.69
1.63
0.98
0.87
-1.06
-1.49
-1.33

* p < 0.05.
'* p<0.01.

school, or in the settings of local non-profit entities (Regional Centers) that contracted with the state to manage services to
persons with developmental disabilities. As reported in Howard et al. (2005), Year 1 testing occurred an average of 14.3
months after intake. Thereafter, parents of all children were contacted annually to determine if they were interested in
having their children participate in follow-up assessments. Table 1 shows the mean ages of the groups at each assessment
and the intervals between assessments. On average, Year 2 testing occurred 23-34 months after intake (M = 27.0 months),
and Year 3 assessments occurred 31-43 months after intake (JVf = 37.9 months).
The examiners selected standardized tests of cognitive skills, language skills, and adaptive behavior that were suited to
each child’s age and level of functioning. Howard et al. (2005) described the instruments used at intake and at Year 1. After
Year 1, adaptive behavior was assessed using the Vineland Adaptive Behavior Scales (VABS). Nonverbal IQ was assessed
using the Merrill-Palmer Scales of Development (although the Leiter International Performance Scale was used for one child
in the IBT group in Year 3). Full-scale IQ was typically assessed after Year 1 using the developmentally appropriate Wechsler
instrument, either the Wechsler Preschool and Primary Scale of Intelligence (WPPSI-111 or WPPSI-Revised) or the Wechsler
Intelligence Scale for Children (WISC-III or WISC-IV). However, one child in the IBT group was administered the StanfordBinet Intelligence Scale (the 4th edition in Year 2 and the 5th edition in Year 3), and in Year 3 two children in the IBT group
were administered the Differential Ability Scales, one IBT child was administered the Slosson Intelligence Test-Revised, and
one IBT child was administered the Woodcock-Johnson Tests of Cognitive Abilities III. Receptive and expressive language
skills were assessed using a variety of instruments. The most common was the Reynell Developmental Language Scales.
Others included the Receptive One-Word Picture Vocabulary Test, the Expressive One-Word Picture Vocabulary Test, the
Peabody Picture Vocabulary Test (3rd edition), the Expressive Vocabulary Test, and the Sequenced Inventory of
Communication Development-Revised.
Measures for which developmental equivalents were available were converted to developmental quotients (DQs) for
analysis using the formula DQ= 100 x developmental equivalent (months)/chronological age (months). When all children

Pet. Reh. App.60

J.S. Howard et al./Research in Developmental Disabilities 35 (2014) 3326-3344

3331

are the same age, there is no statistical difference between analyzing standard scores (SSs), developmental equivalents, and
DQs. Unlike the other two measures, however, DQs allow valid comparisons to be made among children who have different
chronological ages at the same assessment time, and automatically compensate for different intervals between assessment
times (cf. Delmolino, 2006; Lord & Schopler, 1989).
2.3,2. Statistical analyses
As in our original study, statistical analyses focused on comparing the mean scores of children in the 1BT group with those
of children in the AP and GP groups; comparing the mean scores of children in the AP group with those of children in the GP
group was of secondary interest. Accordingly, in this study we used the same multiple regression approach we employed in
Howard et al. (2005). One term in the regression equation was a contrast that compared mean scores of the children in the
1BT group with mean scores of the children in the AP and GP groups, while a second contrast term (orthogonal to the first)
compared the mean scores of children in the AP group with the mean scores of children in the GP group. Both contrasts were
tested simultaneously, together with two covariates (chronological age at diagnosis and parents’ mean years of education) to
control for group differences in the covariates.
Separate multiple regression analyses were performed for each of the four assessment times (intake. Year 1, Year 2, and
Year 3). Repeated measures analyses examining all four assessment times at once were precluded because not all children
were assessed at every follow-up. Restricting the analyses to children with complete assessment records would have
eliminated more than half of the children from some analyses. Trends over the 3-year course of treatment were examined by
using paired t-tests to compare each child’s score at one assessment with his or her score at the following assessment.
For every dependent measure, we also determined whether each child achieved a favorable outcome. This was defined as
a DQor SS within the normal range of functioning (i.e„ 85 or higher), or a DQor SS that was at least 15 points (1 standard
deviation) higher at the final assessment (Year 2 or Year 3) than at intake. This definition is logically similar to the reliable
change index proposed by Jacobson and Truax (1991) for evaluating the effects of treatments. Chi-square tests were used to
determine whether the percentage of children with a favorable outcome differed by treatment group, with a separate
analysis conducted for each dependent measure.
3. Results
3.1. Ages and assessment times
The assessment chronology for all three groups is summarized in Table 1. Cells in the first five rows include descriptive
statistics on chronological ages at diagnosis and at each assessment time. Data in the bottom three rows describe elapsed
time between intake and later assessments. Data in the two rightmost columns represent comparisons of group means;
asterisks indicate statistically significant differences. These data indicate that, at diagnosis and every subsequent
assessment, the average child in the IBT group was younger than the average child in either comparison group; those
differences were statistically significant. There was also a statistically significant difference between the mean ages of the AP
and GP children at diagnosis, but not at any of the later assessments.
3.2. Analyses of standard scores and developmental quotients
Table 2 presents descriptive statistics and analyses of assessments of cognitive and adaptive skills for each group.
Adaptive behavior scores (communication, social, and self-help skills) are expressed as developmental quotients (DQs),
while cognitive skills scores and the composite adaptive behavior measure are expressed as standard scores (SSs). For each of
the five measures, cells in the first four rows under each group’s column list descriptive statistics from each assessment time;
results of statistical comparisons of group means at each assessment time are shown in the two rightmost columns. All
comparisons controlled for the child’s age at diagnosis and the parents’ years of education. Asterisks indicate statistical
significance. As shown in the two rightmost columns, all Year 1 and Year 2 mean SSs and DQs were significantly higher for the
IBT group than for the two comparison groups combined. There were no other statistically significant between-group
differences; the mean scores for the IBT group and the two comparison groups combined did not differ significantly at intake,
and the mean scores of the AP and GP groups did not differ significantly from each other at intake or at any of the other
assessment times on any measure.
The cells in the bottom three rows for each of the five measures in Table 2 summarize changes in mean scores between
successive assessments (intake to Year 1, Year 1 to Year 2, and Year 2 to Year 3). Asterisks denote statistically significant
improvements (positive values) or declines (negative values) from one year to the next. The IBT group had statistically
significant improvements on all measures from intake to Year 1. The AP group had a statistically significant improvement on
the cognitive skills SS from intake to Year 1, and statistically significant declines in the self-help DQand adaptive behavior
composite SS from Year 1 to Year 2. The GP group had a statistically significant improvement on the social skills DQfrom Year
1 to Year 2. No other changes were statistically significant.
The cells in the penultimate column in the bottom three rows for each measure in Table 2 represent comparisons of the
mean change scores of the IBT group and the AP and GP groups combined. Asterisks indicate statistically significant
differences in change scores between intake and Year 1 on all measures in favor of the IBT group. The cells in the rightmost

•juauijpajj jo aoaA auo aajjp sdnojS oaaj aaqjo aqj ui uaapqqa upqj ajoiu paAOjduii dnoaS X9I aqi ui uaapqqa ‘aSeaaAe
uo ‘jpqj pajpaipui saaoas aSupqa ‘aAoqp passnasip sv sdnojg dD pup dV am P!P upqj aajp[ aeaA auo saaoas upaui aaqSiq
AyupayiuSis ppq dnojS iai aqi pup ‘anpjui jp a[qpjpdoioa ajaAA sdnojS aaaqj qp aoj saanspaui qp uo saaoas upa[Al :(S00Z "|b ja
pjPAAOH) aadpd snoiAajd ano ui pajaodaa asoqj aoaaiua j. jpaA pup aqpjm jp pajanpuoa sjuauassassp uioy pjpq 'juauissassp
qapa ip ajnseaua qapa uo (aAoqp pup ss) aSupj |puuou aqj ui ajaAA saaoas asoqM dnojS qapa ui uajpqqa jo sjaquinu aqj
pup saaoas [pnpiAiput Moqs os[P qaiqAA ‘g-g -sSij ui AqpaiqdpaS pajuasaadaa ajp z aiqpi ui paquasap pjpp upaui dnoaS aqx
dnojS dD aqj ui uaapqqa upqj ‘aSpaaAP
uo 'aaAAO[ Suuoas dnoaS dV aqi ui uajpqqa qjiM ‘zlz JeaA Jb juauissassp fta sqi>[s jojoui aqj uo spm sdnojS dD pup dV am
uaaAAjaq aauaaajjip jupayiuSis Aqpaijsijpjs Ajuo aqj ‘uuirqoa |Puy aqj ui pajpaipui sy 'sdnoaS aijaapa pauiquioa omj aqj jbao
dnoa8 iai aqj Suijoapj saaoas aSupqa ui saauaaajqp jupayiuSis Aqpaijsijpjs [paaAas SAAoqs uipSp £ aiqpjjo uuin|oa pupq-jqSia
ajpuiijinuad aqi dnoaS jpqj aoj punoj aaaM saSupqa jupayiuSis Aqpaijsijpjs aaqjo ou jnq ‘ApupayiuSis paspajauifta a8pnSup|
aAissaadxa upaua s,dnoa8 dD am [BAaajui auaps jpqj aaAO £lz JB3A oj j jpaA uiojj t)0 sqpjs jojoui upaui aqj ui auqaap p
spaa aSupqa jupayiuSis Aqpaijsijpjs A[uo aqj ‘dnoaS dV aqj acy '|PAjajui auaps jpqj aaAO auqaap p paMoqs^ja upaui sqiqs jojoui
aqj aqqAA ‘£lz aeaA oj i jpaA uiojj AyupayiuSis paAOjduii osjp sqjys aSpnSue| aAissaadxg i jpsa oj aqpjui uiojj AqueayiuSis
paspaaaui (aqpjui jp aSupj |puuou aqj ui ajaAA qaiqAA) sqiqs jojoui jdaaxa saanspaui qp uo sQa upaui 'dnojS iai aqj
joj aajpjui aayp sapaA oaaj - £
jp appui spaa juauissassp ou ji - jo aqpjui aajjp sapaA aaaqj aaqjja pup :a>|pju! aajjp jpaA auo
:aqpjui jp :aunj ui sjuiod aaaqj A|uo joj saijsijpjs SAAoqs £ a|qpx ‘A|8uipjoaay 'juauijpajj jo sapaA £ aajjp A|uo passasspaj ajaAA
saaqjo aqqAA ‘juauijpajj jo sapaA z aaye A[uo passasspaj aaaAA uajpqqa auaos: i jpba aajjp Apuajsisuoa passassp jou aaaAA sqiqs
asoqx dnoaS Aq s£)ci sqpjs jojoui pup ‘a8pnSup| X)i |pqaaAuou sjuasaad ‘z a|qpx oj A|jpquns pajjpuuoj si qaiqAA ‘£ a|q?x
dnoaS dD am aoj paspaaaui jnq dnoaS dV am J0J pauipap aaoas upaui aqj ‘aspa qapa ui '.z aeaA oj i apaA uiojj ss aysoduioa
aoiAPqaq aAijdppp pup
|Piaos 7)0 djaq-jjas ui saSupqa aqj uj uaas aaaAA saauaaajjip jupayiuSis Aqpaijsijpjs 'sdnoaS
,dD pup, dV.am yaaAAjaq saaoas aSupqa upaui aqj jo suosiapduioa juasaadaj aanspaui qapa'Joj'SAAdjaaaqj uiojjoqaqjuuiunqoa
100 >d „
S0 0><f .
(S0 0 > d) 3JBUPAOD lUeDIJjUSjS E si
^90-

..8011SZO
LL'L-

698£91
Zl'O

ozs..19EZ98'Z

szsi8PZI68'8

Ell
09'l
,66'El —
S6'8
08'SSS'88ZS
Z9E00'i-

irzSZ'l6Z'8“
EES—
98'S—
ZZP-

sps9PE
Zl'O
PEZ699-

oozl£'Z-

woOfr'O
LU6
6l'H
„U'£l
„Z£'Zl
frZ'Z
SOl86'Z
,Z9’8l
6£*6l
,.SZSZ
.ZPSl
ZO'E-

zisZZZ
.S9'8
ZZ'8
S6ZI
,1601
PZZ
19Z6ZE..SOZZ
SP'6l
,98‘PZ
..ZO'ZZ
ZZP
88060'Z..6061
ZPIZ
..98EZ
..9ZPZ
SEE

WL
6Z8
t-Zll
EZ'Zl
WZl
SPOl
W'8
9861
SPOZ
60EZ
OPZZ
600E
IZOZ
OSS l
10ZI
9ZSI
E6ZI
Z9EI
6E'9l
6Z'0l
El'Zl
Z901
9PSI
PEIZ
PZZZ
9SZZ
PEZZ
6EPI
SPEl
6Z'9
OZZl
SP'6l
SEZl
El'S l
ZZ'Sl

as
UE9UI

UB9UI

do snuiui
uesui dV

dO/dV snuiui
UE9UI iai

svtl£lS8S9
ZZ'69
E9Z.9
69 69
LVL
.89'Sl
LVLS8Z9
9119
SSefr
Z6’9S
UJ
9frS
Ifr'EZ619
8909
6£’9S
0E09
89S
EE>
Z8>
897.S
9ZIS
8EZS
ZZLP
SS'9
691“
ZZ'8
LLIL
8099
£1‘69
0019

m

dnoaS dO

U
El
£1
El
El
91
El
11
El
SI
El
El
91
SI
ll
El
SI
El
£1
91
SI
11
El
SI
£1
£1
91
SI
11
El
SI
El
El
91
SI

u

ezu
lfr’8
WJ’Zl
08'Sl
frlOl
16ZI
8P01
IV LI
LLLl
98EZ
9SSZ
ZS'SZ
68'8Z
SlEZ
Sl’8l
LOP l
ZSOZ
SZ'6l
9^91
6^91
frSSl
89>l
9fr'8l
96'Zl
9£‘6Z
OSOZ
£9'IZ
10SI
Z9'8
69'9
PO'Sl
PSPZ
8EEI
E9'6l
OS'El

60>>S'99S0Z0'8S
8019
SZ'69
18'69
ZS'l
E6Z6E0
09ZS
89'8fr
M?'8S
S0‘8S
IEE
.ES'8frSS
ll'9S
El'ZS
ZIZ9
£9'9S
89>
ZZZ
ZSE
OP6P
P6SP
ZS'9P
S6ZP
60 1
LLl
_PPS
ZVP9
8£'6S
EIZ9
69ES

as

dnojS dV

11
El
91
H
El
91
91
11
El
91
PI
El
91
91
11
El
91
PI
El
91
91
11
El
91
PI
El
91
91
11
£1
91
PI
£1
91
91

SZ'8
SZOl
P601
P6SI
90ZI
S601
ZLL
18PI
PVZl
66'ZZ
8PZZ
09‘9Z
S0‘6l
0081
EE'8
S8ZI
PZ'IZ
8ZSI
6691
6£'9l
6S‘9l
6ZIZ
80'IZ
ZZIZ
9P'6Z
E6'8Z
8PZZ
ZZ'Pl
90‘6
689
81PI
66EZ
ZPOZ
Z80Z
8P‘Zl

IEP090„88'8

91
OZ
PZ

00'9Z
Pl'6Z
S118
OOZZ

OZ
ZZ
9Z
9Z

ZEE
,.S8ll
,.IZSI
E£‘6Z
9908
ZP'69
EPPS
99Z890
986
EIZ9
SE'69
610Z
S909
ZSZ

91
OZ
SZ
61
ZZ
9Z
8Z
91
OZ
9Z
61
ZZ
9Z
6Z
91

u

as

w

U

zoo-

OZ

„EZ'9Z
P8ZZ
9PE4
LV9L
EZ'6P
P6Z

9Z
61
ZZ
9Z
6Z
Ll

soz-

OZ

PP7.Z
EP'68
6S'98
88'68
ZS09

SZ
IZ
ZZ
9Z
8Z

dnojS igi

•sdnojS uaayvyaq saDuajajjip pue ‘sjuauissasse aAissaaons uaa/vqaq saSupqo ‘£-1

sjbsa

Z JF3A
l JF3A
3>|F5UI

‘l^d

JE S§V ,,

(SS) 33isoduioa

, £ JB3A SA Z JB3A
Z JF3A SA l JB3A
l JE3A SA 3>jl’lII [
£ JF3A
Z JF3A
l JF3A
3)(B5UI
E JF3A SA Z JF3A
Z JB3A SA l JE3A
l JB3A SA
E JF3A
Z JF3A
l JF3A
34jP]UJ
E IF3A SA Z JF3A
Z JB3A SA l JB3A
l JB3A SA 3>]B)UI
£3B3A
Z JB3A
l JB3A
3)|B3UI
EJB3ASAEJE3A
z JB3A SA l JB3A
l JE3A SA 33(B3UI
£ JB3A
Z JB3A
l JB3A
3JIBJUI

juauissdssv
pup ajjBjuj jp

Pt££-9Z££ (VIOZ) SC swmosiq ipjuauidojdAdQ ui i/jJD3saj//7D ja pjdmoh S‘f

t9‘adV

sisouSeip

E JF0A sa z JF3A
z JB3A SA l JB3A
l JB3A SA 3>H-’4U]
£ JE3A

ssjcos siji>js

(Oa) [BI30S

COa) d|3i|'J|3S

(X)Q) UOpBDIUIUUUIOa

(SS) 3Aqiu3oa

ajnspaiAj
aAijdBpp pUB 9ApiuSo3
Z aiqei
Z£££

Pet. Reh. App.62

3333

].S. Howard et ai/Research in Developmental Disabilities 35 (2014) 3326-3344

Table 3
Nonverbal IQ. language, and motor skills scores at intake. Year 1, and Year 2 or 3, changes between assessments, and differences between groups.
IBT treatment group

Measure

Assessment

Non-verbal (DQ)

Intake
Year 1b
Year 2/3
Intake vs Year 1
Year 1 vs Year 2/3
Intakeb
Year 1
Year 2/3
Intake vs Year 1
Year 1 vs Year 2/3
Intake
Year 1
Year 2/3
Intake vs Year 1
Year 1 vs Year 2/3
Intake
Year 1
Year 2/3
Intake vs Year 1
Year 1 vs Year 2/3

Receptive (DQ)

Expressive (DQ)

Motor (DQ)

CP treatment group

AP treatment group

n

M

SD

n

M

SD

n

M

SD

20
24
24
20
21
29
26
25
26
24

80.44
101.04
98.05
20.31”
-2.20
48.79
71.23
74.46
22.53”
2.18

15.23
22.44
24.61
13.12
20.81
5.80
24.42
27.25
22.68
16.47
13.09
12.24

15
14
13
13
12
15
14
13
13
12
14
16

25
25
23

90.17
0.63
-8.44

67.00
73.60
69.33
6.61
-2.10
45.44
5139
49.53
5.27
-0.27
43.90
47.31
47.98
3.42
1.51
89.55
85.08
74.00
-4.46
-9.82'

11
15
14
11
13

49.73
69.24
83.25
20.46"
10.40’
94.65
97.30

16
16
15
16
15
16
15
15
15
14
16
15
15
15
14
16
16
12
16
12

17.13
24.79
22.08
18.56
13.63

29
26
26
26
24
28
26

12.06
18.27
17.92
14.97
8.65
20.87
21.97
25.08
18.31
12.39
16.34
23.20
29.88
22.36
17.11
17.50
14.74
12.64
18.23
18.05

13.24
12.82
13.54

14
14
14

76.65
81.08
82.20
2.42
2.78
47.29
51.95
60.31
2.77
4.39
50.20
48.08
62.07
-2.84
12.34’
86.96
85.62
86.31
0.83
1.97

13.37
18.72
21.74
13.42
11.49
13.59
19.46
18.75
11.96
10.49
12.16
14.35
23.83
12.29
17.75
13.34
13.62
15.83
18.18
20.57

IBT mean
minus AP/CP
mean

AP mean
minus CP
mean

9.51
23.82"
22.50"
15.41“
-2.36
2.45
19.57'
19.93’
18.42”
0.31
2.78
21.56’
28.73'
19.95’
3.90
6.31
11.95’
9.54
2.63
-4.97

-9.65
-7.47
-12.87
4.19
-4.87
-1.85
-0.55
-10.78
2.50
-4.66
-6.30
-0.77
-14.10
6.26
-10.82
2.59
-0.54
-12.30’
-5.29
-11.78

6 Mean parental years of education is a significant covariate (p < 0.05).
* p < 0.05.
** p<0.01.
140

140

GP

AP

-•120

120-

O

8

100-

I

o
80-

i

6040-

Cognitive

I

20

i

T

T

It

I

I

' •
• '

6040-

-100
■

©

-60

•j
-40

T

T

T

T

-20

I

H.

-120

I

3

MI

i

«

-too

IBT

§

i

....
'

S

f
Intake

Year 1

Year 2

i

-80
-60

Eclectic
-40

«

20

-80

Mean ± 1 SEM

120-

80-

•

I

1

1ST

100-

t

©

I i

0

Year 3

l

Intake

I

Year 1

20
Year 2

Year 3

Assessment
Fig. 2. Cognitive SSs at intake and 1-3 years later. Each dot represents the score for an individual child at that assessment time. Black dots indicate children
who received their original treatment at the time of testing; white dots indicate children in the AP group who received GP treatment in the year preceding
assessment, or children in the GP group who received AP treatment prior to assessment. Cray dots indicate children whose treatment prior to assessment
was not recorded. Scores in the gray region of each panel are in the normal range (85 or higher). The lines in each panel connect the group mean scores at
each assessment. The vertical bars in the lower right panel extend ±1 standard error around each group mean.

3334

Pet. Reh. App.63

J.S. Howard et al./Research in Developmental Disabilities 35 (2014) 3326-3344
•ISO

150

AP

GP

130-

-130

110-

-110

o
90-

6
'70?

.§

I
»
2... I

50?

< I

i

•

o

I

I
.........
1..*
I

■

:©

8

*>V”....©

piimiiiniiui

30?

Communication^
(DQ)

•

-90

♦

8
•

»

i

*

50-

-130

' •

s

-110

pHH

!
30-

-3P

Mean ± 1 SEM

1,10-

70 r

t50

-160

IBT

130-

90-

-70

•

I

:

*

«

Yean

Year 2

-90

I

IBTyC**1

-70

....""'’’I

*

i

Ecleotte

!

-30

10Intake

Year?

-so

-10
Intake

Year1

Year 2

Year 3

Assessment
Fig. 3. Communication DQs at intake and 1-3 years later. See Fig. 2 caption for details.

*•»<

After the first year of treatment, the sharply accelerated trajectory for the IBT group relative to the two other groups did--'
not continue for any measure except the social skills DQ, which increased again from Year 1 to Year 2 before leveling off
(Fig. 5). The mean cognitive skills SS for the IBT group remained stable from Year 1 to Year 3 (Fig. 2), while the mean’’
communication skills DQ, self-help skills DQ, and adaptive skills composite SS declined slightly (Figs. 3, 4 and 6?::
respectively). The mean scores for the GP and AP groups either increased slightly or declined from Year 1 to Year 3 on all
measures except social skills DQs, which increased for the GP group (Fig. 5).
In general, the gaps that emerged between the means of the IBT group and the other two groups after one year of
treatment remained.fairlv,cons.tantor,expandedjn,fayor.ofthe,lBTlBfoupiinj|feai:Sr2?and!3iGseeitheilowenrightghandipanelsiaf=
Figs-2=6)rAlthough the mean scores for the~children ifftfiFlBT group were liigher than those of the children in the eclectic
treatment group three years after intake, those differences were not statistically significant (see Tables 2 and 3). With one
possible exception, that was not because children in the IBT group regressed or because those in the AP and GP groups
improved substantially; rather, it was because some children lacked 3-year followup assessments, reducing the Year 3
sample sizes and precluding the detection of statistically significant differences among the group mean scores. The exception
was the mean motor skills DQfor the IBT group, which declined slightly from intake to Year 2/3 but remained in the normal
range. The AP group's mean motor skills DQs also declined over the course of treatment; that decline was statistically
significant and resulted in a Year 3 mean that was below normal (see Table 3).
Given the large improvements in the IBT group after one year of treatment, it may seem surprising that continued
treatment did not produce further large gains on most measures; rather, most mean scores remained stable or declined
slightly in Years 2 and 3. That finding should be interpreted with caution, however, and in relation to the results for the other
two groups. For example, the mean cognitive skills SS for the IBT group was in the normal range after one year of treatment,
so further large increases were unlikely. The mean adaptive skills composite SS for the IBT group fell slightly over the course
of treatment, but the means for the two other groups fell even more. One plausible explanation for the apparent declines in
the mean VABS composite scores is that the programming for these young children emphasized skills other than those
assessed by the VABS.
3.3. Analyses of outcomes by type of treatment
Additional analyses were conducted to ascertain the proportions of children in each group who achieved clinically
important outcomes by the end of treatment, and the likelihood that each type of treatment would produce such outcomes.

Pet. Reh. App.64

].S. Howard et aL/Research in Developmental Disabilities 35 (2014) 3326-3344

3335

120

-120

AP

;

GP

s .

100-

o
80-

i

60'-

40-

Self-help
(DQ)

|

I

j

.

I

8

*

8

i

....... .

II **

»

i

-80

I
-60

•8

20,

80:-

60-

40-

-40

•2b

IBT
100-

-100

•

Mean ± 1 SEM

•

$mz

'. •

-100

■

-80

Hn
i

1

IBT *
%60
-r

Eclectic

•:

-40

f
20-

20
Intake

■:

Yean

Year 2

Year 3

Intake

Yeari

Year 2

Year 3

Assessment
Fig. 4. Self-help DQs at intake and 1-3 years later. See Fig. 2 caption for details.

Table 4 shows the percentage of children in each group who had final (Year 2 or 3) scores in the normal range (i.e., >85; thirdcolumn), final scores that were at least one standard deviation (>15 points) higher than their intake scores (fifth column),^*1
and either of those favorable outcomes (penultimate column). Columns immediately to the right of each of those show odds" '
ratios and probability ratios. To illustrate the odds ratio statistic, consider the data in the fourth column for the cognitive SS.
For the IBT group, 61% had a final score >85 on that measure; the odds of achieving that favorable outcome were 0.607/
(1 -0.607.)^.1.545..Eor,thej:hildrenjn,the,AP.and1GP.groupsaGombined[»25%»had;final;Scoresi^85tatheiodds;dftthisfotitcome^^M
were 0.250/(1~- 0.250) = 0.333rThe~ratid'of thoseTwo odds’is_lT545'/07333 = 4.64. This odds ratio of 4.64 is greater than the
"neutral” value of 1, indicating that a favorable outcome on the cognitive SS was attained more often by children in the IBT
group than by children in the two other groups combined. A likelihood ratio test, which is similar to a chi-square test,
confirmed this difference as statistically significant An odds ratio of 4.64, however, does not signify that children in the IBT
group were 4.64 times more likely to have a favorable outcome than children in the AP and GP groups. Such an estimate is
better provided by the probability ratio, which is shown in parentheses below each odds ratio in Table 4. The probability ratio
for the cognitive SS example is 0.607 (the probability of a final score >85 for children in the IBT group) divided by 0.250 (the
probability of a final score >85 for children in the AP and GP groups combined) = 2.43, indicating that children in the IBT
group were 2.43 times more likely to achieve final cognitive SSs in the normal range than were children in the other two
groups combined. Probability ratios are more readily interpreted than odds ratios, but statistical tests for group differences
utilize odds ratios.
Table 4 shows that the overwhelming majority of the odds ratios and probability ratios favored IBT, indicating that
clinically important outcomes as defined here were far more likely to be attained by children who received IBT than by
children who received either of the other two treatments. The only exception was that final motor DQ. scores were unlikely to
be at least one standard deviation above the intake scores. As noted previously, that was likely due to a ceiling effect, in that
the mean motor DQfor the IBT group was in the normal range at intake and stayed there over the course of treatment. Double
asterisks in Table 4 show that the advantage for IBT children was more likely to be statistically significant when a favorable
outcome was defined as a final score >85 than when it was defined as an increase of at least 15 points over intake.
Statistically significant differences between the AP and GP groups emerged only for an increase of 15 points or more over
intake for social, motor, and adaptive skills composite scores. For those three measures, the odds of a favorable outcome were
higher for the GP group than for the AP group. For the cognitive, receptive, and self-help measures, children in the AP group

:■

?

Pet. Reh. App.65

3336

J.S. Howard et oi./Research in Developmental Disabilities 35 (2014) 3326-3344
130-

"'130

AP

' GP ' ■'

110-

-110

• .
-90-

I

‘

S—-S•

9

!

.

30-

Social

mm

.

I
i

ft

i

•

<•

8

•
I..>4
*
•

..........

i

•

•

*

Mitiimniif;

i

,50-

.8.

w

&

I

70-

•

•

io

•70

SO

I

;■

-90

P

ft

* °

•36
10

IBT

Mean'± 1 SEM-

110-

1-110

*90-

-96

IBT

70-

-70

1"iji ..........

50-

-50

Etlectic
*30 -

-30

io

■10
Intake

Year 1

Year 2Year3

Intake

Year!

Year 2

Year 3

Assessment
Fig. 5. Social DQ? at intake and 1-3 years later. See Fig. 2 caption for details.

were more likely to have favorable outcomes than children in the GP group, though none of those differences was
statistically significant. Collectively, these analyses suggest that neither of the comparison treatments was likely to result in
favorable outcomes, and that combining the AP and GP groups did not mask any important group differences in outcomes.
Fig. 7 is a graphic representation of the percentages of children in the IBT group and the combined AP and GP groups who
had scores in the normal range at each assessment. At intake, those percentages were comparably small for both groups on
rallfmeasuresiexcepM*heimotoBskills©Q?oniwhich!fairlyslargeipropoitiprtS!Ofjboth!groups^57^IBTi»t7*W?/GBictpibinecl0ilT3d!
scores in the normal range. By the end of treatment, a larger percentage of children in the IBT group than in the AP/GP group
had scores in the normal range on all measures except the self-help DQ,
Individuals with final scores that were in the normal range (>85) or at least one standard deviation above intake scores
can be readily identified in Fig. 8. In this figure, each child's score on each measure is plotted as a function of his or her score at
intake (on the x-axis) and the change from intake to the final assessment (on the y-axis; the final assessment was made at
Year 2 if the child was not assessed at Year 3). Final scores in the normal range appear in the dark gray region of each panel,
and scores representing increases of at least one standard deviation over intake are in the light gray regions. Both regions are
populated by more children in the IBT group (closed circles) than by children in the other two groups (open symbols). That is,
more of the children who received IBT had final outcomes that constituted clinically important changes over baseline than
did children who received either of the other two treatments.
An important question is whether children in this study who attained normal levels of functioning at any point
maintained those levels over the course of treatment. That question is difficult to answer, because only a portion of the
children in each group had scores in the normal range at any assessment time, and not all children were assessed at both Year
2 and Year 3. Nevertheless, the question is sufficiently important to merit an attempt to answer it. For this analysis, children
were classified into four categories of outcomes: (a) scored <85 one year and remained <85 the next year; (b) scored <85
one year but scored >85 the next year (i.e., transitioned to a normal range of functioning); (c) scored >85 one year but scored
<85 the next year (i.e., regressed); and (d) scored >85 one year and remained >85 the following year. Those categories were
then combined across measures to calculate the probability of each of the four outcomes for each year-to-year assessment
transition. Separate calculations were made for children in the IBT group and for children in the combined AP and GP groups.
Results of these analyses are illustrated by the Sankey diagram shown in Fig. 9. In this figure, arrows are not just
proportional in width to the quantities the represent; they are also horizontal if they represent children who maintained

,f

J-fl5
ir'

Pet. Reh. App.66

J.S. Howard et at./Research in Developmental Disabilities 35 (2014) 3326-3344
120

-120

■ s

AP
100-

3337

GP

- :

-too

, •. '
'•..... (it........•
o
o

80-

60-

*

•

•

■

s

J..'•'•'8
•
I

40-

*

O

-80

.......

»
O

i

-60

-40

O

Composite
(SS)

20“

I. -

IBT

-.20

Mean ± 1 SEM
■

;

•

100-

-100

80-

-80

Eclectic

60.

-60

I

40-

-40

20-

-20
Intake

Year 1

Year 2

Year 3

Intake

Year 1

Year 2

Year 3

Assessment
Fig. 6. Composite adaptive skills SSs at intake and 1-3 years later. See Fig. 2 caption for details.

assessed levels of functioning, they slant upward for children who improved, and they slant downward for children who
regressed from one year to the next. The figure should be interpreted cautiously, because it represents data that were >
collapsed across measures and is based upon other suboptimal manipulations. Nevertheless, several intriguing trends are
suggested. One is that most children who moved from below-normal to normal-range functioning did so after one year of
treatment. For both groups, the probability of moving into the normal range was higher from intake to Year 1 than from Year
XtOLYear-2, orafrom-Year.2,fo-Year-34indicated-bv.the-upward-slanting-arrowsrin-Fig-9feStated^differentlv.ithe-pfospect7of==
achieving scores in the normal range diminished with each additional year of treatment, but the likelihood of scoring in the
normal range was substantially and consistently higher for children in the IBT group than for children in the AP/GP groups
combined at all three years post-intake (as shown by the percentages in the upward-slanting arrows). For children in the AP/
GP group, if a score >85 was not attained after one year of treatment, the prospects for attaining a normal score were
extremely dim.
A second general trend, confirming analyses presented in preceding tables and figures, is that children in the IBT group
were far more likely to score in the normal range at all three post-intake assessments than were children in the two
comparison groups. Further, percentages shown in the upward slanting arrows indicate that children in the IBT group were
more than three times as likely as children in the AP and GP groups to have scores that moved them from the below-normal
to the normal range at Years 1-3. That advantage was not limited to Year 1 scores; it remained relatively consistent
throughout all three years of the study.
A final trend, illustrated by the downward slanting arrows in Fig. 9, is that regressions from normal to below-normal
range scores were much more common for children in the AP/GP group than for children in the IBT group. In fact, children in
the AP/GP group were 3.45 times as likely to regress as to advance during the first year of treatment, 4.45 times more likely to
regress than advance during the second year of treatment, and 4.91 times more likely to regress than advance in the third
year of treatment. The opposite pattern was seen for children in the IBT group, where advancements were 2.48 times as likely
as regressions during the first year of treatment. Advancements and regressions occurred about equally often between Year 1
and Year 2 for the IBT group (the ratio was 1.08 in favor of advancements), but in the third year of treatment advancements
were 1.75 times as frequent as regressions. Collectively, these findings suggest that children who received IBT were much
more likely to attain and maintain normal levels of functioning than were children who received either of the other
treatments.

J

3338

J.S. Howard et ai/Research in Developmental Disabilities 35 (2014) 3326-3344

Table 4
Percent of children with favorable outcomes, and odds ratios and probability ratios for each measure.
Measure

Group

Final
score > 85

Odds ratio
(probability
ratio)

Final
score >15
points above
intake

Odds ratio
(probability
ratio)

Either
desirable
outcome

Odds ratio
(probability
ratio)

Cognitive (SS)

IBT

61% (n = 28)

4.64
(2.43)

81% (n = 27)

8.00"
(2.30)

82% (n = 28)

8.78"
(2.39)

AP/GP combined
AP

25% (n = 32)
25% (n = 16)

GP
IBT

25% (n = 16)
85% (n = 27)

AP/GP combined
AP

41% (n = 32)
31% (n = 16)

GP
IBT

50% (n = 16)
26% (n = 27)

Non-verbal (DQ)

Receptive (DQ)

AP/GP combined
AP

[Expressive.; DQ)

Commun-ication (DQ)

Self-help (DQ)

GP
>IBT<

Motor (DQ)

Composite (SS)

7% (n = 15)
>46%*(iP^28)'

AP/GP combined
AP

13% (n = 31)
13% (n = 16)

GP
IBT

13% (n = 15)
36% (n = 28)

AP/GP combined
AP

13% (n = 32)
13% (n = 16)

GP
IBT

13% (n = 16)
11% (n = 28)

AP/GP combined
AP

Social (DQ)

6% (n = 31)
6% (n = 16)

3% (n = 32)
0% (n = 16)

GP
IBT

6% (n = 16)
54% (n = 28)

AP/GP combined
AP

22% (n = 32)
13% (n = 16)

GP
IBT

31% (n = 16)
57% (n = 28)

AP/GP combined
AP

47% (n = 32)
31% (n = 16)

GP
IBT

63% (n = 16)
36% (n = 28)

AP/GP combined
AP
GP

6% (n = 32)
0% (n = 16)
13% (n = 16)

1.00
(1.00)
8.40"
(2.10)
0.45
(0.63)
5.08'
(4.02)
0.93
(0.94)
‘5‘85s>
(3.60)
0.93
(0.94)
3.89'
(2.86)
1.00
(1.00)
3.72
(3.43)
0.00
(0.00)
4.12'
(2.45)
0.31
(0.40)
1.51
(1.22)
0.27
(0.50)
8.33"
(5.71)
0.00
(0.00)

35% (n = 31)
38% (n = 16)
33% (n = 15)
60% (n = 20)
33% (n = 27)
31% (n = 16)
36% (n = ll)
78%(n = 27)
30% (n = 30)
31% (n = 16)
29% (n = 14)
l82%*(n^28)'

1.20
(1.13)
3.00
(1.80)
0.80
(0.86)
8.17"
(2.59)
1.14
(1.09)

iSo5*

34% (n = 32)
38% (n = 16)
31% (n = 16)
85% (n = 27)
47% (n = 32)
44% (n = 16)
50% (n = 16)
85% (n = 27)
35% (n = 31)
38% (n = 16)
33% (n = 15)
82%'(n*28)

(2.46)
33% (n = 30)
31% (n = 16)
36% (n = 14)
68% (n = 28)
48% (n = 31)
38% (n = 16)
60% (n = 15)
39% (n = 28)
32% (n = 31)
38% (n = 16)
27% (n = 15)
67% (n = 27)
42% (n = 31)
25% (n = 16)
60% (n = 15)
19% (n = 27)
20% (n = 30)
0% (n = 16)
43% (n = 14)
16% (n = 25)
10% (n = 29)
0% (n = 16)
23% (n = 13)

0.82
(0.88)
2.25
(1.40)
0.40
(0.63)
1.36
(1.22)
1.65
(1.41)
2.77
(1.59)
0.22’
(0.42)
0.91
(0.93)
0.00"
(0.00)
1.65
(1.55)
0.00'
(0.00)

32% (n = 31)
31% (n = 16)
33% (n = 15)
75% (n = 28)
50% (n = 32)
38% (n = 16)
63% (n = 16)
43% (n = 28)
31% (n = 32)
38% (n = 16)
25% (n = 16)
71% (n = 28)
41% (n = 32)
25% (n = 16)
56% (n = 16)
57% (n = 28)
47% (n = 32)
31% (n = 16)
63% (n = 16)
36% (n = 28)
9% (n = 32)
0% (n = 16)

1.32
(1.20)
6.52"
(1.82)
0.78
(0.88)
10.45*'
(2.40)
1.20
(1.13)
^’GG 1
(2.55)
0.91
(0.94)
3.00'
(1.50)

"O

0.36
(0.60)

73

CD
r*

0

ZT
1.65
(1.37)
1.80
(1.50)
3.65'
(1.76)
0.26
(0.44)
1.51
(1.22)
0.27
(0.50)
5.37’
(3.81)
0.00'
(0.00)

19% (n = 16)

“ Odds ratio differs significantly from 1 (p < 0.05).
** Odds ratio differs significantly from 1 (p < 0.01).

4. Discussion
4.1. Differential treatment outcomes
Our 2005 study evaluated outcomes for 61 children with autism who received just over one year of either IBT or one of
two eclectic interventions. Although the three groups were similar at intake, children who received IBT had significantly
higher mean scores after one year of treatment than those who received eclectic interventions. The present study extended

>

T3

"O
CT)
-Q

Pet. Reh. App.68

J.S. Howard et al./Research in Developmental Disabilities 35 (2014) 3326-3344
100%

, Gbgnitive>SS

3339

% sc6ring a'85 (IBT)

50%

;

H %;SC6ring <85 (IBT)

0%

% scoring & 85 (AP/GP.)
Jf

-50%

100%

0 % scoring <85 (AP/GP)

is

. Communication DQ

100%

T

. Non-verbalj
. DQ

50%

1

o%

=I
|11
^
IS iM 10

-50%
•r--

100%

Self-Help DQ '

50%

0%

*1-0

■I8

I

I

- Receptive DQ

-50%
100%

T

50%

■50%

0%

-•
-50%

'
100%

0

| P
0

l l

%

„• 0

^ LSS3
la|
T

Social DQ

T

M HI
T

- Expressive DQ

50%
0%

-50%
100%

•rv.* 0%

100%

,50%'

in
8 i ia "18
T

J

I

- Composite SS

T

-HI

mI

0%

0
0
. //.

ll

50%

-50%
100%

■50%

!jj£

0%

i1 “i LfI

o%

■i
-50%

; 0

0

-100%

j

None
(intake)

1 year

i.

2 years ,3 years

-50%

- Motor DQ
i

i.

Norte
(Intake)

1 year

2-3

years

Length of treatment
Fig. 7. Percent of children in each treatment group with a score in the normal range (SS or DQ >85) at intake and 1-3 years after intake.

those findings by showing that the largest gains generally occurred in the first year of treatment and in IBT children only, and
that the advantage experienced by IBT children after one year of treatment was maintained throughout the second and third
years of treatment. Indeed, three years after treatment began, mean scores on standardized assessments of cognitive,
language, adaptive, and motor skills were higher for children in the IBT group than they were for children in the eclectic
intervention groups.
At their final assessment, 61% of the children who received IBT tested within the average range of cognitive functioning,
compared with only 25% of the children who received eclectic treatment. That is, children in the IBT group were more than
twice as likely to attain a cognitive skills score in the normal range as children in the two eclectic intervention groups. Final

Pet. Reh. App.69

3340

J.S. Howard et ai/Research in Developmental Disabilities 35 (2014) 3326-3344

■

9075

6045-

m

■

H

-90

mm

§11

Hi

§i!§i
|m

o

.'•/A T -

30-

•

15

m
n-m

N

a 4

A.....

uW ■

I

□A

o-

□ 4.. ^

-15-

A V *
a

A

-30-

• * .

-15

2# *

*

90

-30

-m

............ A.....

75

Change
in score
from
intake to
final
assess­
ment

60
45-

S*

3015

0-■

-15-30J

v
* s
^

•<
-

>la

U

60

i ••

■

■

lAAk||l« MlfiiM* f |

Nt

ii
*
£ a

“

mm

m

J? 50

35-

-25-40-

‘ %

□

50-

-10-

15

30

1---- 1----*---1—45
4
6^S 40 55 70 85 100 115

65

5-

r

\.4 °A A
*•,

SO

20-

j

-30

d

•

■

A

»

20

U* • « "■*

4 .A?#
A; AiQ

5
,
p

00

4 •

□

*

A

A

□ GP
* IBT

:

-10 'W

a

^

A AP

O

-25
A

-40

^1, Final score a 65

fck- SOofSincfSasel by a 15

....A~......[ ............... ............. ..... ...1-55
*55-- ___ ____ —
10 25 40 55 70 85 100 115 25 40 55 70 85 100 115

Score at intake
Fig. 8. Scores for individual children on each measure, plotted as a function of the value at intake along the x-axis, and the change from intake to Year 3 (or?
Year 2 if the child was not assessed at Year 3) along they-axis. Scores of children in the IBT group are shown as solid circles, scores of children in the AP group*}
are represented by open triangles, and scores of children in the GP group are shown as open squares. Final scores in the normal range (>85) appear in the?'
dark gray region of each panel, and final scores <85 but at least 15 points higher than at intake (i.e., above the dotted line in each panel) appear in the light
gray region of each panel.

■assessment scores on other measures showed'similar patterhs:-Compared to~children~who'received,eclectic-interventions,-i
children who received IBT were twice as likely to score in the normal range on the final assessment of nonverbal skills,
approximately three times as likely to score in the normal range on the final assessments of communication and adaptive
skills, approximately four times as likely to score within the normal range on the final assessments of receptive and
expressive communication skills, and almost six times more likely to have a final adaptive behavior skills composite score
within the normal range.
As they were at Year 1, average outcomes at Years 2 and 3 were worse for children in the AP and GP groups than for
children in the IBT group, while average outcomes for the two eclectic intervention groups did not differ significantly from
each other. The mean score for the GP group was higher than the mean score for the AP group on some measures in some
years, but there were no statistically reliable differences between outcomes produced by the two eclectic treatments.
Additionally, both eclectic treatments performed substantially worse than IBT in producing standardized test scores in the
normal range of functioning, and neither eclectic treatment was more likely than the other to produce a favorable outcome.
The results for the AP intervention might be surprising to some readers because that intervention was intensive and designed
specifically for children with autism. Despite these features, no child from the AP group scored in the normal range on the
final assessment of adaptive functioning. In contrast, more than one-third of the children in the IBT group achieved a normalrange score on the final assessment of adaptive skills. These findings are especially important given the critical contribution
of adaptive skills to independent functioning throughout the lifespan.
Although scores in the normal range are certainly desirable outcomes, so are other clinically significant improvements.
Changes in test scores that do not reach the normal range may nonetheless reflect the acquisition of many skills that enhance
independent functioning, which in turn produces economic savings due to reduced need for specialized services (Jacobson,
Mulick, & Green, 1998; Motiwala, Gupta, Lilly, Ungar, & Coyte, 2006). About one-third of the children in this study who
received AP or GP interventions had final scores on tests of cognitive or adaptive skills that were at least 15 points higher than

I
i
?

‘2

!

Pet. Reh. App.70

J.S. Howard et al./Research in Developmental Disabilities 35 (2014) 3326-3344
Baseline

,
41.1%

IBT
children

3341

Year3

50.4%

S2.t%

519*

49:6%
74.05S'

Score is 8S
or higher

15.2%

35.0%

1

16.3%

Score is
below.85
AP and GP
children

92.9%

as.«t

84.8%

88.4%

Baseline

Year-1

94.3%

)

91;8%

)

f

83.8%

fear 2

V

Year 3

Fig. 9. Percentages of children who scored in the normal range (gray region) or below 85 (white region) at each assessment time, and who transitioned from
one of those ranges to another on successive assessments. Horizontal arrows indicate maintenance of scores in the normal range (gray arrows) or in the
below-normal range (white arrows). Upward-slanting arrows indicate changes from below-normal to normal-range scores, and downward-slanting arrows
represent changes from normal to below-normal range scores.

their intake scores, suggesting that those interventions may produce some benefit for some children with autism. Children in
the IBT group, however, were more than twice as likely as children in the other two groups to show changes of that
magnitude over the course of treatment. Differences on most other measures were somewhat smaller but equally clear and ■
in the same direction. Motor skills scores were an exception, as they were somewhat more likely to increase by at least 15
points among children in the AP and GP groups than among children in the IBT group. However, that difference was not
statistically significant.
The multiple regression approach we used for most of our statistical analyses accommodated individual differences (e.g.,
in parental education and age at diagnosis), but of course those analyses focused on group data. Group comparisons are
'apprdpTiate^foFdeterminingiwhichTdfitwoTOpmOfeftreatmentsiistgenerallyimostieffectivejihowever.Tweiurgeicautionxini
relying exclusively on group statistics to prognosticate about individual children. It is clear from the individual data
presented here (Figs. 2-6) that not all children within each treatment group responded similarly to that treatment. Research
correlating child characteristics with differential outcomes might help identify categories of children who are more or less
likely to respond well to a given treatment on average, but more precise information about the effects of treatments on
individuals with varying characteristics could be gleaned from studies using single-case research designs, perhaps in
combination with elements of between-groups designs (Green. 2008; Guyatt et al., 2008; Larson, 1990; Morgan & Morgan,
2001; Powers et al., 2006). Research methods that focus on changes in individual behavior with treatment could also enable
analyses of the differential effectiveness of elements of multicomponent treatments like IBT (e.g., Heyvaert, Maes, Van den
Noortgate, Kuppens, & Onghena. 2012) as well as treatment targets that function as behavioral cusps to bring the individual’s
behavior into contact with new contingencies of reinforcement, thereby producing even more widespread behavior change
(Rosales-Ruiz 8i Baer, 1997).
4.2. Changes over the course of treatment
In this study, the changes that occurred during the first year of treatment were generally maintained throughout the
second and third years for children in all three groups. Group mean scores in Years 2 and 3 tended to remain within ±5 points
of the corresponding group means at the end of Year 1, with the large differences in favor of IBT after one year largely persisting
throughout Years 2 and 3. Other studies comparing IBT with eclectic treatment over similar time periods have produced similar
findings (Cohen et al., 2006; Eikeseth et al., 2007). One difference is that the IBT advantage was larger after a mean of 31.4 months
of treatment than after one year of treatment in the study by Eikeseth et al. (2007). That may be related to the fact that the children
studied by Eikeseth et al. were older when they started treatment than the children in our study and the study by Cohen et al.

;

3342

Pet. Reh. App.71

J.S. Howard et ai/Research in Developmental Disabilities 35 (2014) 3326-3344

(2006), but it might also reflect differences in other child characteristics or the treatment packages (e.g., variations in targets,
priorities, procedures, etc.).
Measures of some skill domains in our study deviated from the trends just described. For instance, the mean motor and
self-help scores for the 1BT group were higher than those for either eclectic intervention group at the end of Year 1, but the
differences between the final group means on those measures were not statistically significant. That was at least partly due
to reduced sample sizes at Year 3. It should also be reiterated that motor skills were not delayed substantially for any of the
groups at intake, and motor and self-help skills were not among the highest priority treatment targets for many of the
children who received IBT.
The fact that most of the largest improvements in the IBT group occurred after one year of treatment might lead some to
conclude that there is little benefit in extending treatment beyond the first year. Such a conclusion might be warranted if
there were compelling evidence to support predictions that improvements would persist if treatment were to end after one
year. Our study cannot speak to that hypothesis, because none of the children in the IBT group received just one year of
treatment. Nor are we aware of other studies that have tested that hypothesis directly. One group of researchers did,
however, evaluate the performances of 23 young children with autism two years after they had completed a 2-year course of
IBT (Kovshoff, Hastings, & Remington, 2011). They found that a subgroup of 9 children who had statistically significant
increases on tests of cognitive and adaptive skills during treatment maintained those gains after two years with no
treatment, but the scores of the other 14 children decreased significantly. Analyses showed that the first subgroup had
higher baseline scores and received more intensive treatment than did the second subgroup. Although limited, those
findings corroborate our clinical observations that terminating IBT prematurely can be detrimental to many children with
autism.
Ending IBT after one year might also be justified if it were reasonably certain that extending treatment would be unlikely
to produce further clinically significant gains. Again, we have found no compelling evidence to support that prediction. On
the contrary, some children in our IBT group made marked improvements in Years 2 and 3 (e.g., see the upward-pointing
arrows in Fig. 9). Other researchers have also documented meaningful improvements occurring in the second, third, and
fourth year of IBT (e.g., Cohen et al., 2006: Eikeseth et al., 2007; Sallows & Graupner, 2005). We speculate that given the
pervasive and substantial skill deficits exhibited by many young children with autism, one and even two years of IBT is not
likely to produce gains that will persist over long periods of time without specialized intervention. The first 1-2 years of IBT
are typically focused on building many basic, foundational skills. Further intensive treatment seems essential for solidifying
those repertoires and for building the more complex social, language, and academic skills required to function successfully in
regular school and community settings.
4.3. Limitations
Participants in this study were not randomly assigned to groups; instead, treatment assignments primarily reflected
parental preferences and education team decisions. In Howard et al. (2005), however, we demonstrated empirically that the
three groups were functionally equivalent at intake. The only statistically significant group differences were in parental
education (parents of children in the IBT group averaged one year more of education than parents of children in the AP and.
GP groups) and age at diagnosis (children in the IBT group were diagnosed an average of 5 months earlier than children in the
GP group, who in turn were diagnosed an average of 4 months earlier than children in the AP group). Both variables were
controlledtfor»statisticallyiimsubsequent<dataianalyses,ithoughicontroUwastrarely»necessaryjbecausetindividual>scoresi
almost never covaried with parental education or age at diagnosis.
Another limitation is that some children switched between the AP and GP treatments during Years 2 and 3. We have no
information about the reasons for those shifts, but it would be unusual for an education team to recommend moving a child
out of an effective program and for the child’s family to approve such a change. Therefore, we speculate that the changes may
speak to the lack of efficacy of either eclectic approach. The data showed that neither eclectic treatment reliably produced
meaningful benefits, and when children switched from one eclectic treatment to the other, there was rarely any
improvement with the new treatment. These findings imply that the two eclectic treatments were essentially
indistinguishable in their efficacy, and that our analyses and conclusions were not compromised by the fact that some
children switched from one eclectic treatment to the other.
The impact of mortality on our findings should be considered. Virtually all children were assessed in all domains at intake
and Year 1, but participation rates were lower in subsequent years. The reduced sample sizes forced us to combine data from
Years 2 and 3 to analyze outcomes for the nonverbal intelligence, receptive language, expressive language, and motor skills
measures. That precluded mapping developmental trajectories for those domains as precisely as we did for other domains. It
is important to note, however, that mortality does not seem to have biased the overall findings. In fact, imputation analyses
suggest that the group differences we observed were not artifacts of mortality; if anything, the advantage of IBT over the
eclectic treatments would likely have been greater if more comprehensive assessment data were available for Years 2 and 3.
The primary limitation of our study may be that there were no measures of the integrity with which any of the treatments
was delivered, as we reported in Howard et al. (2005). Additionally, each treatment comprised a number of components, and
it was not feasible to parse out the contributions of individual components to the outcomes. Nonetheless, our findings
converge with those of other studies in which IBT and a comparison eclectic treatment program had similar elements,
intensity, and duration (e.g., Cohen et al., 2006; Eikeseth et al., 2007). They add to the growing body of evidence that IBT

Pet. Reh. App.72

J.S. Howard et al./Research in Developmental Disabilities 35 (2014) 3326-3344

3343

produces significantly larger increases on standardized measures of cognitive and adaptive functioning than other
treatments. Although those measures do not capture all repertoires that may be influenced by intervention, they are
considered more objective than indices like classroom placement, and correlate positively with other measures of overall
and long-term functioning. Thus, there is general consensus among autism researchers that protocols for evaluating
treatment effects must include certain standardized instruments (e.g., Eldevik et al., 2009, 2010; Fein et al„ 2013; Martin,
Bibby, Mudford, & Eikseth, 2003; Mundy, 1993; Wolery & Garfinkle, 2002), Collectively, this study and others that used such
protocols clearly indicate that 1BT is an effective, evidence-based treatment for young children diagnosed with autism.
Acknowledgements
This study was supported in part by Valley Mountain Regional Center and California State University, Stanislaus. We also
wish to express our appreciation to Jessica Bailey for her assistance.
Appendix A. Supplementary data
Supplementary data associated with this article can be found, in the online version, at http://dx.doi.org/10.1016/
j.ridd.2014.08.021.
References
Bondy, A. S.. & Frost, L A (1994). The picture exchange communication system: Training manual. Cherry Hill, NJ: Pyramid.
Cohen. H., Amerine-Dickens. M., & Smith, T. (2006). Early intensive behavioral treatment: Replication of the UCLA model in a community setting. Developmental
and Behavioral Pediatrics. 27, SI45-S155.
Delmolino, L M. (2006). Brief report: Use of DQ for estimating cognitive ability in young children with autism. Journal ofAutism and Developmental Disorders. 36,
959-963.
Eikeseth, S. (2009). Outcome of comprehensive psycho-educational interventions for young children with autism. Research in Developmental Disabilities. 30.
158-178.
Eikeseth, S., Smith, T„ Jahr, E., & Eldevik, S. (2002). Intensive behavioral treatment at school for 4- to 7-year-old children with autism: A 1-year comparison
controlled study. Behavior Modification. 2002, 49-68.
Eikeseth, S., Smith, T., Jahr, E., & Eldevik, S. (2007). Outcome for children with autism who began intensive behavioral treatment: between ages 4 and 7: A
comparison controlled study. Behavior Modification. 31, 264-278.
Eldevik. S., Eikeseth, S., Jahr, E„ /& Smith, T. (2006). Effects of low-intensity behavioral treatment for children with autism and mental retardation.Journal ofAutism
and Developmental Disorders, 36, 211-224.
Eldevik. S., Hastings. R. P., Hughes, J. C, Jahr, E., Eikeseth, S„ 8i Cross. S. (2009). Meta-analysis of early intensive behavioral intervention for children with autism.
Journal of Clinical Child & Adolescent Psychology, 38,439-450.
Eldevik, S., Hastings, R. P., Hughes, J. C, Jahr, E„ Eikeseth, S., & Cross, S. (2010). Using participant data to extend the evidence base for intensive behavioral
intervention for children with autism. American Journal on Intellectual and Developmental Disabilities, 1/5. 381-405.
Eldevik, S„ Hastings, R. P„ Jahr, E., 8i Hughes. J.C. (2012). Outcomes of behavioral intervention for children with autism in mainstream pre-school settings. Journal
of Autism and Developmental Disorders, 42, 210-220.
Fein, D„ Barton. M., Eigsti, I., Kelley, E., Naigles, L, Schultz, R. T., & Tyson, K. (2013). Optimal outcome in individuals with a history of autism. Journal of Child <
Psychology and Psychiatry, 54. 195-205.
Fischer. J. L. Howard, J. S„ Sparkman, C. R., & Moore, A. C. (2009). Establishing generalized syntactical responding in young children with autism. Research in Autism
Spectrum Disorders, 4, 76-88.
Green, G. (2008). Single-case research methods for evaluating treatments for ASD. In S. C. Luce. D. S. Mandell, C. Mazefsky, 8: W. Seibert (Eds.), Autism in
Pennsylvania: A symposium issue of the Speaker’s Journal of Pennsylvania Policy (pp. 119-132). Harrisburg, PA: Legislative Office for Research Liaison,
^^Pennsylvania .House.of,
Green, G. (2011). Early intensive behavior analytic intervention for autism spectrum disorders. In E. Mayville & J. Mulick (Eds.), Behavioral foundations of effective
autism treatment (pp. 183-199). Cornwall-on-Hudson. NY: Sloan Publishing.
Green, C„ Brennan. L C., & Fein, D. (2002). Intensive behavioral treatment for a toddler at high risk for autism. Behavior Modification, 26, 69-102.
Guyatt, C., Rennie, D.. Meade, M„ & Cook, D. J. (2008). Users' guides to the medical literature: A manual for evidence-based clinical practice (2nd ed.). New York:
McGraw-Hill Professional.
Heyvaert, M., Maes, B„ Van den Noortgate, W„ Kuppens, S., & Onghena, P. (2012). A multilevel meta-analysis of single-case and small-n research on interventions
for reducing challenging behavior in persons with intellectual disabilities. Research in Developmental Disabilities, 33, 766-780.
Howard, J. S., Sparkman, C. R., Cohen, H. G., Green, G„ & Stanislaw, H. (2005). A comparison of intensive behavior analytic and eclectic treatments for young
children with autism. Research in Developmental Disabilities, 26, 359-383.
Jacobson,J.W., Mulick, J. A., & Green, G. (1998). Cost-benefit estimates for early intensive behavioral intervention for young children with autism - General model
and single state case. Behavioral Interventions, 13, 201 -226.
Jacobson, N. S., 8i Truax, P. (1991). Clinical significance: A statistical approach to defining meaningful change in psychotherapy research. Journal of Consulting and
Clinical Psychology, 59. 12-19.
Kovshoff, H., Hastings, R., & Remington, B. (2011). Two-year outcomes for children with autism after the cessation of early intensive behavioral intervention.
Behavior Modification. 35. 427-450.
Larson, E. B. (1990). N-of-1 clinical trials: A technique for improving medical therapeutics. Western Journal of Medicine, 152. 52-56.
Lord, C., & Schopler, E. (1989). The role of age at assessment, developmental level, and test in the stability of intelligence scores in young autistic children.Journal of
Autism and Developmental Disorders, 19,483-499.
Lovaas, O. I. (1987). Behavioral treatment and normal educational and intellectual functioning in young autistic children. Journal of Consulting and Clinical
Psychology, 55. 3-9.
Martin, N.. Bibby, P., Mudford, O. C„ 8i Eikseth. S. (2003). Toward the use of a standardized assessment for young children with autism: Current assessment
practices in the UK. Autism, 7, 321-330.
Morgan, D. L, & Morgan, R. K. (2001). Single-participant research design: Bringing science to managed care. American Psychologist. 56,119-127.
Motiwala, S. S„ Gupta, S., Lilly, M. B., Ungar, W. J., & Coyte, P. C. (2006). The cost-effectiveness of expanding intensive behavioural intervention to all autistic
children in Ontario. Healthcare Policy, i(2), 135-151.
Mundy. P. (1993). Normal versus high-functioning status in children with autism. American Journal on Mental Retardation, 97, 381-384.
National Autism Center (2009). National standards report: Randolph, MA: National Autism Center.

3344

Pet. Reh. APP-73

J.S. Howard et al/Research in Developmental Disabilities 35 (2014) 3326-3344

Powers. S. C„ Piazza-Waggoner, C., Jones, J. S„ Ferguson, K. S„ Daines, C„ & Acton. J. D. (2006). Examining clinical trial results with single-subject analysis: An
example involving behavioral and nutrition treatment for young children with cystic fibrosis. Journal of Pediatric Psychology, 31, 574-581.
Reichow, B., 8i Woleiy, M. (2009). Comprehensive synthesis of early intensive behavioral interventions for young children with autism based on the UCLA Young
Autism Project Model. Journal of Autism and Developmental Disorders, 39, 23-41.
Remington, B„ Hastings, R. P„ Kovshoff, H„ Espinosa, F„ Jahr, E„ Brown,T„ & Ward, N. (2007). Early intensive behavioral intervention: Outcomes for children with
autism and their parents after two years. American Journal on Mental Retardation, 112, 418-438.
Rogers, S. J„ & Vismara, L. A. (2008). Evidence-based comprehensive treatments for early autism. Journal of Clinical Child and Adolescent Psychology. 37, 8-38.
Rosales-Ruiz,J„& Baer, D. M.(1997). Behavioral cusps: A developmental and pragmatic construct for behavioral analysis. Journal ofApplied Behavior Analysis, 30,
533-544.
Sallows, C. O., & Graupner, T. D. (2005). Intensive behavioral treatment for children with autism: Four-year outcome and predictors. American Journal on Mental
Retardation, 110,417-438.
Schmidt, M. (2008). The Sankey diagram in energy and material flow management Part I: History. Journal of Industrial Ecology, 12, 82-94.
Smith. T„ Groen, A. D„ & Wynne, J. W. (2000). Randomized trial of intensive early intervention for children with peivasive developmental disorder. American
Journal on Mental Retardation. 105.269-285.
Wolery, M.. 8i Garfinkle, A. N. (2002). Measures in intervention research with young children who have autism. Journal ofAutism and Developmental Disorders, 32,
463-478.
Zachor, D. A., Ben-ltzchak, E„ Rabinovich, A.. & Lahat, E. (2007). Change in autism core symptoms with intervention. Research in Autism Spectrum Disorders. I,
304-307.

:

!

Informatics

lr©£, Lrtg|h. App.74

Human Mutation
OFFICIAL JOURNAL

Performance of Mutation Pathogenicity Prediction
Methods on Missense Variants

HGVl

HUMAN GENOME
VARIATION SOCIETY
www.hgvs.org

Janita Thusberg,1,2 Ayodeji Olatubosun,1 and Mauno Vihinen1,3*
'institute of Biomedical Technology, FI-33014 University of Tampere, Finland;2Buck Institute for Age Research, Novato, California; 3Research
Center, Tampere University Hospital, Tampere, Finland
Communicated by Christophe Beroud
Received 20 Mey 2010; accepted revised manuscript 7 December 2010.
Published online 22 February 2011 in Wiley Online Library (www.wiley.com/humanmutation). DOI 10.1002/humu.21445

and prioritization of likely candidates from a pool of data.
A subset of SNPs occur at protein coding regions in the genome,
ABSTRACT: Single nucleotide polymorphisms (SNPs) are
and from a medical point of view particularly interesting ones are
the most common form of genetic variation in humans.
the nonsynonymous SNPs (nsSNPs) that lead to an amino acid
The number of SNPs identified in the human genome is
substitution at the protein level (referred here to as missense
growing rapidly, but attaining experimental knowledge
variants). nsSNPs may affect gene function through their effect on
about the possible disease association of variants is
the structure and/or function of the encoded protein.
laborious and time-consuming. Several computational
Prediction of the possible disease-association of missense
methods have been developed for the classification of
variants is a difficult problem because an amino acid substitution
SNPs according to their predicted pathogenicity. In this
can affect the biological function of a gene product in a number of
study, we have evaluated the performance of nine widely
ways [Thusberg and Vihinen, 2009]. An amino acid substitution
used pathogenicity prediction methods available on the
may disrupt sites that are critical in protein function, such as
Internet The evaluated methods were MutPred, rtsSNPAcatalytic residues or ligand-binding pockets. A missense mutation
nalyzer, Panther, PhD-SNP, PolyPhen, PolyPhen2, SIFT,
may as well lead to alterations in the structure, folding, or stability
SNAP, and SNPs&GO. The methods were tested with a set
of the protein product, thereby altering or preventing the function
of over 40,000 pathogenic and neutral variants. We also
of the protein. On the other hand, amino acid substitutions do
assessed whether the type of original or substituting amino
not necessarily affect protein function. Effects of missense
acid residue, die structural class of the protein, or the
mutations are often the most difficult to predict while the
structural environment of the amino acid substitution, had
consequences of most deletions, insertions, and nonsense muta­
an effect on the prediction performance. The performances
tions are rather self-evident.
of the programs ranged from poor (MCC 0.19) to
Many methods have been developed for the computational
reasonably good (MCC 0.65), and the results from the
prediction of the phenotypic effect of nsSNPs. Some of them are
programs correlated poorly. The overall best performing
for the study of very specific mechanisms, whereas others are
methods in this study were SNPs&GO and MutPred, with
«ac*mracles^^ching4D.S^and^,SL,mspectiye!y«KMM»«w»Ww« __ developed-to-predict-whether-a-variationjs-harmful .or-benign—All
of the variation tolerance methods evaluated in this study follow a
Hum Mutat 32:358-368, 2011. © 2011 Wiley-Liss, Inc.
similar procedure in which a missense variant is first labeled with
KEY WORDS: method evaluation; bioinformatics; patho­
properties related to the damage it may cause to the protein
genicity prediction; SNPs
structure or function. The resulting feature vector is then utilised
to decide whether the variant is pathogenic or not. The methods
differ in the properties of the variant they take into account in the
prediction,
as well as in the nature and possible training of the
Introduction
classification method used for decision making. The nine widely
Most human genetic variation is represented by single used methods evaluated in this study are based on evolutionary
nucleotide polymorphisms (SNPs), and many of them are believed information (Panther [Thomas et al., 2003], PhD-SNP SVMto cause phenotypic differences between individuals. Owing to the Profile [Capriotti et al., 2006], and SIFT [Ng and Henikoff,
application of high-throughput sequencing methods, the number 2001]), or a combination of protein structural and/or functional
of identified variants in the human genome is growing rapidly, but parameters and multiple sequence alignment derived information
identifying those variations responsible for specific phenotypes is (MutPred [Li et al., 2009], nsSNPAnalyzer [Bao et al., 2005],
a laborious task. The ability to discriminate between pathogenic PolyPhen [Ramensky et al., 2002], PolyPhen2 [Adzhubei et al.,
and benign variants computationally could significantly aid 2010], SNAP [Bromberg and Rost, 2007], and SNPs&GO
targeting disease-causing mutations by helping in the selection
[Calabrese et al., 2009]). The machine-learning methods utilize
neural networks (NN) (SNAP), random forests (RF) (MutPred,
nsSNPAnalyzer), or support vector machines (SVMs) (PhD-SNP,
'Correspondence to: Mauno Vihinen, Institute of Biomedical Technology, FI-33014
University of Tampere, Finland. E-mail: mauno.vihinen@uta.fi
SNPs&GO) for classification, whereas the other methods classify
Contract grant sponsors: The Tampere Graduate School in Biomedicine and
variants according to empirically derived rules (PolyPhen),
Biotechnology; The Sigrid Jusdlius Foundation; The Academy of Finland; The Medical
Bayesian methods (PolyPhen2), or mathematical operations
Research Fund of Tampere University Hospital.
(SIFT, Panther) (Table 1).
© 2011 WILEY-LISS, INC.

•A

V
r

l

Pet. Reh. App.75
Table 1.
Method

Summary of the Evaluated Methods
Based on

MutPred
RF
nsSNPAnalyzer RF
Panther
Alignment

Training set

Conservation analysis

HGMD, Swiss-Prot
Swiss-Prot

SIFT, Pfam, PSI-BLAST
SIFT
Panther library, HMMs

Swiss-Prot

Sequence environment,
sequence profiles
PSIC profiles

Structural attributes

Annotations

Predicted attributes
Homologue mapping

Swiss-Prot

http://mutpred.mutdb.org/
http://snpanalyzer.uthsc.edu/
http://www.pantherdb.org/tools/
csnpScoreForm.jsp
http://gpcr2.biocomp.unibo.it/cgi/
predictors/PhD-SNP/PhD-SNP.cgi
http://genetics.bwh.harvard.edu/pph/

Pfam domain

http://genetics.bwh.harvard.edu/pph2/

scores

PhD-SNP

SVM

PolyPhen

Empirical rules

Po!yPhen2

Bayesian
classification
Alignment

SIFT

Swiss-Prot, neutral
pseudo-mutations

PSIC profiles

Homologue
mapping/predictions
Homologue
mapping/predictions

Website

MSAs

http://sift.jcvi.org/

scores

SNAP

NN

SNPs&GO

SVM

PMD, neutral
pseudo-mutations
Swiss-Prot

PSIC profiles, Pfam,
PSI-BLAST
Sequence environment,
sequence profiles, Panther

Predictions

http://rostlab.org/services/snap/
GO

http://snps-and-go.biocomp.unibo.it/
snps-and-go/

GO, Gene Ontology; HGMD, Human Gene Mutation Database; HMM, Hidden Markov model; NN, neural network; MSA, multiple sequence alignment; PMD, Protein
Mutant Database; PSIC, position-specific independent counts; RF, random forest; SVM, support vector machine.

As mutation data and information about the genotypes of the possible disease-relation of nsSNPs, derived from literature
individuals accumulate, understanding the molecular level effects [Yip et al., 2008]. The complementing LSDB data was retrieved
of variations and elucidating their possible disease association is an manually from each database. The pathogenic and neutral datasets
important research challenge [Karchin, 2009; Mooney, 2005; Ng contained 1,190 and 9,011 proteins, respectively, of which 445 and
and Henikoff, 2006; Steward et al., 2003; Thusberg and Vihinen,
1,205 were found to have three-dimensional structure coordinates
2009]. Numerous locus-specific databases (LSDBs) have been in the Protein Data Bank (PDB) [Berman et al., 2000]. The datasets
established for the collection, analysis, and distribution of disease- are available for download at our Website (http://bioinf.uta.fi).
related variation information in certain genes. Data for several
Both datasets were run by all of the nine methods studied here.
genes is available, for example, in the protein knowledgebase The number of results from nsSNPAnalyzer is much smaller than
SwissProt [Yip et al., 2004] and PhenCode [Giardine et al., 2007], the original number of cases in the input data, because the
which is a database that connects human variant data with program only accepts mutations in those sequences for which a
phenotypic information from LSDBs with genomic data from the homologous protein is found in the ASTRAL database [Chandonia
ENCODE project and other resources in the UCSC Genome et al., 2004]. A large number of proteins in our dataset did not
Browser [Raney et al., 2011]. SNP information is available in match with any entry in the database, thus limiting the number of
dbSNP [Sherry et al., 2001], a genetic variation database. Several cases that could be analysed by nsSNPAnalyzer.
tools for the prediction of the phenotypic consequences of
Two kinds of subdatasets were constructed from the original
missense variants are available, but without knowledge about the pathogenic and neutral datasets. First, a structural subdataset was
quality of predictions, choosing the best method and evaluating compiled from the part of both datasets for which structural data
the reliability of its outcome is impossible. We therefore performed was available in the PDB, to study the effect of available structure
.the-first-comDrehensive_svstematic-evaluation-.of nine, bioinfor^. ^ata>ont{3^diction>j3erformanceiiSecondJ_forj3robing<the^ffec^£
matics tools predicting the phenotypic effects of missense variants. using Swiss-Prot-derived data as part of the pathogenic testing set,
we constructed a subdataset containing only pathogenic variants
not present in Swiss-Prot. The corresponding neutral dataset was
Materials and Methods
compiled by randomly selecting an equal number of variants from
the original neutral test set.
Datasets
To test whether the differences in method performance with
We built a positive dataset (referred to as pathogenic dataset) of these subdatasets was caused by smaller testing set size, we
19,335 missense mutations from the PhenCode database [Giardine constructed 100 sample datasets each containing 1,000 pathogenic
et al., 2007] (downloaded in June 2009), registries in IDbases and 1,000 neutral variants randomly picked from the original
[Piirila et al., 2006] and from 18 individual LSDBs, and a negative datasets, and compared the average MCCs obtained with the
(neutral) dataset of 21,170 human nonsynonymous coding SNPs MCCs from the subdatasets.
The Pathogenic-or-not Pipeline (PON-P) [Thusberg and Vihinen,
with an allele frequency >0.01 and chromosome sample count
> 49 from the dbSNP database [Sherry et al., 2001] build 131. The 2009] was used for the submission of sequences and variants into
SNP data was filtered so that none of the dbSNP entries included in the analysis programs nsSNPAnalyzer, Panther, PhD-SNP, PolyPhen,
our dataset contained OMIM links to minimize the number of PolyPhen2, SIFT, and SNAP. PON-P is a service that simultaneously
disease-associated SNPs in the neutral dataset. Entries annotated as submits the input data provided by the user to selected prediction
“putative” or “predicted” were also left out. In addition, the methods. MutPred and SNPs8tGO were run locally at the
neutral dataset was searched against the pathogenic dataset in corresponding laboratories by the developers of the methods.
order to remove possible duplicates and further minimise the
probability of having false negative cases in the set The PhenCode
data was filtered so that only SNPs annotated as disease causing in
the SwissProt database were taken into our pathogenic dataset.
Swiss-Prot provides high-quality hand-curated information about

Prediction Methods
The effects of mutations and SNPs were predicted by the
programs MutPred [Li et al., 2009], nsSNPAnalyzer [Bao et al.,
HUMAN MUTATION, Vol. 32, No. 4, 358-368, 2011

359

Pet. Reh. App.76
2005], Panther [Thomas et aL, 2003], PhD-SNP [Capriotti et al.,
2006], PolyPhen [Ramensky et al., 2002], PolyPhen2 [Adzhubei
et aL, 2010], SIFT [Ng and Henikoff, 2001], SNAP [Bromberg and
Rost, 2007], and SNPs&GO [Calabrese et al., 2009]. Key properties
of the methods are listed in Table 1. The default parameters of all
programs were applied, and only the protein sequence and missense
variant were given as input information for each program, as in a
normal user situation of unknown variant analysis.

MutPred
MutPred is a Random Forest-based classification method that
utilizes several attributes related to protein structure, function,
and evolution. MutPred utilizes the SIFT method [Ng and
Henikoff, 2003] for defining the evolutionary attributes, along
with PSI-BLAST, transition frequencies [Bromberg and Rost,
2007], and Pfam profiles [Finn et al., 2010], In MutPred,
structural descriptors include prediction of secondary structure
and solvent accessibility by the method PHD [Rost, 1996],
transmembrane helix prediction by TMHMM [Krogh et al., 2001],
coiled-coil structure prediction by MARCOIL [Delorenzi and
Speed, 2002], stability prediction by I-Mutant 2.0 [Capriotti et al.,
2005], B-factor prediction [Radivojac et al., 2004], and disorder
prediction by DisProt [Peng et al., 2006]. Function-related
attributes include predictions of DNA-binding residues [Ahmad
et al., 2004], catalytic residues, calmodulin-binding targets
[Radivojac et al., 2006], and posttranslational modification sites
[Daily et al., 2005; Iakoucheva et al., 2004; Radivojac et al., 2010].
The MutPred method estimates effects of an amino acid
substitution on the set of defined properties of a protein and based
on those estimates, predicts whether an amino acid substitution is
likely to have phenotypic effects.

(most likely to be deleterious). The cutoff for classifying a
missense variant to be pathogenic can be defined by the user, but
the authors of the method advice to use a cutoff of —3 for
classification [Thomas et al., 2003].

PhD-SNP
PhD-SNP is a prediction method based on single-sequence and
sequence profile based support vector machines trained on SwissProt variants [Yip et al., 2004]. The single-sequence SVM (SVMSequence) classifies the missense variant to be pathogenic or
neutral based on the nature of the substitution and properties of
the neighboring sequence environment. The profile-based SVM
(SVM-Profile) utilizes sequence profile information taken from
MSAs, and classifies the variant according to the ratio between the
frequencies of the wild-type and substituted residue. A decision
tree algorithm chooses which one of the two SVMs described
above is to be used at each case based on the occurrence of wildtype and mutant amino acids at the given position.

PolyPhen

PolyPhen (Polymorphism Phenotyping) uses a rule-based cutoff
system to classify variants. It initially characterises the input
missense variant by various sequence, structure, and phylogeny
based descriptors. The sequence-based characterisation includes
SWALL database [Johnson and Todd, 2000] annotations for
sequence features, a transmembrane predictor TMHMM [Krogh
et al., 2001] and PHAT [Ng et al., 2000] transmembrane-specific
matrix score for substitutions at predicted transmembrane regions,
the Coils2 program [Lupas et al., 1991] for prediction of coiled coil
regions, and the Signal? [Nielsen et al., 1997] program to predict
signal peptide regions. Phylogenetic information is derived by
constructing a profile matrix from aligned sequences by the PSIC
nsSNPAnalyzer
(Position-Specific Independent Counts) software [Sunyaev et al.,
nsSNPAnalyzer is a machine-learning method that integrates 1999]. The structural descriptors are obtained by mapping the
multiple sequence alignment (MSA) and protein structure analysis missense variant onto the corresponding or similar protein and
to classify missense variants. The input protein sequence is then using the DSSP program [Kabsch and Sander, 1983] for
searchedagainsttheASTRALdatabaselChandoniaetaLjTOO^ secondary structure information, solvent-accessible surface, and
for homologous protein structures, and extracts features of the Tf^JTchlieSTaHmgles^raSciltJOirT’olyPiTer^alailate^th1? normalenvironment of the substitution from the obtained structure, ized accessible surface area and changes in accessible surface
namely, the solvent accessibility, environmental polarity, and propensity resulting from the amino acid substitution, change in
secondary structure. The SIFT method [Ng and Henikoff, 2003] is residue side chain volume, region of the Ramachandran map,
used for calculating the normalised probability of the substitution normalized B factor, and loss of a hydrogen bond according to the
in the MSA, and the similarity and dissimilarity between the Hbplus program [McDonald and Thornton, 1994]. The SWALL
mutated, that is, original, and mutant residue is also taken into database annotations are utilized in the structure analysis such that
account. The program then uses a Random Forest classifier the program checks whether the substitution site is in spatial
trained by a dataset prepared from the Swiss-Prot database [Yip contact with critical residues annotated to be involved in forming
et al., 2004] to classify the variant to be disease-associated or binding sites or active sites. Additionally, the contacts of the
functionally neutral.
substituted residue with ligands or subunits of the protein molecule
are checked. After characterising the variant, PolyPhen applies
empirically derived rules based on the characteristics to predict
Panther
whether a missense variant is damaging or benign.
The Panther Evolutionary Analysis of Coding SNPs (referred
simply to as Panther in this article) calculates substitution
position-specific evolutionary conservation (subPSEC) scores
based on alignments of evolutionarily related proteins to predict
the pathogenicity. The alignments are obtained from the
PANTHER library of protein families based on Hidden Markov
Models (HMMs). The subPSEC score describes the amino acid
probabilities, in particular, positions among evolutionarily related
sequences, and the values range from 0 (neutral) to about —10

360

HUMAN MUTATION, Vol. 32, No. 4, 358-368, 2011

PolyPhen2
PolyPhen2 utilizes a combination of sequence- and structurebased attributes for the description of an amino acid substitution,
and the effect of mutation is predicted by a naive Bayesian classifier.
The sequence-based features include PSIC scores and MSA proper­
ties, and position of mutation in relation to domain boundaries as
defined by Pfam [Finn et al., 2010], The structure-derived features

Pet. Reh. App.77
are solvent accessibility, changes in solvent accessibility for buried
residues, and crystallographic B-fector.

SIFT
SIFT (Sorting Intolerant From Tolerant) makes inferences from
sequence similarity using mathematical operations. SIFT con­
structs an MSA and considers the position of the missense variant
and the type of the amino acid change. Based on the amino acids
appearing at each position in the MSA, SIFT calculates the
probability that a missense variant is tolerated conditional on the
most frequent amino acid being tolerated.

(ASA) values for each mutation site were assigned by the program
STRIDE [Frishman and Argos, 1995]. We classified residues with
ASAs < 10% as buried and with ASAs >25% as exposed, similarly
as in a previous study [Khan and Vihinen, 2010].

Determination of Structural Classes of Proteins
The CATH database version 3.3 [Orengo et al., 1997] was used
to group studied proteins according to their secondary and
tertiary structure types.

Statistical Analyses
SNAP
SNAP (Screening for Nonacceptable Polymorphisms) is a neural
network-based tool for the prediction of the effect of a missense
variant. The method utilises evolutionary information from PSIBLAST [Altschul et al., 1997] frequency profiles and PSIC [Sunyaev
et al., 1999], transition frequencies for mutations, biophysical
characteristics of the substitution, secondary structural informa­
tion, and relative solvent accessibility values predicted by PROFsec/
PROFacc [Rost, 1996; Rost and Sander, 1994], chain flexibility
predicted by PROFbval [Schlessinger et al., 2006], protein family
evolutionary information, and information about domain bound­
aries from Pfam [Finn et al., 2010], and Swiss-Prot annotations
[Bairoch and Apweiler, 2000] to classify a missense variant The
training sets for the NN were constructed from Protein Mutant
Database (PMD) [Kawabata et al., 1999] data complemented by a
set of neutral pseudomutations generated by the authors of the
method as described in Bromberg and Rost [2007],

The quality of the predictions is described by six parameters:
accuracy, precision, sensitivity, specificity, negative predictive
value (NPV) and Matthews correlation coefficient (MCC). In
the following equations, tp, tn, fp, and fn refer to the number of
true positives, true negatives, false positives and false negatives,
respectively.
tp+tn
Accuracy =
tp+tn+fp+fn
Precision = ——

tp+fp

SpeClflCIty =]fhn
tp
tp+fn
tn
NPV =
tn+fn

Sensitivity =

MCC =

tp x tn — fn x fp
y/(tp+fn)(tp+fp)(tn+fn)(tn+fp)

SNPs&GO

The MCC [Matthews, 1975] is a very important evaluation
SNPs&GO is an SVM classifier based on mutation type and statistic as it is unaffected by the differing proportion of neutral
sequence environment information, sequence profiles taken from and pathogenic datasets predicted by the different programs.
MSAs, predictions from the program Panther [Thomas et al., Because of its insensitivity to differing test set sizes, it gives a more
2003], and a function-based log-odds score describing informa- balanced assessment of performance than the other performance
'tion-abTmt"protEiri*funCtion*defined«'by»@ene»©ntology»(G©)i »measuresi[£aldiietial.7*2000]!^^H^^^^M^^^^^Hai^^^^^^H
To be able to correlate the quality parameters for different
terms [Ashburner et al., 2000],
From the output of the programs, we only took the binary programs with different sizes of test sets containing different
prediction (pathogenic/neutral) into consideration without taking amounts of pathogenic and neutral cases, the numbers of neutral
into account any confidence values provided by some of the cases were normalized to be equal to the number of pathogenic
programs. Panther provides a numerical output rather than a cases for each program.
Substitution statistics for both the pathogenic and neutral
binary classification (subPSEC score), which we converted to a
binary prediction using a cutoff point of —3 as recommended in datasets were analyzed by comparing the frequencies of the
[Thomas et al., 2003], PolyPhen and PolyPhen2 classify the effects substitutions with the expected values that were calculated using
of a missense variant into three categories: “Probably pathogenic,” the distribution of all amino acids in the datasets. For the original
“Possibly pathogenic,” and “Benign.” We converted these into residues, the expected values were calculated with regard to their
binary classifications in two ways, first by considering only the codon diversity thereby taking into account all possible amino
“Probably pathogenic” class as pathogenic and the “Possibly acid substitutions. The chi-square test was used to determine the
pathogenic” and “Benign” classes as neutral, and second, by significance of the results and chi-square was calculated as:
considering both the “Probably pathogenic” and “Possibly
(/We)2
pathogenic” classes as pathogenic, and the “Benign” class as
X2=^
fe
neutral. These two ways of classifying the variants are referred to
as PolyPhen(2)a and PolyPhen(2)b in this study, respectively.
where/„ is the observed frequency and/,, is the expected frequency
for an amino acid. The p-values were estimated in a one-tailed
Determination of Secondary Structural Elements
fashion.
and Accessible Surface Areas
Correlations between the program outputs were calculated by
The 3D structure coordinates of proteins were obtained from the counting all of the common cases and those predicted correctly,
PDB. Secondary structural information and accessible surface area and using Spearman’s rank correlation coefficient.
HUMAN MUTATION, Vol. 32, No. 4, 358-368, 2011

361

r. ■

*

Pet. Reh. App.78
Results
Test Set Features
The distributions of mutated and mutant amino acids in both
pathogenic and neutral datasets are biased (Table 2), and only a few
residues occur as expected on the grounds of codon diversity. In the
pathogenic dataset (mutation data), A, C, G, M, R, W, and Y are
overrepresented among the original (mutated) amino acid residues,
whereas E, F, I, K, L, N, Q, S, T, and V are significantly
underrepresented. These results are in line with previous observa­
tions for distributions of disease-causing mutations in protein
secondary structural elements [Khan and Vihinen, 2007], except for
the overrepresentation of A and Y, and underrepresentation of L, N,
S, and V in our data. In the neutral dataset, the distributions of
many amino acids differ from the distributions in the pathogenic
set. Most importantly, cysteines are highly underrepresented among
the substituted positions, as opposed to their frequent mutation in

Table 2.

the pathogenic dataset. This might be due to the important role of
cysteines in folding of many proteins as they are capable of forming
disulphide bonds, and therefore the substitution of cysteines in
proteins transported through endoplasmic reticulum by any other
residue can rarely be neutral in terms of protein structure and
function. Other differences between the datasets are the under­
representation of mutated glycine, tryptophan, and tyrosine
residues in the neutral set as opposed to their frequent mutation
in the pathogenic set, and the overrepresentation of isoleucine,
asparagine, threonine, and valine residues in the neutral variation
data, contrasting their underrepresentation in the mutation data.
The distributions of mutant or substituting amino acids are also
very biased in both pathogenic and neutral datasets, and the
amino acid residues I, P, R, T, V, and Y have opposite distributions
in the mutation and neutral sets. Interestingly, proline residues are
highly overrepresented among the substituting residues in the
mutation dataset, and underrepresented in the negative set.

Amino Acid Distributions in the Pathogenic (Mutations) and Neutral (SNPs) Datasets
Wild-type residues/pathogenic variants
Observed

A
C
D
E
F
G
H
I
K
L
M
N
P
Q
R
S
T
V
Y
All

1224
943
950
994
537
2087
554
642
497
1497
520
605
1192
454
2797
1135
802
919
*3%
610
19335

x2

P-value

3737.28***
481.79***
1.52
143.32***
68.53***
395.42***
1.20
79.64***
390.28***
157.84***
16.39***
29.59***
2.95
274.52***
2426.45***
177.55***
75.12***
85.93***
m*° ^iii
5.85*

0.000
8.71E-107
0.218
5.02E-33
1.25E-I6
5.46E-88
0.273
4.49E-19
7.20E-87
3.35E-36
5.16E-05
5.35E-08
0.086
1.17E-61
0.000
1.66E-40
4.42E-18
1.86E-20
0.016

Expected
252.5
468.1
988.7
1449.8
766.1
1355.0
528.8
911.4
1173.9
2068.4
435.5 •
754.4
1252.8
970.0
1136.4
1681.4
1087.9
1246.3

>M4i
553.1
19335

Wild-type residues/neutral variants
Observed

Expected

x2

P-value

A
C
D
E
F
G
H
I
K
L
M
N
P
Q
R
S
T
V

1852
424
991
1273
458
1182
530
996
774
1270
642
894
1277
875
2376
1648
1482
1682

111.82***
5.24*
0.70
43.31
123.83***
26.85***
U2
5.53*
164.85***
336.34***
90.32***
17.61***
1.62
22.79***
1247.88***
11.72**
98.72’
138.46***

Y
All

377
21170

1449.4
473.9
1017.8
1530.4
766.0
1374.1
555.0
924.5
1223.0
2113.0
442.2
777.0
1323.3
1028.1
1168.5
1793.0
1145.7
1263.7
—251.8,
549.8
21170

3.91 E-26
0.022
0.401
4.68E-11
9.16E-29
2.20E-07
0.289
0.019
9.87E-38
4.00E-75
2.03E-21
2.71E-05
0.203
1.81E-06
2.40E-273
0.001
2.91 E-23
5.78E-32
.9.17E-Q8
1.71E-13

Mutant residucs/pathogenic variants
A

622

C

1233
900
719
623
922
918
619
834
1225
534
662
1609
808
2084
1502
1012
1195
638
676
19335

D
E
F

G
H
1
K
L
M
N
P

Q
R

S
T
V
W
Y

All

1267.9
563.5
633.9
563.5
633.9
1232.7
633.9
950.9
563.5
1796.1
317.0
633.9
1267.9
563.5
1831.4
1796.1
1267.9
1267.9
246.5

493.1
19335

329.01***
795.45***
111.67***
42.91***

0.19
78.29***

127.29***
115.85***

129.85***
181.62***

148.61***
1.24
91.78***
106.09***
34.85***
48.17***
51.64***
4.19*

621.62***
67.88***

Ok SA***

54.31***

Mutant residues/neutral variants
1.58E-73
5.26E-175
4.22E-26
5.72E-11
0.664
8.90E-19
1.61E-29
5.14E-27
4.41E-30
2.15E-41
3.50E-34
0.265
9.67E-22
7.05E-25
3.56E-09
3.91E-12
6.68E-13
0.041
3.32E-137
1.74E-16

A

1061

C

722
666
825
855
1376
967
1139
1171
1390
828
845
1176
1056
1431
1691
1517
1589
471
394
21170

D
E
F

G
H
I
K
L
M
N
P

Q
R
S
T
V
W
Y

All

1388.20
617.0
694.1
617.0
694.1
1349.6
694.1
1041.1
617.0
1966.6
347.0
694.1
1388.2
617.0
2005.2
1966.6
1388.2
1388.2
269.9
539.9
21170

77.12***
17.88***

1.14
70.14***
37.30***
0.52
107.30***
9.20**
497.49'
169.06***

666.52***
32.81
32.44***

312.40'
164.41***
38.63***

11.95**
29.05***
149.78***
39.41***

1.61E-18
2.36E-05
0.286
5.53E-17
1.0 IE-09
0.473
3.83E-25
0.002
3.34E-110
1.19E-38
5.72E-147
1.02E-08
1.23E-08
6.56E-70
1.23E-37
5.13E-10
0.001
7.07E-08
1.93E-34
3.44E-10

The chi-square values in italics identify residues that are underrepresented and the values in bold identify overrepresented residues in comparison to random distributions
derived theoretical codon usage frequencies. Significance levels are *P<0.05; **P<0.01; ***P<0.001.

362

HUMAN MUTATION, Vol. 32, No. 4, 358-368, 2011

Pet. Reh. App.79
Proline is a known secondary structure breaker [Chou and
Fasman; 1974] and therefore mutations to P are often pathogenic.

Performance of Prediction Methods
To evaluate the performance of the programs predicting the
pathogenicity of missense variants, we used six measures:
accuracy, precision (or positive predictive value, PPV), specificity,
sensitivity, NPV, and MCC. The values for these measures are
presented in Table 3 for all the missense variants. SNPs&GO
performed best in terms of accuracy (0.82), precision (0.90),
specificity (0.92), and MCC (0.65), but sensitivity was higher in
six other methods, and MutPred, Panther, PolyPhen2b, and SNAP
performed better in terms of NPV. nsSNPAnalyzer performed
worst in terms of MCC (0.19), accuracy (0.60), NPV (0.60), and
precision (0.59). The two versions of PolyPhen have very similar
overall performance; however, PolyPhen2 is recommended
because the quality measures are more balanced.. The version
classifying “Probably pathonegenic,” PolyPhen2a, as harmful is
somewhat better than the other option.
In Table 3, the results are presented for the subset of cases for
which structural information could be assigned. The performance of
all methods was generally worse except for sensitivity, which is better

Table 3.

Performance of Prediction Methods
MutPred

nsSNPAnalyzer

Performance of prediction methods {full data)
13829
4360
tp°
fhfl
2778
2507
tna
15891
1319
4557
943
fpa
cases +°
16336
7138
cases
2262
20448
Accuracy6
0.81
0.60
Precision6
0.79
0.59
Specificity6
0.78
0.58
Sensitivity6
0.85
0.61
NPV6
0.84
0.60
MCC6
0.63
0.19
m

for all methods. SNPs&GO performed best also in the structural
subcategory considering accuracy, precision, specificity, and MCC,
and MutPred was the best method in terms of sensitivity and NPV.
To test whether the poor performance was due to the smaller
dataset size we sampled the full dataset results for those cases for
which structural data was not available. We then compared the
average MCC values of the samples to those obtained for the full
dataset. The 100 sample datasets each contained randomly picked
1,000 neutral and 1,000 pathogenic variations. The average MCCs
of the sample datasets were comparable to the MCCs of the full
dataset in the case of Panther (average sample MCC 0.53), PhDSNP (0.43), PolyPhen2b (0.39), and SNAP (0.47). For the other
methods the MCC values were rather close when comparing the
full dataset to the subdataset. We conclude that the large
differences in the MCCs of the programs between the full dataset
and the set for which structures were available (Table 3) were not
due to the differences in the sizes of these datasets but were caused
by some other factors, that is, differences in the performance of
the methods when predicting on different types of data.
We also performed the analyses for a dataset that consisted only
of LSDB-derived mutations not found in SwissProt (Table 3). This
was done as some methods have been trained with Swiss-Prot
disease-causing mutations. Because all methods (except SNPs&GO),

Panther

PhD*SNP

PolyPhenla

9689
2859
8676
2797
12548
11473
0.76
0.76
0.76
0.77
0.77
0.53

11900
6896
16788
4377
18796
21165
0.71
0.75
0.79
0.63
0.68
0.43

10093
9185
17669
3199
19278
20868
0.69
0.77
0.85
0.52
0.64
0.39

3934
1009
735
441
4943
1176
0.71
0.68
0.63
0.80
0.75
0.43

5041
2411
1090
754
7452
1844
0.63
0.62
0.59
0.68
0.65
0.27

4563
3074
1361
462
7637
1823
0.67
0.70
0.75
0.60
0.65
0.35

PolyPhen lb

PolyPhen 2a

PolyPhen 2b

SIFT

SNAP

SNPs&GO

14285
4993
13671
7197
19278
20868
- 0.70
0.68
0.66
0.74
0.72
0.40

13807
5102
13863
6010
18909
19873
0.71
0.71
0.70
0.73
0.72
0.43

16206
2703
10199
9674
18909
19873
0.69
0.64
0.51
0.86
0.78
0.39

10464
4856
12188
7433
15320
19621
0.65
0.64
0.62
0.68
0.66
0.30

16000
2146
8190
6387
18146
14577
0.72
0.67
0.56
0.88
0.83
0.47

13736
5487
17028
1382
19223
18410
0.82
0.90
0.92
0.71
0.76
0.65

5980
1657
1070
753
7637
1823
0.68
0.65
0.59
0.78
0.73
0.38

5814
1842
1163
672
7656
1835
0.70
0.67
0.63
0.76
0.72
0.40

6726
930
843
992
7656
1835
0.67
0.62
0.46
0.88
0.79
0.37

4303
1329
904
901
5632
1805
0.63
0.60
0.50
0.76
0.68
0.27

6751
714
700
111
7465
1477
0.69
0.63
0.47
0.90
0.83
0.42

5887
1746
1378
318
7633
1696
0.79
0.80
0.81
0.77
0.78
0.58

2410
1184
2333
1205
3594
3538
0.66
0.66
0.66
0.67
0.67
0.33

2190
1361
2334
1028
3551
3362
0.66
0.67
0.69
0.62
0.64
0.31

2764
787
1705
1657
3551
3362
0.64
0.61
0.51
0.78
0.70
0.30

2131
1145
2073
1268
3276
3341
0.64
0.63
0.62
0.65
0.64
0.27

2615
917
1382
1069
3532
2451
0.65
0.63
0.56
0.74
0.68
0.31

2547
952
2898
259
3499
3157
0.82
0.90
0.92
0.73
0.77
0.66

ICCaO)

fiia
tna

¥
cases +a
cases
Accuracy6
Precision6
Specificity6
Sensitivity6
NPV6
MCC6

5625
517
1101
697
6142
1798
0.76
0.70
0.61
0.92
0.88
0.55

2857
1603
569
527
4460
1096
0.58
0.57
0.52
0.64
0.59
0.16

Performance ofprediction methods (pathogenic dataset only from LSDBs, not in SwissProt)
2240
1175
1368
1436
1651
tp
fii
899
862
1252
2158
1943
2655
tn
212
1508
2842
3004
804
165
501
752
534
fp
cases +a
3139
2037
2620
3594
3594
cases
3459
377
2009
3594
3538
Accuracy6
0.74
0.57
0.64
0.6
0.65
Precision6
0.75
0.57
0.68
0.66
0.75
Specificity6
0.77
0.56
0.75
0.79
0.85
Sensitivity6
0.71
0.58
0.4
0.52
0.46
NPV6
0.73
0.57
0.61
0.57
0.61
MCC6
0.48
0.14
0.28
0.21
0.33

aTotal number of cases used by the given program (not normalized).
bAccuracy, precision, specificity, sensitivity, NPV, and MCC are calculated from normalised numbers.
HUMAN MUTATION, Vol. 32, No. 4, 358-368, 2011

363

;

Pet. Reh. App.80
and not only the ones trained on Swiss-Prot data, performed worse
in this subcategory, we claim our results are not biased, even though
we acknowledge that a perfectly fair comparison between methods
trained on different datasets cannot be made.
To study the effect of residue types, the mutated and mutant
amino acids were assigned into six groups according to their
physicochemical properties: hydrophobic (C, F, I, L, M, V, W, and Y),
positively charged (H, K, and R), negatively charged (D and E),
conformational (G and P), polar (N, Q, and S), and A and T [Shen
and Vihinen, 2004]. There were small differences in accuracy and
precision of the methods for different types of wild-type or mutant
amino adds, but their sensitivity and MCC were dependent on the
physicochemical properties of the wild-type and mutant amino
adds (Fig. 1). The methods were more sensitive to mutations at
conformational, hydrophobic, and positively charged amino acids
than mutations at polar residues or A and T (Fig. 1). MCC differed
as well depending on the nature of the original residue position,
and substitutions at hydrophobic positions were predicted best by
most methods. Panther predicted mutations at hydrophobic and
positively charged residues with equal performance, and MutPred
and SNPs&GO performed better predicting conformational

A

residues. Mutations affecting negatively charged residues had the
lowest MCCs by most methods, except for PolyPhenlb, which
predicted other classes better than the conformational class, and
MutPred, nsSNPAnalyzer, and SNPs&GO, which had the lowest
MCC when predicting the effects of mutations altering A and T
residues (Fig. 1). The sensitivity and MCC of the methods also
varied in predicting the effects of different types of mutant residues,
All the methods performed best when the substituting residue was
charged, and in the case of nsSNPAnalyzer, polar residues were
predicted better than negatively charged residues, and SNAP
predicted polar residues better than positively charged residues,
Differences in prediction sensitivity could also be seen at the
level of individual amino acids. Predictions for substitutions at C,
W, and Y were clearly more sensitive than at other residues by all
methods (Fig. 2A). A similar trend was also seen when looking at
mutant amino acids: mutations to the aforementioned residues
were predicted with better sensitivity (Fig. 2A). The sensitivity of
PolyPhen2b and SNAP varied less at individual residues than that
of the other programs,
The results for the substitutions in the secondary structural
elements are shown in Figure 2B. All of the programs predicted

B

MutPred

MutPred
It

jwSNPAnalyzer

SNPs&GO

SNPs&GO-

|/\?.6

0.6

SNAP

,Pantfier

L4

nsSNPAnafyzer

.

SNAP a.

‘ IK/

vParither

v...

f

0.1

PhD-SNP

SIFTt—' 1

—i PhD-SNP

SIFT

Ji

PolyPhenZb^

ypoiyPhenla

PolyPhen2a

PotyPheMa

PdyPhen2b'<
Hydrophobic

'TfotyPhenib
1

PolyPhen2a

‘‘PolyPhonib

:Chsrgs*
Charge-

C^CortomsSMtai
Polar

C

D

MutPred
1

SNPs&GO,

iNPAitalyzer

C6 •
tL4 -: \

SNAPa

sim—
PotyPhen2b^'^5-;;i,
PolyPh»n2a

a Panther

SNPs&GO.,

(Muffled
0,8 j

f\o,4

SNAP,

' V

iSNPAnatyzor
tPanther

o:

ql

W-T}
'PhD-SNP

PotyPhenla
>1b

~+—rfPHD-SNP

SIFTi

PelyPhen2b'^

pdyPHenia1

’’PotyPhenla
ifyWt^iib

Figure 1. The values of the quality parameters, accuracy, precision, sensitivity, and Matthews correlation coefficient (MCC) for different classes of
substituted amino acids. A: accuracy, B: precision, C: sensitivity, and D: MCC. Abbreviations: Charge+, positively charged. Charge -, negatively charged.
[Color figures can be viewed in the online issue, which is available at wileyonlinelibrary.com]

364

HUMAN MUTATION, Vol. 32, No. 4, 358-368, 2011

Pet. Reh. App.81

—Hi ln I
'Aw£NPAtf*»r
'Pmtim'
p&ptmi*

*•***><»

\. <fwi>«n2.
»T
ItiNNX'
ISMPrtGO

MutPred
iNParalyiar
risSNPAnatyzar
y'^^.^.PiWhw

PtxPSNP

iJMUm
!2om ;
AIpKiMx
C BattMnnd
iTUftt

—cut

PW&-SNP

PofcPhinabf

(WfPM*

P«SyPht«ar:-

mlb:

MutPied
’Analyzer

SNPaAGO,

;SNAP^._I

iPaftihef
iBuried
...... ^Exposed
ph0‘SHP MaFuinjsita
: 2D all

henia

PotyPhon2b'

IPAnalyzer
A>:

\

-2
c-y

SIFTI

+~t-tPhO-SNP

P«lyPh«n2b'

’olyPhenlB

’itanie

D

Uu^red
1
YQfi

.SNAPx^/

v-

Hb

MWitttyzar

SNP*tGOv

VAPaither

Sf*aSdd<

iWred
©3t

' \l

M

SNAP.

Jdfcr!

iSNMnafjiet
xp«wh«r.

M<km

pmj-np

SFT

am—*
l

■!W>hfw2b^ ^

'PfcOSNP

: Abmtxm

~ ^Poiyfhtnln

Wyfhenib

/
PotJPhen2i

PobWwnle
lb

Figure 2. The values of sensitivity and Matthews correlation coefficient (MCC) for different types of amino acid substitutions. A: Sensitivity in
different amino acid residues. Left mutated (original) amino acids, right substituting (mutant) amino acids. B: Sensitivity (left) and MCC (right)
for amino acid substitutions at different secondary structural elements. C: Sensitivity (left) and MCC (right) for amino acid substitutions
according to the accessible surface area (ASA) of the position (buried ASA <10%, exposed ASA ^25%). D: Sensitivity (left) and MCC (right) for
amino acid substitutions at different protein structural classes. [Color figures can be viewed in the online issue, which is available at
wileyonlinelibrary.com]

the effects of substitutions at different secondary structures with
almost equal accuracy and precision. Sensitivity and MCC values
showed more variation with secondary structure. In terms of
MCC, MutPred, nsSNPAnalyzer, PolyPhenlb, and PolyPhen2b
predicted amino acid substitutions at strands best, whereas
Panther, PolyPhenla, SNAP, and SNPs&GO performed best at
turns. PhD-SNP and SIFT predicted substitutions positioned at
a-helices best, and PolyPhen2a at coils. The differences in MCC
were not striking. Except for Panther, PhD-SNP, and SNPs&GO, all

methods were most sensitive when predicting the effects of amino
acid substitutions at strands. Solvent-accessible surface areas of the
positions did not markedly affect prediction accuracy or precision,
but all the methods were more sensitive when predicting the effects
of substitutions at buried positions (Fig. 2C). MCC for most
methods was better at exposed than buried positions, except for
PolyPhenla and PolyPhen2a, which performed better at buried
positions. MCCs for PolyPhenlb and SNAP did not differ with
solvent accessibility of the position. These results are not in line
HUMAN MUTATION, Vol. 32, No. 4, 358-368, 2011

365

m

Pet. Reh. App.82
Table 4.

Pairwise Prediction Correlations
MutPred

MutPred
nsSNPAnalyzer
Panther
PhD-SNP
PolyPhen la
PolyPhen lb
PolyPhen2a
PolyPhen2b

4620
15296
23955
22125
22208
22234
20911
18807
18877
23220

SIFT
SNAP
SNPs8cGO
MutPred
nsSNPAnalyzer
Panther
PhD-SNP
PolyPhenla
PolyPhenlb
PolyPhen2a
PolyPhen2b
SIFT
SNAP
SNPs8cGO

nsSNPAnalyzer

Panther

PhD-SNP

PolyPhen la

PolyPhen lb

PolyPhen 2a

PolyPhen 2b

SIFT

SNAP

SNPs&GO

8721

22645
7237

36300
9225
23671

36522
9380
23869
39659

36522
9380
23869
39659
40146

35198
9353
23406
38254
38485
38485

35198
9353
23406
38254
38485
38485
38782

32705
8270
21540
34532
34683
34683
33686
33686

29674
8609
20713
32203
32533
32533
31790
31790
28726

34066
9145
22555
37095
37324
37324
36317
36317
32434
30987

3589
4389
4386
4965
4777
5012
4302
4750
4672
53.0

0.36
0.54
0.57
0.43
0.43
0.49
0.44
0.41
0.46
0.50

0.37
0.35
0.44
0.47
0.44
0.42
0.53
0.41
0.25

14838
13961
14701
14728
14288
12623
13307
14285
67.5
49.6
0.51
0.46
0.50
0.51
0.49
0.48
0.51
0.39

22756
22170
21871
20042
18879
18004
23333
66.0
47.6
62.7
0.45
0.43
0.45
0.40
0.45
0.44
0.44

23764
22383
19656
18207
17024
22544
60.6
46.8
58.5
57.4
0.66
0.56
0.46
0.45
0.44
0.39

23156
22412
18985
19811
22206
60.8
52.9
61.6
55.9
59.2
0.58
0.57
0.52
0.54
0.38

24006
18645
19321
22042
63.2
51.1
62.9
57.2
58.2
58.2
0.72
0.50
0.52
0.38

17833
19945
20569
59.4
53.6
61.0
52.4
51.1
58.2
61.9
0.51
0.53
0.34

16393
18135
57.5
52.0
58.6
54.7
52.5
54.7
55.3
52.9
0.53
0.34

18833
63.6
55.2
64.2
55.9
52.3
60.9
55.3
62.7
57.0

68.2
51.1
63.3
62.9
60.4
59.5
60.7
56.6
55.9
60.8

0.39

Upper table: the number of cases shared by two programs (upper right triangle). The number of cases predicted correctly (lower left triangle). Lower table: The number of cases
predicted correctly, reported as a percentage (upper right triangle). Pairwise correlation (lower left triangle).

with a previous study [Mort et al., 2010], where a sequence of' the variant or the structural context affect prediction
conservation based method yielded results of lower accuracy when performance. The processing of the vast and increasing amount
predicting the effects of solvent-exposed residues.
of genetic variation data requires the development of automatic
CATH classifies proteins as mainly a-helical or (5-stranded, annotation tools to determine the potential pathological character
mixed a- and ^-structures (a-(3), or as having few secondary of a given variant. Prioritizing the most interesting and likely
structures. Interestingly, none of the proteins included in this pathogenic cases for experimental analysis is another important
analysis was assigned into the few secondary structures class, application of the tested prediction methods.
The predictions differed with respect to sensitivity and MCC
To our knowledge, no comprehensive evaluation of the
depending on which protein class a mutation appeared (Fig. 2D), performance of missense variant pathogenicity predictors has
Most programs were more sensitive to amino acid substitutions in been made outside the performance studies of individual methods
the a-(3 class of proteins, but SNPs&GO predicted substitutions in the context of their development. We selected test sets that have
best in the mainly fi-class. nsSNPAnalyzer predicted those not been used in the training of the methods as such, but a subset
mutations occurring in a-P and a-helical proteins or domains of the pathogenic dataset is comprised of mutations from Swisswith equal sensitivity. MCCs varied significantly with the Prot, and some methods (MutPred, nsSNPAnalyzer, PhD-SNP,
=struGtural«iGlass»ofgiprotems!>»espegiallysin^hespredictionSsiby^=Pj)lvBhen2aandiSNBs8tGQ.).haveaisediSwissJ>Jot.mutations.in.tbe..
nsSNPAnalyzer, PolyPhenlb, PolyPhen2a, and 2b, and SNPs&GO. training of the method. Testing of the performance of a method
The results were generally better for the a-P class of proteins, but with the same cases it was trained on would lead into biased
nsSNPAnalyzer predicted substitutions at a-helical proteins best results, so that those methods trained on SwissProt mutations
and SNPs&GO performed best with proteins in the mainly P-dass. would have an advantage over the other methods. However,
To further evaluate the performance of the programs we because the pathogenic dataset includes a large number of LSDB
compared them in a pairwise fashion (Table 4). The numbers of variations not found in SwissProt, we claim the test set was not
cases that were shared by the programs varied because the number similar to the training sets to the extent that it would advantage
of cases that could be predicted by each program varied as described those methods trained on SwissProt data. Further, we tested the
in the Materials and Methods section. The largest percentage of methods with cases coming only from LSDBs. With this dataset
correctly predicted cases by two programs was 68.2% (for the the performance decreased with all methods, whether trained on
combination of MutPred and SNPs&GO). On average, the fraction Swiss-Prot data or not, except for SNPs&GO. This indicates that
of correctly predicted cases between any two programs was 57.7%. the good performance of SNP&GO was not a result of that it has
The correlations between two programs were highest for MutPred previously been exposed to the test dataset during its training
and PhD-SNP (0.57), and for PolyPhen 1 and 2 (0.57 for the less phase. Furthermore, the poor performance of PhD-SNP indicates
stringent b versions, and 0.56 for the a versions) (without taking the method did not benefit from the possible identical cases in the
into account the higher correlation between PolyPhenla or 2a and data used for training and testing. However, it is impossible to
PolyPhenlb or 2b that are different forms of the same program). construct a large testing dataset that would not share any cases
Correlation was lowest for nsSNPAnalyzer and SNPs&GO (0.25).
with the original training sets of any of the methods, especially
when the specific contents of the training sets are rarely published.
The neutral dataset was generated from dbSNP entries that had
a frequency higher than 1% when there was data at least for 25
In this study we evaluated how reliably the pathogenicity of individuals (50 chromosomes). This way the number of false
missense mutants can be predicted, and whether selected features negatives could be minimized in the test set.

Discussion

366

HUMAN MUTATION, Vol. 32, No. 4, 358-368, 2011

I

i

i

Pet. Reh. App.83
There are still other pathogenicity predictors that we did not
evaluate. SNPs3D [Yue et al., 2006] was not included in this study
because it does not allow submission of user-defined amino acid
substitutions. Similarly, LS-SNP [Karchin et al., 2005] is an
annotated database of SNPs, not a prediction method for any
user-provided variant, although often referred to as a prediction
method for nsSNP pathogenicity. The Auto-Mute predictor of
disease potential of human nsSNPs [Barenboim et al., 2008] was
left out from the analysis because the program did not allow batch
submission. PMut [Ferrer-Costa et al., 2005] could not be tested
because the server did not return predictions.
Overall, we found SNPs&GO and MutPred to be clearly the most
reliable predictors for our dataset of genetic variants. The accuracies
of all the methods were in the range of 0.60-0.82, and precision
ranged from 0.59 to 0.90. More variation among the methods was
seen when considering the sensitivities and MCC values that ranged
from 0.52 to 0.88 and 0.19 to 0.65, respectively. The local structural
context of a mutated residue did not dramatically affect predictor
performance in most cases but most methods showed variance in
their prediction power at the level of protein tertiary structure
classification and at different mutated positions.
Studies have shown that combining information obtained from
the multiple sequence alignment and three-dimensional protein
structure can increase prediction performance [Bromberg and
Rost, 2007; Saunders and Baker, 2002]. According to our results,
this is not always the case. Panther operates solely on sequencebased evolutionary information, and it is one of the best
performing methods, outperforming all the methods incorporat­
ing structural information in the prediction, except for MutPred,
which uses sequence-derived structural predictions as features in
combination with evolutionary information. Furthermore,
although nsSNPAnalyzer uses the SIFT method for the evolu­
tionary analysis and also includes structure-derived features, its
overall performance is below that for SIFT, except for an increase
in specificity in the structure subset of data. However, the two best
performing predictors include both protein structural or func­
tional and MSA-derived information in the prediction.
It is very difficult to determine whether the notable differences
in the performance of these methods are caused by differences in
ctheifeaturesiUtilizedibyithc.methodsiOrithe^trainingidatasets.-Eor,,
example, SNPs&GO uses GO annotations as a feature, and GO is
biased toward genes involved in diseases. The PDB is biased as well,
containing structures of mostly well-studied proteins, which
include products of disease-related genes. Therefore, one would
expect SNPs8tGO would perform better in predicting the effects of
missense variants in proteins that have structures in the PDB as
they are likely to have GO annotation as well—and in fact, it
performs worse. One factor that very probably affects prediction
reliability is the quality of multiple sequence alignment. Because all
of the methods studied here use MSA as input to the prediction,
the quality of the provided MSA should be very carefully assessed.
For many of the methods, we did not find documentation how the
MSA is constructed when the user provides just the query sequence
as input. For example, an automatic BLAST search often performed
by the programs may lead into construction of an MSA that
contains multiple versions of the same sequence or paralog
sequences, affecting the resulting conservation analysis. The MSA
should contain a selection of closely and distantly related sequences
in order to effectively yield a conservation signal.
In conclusion, those methods that performed best had high
accuracy (reaching 0.82, SNPs8tGO), precision (0.90, SNPs&GO),
specificity (0.92, SNPs&GO), sensitivity (0.88, SNAP), and NPV
(0.84, MutPred). Matthews correlation coefficient reached the

value of 0.65 at best (SNPs&GO). There is no single method that
could be rated as best by all parameters, so the user should
consider what aspects would be most valuable considering the
nature of the data analysed. Furthermore, some methods require
3D structure coordinates, limiting the number of cases that can be
analyzed (nsSNPAnalyzer), and some methods are at least
currendy too slow for high-throughput analyses (SNAP).
Although some of the existing methods perform reasonably well,
development of new, more reliable methods is certainly needed.
Complementary methods could be combined in a metaserver to
yield more reliable predictions.

Acknowledgments
The authors thank Pier Luigi Martelli and Rita Casadio from the
University of Bologna, Biao Li from Indiana University, and Sean Mooney
and Vidhya Krishnan from the Buck Institute for Age Research, for
cooperation in running of data.

References
Adzhubei IA, Schmidt S, Peshkin L, Ramensky VE, Gerasimova A, Bork P,
Kondrashov AS, Sunyaev SR. 2010. A method and server for predicting
damaging missense mutations. Nat Methods 7:248-449.
Ahmad S, Gromiha MM, Sarai A. 2004. Analysis and prediction of DNA-binding
proteins and their binding residues based on composition, sequence and
structural information. Bioinformatics 20:477-486.
Altschul SF, Madden TL, Schaffer AA, Zhang J, Zhang Z, Miller W, Lipman DJ. 1997.
Gapped BLAST and PSI-BLAST: a new generation of protein database search
programs. Nucleic Acids Res 25:3389-3402.
Ashbumer M, Ball CA, Blake JA, Botstein D, Butler H, Cherry JM, Davis AP,
Dolinski K, Dwight SS, Eppig JT, Harris MA, Hill DP, lssel-Tarver L, Kasarskis A,
Lewis S, Matese JC, Richardson JE, Ringwald M, Rubin GM, Sherlock G. 2000.
Gene ontology: tool for the unification of biology. The Gene Ontology
Consortium. Nat Genet 25:25-29.
Bairoch A, Apweiler R. 2000. The SW1SS-PROT protein sequence database and its
supplement TrEMBL in 2000. Nucleic Acids Res 28:45—48.
Baldi P, Brunak S, Chauvin Y, Andersen CAF, Nielsen H. 2000. Assessing the accuracy of
prediction algorithms for classification: an overview. Bioinformatics 16:412-424.
Bao L, Zhou M, Cui Y. 2005. nsSNPAnalyzer: identifying disease-associated non- •.
synonymous single nucleotide polymorphisms. Nucleic Acids Res 33:W480-W482.
Barenboim M, Masso M, Vaisman, II, Jamison DC. 2008. Statistical geometry based
prediction of nonsynonymous SNP functional effects using random forest and
neuro-fuzzy classifiers. Proteins 71:1930-1939.
^Berman^IMT%Wcstbr66kj^Eeng-Z.-Gilliland-G,^BhatJN,-WedssiaJd;.ShindyalovlN--"
Bourne PE. 2000. The Protein Data Bank. Nucleic*Acids_R« 28:235-242.
Bromberg Y, Rost B. 2007. SNAP: predict effect of non-synonymous polymorphisms
^ on function. Nucleic Acids Res 35:3823-3835.
Calabrese R, Capriotti E, Fariselli P, Martelli PL, Casadio R. 2009. Functional
annotations improve the predictive score of human disease-related mutations in
proteins. Hum Mutat 30:1237-1244.
Capriotti E, Calabrese R, Casadio R. 2006. Predicting the insurgence of human
genetic diseases associated to single point protein mutations with support vector
machines and evolutionary information. Bioinformatics 22:2729-2734.
Capriotti E, Fariselli P, Casadio R. 2005. I-Mutant2.0: predicting stability changes
upon mutation from the protein sequence or structure. Nucleic Acids Res 33:
W306-W310.
Chandonia JM, Hon G, Walker NS, Lo Conte L, Koehl P, Levitt M, Brenner SE. 2004.
The ASTRAL Compendium in 2004. Nucleic Acids Res 32:D189-D192.
Chou PY, Fasman GD. 1974. Prediction of protein conformation. Biochemistry 13:
222-245.

Daily KM, Radivojac P„ Dunker AK. 2005. Intrinsic disorder and protein
modifications: building an SVM predictor for methylation. IEEE Symposium
on Computational Intelligence in Bioinformatics and Computational Biology,
CIBCB: 475-481.
Delorenzi M, Speed T. 2002. An HMM model for coiled-coil domains and a
comparison with PSSM-based predictions. Bioinformatics 18:617-625.
Ferrer-Costa C, Gelpf JL, Zamakola L, Parraga I, de la Cruz X, Orozco M. 2005.
PMUT: a web-based tool for the annotation of pathological mutations on
proteins. Bioinformatics 21:3176-3178.
Finn RD, Mistry J, Tate J, Coggill P, Heger A, Pollington JE, Gavin OL, Gunasekaran P,
Ceric G, Forslund K, Holm L, Sonnhammer EL, Eddy SR, Bateman A. 2010. The
Pfam protein families database. Nucleic Acids Res 3:D211-D222.
HUMAN MUTATION, Vol. 32, No. 4, 358-368, 2011

367

■i

Pet. Reh. App.84

Peng K, Radivojac P, Vucetic S, Dunker AK, Obradovic Z. 2006. Length-dependent
Frishman D, Argos P. 1995. Knowledge-based protein secondary structure assignment.
prediction of protein intrinsic disorder. BMC Bioinformatics 7:208.
Proteins 23:566-579.
Piirila H, Valiaho J, Vihinen M. 2006. Immunodeficiency mutation databases
Giardine B, Riemer C, Hefferon T, Thomas D, Hsu F, Zielenski J, Sang Y, Elnitski L,
(IDbases). Hum Mutat 27:1200-1208.
Cutting G, Trumbower H, and others. 2007. PhenCode: connecting ENCODE
Radivojac P, Obradovic Z, Smith DK, Zhu G, Vucetic S, Brown CJ, Lawson JD,
data with mutations and phenotype. Hum Mutat 28:554-562.
Dunker AK. 2004. Protein flexibility and intrinsic disorder. Protein Sci 13:
Iakoucheva LM, Radivojac P, Brown C), O’Connor TR, Sikes JG, Obradovic Z,
71-80.
Dunker AK. 2004. The importance of intrinsic disorder for protein phosphorylation.
Radivojac P, Vacic V, Haynes C, Cocklin RR, Mohan A, Heyen JW, Goebl MG,
Nucleic Acids Res 32:1037-1049.
Johnson GC, Todd JA. 2000. Strategies in complex disease mapping. Curr Opin Genet
Iakoucheva LM. 2010. Identification, analysis, and prediction of protein
ubiquitination sites. Proteins 78:365-380.
Dev 10:330-334.
Kabsch W, Sander C. 1983. Dictionary of protein secondary structure: pattern recognition
Radivojac P, Vucetic S, O’Connor TR, Uversky VN, Obradovic Z, Dunker AK. 2006.
Calmodulin signaling: analysis and prediction of a disorder-dependent
of hydrogen-bonded and geometrical features. Biopolymers 22:2577-2637.
molecular recognition. Proteins 63:398-410.
Karchin R. 2009. Next generation tools for the annotation of human SNPs. Brief
Bioinform 10:35-52.
Ramensky V, Bork P, Sunyaev S. 2002. Human non-synonymous SNPs: server and
Karchin R, Diekhans M, Kelly L, Thomas DJ, Pieper U, Eswar N, Haussler D, Sali A.
survey. Nucleic Acids Res 30:3894-3900.
2005. LS-SNP: large-scale annotation of coding non-synonymous SNPs based
Raney BJ, Cline MS, Rosenbloom KR, Dreszer TR, Learned K, Barber GP, Meyer LR,
on multiple information sources. Bioinformatics 21:2814-2820.
Sloan CA, Malladi VS, Roskin KM, Suh BB, Hinrichs AS, Clawson H, Zweig AS,
Kawabata T, Ota M, Nishikawa K. 1999. The protein mutant database. Nucleic Acids
Kirkup V, Fujita PA, Rhead B, Smith KE, Pohl A, Kuhn RM, Karolchik D,
Res 27:355-357.
Haussler D, Kent WJ. 2011. OENCODE whole-genome data in the UCSC
Khan S, Vihinen M. 2007. Spectrum of disease-causing mutations in protein
Genome Browser (2011 update). Nucleic Acids Res 39(Database issue):871-875.
secondary structures. BMC Struct Biol 7:56.
Rost B. 1996. PHD: predicting one-dimensional protein structure by profile-based
Khan S, Vihinen M. 2010. Performance of protein stability predictors. Hum Mutat
neural networks. Methods Enzymol 266:525-539.
31:675-684.
Rost B, Sander C. 1994. Conservation and prediction of solvent accessibility in
Krogh A, Larsson B, von Heijne G, Sonnhammer EL 2001. Predicting transmem­
protein families. Proteins 20:216-226.
Saunders CT, Baker D. 2002. Evaluation of structural and evolutionary contributions
brane protein topology with a hidden Markov model: application to complete
to deleterious mutation prediction. J Mol Biol 322:891-901.
genomes. J Mol Biol 305:567-580.
Li B, Krishnan VG, Mort ME, Xin F, Kamati KK, Cooper DN, Mooney SD,
Schlessinger A, Yachdav G, Rost B. 2006. PROFbval: predict flexible and rigid residues
Radivojac P. 2009. Automated inference of molecular mechanisms of disease
in proteins. Bioinformatics 22:891-893.
Shen B, Vihinen M. 2004. Conservation and covariance in PH domain sequences:
from amino acid substitutions. Bioinformatics 25:2744-2750.
Lupas A, Van Dyke M, Stock J. 1991. Predicting coiled coils from protein sequences.
physicochemical profile and information theoretical analysis of XLA-causing
Science 252:1162-1164.
mutations in the Btk PH domain. Protein Eng Des Sel 17:267-276.
Matthews BW. 1975. Comparison of the predicted and observed secondary structure
Sherry ST, Ward MH, Kholodov M, Baker J, Phan L, Smigielski EM, Sirotkin K. 2001.
dbSNP: the NCB1 database of genetic variation. Nucleic Acids Res 29:308-311.
of T4 phage lysozyme. Biochim Biophys Acta 405:442—451.
Steward RE, MacArthur MW, Laskowski RA, Thornton JM. 2003. Molecular basis of
McDonald IK, Thornton JM. 1994. Satisfying hydrogen bonding potential in
inherited diseases: a structural perspective. Trends Genet 19:505-513.
proteins. J Mol Biol 238:777-793.
Sunyaev SR, Eisenhaber F, Rodchenkov IV, Eisenhaber B, Tumanyan VG,
Mooney S. 2005. Bioinformatics approaches and resources for single nucleotide
Kuznetsov EN. 1999. PSIC: profile extraction from sequence alignments with
polymorphism functional analysis. Brief Bioinform 6:44-56.
Mort M, Evani US, Krishnan VG, Kamati KK, Baenziger PH, Bagchi A, Peters B,
position-specific counts of independent observations. Protein Eng 12:
Sathyesh R, Li B, Sun Y, Xue B, Shah NH, Kann MG, Cooper DN, Radivojac P,
; 387-394.
Thomas PD, Campbell MJ, Kejariwal A, Mi H, Karlak B, Daverman R, Diemer K,
Mooney SD. 2010. In silico functional profiling of human disease-associated and
Muruganujan A, Narechania A. 2003. PANTHER: a library of protein families
polymorphic amino acid substitutions. Hum Mutat 31:335-346.
and subfamilies indexed by function. Genome Res 13:2129-2141.
Ng PC, Henikoff S. 2001. Predicting deleterious amino acid substitutions. Genome
Thusberg J, Vihinen M. 2009. Pathogenic or not? And if so, then how? Studying the
Res 11:863-874.
effects of missense mutations using bioinformatics methods. Hum Mutat 30: .
Ng PC, Henikoff S. 2003. SIFT: predicting amino acid changes that affect protein
function. Nucleic Acids Res 31:3812-3814.
703-714.
Yip YL, Famiglietti M, Gos A, Duek PD, David FP, Gateau A, Bairoch A. 2008.
Ng PC, Henikoff S. 2006. Predicting the effects of amino acid substitutions on
protein function. Annu Rev Genomics Hum Genet 7:61-80.
Annotating single amino acid polymorphisms in the UniProt/Swiss-Prot
Ng PC, Henikoff JG, Henikoff S. 2000. PHAT: a transmembrane-specific substitution
knowledgebase. Hum Mutat 29:361-366.
"matrixTPredicted hydrophobic'and transmembranerBioinformatics 16:760-766.-----Yip YLrScheib HrDiemand AV,-Gattiker-A,-FamigIietti LM,-Gasteiger E,-Bairoch A.
Nielsen H, Engelbrecht J, Brunak S, von Heijne G. 1997. Identification of prokaryotic and
2004. The Swiss-Prot variant page and the ModSNP database: a resource for
eukaryotic signal peptides and prediction of their cleavage sites. Protein Eng 10:1-6.
sequence and structure information on human protein variants. Hum Mutat 23:
Orengo CA, Michie AD, Jones S, Jones DT, Swindells MB, Thornton JM. 1997.
464-470.
CATH—a hierarchic classification of protein domain structures. Structure 5:
Yue P, Melamud E, Moult J. 2006. SNPs3D: candidate gene and SNP selection for
1093-1108.
association studies. BMC Bioinformatics 7:166.

368

HUMAN MUTATION, Vol. 32, No. 4, 358-368, 2011

in

SSI* aas*

:.i^

t

www natore.com/scicntificreports

Pet. Reh. App.85

SCIENTIFIC

REPORTS
natureresearch

OPEN

Identification of pathogenic
missense mutations using protein
stability predictors
Lukas Gerasimavicius, Xin Liu & Joseph A. Marsh0
Attempts at using protein structures to identify disease-causing mutations have been dominated by
the idea that most pathogenic mutations are disruptive at a structural level. Therefore, computational
stability.predictors, which assess whether a mutation is likely to be stabilising or destabilising to
protein structure, have been commonly used when evaluating new Candidate disease variants,'
despite not having been developed specifically for this purpose. We therefore tested 13 different
stability predictors for their ability to discriminate between pathogenic and putatively benign
missense variants. We find that one method, FoldX, significantly outperforms all other predictors in .y
the identification of disease variants. Moreover, we demonstrate that employing predicted absolute^ ,
energy change scores improves performance of nearly all predictors in distinguishing pathogenic $.
from benign variants. Importantly, however, we observe that the utility of computational stability <y:.
predictors is highly heterogeneous across different proteins, and that they are all inferior to the
best performing variant effect predictors for identifying pathogenic mutations. We suggest that
this is largely due to alternate molecular mechanisms other than protein destabilisation underlying
many pathogenic mutations. Thus, better ways of incorporating protein structural information and
molecular mechanisms into computational variant effect predictors will be required for improved
disease variant prioritisation.

>■

Advances in next generation sequencing technologies have revolutionised research of genetic variation, increas­
ing our ability to explore the basis of human disorders and enabling huge databases covering both pathogenic
and putatively benign variants1,2. Novel sequencing methodologies allow the rapid identification of variation
iiTtKFclinicfand are helping" facilitate a paradigm shift towards precision me"dicih^3;^"Despite this/however,"it"
remains challenging to distinguish the small fraction of variants with medically relevant effects from the huge
background of mostly benign human genetic variation.
A particularly important research focus is single nucleotide variants that lead to amino acid substitutions
at the protein level, i.e. missense mutations, which are associated with more than half of all known inherited
diseases5,6. A large number of computational methods have been developed for the identification of potentially
pathogenic missense mutations, i.e. variant effect predictors. Although different approaches vary in their imple­
mentation, a few types of information are most commonly used, including evolutionary conservation, changes in
physiochemical properties of amino acids, biological function, known disease association and protein structure7.
While these predictors are clearly useful for variant prioritisation, and show a statistically significant ability to
distinguish known pathogenic from benign variants, they still make many incorrect predictions8"10, and the
extent to which we can rely on them for aiding diagnosis remains limited11.
An alternative approach to understanding the effects of missense mutations is with computational stability
predictors. These are programs that have been developed to assess folding or protein interaction energy changes
upon mutation (change in Gibbs free energy - AAG in short). This can be achieved by approximating struc­
tural energy through linear physics-based pairwise energy scoring functions, their empirical and knowledgebased derivatives, or a mixture of such energy terms. Statistical and machine learning methods are employed
to parametrise the scoring models. These predictors have largely been evaluated against their ability to predict
experimentally determined AAG values. Great effort has been previously made to assess stability predictor per­
formance in producing accurate or well-correlated energy change estimates upon mutation, as well as assessing
their shortfalls, such as biases arising from destabilising variant overrepresentation in training sets and lack of
MRC Human Genetics Unit, Institute of Genetics and Molecular Medicine, University of Edinburgh, Edinburgh EH4
2XU, UK. ’“’email: joseph.marsh@igmm.ed.ac.uk
SCIENTIFIC REPORTS |

(2020) 10:15387

| https://doi.org/10.1038/s41598-020-72404-w

1

www, nature.com/scientjfiereports/

Pet-RehrApp:86self-consistency predicting forward-backward substitutions12'18. Several predictors have since been shown to
alleviate such issues through their specific design or have been improved in this regard14,19’20. Moreover, the
practical utility of stability predictors has been demonstrated through their extensive usage in the fields of protein
engineering and design21'23.
Although computational stability predictors have not been specifically designed to identify pathogenic
mutations, they are very commonly used when assessing candidate disease mutations. For example, publi­
cations reporting novel variants will often include the output of stability predictors as evidence in support
of pathogenicity24"27. This relies essentially upon the assumption that the molecular mechanism underlying
many or most pathogenic mutations is directly related to the structural destabilisation of protein folding or
interactions28'31. However, despite their widespread application to human variants, there has been little to no sys­
tematic assessment of computational stability predictors for their ability to predict disease mutations. A number
of studies have assessed the real-world utility for individual protein targets and families using certain stability
predictors32'36. However, numerous computational stability predictors have now been developed and, overall,
we still do not have a good idea of which methods perform best for the identification of disease mutations, and
how they compare relative to other computational variant effect predictors.
In this work, we explore the applicability and performance of 13 methodologically diverse structure-based
protein stability predictors for distinguishing between pathogenic and putatively benign missense mutations.
We find that FoldX significantly outperforms all other stability predictors for the identification of disease muta­
tions, and also demonstrate the practical value of using predicted absolute AAG values to account for poten­
tially overstabilising mutations. However, this work also highlights the limitations of stability predictors for
predicting disease, as they still miss many pathogenic mutations and perform worse than many variant effect
predictors, thus emphasising the importance of considering alternate molecular disease mechanisms beyond
protein destabilisation.
Results
We tested 13 different computational stability predictors on the basis of accessibility, automation or batching
potential, computation speed, as well as recognition—and included FoldX37, INPS3D38, Rosetta37, PoPMusic39,
I-Mutant40, SDM41, SDM242, mCSM43, DUET44, CUPSAT45, MAESTRO46, ENCoM47 and DynaMut48 (Table 1).
We ran each predictor against 13,508 missense mutations from 96 different high-resolution (<2 A) crystal struc­
tures of disease-associated monomeric proteins. Our disease mutation dataset was comprised of 3,338 missense
variants from ClinVar2 annotated as pathogenic or likely pathogenic, and we only included proteins with at least
10 known pathogenic missense mutations occurring at residues present in the structure. We compared these to
10,170 missense variants observed in the human population, taken from gnomAD v2.l‘, which we refer to as
“putatively benign”. We acknowledge that it is likely that some of these gnomAD variants could be pathogenic
under certain circumstances (e.g. if observed in a homozygous state, if they cause late-onset disease, or there
is incomplete penetrance), or they may be damaging but lead to a subclinical phenotype. However, the large
majority of gnomAD variants will be non-pathogenic, and we believe that our approach of represents a good
test of the practical utilisation of variant effect predictors, where the main challenge is in distinguishing severe
pathogenic mutations from others observed in the human population. While filtering by allele frequency would
give us variants that are more likely to be truly benign, it would also dramatically reduce the size of the dataset
(e.g. only-1% of missense variants in gnomAD have an allele frequency >0.1%). Thus, we have not filtered the
gnomAD variants (other than to exclude known pathogenic variants present in the ClinVar set).
To investigate the utility of the computational stability predictors for the identification of pathogenic mis­
sense mutations, we used receiver operating characteristic (ROC) plots to assess the ability of AAG values to
distinguish between pathogenic and putatively benign mutations (Fig. 1A). This was quantifed by the area
under the curve (AUC), which is equal to the probability of a randomly chosen disease mutation being assigned
a higher-ranking score than a random benign one. Of the 13 tested structure-based AAG predictors, FoldX
performs the best as a predictor of human missense mutation pathogenicity, with an AUC value of 0.661. This
is followed by INPS3D at 0.640, Rosetta at 0.617 and PoPMusic at 0.614. Evaluating the performance through
bootstrapping, we found that the difference between FoldX and other predictors is significant, with a p value of
2 x 10"4 compared to INSP3D, 1 x 10'7 for Rosetta and 8 x 10'9 for PoPMusiC. The remaining predictors show a
wide range of lower performance values.
Two predictors, ENCoM and DynaMut, stand out for their unusual pattern in the ROC plots, with a rotated
sigmoidal shape where the false positive rate becomes greater than the true positive rate at higher levels. Close
inspection of the underlying data shows that this is indicative of the predicted energy change distribution tails
for the disease-associated class extending both directions away from the putatively benign missense mutation
score density. This suggests that a considerable portion of pathogenic missense mutations are predicted by these
methods to excessively stabilise the protein.
While the analysis (Fig. 1 A) assumes that protein destabilisation should be indicative of mutation pathogenic­
ity, it also possible for mutations that increase protein stability to cause disease49,50. Recent research has shown
that absolute AAG values, which treat stabilisation and destabilisation equivalently, may be better indicators of
disease association51,52. Therefore, we repeated the analysis using absolute AAG values (Fig. IB). This improved
the performance of most predictors, while not reducing the performance of any. The most drastic change was
observed for ENCoM, which improved from worst to fifth best predictor, with an increase in AUC from 0.495
to 0.619. However, the top four predictors, FoldX, INPS3D, Rosetta and PoPMuSiC, improve only slightly and
do not change in ranking.
Using the ROC point distance to the top-left corner53, we establish the best disease classification AAG value
for each predictor when assessing general perturbation (Table 2). It is interesting to note that FoldX demonstrates

SCIENTIFIC REPORTS |

(2020)10:15387 |

https://doi.org/10.1038/s41598-020-72404-w

5.

i

www nature com/scientificreports/

Pet. RehvApp.87'
Predictor

1

■

■:

' ' -T

I uik*'

*

- H

Description*.

•
v; ■ -jV-.
■s^l • =
Consensus predictor which uses outputs from Bio3D. ENCoM and DUET
to assess the impact of mutations on protein stability. Due to its nature, the
predictor leverages multiple methodologies, such as normal mode analysis
and statistical potentials

DynaMut4*

https://biosig.unimelb.edu.au/dynamut/

ENCoM47

No longer available as a stand-alone server, but available from DynaMut

A prediction method based on normal mode analysis that relates changes
in vibrational entropy upon mutation to changes in protein stability. Uses
coarse-grained protein representations that accounts for residue properties

DUET44

https://biosig.unimelb.edu.au/duet/stability

A machine-learnt consensus predictor that leverages output from SDM
and mCSM, integrated using support vector machines

SDM41

No longer available as a stand-alone server (succeeded by the SDM2
Webserver), but available from DynaMut

A knowledge-based energy potential, derived using evolutionary environ­
ment-specific residue substitution propensities

FoldX76

https://foldxsuitc.crg.cu/

A full-atom force field consisting of physics-based interaction and entropic
terms, parametrised on empirical training data. Allows to easily run
predictions on multi-chain assemblies

Rosetta57

https://www.rosettacommons.org/home

Rosetta macromolecular modelling software suite, which includes algo­
rithms for stability impact prediction. Driven by a scoring function that
is a linear combination of statistical and empirical energy terms. Highly
modular and customisable

INPS3D58

https://inpsmd.biocomp.ujiibo.it/inpsSuite/default/index3D

INPS3D builds upon its sequence and physicochemical conservationbased predecessor INPS, and employs structure-derived features such as
solvent accessibility and local energy differences. The predictor is trained
by employing support vector regression

mCSM45

https://biosig.imimelb.cdu.au/mcsm/stability

A machine-learned approach that evaluates structural signature changes
imparted by mutations. Derives graph representation of physicochemical
and geometric residue environment features

SDM242

https://marid.bioccam.ac.uk/sdm2/prediction

Updated version of SDM, a knowledge-based potential, which uses
- environment-specific residue substitution .tables, information pn residue conformation and interactions, as well as packing density and residue
depth, to assess protein stability changes

CUPSAT45

https://cupsat.tu-bs.de/

Prediction method that uses a residue torsion angle potential and an
environment-specific atom pair potential (an improvement upon amino,
add potentials) to assess stability changes

PoPMuSiC59

https://soft.de2yme.com/qucry/creatc/pop

A potential consisting of 13 statistical terms, volume difference between
the wild-type and mutant residues, as well as the solvent accessibility of the
original residue to differentiate core and surface substitutions
-

MAESTRO46

https://pbwww.che.sbg.ac.al/macstro/web

Combines 3 statistical scoring functions of solvent exposure and residue
pair distances, as well as 6 protein properties, in a machine-learning
framework to derive a consensus stability impact prediction

I-Mutant 3.040

hUps://gpa2.biocomp.unibo.it/cgi/predictors/I-Mutant3.0/l-Mutan
t3.0.cgi

•1

'■

the best classification performance when utilising 1.58 keal/mol as the stability change threshold, which is
remarkably close”to"the Value of lTS lSll/mbrptewSu'sly'su'ggested^Sd used'in-a-number'of bther worksTvHerr
assessing missense mutation impact on stability13-35'54. Of course, these threshold values should be considered
far from absolute rules, and there are many pathogenic and-benign mutations above.and below, the thresholds
for all predictors. For example, nearly 40% of pathogenic niissense mutations have FoldX Values lower than the
threshold, whereas approximately 35% of putatively benign variants are above the threshold.
To account for the class imbalance between putatively benign and pathogenic variants (roughly 3-to-l) in
our dataset, we also performed precision-recall curve analysis. While the AUC of PR curves, unlike ROC, does
not have a straightforward statistical interpretation, we again based the predictor performance according to this
metric. From Fig. SI, it is apparent that the top four best predictors, according to both raw and absolute AAG
values, remain the same as in the ROC analysis—FoldX, INPS3D, Rosetta and PoPMuSiC, respectively.
We also calculated ROC AUC values for each protein separately and compared the distributions across predic­
tors (Fig. 2). FoldX again performs much better than other stability predictors for the identification of pathogenic
mutations, with a mean ROC of 0.681, compared to INPS3D at 0.655, Rosetta at 0.627, PoPMuSiC at 0.621, and
ENCoM at 0.630. Notably, the protein-specific performance was observed to be extremely heterogeneous across
all predictors. While some predictors performed extremely well (AUC > 0.9) for certain proteins, each predictor
has a considerable number of proteins for which they perform worse than random classification (AUC <0.5).
Using the raw and absolute AAG scores, we explored the similarities between different predictors by calculat­
ing Spearman correlations for all mutations between all pairs of predictors (Fig. S2). It is apparent that, outside of
improved method versions and their predecessors, as well as consensus predictors and their input components,
independent methods do not show correlations above 0.65. Furthermore, correlations on the absolute scale
appear to slightly decrease in the majority of cases, with exceptions like ENCoM becoming more correlated with
FoldX and INPS3D, while at the same time decoupling from DynaMut—a consensus predictor which uses it as
input. Interestingly, FoldX and INSP3D, the best two methods, only correlate at 0.50 and 0.48 for raw and absolute
AAG values, respectively, which could indicate potential for deriving a more effective consensus methodology.

(2020) 10:15387 |

ii

A machine-learning derived method that takes into account mutated
residue spatial environment in terms of surrounding residue types and
surface accessibility

Table 1. Protein stability predictors used in this study.

SCIENTIFIC REPORTS |

:!

https://doi.org/10.1038/s41598-020-72404-w

3

J

;

wwvv nature com/scientificreports/

Pet. Reh. App.88

False positive rate
■ FoldX (AUC 0.661)
B SDM (AUC 0.578)
B mCSM (AUC 0.578)
■ INPS3D (AUC 0.640)
H Rosetta (AUC 0.617)
B CUPSAT (AUC 0.576)
Predictor
PoPMuSiC (AUC 0.614) B MAESTRO (AUC 0.557)
13 l-Mutant 3.0 (AUC 0.607) B DynaMut (AUC 0.524)
B DUET (AUC 0.594)
B ENCoM (AUC 0.495)
B SDM2 (AUC 0.591

rn
B
fl
B
S3
B
m

False positive rate
FoldX (AUC 0.665)
0 DUET (AUC 0.599)
■ SDM2 (AUC 0.591)
INPS3 0 (AUC 0.643)
B MAESTRO (AUC 0.591)
Rosetta (AUC 0.624)
PoPMuSiC (AUC 0.620) B DynaMut (AUC 0.583)
ENCoM (AUC 0.619)
B SDM (AUC 0.580)
l-Mutant 3.0 (AUC 0.607) E mCSM (AUC 0.580)
CUPSAT (AUC 0.599)
-■-3

Figure 1. Using AAG values from protein stability predictors to discriminate between pathogenic and
putatively benign missense variants. Receiver operating characteristic (ROC) curves are plotted for each
predictor, with the classification performance being presented next to its name in the form of area under the
curve (AUC). (A) ROC curves for classification performance using native AAG value scale for each predictor..
(B) ROC curves for predictor classification performance when using absolute AAG values. The figure was
,
generated in R v3.6.3 (https://mvw.r-project.org) using ggplot2 v3.3.0 (https://ggplot2.tidyverse.org/), both
freely available.

--

PHdutar

'-I

W po«hn rale (95* —Bdcnc. mtcr.nl>

^ AlMiluteUfidwwImld

.1

FoldX

1.578

0.339-0.357

0.591-0.624

1NPS3D

0.674

0.389-0.409

0.595-0.628

Rosetta

1.886

0.390-0.409

0.572-0.605

PoPMuSiC

0.795

0.417-0.437

0.584-0.618

CUPSAT

1.455

0.415-0.434

0.549-0.583

MAESTRO

0.321

0.418-0.437

0.544-0.578

SDM

1.025

0.350-0.370

0.477-0.511

LSDM2:

•0,875,

.0.365-0.385.

A510-0,544

J

mCSM

0.889

0.433-0.453

0.542-0.575

~i

DUET

0.803

0.400-0.421

0.548-0.582

I-Mutant 3.0

0.915

0.405-0.424

0.545-0.578

ENCoM

0.221

0.415-0.436

0.598-0.632

DynaMut

0.476

0.446-0.467

0.570-0.605

'!

■i

Table 2. Best stability predictor classification thresholds according to ‘distance-to-corner metric. The
performance metrics and their 95% confidence intervals were derived from 2000 bootstraps of the data.

’

Finally, we compared the performance of protein stability predictors to a variety of different computational
variant effect predictors (Fig. 3). Importantly, we excluded any predictors trained using supervised learning
techniques, as well as meta-predictors that utilise the outputs of other predictors, thus including only predictors
we labelled as unsupervised and empirical in our recent study10. This is due to the fact that predictors based
upon supervised learning are likely to have been directly trained on some of the same mutations used in our
evaluation dataset, making a fair comparison impossible10,55. A few predictors perform substantially better than
FoldX, with the best performance seen for SIFT4G56, a modified version of the SIFT algorithm57. Interestingly,
FoldX and INPS3D are the only stability predictors to outperform the BLOSUM62 substitution matrix58. On the
other hand, all stability predictors performed better than a number of simple evolutionary constraint metrics.

SCIENTIFIC REPORTS |

(2020)10:15387 |

https://doi.orgA0.1038/s41598-020-72404-w

:

4

www.nature.com/scientifiCfeports/

PetrRetirApp:89"
1.0

0.8
2

i

1£ 0.6

o.
O
3

<

O
O 0.4

0.2

FoldX
INPS3D

• Mean 0.681

0.655

Rosetta
ENCoM
CUPSAT
PoPMuSIC
I-Mutant 3.0
DUET
0.627

0.621

0.630

0.589

0.612

SDM2

0.599

0.590

DynaMut
MAESTRO
SDM
0.562

0.597

0.578

mCSM
0.576

i

Figure 2. The heterogeneity of protein-specific missense variant classification performance. All the stability
predictors exhibit very high degrees of heterogeneity in their protein-specific performance, as measured by the
ROC AUC on a per-protein basis. Absolute AAG values were used during protein-specific tool assessment. The
mean performance of each predictor is indicated by a red dot and numerically showcased below the plot. Boxes
inside the violins illustrate die interquartile range (IQR) of the protein-specific performance points, with the
whiskers measuring 1.5 IQR. Boxplot oudiers are designated by black dots. The figure was generated in R v3.6.3
(https://www.r-project.org) using ggplot2 v3.3.0 (https://ggplot2.tidyverse.org), both freely available.

!

0.75 i

0.70

^ 0.65

<

O

§ 0.60
-.-Ia ..

0.55

0.50

i
I i I i 111! i 1! 1E f 1 I t i M
g

m

tt.

a.

2
|

o

£

!

O
3

|

1E

£

% | £
O

E

P

S

« u<

§ 6 |

&

<°

I •!

-1

y

g

o
O

Figure 3. Performance comparison of protein stability and variant effect predictors for identifying pathogenic
variants. Error bars indicate the 95% confidence interval of the ROC AUC as derived through bootstrapping.
Stability predictors are shown in red, while other variant effect prediction methods are shown in green. Absolute
AAG values were used for stability-based methods. The figure was generated in R v3.6.3 (https://www.r-proje
ct.org) using ggplot2 v3.3.0 (https://ggplot2.tidyverse.org), both freely available.
Discussion
The first purpose of this study was to compare the abilities of different computational stability to distinguish
between known pathogenic missense mutations and other putatively benign variants observed in the human
population. In this regard, FoldX is the winner, clearly outperforming the other AAG prediction tools. It also
has the advantage of being computationally undemanding, fairly easy to run, and flexible in its utilisation.
Compared to other methods that employ physics-based terms, FoldX introduces a few unique energy terms
into its potential, notably the theoretically derived entropy costs for fixing backbone and side chain positions59.
However, the main reason behind its success is likely the parametrisation of the scoring function, resulting from
the well optimised design of the training and validation mutant sets, which aimed to cover all possible residue
structural environments60. Interestingly, while the form of the FoldX function, consisting of mostly physicsbased energy terms, has not seen much change over the years, newer knowledge-based methods, which leverage
SCIENTIFIC REPORTS |

(2020) 10:15387 |

https://doi.org/10.1038/s41598-020-72404-w

5

■i

mam
www nature com/snentificreports/

Pet.Reh.'App.90'

. » s. ^ •

1

statistics derived from the abundant sequence and structure information, demonstrate poorer and highly varied
performance. However, it is important to emphasise that the performance of FoldX does not necessarily mean
that it is the best predictor of experimental AAG values or true (de)stabilisation, as that is not what we are test­
ing here. We also note the strong performance of INPS3D, which ranked a clear second in all tests. It has the
advantage of being available as a Webserver, thus making it simple for users to test small numbers of mutations
without installing any software.
There are two factors likely to be contributing to the improvement in the identification of pathogenic muta­
tions using absolute AAG values. First, while most focus in the past has been on destabilising mutations, some
pathogenic missense mutations are known to stabilise protein structure. As an example, the H101Q variant of
chloride intracellular channel 2 (CLIC2) protein, which is thought to play a role in calcium ion signalling, leads
to developmental disabilities, increased risk to epilepsy and heart failure61. The CLIC2 protein is soluble, but
requires insertion into the membrane for its function, with a flexible loop connecting its domains being func­
tionally implicated in a necessary conformational rearrangement. The histidine to glutamine substitution, which
occurs in the flexible loop, was predicted to have an overall stabilising energetic effect due to conservation of
weak hydrogen bonding, but also the removal of charge that the protonated histidine exerted on the structure61.
The AAG predictions were followed up by molecular dynamics simulations, which supported the previous con­
clusions by showing reduced flexibility and movement of the N-terminus, with functional assays also revealing
reduced membrane integration of the CLIC2 protein in line with the rigidification hypothesis62. However, other
interesting examples of negative effects of over-stabilisation exist in enzymes and protein complexes, manifest­
ing through the activity-stability trade-off, rigidification of co-operative subunit movements, dysregulation of
protein-protein interactions, and turnover49,50,63.
In addition, it may be that some predictors are not as good at predicting the direction of the change in stability
upon mutation. That is, they can predict structural perturbations that will be reflected in the magnitude of the
AAG value, but are less accurate in their prediction of whether this will be stabilising or destabilisng. For example,
ENGoM.and.DyiiaMuf predict nearly half of pathogenic missense mutations to be stabilising (41% and 44%,
respectively)7whereas FoldX predicts"only 13%rWKile FoldX, Rosetta'and PoPMuSiCarealTdrivenby scoring
functions consisting of a linear combination of physics- and statistics-based energy terms, ENCoM is based on
normal mode analysis, and relates the assessed entropy changes around equilibrium upon mutation to the state
of free energy. DynaMut, a consensus method, integrates the output from ENCoM and several other predictors
(Table 1) into its score48. The creators of ENCoM found that their method is less biased at predicting stabilising
mutations64. From our analysis, we are unable to confidently say anything about what proportion of pathogenic
mutations are stabilising versus destabilising, or about which methods are better at predicting the directionof
stability change, but this is clearly an issue that needs more attention in the future.
The second purpose of our study was to try to understand how useful protein stability predictors are for the
identification of pathogenic missense mutations. Here, the answer is less clear. While all methods show some
ability to discriminate between pathogenic and putatively benign variants, it is notable and perhaps surprising
that all methods except FoldX and INPS3D performed worse than the simple BLOSUM62 substitution matrix,
which suggests that these methods may be relatively limited utility for variant prioritisation. Even FoldXjWas
unequivocally inferior to multiple variant effect predictors, suggesting that it should not be relied upon by itself
for the identification of disease mutations.
One reason for the limited success of stability predictors in the identification of disease mutations is jthat
predictions of AAG values are still far from perfect. For example, a number of studies have compared AAG
predictors, showing heterogeneous correlations with experimental values on the order of R = 0.5 for many
predictors12,13,65. However, a recent work has also revealed problems with the noise in experimental stability
“"Tlata'used:to''b'ericliifiafk"theprediction*metKo"ds,-generallyrassessed:throughrcorrelation,values6feTakingmoise=
and data distribution limitations into account, it is estimated that with currently available experimental data
the best AAG predictor output correlations should be in the range 0.7-0.8, while higher values would suggest
overfitting66. As such, even assuming that‘true’ AAG values were perfectly correlated with mutation pathogenic­
ity, we would still expect these computational predictors to misclassify many variants.
The existence of alternate molecular mechanisms underlying pathogenic missense mutations is also likely to
be a major contributor to the underperformance of stability predictors compared to other variant effect predic­
tors. At the simplest level, our analysis does hot consider intermolecular interactions. Thus, given that pathogenic
mutations are known to often occur at protein interfaces and disrupt interactions67,68, the stability predictors
would not be likely to identify these mutations in this study. We tried to minimise the effects of this by only
considering crystal structures of monomeric proteins, but the existence of a monomeric crystal structure does
not mean that a protein does not participate in interactions. Fortunately, FoldX can be easily applied to protein
complex structures, so the effects of mutations on complex stability can be assessed.
Pathogenic mutations that act via other mechanisms may also be missed by stability predictors. For example,
we have previously shown that dominant-negative mutations in ITPR169 and gain-of-function mutations in
PAX670 tend to be mild at a protein structural level. This is consistent with the simple fact that highly destabilis­
ing mutations would not be compatible with dominant-negative or gain-of-function mechanisms. Similarly,
hypomorphic mutations that cause only a partial loss of function are also likely to be less disruptive to protein
structure than complete loss-of-function missense mutations71.
These varying molecular mechanisms are all likely to be related to the large heterogeneity in predictions we
observe for different proteins in Fig. 2. Similarly, the specific molecular and cellular contexts of different proteins
could also limit the utility of AAG values for predicting disease mutation. For example, even weak perturbations
in haploinsufficient proteins could lead to a deleterious phenotype. At the same time, intrinsically stable proteins,
proteins that are overabundant or functionally redundant could tolerate perturbing variants without such high

SCIENTIFIC REPORTS |

(2020)10:15387 |

https://doi.orgA0.1038/s41S98-020-72404-w

5

s

'

j

.. -j:

WWW nature com/scientificreports/
......... .............. ........•............. ........ .................>...........*

.

+

•

» *■

-

*=2

■ PetrReh. App.91 ■

—I

AAG variants being associated with disease. Finally, in some cases, mildly destabilising mutations can unfold
local regions, leading to proteasome mediated degradation of the whole protein3'1,3'1,72.
There could be considerable room for improvement in AAG predictors and their applicability to disease
mutation identification. Recently emerged hybrid methods, such as VIPUR73 and SNPMuSiC'4, show promise
of moving in the right direction, as they assess protein stability changes upon mutation while attempting to
increase the interpretability and accuracy by taking the molecular and cellular contexts into account. However,
none of the mentioned hybrid methods employ FoldX, which, given our findings here, may be a good strategy.
Rosetta is also promising due to its tremendous benefit demonstrated in protein design. It should be noted that
the protocol used for Rosetta in our work utilised rigid backbone parameters, due to the computation costs
and time constraints involved in allowing backbone flexibility. An accuracy-oriented Rosetta protocol, or the
“cartesian_ddg” application in the Rosetta suite, which allows structure energy minimisation in Cartesian space,
may lead to better performance37,75.
The ambiguity of the relationship between protein stability and function is exacerbated by the biases of the
various stability prediction methods, which arise in their training, like overrepresentation of destabilising vari­
ants, dependence on crystal resolution and residue replacement asymmetry. Having observed protein-specific
performance heterogeneity, we suggest that in the future focus could be shifted to identifying functional and
structural properties of proteins, which could be most amenable to structure and stability-based prediction of
mutation effects. Additionally, a recent work has showcased the use of homology models in structural analysis
of missense mutation effects associated with disease, demonstrating utility that rivals experimentally derived
structures, and thus expanding the possible resource pool that could be taken advantage of for structure-based
disease prediction methods30. Further, our disease-associated mutations set likely contains variants causing
disease through other mechanisms, that do not manifest through strong perturbation of the structure, making
accurate evaluation impossible. To allow better stability-based predictors, it is important to have robust annota­
tion of putative variant mechanisms, which is currently lacking due to non-existent experimental characterisa­
tion. We hope our results encourage new hybrid approaches, which make full use of the best available tools and
resources to increase our ability to accurately prioritise putative disease mutations for further study, and elucidate
the relationship between disease and stability changes.------ - —----------------------

-as

Methods

xiiiM

. ...

Pathogenic and likely pathogenic missense mutations were downloaded from the ClinVar2 database on 201904-17, while putatively benign variants were taken from gnomAD v2.l‘. Any ClinVar mutations were excluded
from the gnomAD set. We searched for human protein-coding genes with at least 10 ClinVar mutations occur­
ring at residues present in a single high-resolution (< 2 A) crystal structure of a protein that is monomeric in its
first biological assembly in the Protein Data Bank. We excluded non-monomeric structures due to the fact ftiat
several of the computational predictors can only take a single polypeptide chain into consideration.
FoldX 5.076 was run locally using default settings. Importantly, the ‘RepairPDB’ option was first used to repair
all structures. Ten replicates were performed for each mutation to calculate the mean.
The Rosetta suite (2019.14.60699 release build) was tested on structures first pre-minimised using the minimize_with_cst application and the following flags: -in:file:fullatom; -ignore_unrecognized_res -fa_max_dis
9.0; -ddg::harmonic_ca_tether 0.5; -ddg::constraint_weight 1.0; -ddg::sc_min_only false. The ddg_monomer
application was run according to a rigid backbone protocol with the following argument flags: -in:file:fullatom;
-ddg:weight_file re£2015_soft; -ddg::iterations 50; -ddg::local_opt_only false; -ddg::min_cst false; -ddg::min true;
-ddg::ramp_repulsive true ;-ignore_unrecognized_res.
<4
Predictions by ENCoM, DUET and SDM were extracted from the DynaMut results page, as it runs them
as parts of its own scoring protocol. mCSM values from DynaMut coincided perfectly with values from the
^separate-mGSMaveb^ser-ver.tandThusitheiSeryer^valuesayere.used^as^D.ynaMutAalc.ulatigjngiaeldgdjgSLgjaUlg.
due to failing on more proteins.
\
'
.
_ , '
All other stability predictors were accessed through their online webservers with default settings by employing
the Python RoboBrowseT web scrapping library. Variant effect predictors were run in the same way as described
in our recent benchmarking study10.
Method performance was analysed in R using the PRROC77 and pROC78 packages, and AUC curve differ­
ences were statistically assessed through 10,000 bootstraps using the roc.test function of pROC. For DynaMut,
I-Mutant 3.0, mCSM, SDM, SDM2 and DUET, the sign of the predicted stability score was inverted to match the
convention of increased stability being denoted by a negative change in energy. For the precision-recall analysis,
we used a subset of the mutation dataset, containing 9,498 ClinVar and gnomAD variants, which had no missing
prediction values for any. of the stability-based methods. This is because a few of the predictors were unable to
give predictions for all mutations (e.g. they crashed on certain structures), and for the precision-recall analysis,
it is crucial that all predictors are tested on exactly the same dataset. We also show that the relative performance
of the top predictors remains the same in the ROC analysis using this smaller dataset (Table SI).
All mutations and corresponding structures and predictions are provided in Table S2.

i
•L

*

I

Received: 11 June 2020; Accepted: 31 August 2020
Published online: 21 September 2020
References
1. Karczewski, K. J. el al. The mutational constraint spectrum quantified from variation in 141,456 humans. Nature «■"
(2020).

SCIENTIFIC REPORTS |

(2020)10:15387 |

https://doi.org/10.1038/s41598-020-72404-w

J

